<html>
<title> - GALE NORTON NOMINATION</title>
<body><pre>[Senate Hearing 107-33]
[From the U.S. Government Printing Office]





                                                         S. Hrg. 107-33

                         GALE NORTON NOMINATION

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

       NOMINEE TO BE SECRETARY OF THE DEPARTMENT OF THE INTERIOR

                               __________

                            JANUARY 18, 2001

                            JANUARY 19, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
72-291 DTP                  WASHINGTON : 2001
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402




               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
BLANCHE L. LINCOLN, Arkansas         JIM BUNNING, Kentucky
                                     PETER G. FITZGERALD, Illinois
                                     CONRAD BURNS, Montana
                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
             Andrew D. Lundquist, Republican Staff Director
                 David G. Dye, Republican Chief Counsel
            James P. Beirne, Republican Deputy Chief Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearings:
    January 18, 2001.............................................     1
    January 19, 2001.............................................    45

                               STATEMENTS
                            January 18, 2001

Allard, Hon. Wayne, U.S. Senator from Colorado...................     7
Bayh, Hon. Evan, U.S. Senator from Indiana.......................    33
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Burns, Hon. Conrad, U.S. Senator from Montana....................    39
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     5
Cantwell, Hon. Maria, U.S. Senator from Washington...............    42
Craig, Hon. Larry E., U.S. Senator from Idaho....................    26
Dominici, Hon. Pete V., U.S. Senator from New Mexico.............    22
Dorgan, Hon. Byron, U.S. Senator from North Dakota...............    19
Graham, Hon. Bob, U.S. Senator from Florida......................    28
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     2
Norton, Gale, Nominee to be Secretary of the Department of the 
  Interior.......................................................    11
Owens, Hon. Bill, Governor, State of Colorado....................     8
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    37
Thomas, Hon. Craig, U.S. Senator from Wyoming....................    35
Wyden, Hon. Ron, U.S. Senator from Oregon........................    24

                            January 19, 2001

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................    45
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............    45
Norton, Gale, Nominee to be Secretary of the Department of the 
  Interior.......................................................    46

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    91

                              Appendix II

Additional material submitted for the record.....................   129

 
                         GALE NORTON NOMINATION

                              ----------                              


                       THURSDAY, JANUARY 18, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:38 p.m. in room 
SD-106, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    Chairman Bingaman. Now, moving on to our hearing this 
afternoon, I would propose to follow the same format that we 
used this morning. That is, that I would make a brief opening 
statement, Senator Murkowski would then make whatever statement 
he would like, we would then call upon the two Senators from 
Colorado and Governor Owens to introduce the nominee, and then 
call on Ms. Norton to make her statement.
    Once that is completed, we would then go to questions and 
have an 8-minute round of questions from each member. If there 
are additional questions after that first round, we will have 
additional rounds of questions and they will be 5 minutes each. 
So with that set of ground rules, let me go ahead and make a 
short statement.
    The purpose of this hearing this afternoon is to consider 
the nomination of Gale Norton to be the Secretary of the 
Interior. The office of the Secretary of the Interior is one of 
the highest positions of public trust in our Federal 
Government. The Secretary is the principal steward of nearly a 
third of our Nation's land. The Secretary is the chief trustee 
of much of the Nation's energy and mineral wealth as well.
    The Secretary is the principal guardian of our national 
parks and our most revered historic sites and much of our fish 
and wildlife. It is the job of the Secretary of the Interior to 
protect this precious legacy and to pass it on to future 
generations.
    While the President is clearly entitled to appoint Cabinet 
members who share his political views, the Senate has a 
constitutional duty to ensure that the Secretary of the 
Interior will be a faithful steward of the public lands and our 
national treasures. I have no doubt that Ms. Norton is an 
extremely decent and capable person, and we have many 
recommendations to that effect. I do have doubts about some of 
the policies that she has promoted and whether they are 
consistent with the responsibilities of the job of Secretary of 
the Interior.
    For over 20 years, she has consistently championed the 
interests of individuals as opposed to the public interest in 
many of the issues that come before this committee and before 
the office of the Secretary of the Interior. She has championed 
the rights of States as opposed to the Federal Government and 
the interests of economic development rather than environmental 
protection in many cases.
    These positions may have been understandable for a lawyer 
representing her clients. They certainly may have been 
understandable for an attorney general of a Western State, and 
I have some experience in that regard. They may have been 
understandable for a Republican Senate candidate. But some of 
those positions are disturbing, at least to my mind, in a 
nominee for Secretary of the Interior.
    This hearing will afford Ms. Norton the opportunity to 
state her views on the role of the Secretary of the Interior, 
explain how she can reconcile her past positions with the 
responsibilities that she would have entrusted to her in this 
new position. Her answers to these questions will determine how 
I am able to vote on this nomination.
    Senator Murkowski.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you very much, Chairman Bingaman. 
I want to commend you and your staff, working with our staff, 
for the structure of this hearing. I think that with the 
testimony that we are going to hear we are going to be able to 
answer many of the questions that we have relative to this 
nominee.
    I want to commend our President-elect Bush for nominating 
the first woman, the first woman for the Secretary of the 
Interior. I think it is an outstanding nomination of a 
candidate who has certainly the knowledge, the experience, to 
take on one of the most challenging positions in the Executive 
Branch.
    Her responsibility is one in my opinion of balance. She is 
going to have to balance the protection of our Nation's 
resources with the realism that we need to develop those 
resources using the best technology available. I think one of 
the themes that have been suggested is using the fuels of today 
to get to the technology of tomorrow.
    Now, this is a balance in my opinion that has swung 
dramatically out of proportion in the last 8 years, as 
evidenced by the energy crisis that is existing in this country 
today, more particularly in the State of California, where as a 
matter of fact to some extent the lights are out.
    Now, I have heard criticism that Ms. Norton has been 
identified with groups that advocate such things as more 
complete appreciation of the economic consequences of 
governmental action or a better understanding of the balance 
provided by the Tenth Amendment to the Constitution. The issue 
of the power of the Federal Government vis-a-vis the States has 
always been a contentious issue and it is not going to go away.
    But there has always been room for diversity and debate in 
the marketplace of ideas, and that includes the Department of 
the Interior. Did his work as president of the League of 
Conservation Voters disqualify the previous Secretary, Bruce 
Babbitt? Did George Frampton's lobbying for and his position as 
head of the Wilderness Society disqualify him? No. They both 
had strong advocacies for their point of view. I guess it 
depends on whether you happen to agree with their point of 
view. So it is a question of balance.
    Now, those on the ideological side of the current 
protesters are going to be heard through, I think, various 
members of this committee. Ms. Norton has been accused only of 
guilt by association, has been tarred with innuendoes and 
brushed with, I think, misinterpretation.
    Well, today let us look at the record and proceed with this 
nomination hearing. You know, this committee has had a long 
history of asking tough questions on policy issues and avoiding 
character assassination, and I know this tradition can 
continue. Senator Bingaman and I have worked closely together 
during the time I was chairman and a day and a half or so. We 
will continue to work closely together when I resume that 
responsibility, assuming my colleagues on the right are of that 
particular disposition. And if they are not, we can talk 
later--no, I did not mean that.
    [Laughter.]
    Now, I do not think the implication of the Natural Resource 
Defense Council that Gale Norton is an anarchist should have 
any place in this society. On the other hand, caution is in 
order. We need the balance, as I have stated.
    I often recall with some amusement when the so-called 
``cell phone naturalist'' drives his or her sports utility 
vehicle into the national forest. He calls home on his cell 
phone, looks for direction from his global positioning system, 
checks the time on his watch. As he communes, I guess, with 
nature, he makes the decision there and then that no mining, no 
energy development, should ever take place in this spot. He 
ignores the fact that each person in this Nation uses about 
22,000 pounds of non-energy minerals each day and those 
minerals must come, they must come from somewhere.
    We look at the timber resources, which is renewable. Do we 
want them to come from the rain forests of South America, where 
there is very little environmental control, or do we want to 
bring it along on a renewable basis from our own forests in 
this country, where we can do it right with the regeneration 
process?
    At the same time, the beauty that this so-called, I guess, 
cell phone naturalist recognizes, we have to have a realistic 
claim on protection for future generations. So again, it is a 
question of balance. Balance is the key in my opinion at the 
Department of the Interior, and I think Ms. Norton will provide 
that balance.
    The Secretary is responsible for our public domain, the 
public lands that support the wilderness, recreation, grazing, 
forestry, mining, oil, gas development, and many, many other 
uses as well. If we are going to deal honestly with our energy 
situation, we will need carefully to examine the process for 
granting right of ways. How can you generate more energy 
sources if you do not have right of ways? The same can be said 
for transmission corridors and the needs for rural communities 
for access.
    Unlike the various interest groups who have the luxury of 
advocating only one position, the Secretary has been given the 
mandate to balance those needs and be a steward of the land on 
behalf of all Americans, not just special interest groups. As a 
consequence, I think we would all agree that the Secretary has 
trust responsibilities as well. They go into the Indian tribes. 
Very frankly, the record there is not a very good one. The 
management of the trust funds in my opinion has been a 
disaster. Activities under the mining laws, the Mineral Leasing 
Act, the outer continental shelf, will all come under her 
direction.
    We have the capability to develop the vast supplies of oil 
and gas in this Nation in an environmentally sensitive manner 
and we should do so. What is not being given credibility is the 
advanced technology that we have been able to develop as we, if 
you will, evaluate the risks associated with that development.
    I am reminded in my own State of Alaska about 15 years ago 
we brought in the tenth largest field and we used 56 acres. It 
was called Endicott. It was the technology of 15 to 20 years 
ago. Given the opportunity, because of our increased dependence 
on imported oil, which is about 57 percent and the Department 
of Energy indicated this morning it would be up to 62 percent 
within the next 4 years, we have an opportunity to open up a 
portion of the coastal plain. That is 19 million acres up 
there, an area the size of the State of South Carolina. Yet 
industry tells us that, if the oil is there, the footprint is 
2,000 acres. That is what is lacking in the consideration in my 
opinion by the environmental community as we look at our 
ability, by using the technology, to open up our resources in 
an appropriate manner.
    Now, as Secretary you are going to have the responsibility 
for the U.S. territories. Many people overlook that, but we 
cannot on this committee because we are the committee of 
oversight. Our record is not very good there. The Virgin 
Islands are on the edge of bankruptcy. American Samoa is 
surviving only by borrowing against its portion of the tobacco 
settlement. The Northern Mariana Islands has an economy that 
has been allowed to become totally dependent on an immigration 
and labor situation that simply should not exist under the 
American flag, and to a large degree it is ignored. Senator 
Akaka and I have worked very hard on that. We have been over 
there and observed that situation, and I can tell you it is 
despicable.
    All of these areas require an openness and a willingness to 
undertake the balance necessary to provide for the needs of 
this and future generations. I am confident that she will 
carefully enforce the laws and work with the Congress and 
particularly this committee.
    On a personal note, Ms. Norton has been to Alaska on 
several occasions and that is several more times than some of 
the self-appointed experts who want to manage my State. She 
knows what the effect of decisions made in Washington can be on 
local economies and how dependent those economies are on the 
Federal estate. She has, I think, a distinguished record of 
public service and the respect of those she has dealt with as 
well. She has also had a record of openness and being directly 
involved in decisions. I am certainly pleased to support her 
nomination.
    Mr. Chairman, I would like to add for the record the names 
of 12 governors supporting her nomination: the Governors of 
Arizona, Idaho, Nebraska, New Mexico, South Dakota, Utah, 
Wyoming, Texas, North Dakota, Nevada, and Montana, as well as 
Colorado.
    I thank the chair.
    Chairman Bingaman. We now have our two distinguished 
colleagues from Colorado here to introduce the nominee, as well 
as the Governor of Colorado. So first I will call on Senator 
Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman.
    As a member of this committee, I am honored and pleased to 
be introducing my friend and my colleague of many years, my 
fellow----
    Senator Murkowski. Would you pull that mike up a little 
bit, Senator Campbell.
    Senator Campbell. Sorry.
    I am pleased to introduce my friend and colleague Gale 
Norton from Colorado. She is overwhelmingly qualified and the 
absolute right person for the Secretary of the Interior post. I 
have known Gale, as all of us have here at this table, for many 
years and let me state right up front and for the record, she 
has a long and distinguished record of doing the right thing 
always.
    She is a consensus builder, which might just be illustrated 
by her 8 years as Colorado's Attorney General, where she served 
under a Democratic governor and still accomplished many 
initiatives for the betterment of Colorado, including Superfund 
cleanups. For more than 20 years, she has provided leadership 
on environmental and public lands issues and has demonstrated a 
responsible, common sense approach in preserving our natural 
heritage.
    In my view, in fact, she is being accused now, as you 
probably read in the newspapers, of being not centrist enough. 
But I liken that to the current administration, which has in 
the last few years advocated tearing down dams. I think if you 
went to California now and talked to the people who are closing 
their factories and the lights are shut off in their 
restaurants and they cannot see the stoplights because they are 
out on the corners and so on and you talk to them and said, is 
tearing down the energy-producing dams a centrist view, they 
would probably say not so and they would agree much more with 
Gale Norton, who believes in the careful production of energy.
    Another significant fact to know about Gale Norton is that 
she is committed to enforcing the law as it is written and not 
by rule and regulation. As Attorney General of Colorado, she 
created an environmental crimes task force to prosecute the 
most flagrant polluters. She has played a leading role in the 
cleanup of pollution at mining sites to protect the environment 
and restore Colorado's natural resources, and she led the way 
in ensuring a safe cleanup of the Rocky Mountain Arsenal, 
personally arguing and winning a landmark case in court to 
force the Federal Government and an oil company to meet 
Colorado standards for environmental protection and public 
health, which in many cases are more stringent than Federal 
standards.
    Gale Norton believes that everyone has a role to play in 
defending and preserving our environment. Businesses and 
communities, government and people, all need to have a seat at 
the table.
    As you know, in the last couple days nine more large tracts 
of land have been locked up in the West without any local input 
whatsoever. Gale believes that local people should be involved 
in decisionmaking and that their lifestyle that is often 
dependent on those public lands should be considered.
    As a researcher at Stanford University, Ms. Norton 
researched emissions trading approaches like those later 
adopted in the Clean Air Act. These approaches created market-
based incentives for businesses to reduce emissions. Gale 
Norton supported the Colorado audit law, a law which was co-
sponsored by several Democrats and signed by a Democratic 
governor, to achieve better environmental protection by 
encouraging early and full identification of environmental 
problems and, most important, long-term decisions.
    Another issue which is important to many of the members on 
this committee since they come from public lands States in the 
West is that of water rights. Gale Norton has championed 
Western water rights over the years. Growing populations and 
changing values are placing increasing demands on our existing 
and limited water supplies in the West, resulting in water use 
conflicts throughout the country.
    Recent conflicts are particularly apparent out where we 
live, where agriculture needs for water are often in direct 
conflict with urban needs, like the demand for water for the 
Endangered Species Act, for recreation and picturesque scenery. 
In the arid West, naturally scarce water supplies and growing 
urban populations have increased Federal-State tensions because 
States have historically had primacy in interstate water 
allocation.
    Debate over Western water centers around the issue of how 
best to plan for and manage the use of this limited resource. I 
believe that Gale Norton will be able to use her background in 
water issues to build a consensus and start settling some of 
the disputes on water. She was one of the first and early 
advocates of the Colorado Ute Indian Water Rights Settlement 
Act, commonly called the ALP, which you, Chairman Bingaman, and 
I both supported over the years.
    As the past chairman of the Indian Affairs Committee and I 
suppose the next chairman in a few more days again, I believe 
that Gale will effectively manage Indian affairs with the 
Department of the Interior, which it has responsibility for. 
During her 8-year tenure as Colorado's Attorney General, Gale 
Norton developed a strong working relationship with Colorado's 
two tribes, the Ute Mountain Tribe and the Southern Ute Tribe. 
Together they worked on a number of important matters, 
including water rights settlements and environmental 
regulation, taxation, and a whole bunch of other complex 
issues. In fact, she testified a number of times before our 
committee. She is very knowledgeable in Indian law and she will 
bring that knowledge and experience of working with the tribes 
to the Department, and I am confident that she will continue 
that work.
    I have two letters I would ask unanimous consent, from the 
Ute Mountain Indian Tribe and the Southern Ute Tribe supporting 
her nomination, Mr. Chairman.
    Chairman Bingaman. We will include those in the record.
    Senator Campbell. Mr. Chairman, Senator Murkowski mentioned 
the trust fund debacle over there at the Interior Department. 
All of us on this committee are aware that there is $2.5 
billion of missing money in the Bureau of Indian Affairs 
accounts that they say is there but nobody can find it. She has 
made that a priority, to try to straighten that up and make 
sure the people who actually own that money, the individual 
Indians living on trust land, will receive their just dues.
    Mr. Chairman, the Ute Tribes strongly support her, but in 
talking with other tribes around the country, they also do. All 
the ones I have talked to also support her.
    She listens to common sense while she searches for common 
ground. Unlike many in Washington, she understands that real 
environmental solutions seldom come just from the Beltway 
professionals. They come from real people with honest concerns 
for the land and the water, people on the ground dealing with 
those concerns on a daily basis. She will insist that the 
Federal Government work with local communities to find the best 
way to preserve and protect our Nation's natural resources.
    I am pleased to say that Gale Norton has my full support 
and will make an outstanding Secretary of the Interior. 
Frankly, I am a little disturbed about the opposition. I saw 
this morning's Washington Post, as you probably did, with a 
full page ad taken out by some of the extreme environmental 
community, where they have half of her face on the page and 
half of her face off of the page.
    I know that it seems to be in vogue now to disagree with 
the nominees by embarking on some form of character 
assassination. But I would compare that senseless business in 
the Post this morning with the very thoughtful and carefully 
written editorial by our colleague John Breaux, who is a man 
that I think everybody in this body supports, who basically 
says in his editorial that she is a good person for the job and 
should be supported. Those shrill voices of the extreme 
elements of our society we are hearing now in the current 
process of confirming our nominees, I think they have very 
limited perspectives and make up in shrillness what they lack 
in common sense in my view.
    Mr. Chairman, as a member of this committee I offer my 
support once again to Gale Norton, and I thank you.
    Chairman Bingaman. Thank you very much.
    Senator Allard.

         STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR 
                         FROM COLORADO

    Senator Allard. Mr. Chairman, it is an honor for me to be 
here to be able to introduce to you Gale Norton, Secretary-
designate for the Department of the Interior. I have known Gale 
Norton for some time. I consider her to be a very close friend. 
She is a great Coloradoan. She was born and educated in the 
State of Colorado. Today she enjoys many of the natural 
resources we have in our great State.
    I want to take a few moments to talk about her resume. As 
you might imagine, she has a long one. So what I have done is I 
have selected those parts of her resume which I think is very 
important to the committee's deliberation today as they 
consider her nomination by the President for Secretary of the 
Interior.
    She graduated magna cum laude from the University of Denver 
in 1975. Then she went on to graduate from the College of Law 
with a juris doctor degree in 1978. She is a member of the Law 
School Honor Society.
    She moved forward from that point with her academic 
credentials to become a part of the faculty of the University 
of Denver. She is truly an academician. She knows how to 
evaluate issues, she knows how to talk about the pros and cons 
of various issues that may come before her. Because of this 
strong academic background, she was frequently called upon to 
give speeches and to talk to groups in Colorado and across the 
country on issues that were important to them in which she was 
considered an expert.
    She went on from the University of Colorado to serve as a 
law clerk for the Colorado Court of Appeals. In the 1980's she 
decided to come to Washington and she worked for the U.S. 
Department of Agriculture, and then moved over to the 
Department of the Interior as Associate Solicitor for 
Conservation and Wildlife.
    Then she returned back to Colorado, she ran for public 
office and was elected by the people of Colorado to serve as 
their Attorney General. She served from 1991 to 1999 as 
Colorado's Attorney General.
    The point that I would like to make to the committee is 
that Gale Norton has had a broad experience in her life. It 
includes her having to walk in many of the shoes of somebody 
who has worked for a Federal agency here in Washington in the 
Department of Agriculture, as well as in the Department of the 
Interior. She has had to walk in the shoes of the State from 
which she was born and educated and representing many of her 
constituents as the Attorney General of the State of Colorado.
    I think that when we look at her academic background, we 
look at her experience both at the Federal level and at the 
State level, I think she is uniquely qualified to be the next 
Secretary of the Interior and I strongly endorse her, because I 
think her total of 20 years of experience on environmental and 
natural resource issues will make her a great Secretary of the 
Department of the Interior.
    Thank you, Mr. Chairman.
    Chairman Bingaman. Thank you very much.
    We are honored to have Governor Bill Owens from Colorado 
here also to introduce the nominee. Please go right ahead.

            STATEMENT OF HON. BILL OWENS, GOVERNOR, 
                       STATE OF COLORADO

    Governor Owens. Senator Bingaman, thank you very much. 
members of the committee, thank you for allowing me to say a 
few words on behalf of Gale Norton.
    It is good to be back in the Senate. Years ago, 25 years 
ago, I served on the staff of Senator John Tower, and I regret 
to this day what happened to him, to that fine American, during 
his Senate confirmation. Years before that I served with Jim 
Wright. I was Jim Wright's page in the House of 
Representatives. I have a lot of respect for what it is you are 
charged with doing this afternoon.
    I guess what I really hope is that we do not take this fine 
person and tear her apart through this process, because I know 
Gale Norton, I have worked with her, I have known her for 15 
years, and this is a dedicated public servant who has always 
done what she thought was best for the people of Colorado.
    I am going to not be redundant to what my friends Senator 
Campbell and Senator Allard have already said. You have heard 
about her distinguished 8-year career as Attorney General. You 
know, when you are looking to see where Gale Norton comes from 
it is important to note that she was elected in 1990 in a 
landslide as a Republican in the same year that Governor Roy 
Roemer was re-elected by a landslide as a Democrat in Colorado.
    The same thing occurred in 1994. Gale Norton won in a 
landslide on the Republican side, Roy Roemer won in a landslide 
on the Democratic side. It is because Colorado is a centrist 
State. It votes for the person, not the party. In voting for 
Gale Norton, it was voting for a person who really represented 
the mainstream that I think is the reality of Colorado.
    You are going to hear a lot today about a number of issues. 
Just from a Colorado perspective, we have a self-audit law in 
the State of Colorado, as do 29 other States in this Union. In 
Colorado this law passed, for reference purposes, by a vote of 
60 to 4 in our House of Representatives, obviously bipartisan; 
it passed our Senate by a vote of 24 to 8, again clearly 
bipartisan; was then signed into law by Governor Roy Roemer. It 
was Gale Norton's job as Attorney General to defend that 
Colorado law in court, a defense which she performed admirably.
    But that law was a bipartisan law, a well-intentioned and I 
believe successful effort to bring more companies into a 
partnership in terms of cleaning up the environment. Again, 
today it has been copied throughout these United States.
    You are going to hear about a mine called Summitville. 
Summitville is a disaster which we are all familiar with in 
Colorado. Just let the record reflect that that mine was cited 
in 1983 under the administration of my very good friend 
Governor Dick Lamb. The environmental failure occurred in 1986.
    Gale Norton was elected in 1990. She took office in 1991. 
She sued the owner of Summitville in 1992, sued the owner again 
to keep the mine filtering system open when that owner declared 
bankruptcy, sued the personal owner of that mine in 1996, and 3 
weeks ago the current Attorney General, Ken Salazar of 
Colorado, a Democrat, was able to settle with that owner for 
almost $30 million based on the work that he did and based on 
the work that Gale Norton did. That is one reason I believe 
that Ken Salazar, our Democratic Attorney General in Colorado, 
along with four other Democratic attorney generals, has 
endorsed Gale's nomination.
    I am so proud of what she did with Rocky Mountain Arsenal. 
This is a chemical warfare plant that we have just outside of 
the Denver metropolitan area. She sued the Federal Government 
to force a cleaner standard, a higher standard of cleanup, 
actually to force the Federal Government to follow Colorado's 
standard rather than Federal standards for the cleanup of that 
site, and she won that lawsuit. In suing the Federal 
Government, she also sued Shell Oil Company.
    She has done the same thing with Rocky Flats, our nuclear 
bomb factory, which also is right outside Denver, Colorado. She 
has gone to court to allow individuals to sue the Federal 
Government under the Superfund Act.
    This is a lady that is moderate and centrist and has worked 
hard for our environment in Colorado and I know would do an 
outstanding job as Secretary of the Interior.
    One final issue that I know you are going to hear about. It 
concerns a legal case called the Adderand case in the State of 
Colorado. It is a case involving minority set-asides and 
involving a lawsuit against the State of Colorado by a 
gentleman named Adderand. Colorado had in place a set of 
required mandatory set-asides for construction projects. Over 
the years the Supreme Court had successively weakened its 
standard and in fact made it clear that our Adderand case was 
indefensible in court based on Supreme Court dicta.
    So there was an attempt in Colorado to pursue this case to 
higher courts. Our Governor, Governor Roy Roemer, wanted to 
pursue the appeals higher. Gale Norton as an attorney and as 
Attorney General said, we are going to lose if we do so. I know 
that, Senator Bingaman, you have been an attorney general and I 
know we have a former governor, Mr. Bayh, Senator Bayh. She 
said to her client: We cannot win this case and we should not 
pursue it.
    Under Colorado law, the Governor had the right to pursue it 
and did so by retaining outside counsel, a former Supreme Court 
justice, and we lost twice in the U.S. Supreme Court. She was 
fulfilling her oath as an attorney and as Attorney General of 
Colorado in terms of following what the Supreme Court had told 
us was legal.
    So gentlemen, I really appreciate your courtesy in allowing 
a Governor to speak to you today. I am telling you that 
Colorado is proud of Gale Norton. As a State senator, I voted 
on 266 of Governor Roemer's appointees in my 6 years in the 
State senate. I voted for 264 of that Governor's appointees. I 
understand the constitutional responsibility you have to advise 
and consent. I just ask you to, as I know you will, Mr. 
Chairman, give this lady a fair hearing. As you do so, I am 
confident she will be confirmed.
    Thank you very much.
    Chairman Bingaman. Thank you for your statement. Thank all 
three of you for your statements.
    Ms. Norton, I am required to administer the oath to you. 
But before I do so, did you have family members you wanted to 
introduce before we went through that formality?
    Ms. Norton. Mr. Chairman, I would like to introduce my 
husband, John Hughes.
    Chairman Bingaman. We welcome him to the committee.
    [Applause.]
    Chairman Bingaman. The rules of the committee which apply 
to all nominees require that the nominee be sworn in connection 
with her testimony. Could you please rise and raise your right 
hand, please.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Ms. Norton. I do.
    Chairman Bingaman. Thank you. Why don't you be seated.
    Let me ask you three questions. Will you be available to 
appear before this committee and other congressional committees 
to represent departmental positions and respond to issues of 
concern to the Congress if you are confirmed?
    Ms. Norton. Yes, I will be.
    Chairman Bingaman. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict or 
create the appearance of such a conflict should you be 
confirmed and assume the office to which you have been 
nominated by the President?
    Ms. Norton. I have worked with the Office of Government 
Ethics to review my finances. We have determined that there is 
one company in which I own stock, that I will divest and so 
that will not be a continuing conflict. I have also taken 
additional steps to ensure that appearances of conflict are 
alleviated. For example, I had a tax-sheltered annuity that was 
established when I worked with Mountain States Legal 
Foundation. I will be moving that into another program so there 
is absolutely no connection with the foundation.
    Chairman Bingaman. The final question: Are you involved or 
do you have any assets held in blind trusts?
    Ms. Norton. No, sir, I do not.
    Chairman Bingaman. Why don't you go ahead with your 
statement, then. Thank you.

   TESTIMONY OF GALE NORTON, NOMINEE TO BE SECRETARY OF THE 
                   DEPARTMENT OF THE INTERIOR

    Ms. Norton. Thank you, Mr. Chairman, distinguished members 
of the committee. I am honored to appear before you today as 
President-elect Bush's nominee for Secretary of the Interior. I 
am pleased to have this opportunity to talk with you and to 
answer any questions that you might have. I am glad to have 
this chance to tell you something about the goals that 
President-elect Bush and I share and which we hope to achieve 
if you see fit to confirm me as Secretary of the Interior.
    As you all know, America is a land of singular beauty. 
Americans are proud of the many exquisite natural treasures 
within our shores. President-elect Bush believes, as I do, that 
the top priority of the Department of the Interior must be to 
conserve those natural treasures.
    One of President-elect Bush's priorities is to protect our 
National Park System. We plan to return scientists to our parks 
and to work with Congress to eliminate the major maintenance 
backlogs that have been obstacles to resource protection, and 
to do that within 5 years. This initiative would help restore 
our national parks and ensure a positive legacy of protecting 
our cultural, natural, and recreational treasures for Americans 
today and in the future.
    The great wild places and unspoiled landscapes of this 
country are the common heritage of all Americans and we must 
both conserve them and manage them for Americans living today 
and for the Americans of the future, our children and our 
children's children. That is our goal.
    I don't think any of us here today would disagree on that 
goal. In that I believe lies the basis for common ground. We 
have the opportunity for bipartisan environmental cooperation 
and leadership.
    I have worked for more than 20 years on environmental 
issues. I am proud of my accomplishments: preserving endangered 
species, cleaning out mountain valleys polluted by mining, 
working to convert the Rocky Mountain Arsenal from a place 
polluted by pesticides and nerve gas residues to a wildlife 
refuge. Based on these experiences, I am firmly committed to a 
process of consultation and collaboration. We should listen to 
all voices and involve all citizens. That is fair.
    It is also wise. People are a magnificent resource for 
ideas, for knowledge, for insights. I've lived and worked here 
in Washington. I've also lived and worked in the great American 
West. Those of us here in Washington need to be good partners 
with the Americans living in other parts of this country and in 
our territories. America is a stronger Nation because of the 
diversity of its people. These people hold many different views 
and perspectives. We need to work with them, to involve them, 
to benefit from their creativity and their capacity to 
innovate.
    One top priority that I want to mention to you today 
concerns the special responsibilities of the Secretary of the 
Interior with regard to American Indians. I think we should all 
recognize that the situation in Indian country is not as it 
should be. There is much that I believe we can do, in 
partnership with our Nation's proud Native American tribes, to 
improve conditions and provide a more hopeful future.
    President-elect Bush has said many times that he will leave 
no child behind. To accomplish that requires that we improve 
the schools that serve more than 50,000 Native American 
children. A good education is the key to a better life for any 
child, whether that child lives in Washington, D.C., or Miami, 
Florida, or on a reservation in New Mexico. Recognizing the 
historic relationship of the Federal Government and Native 
American tribal governments, I will work very hard to achieve 
real results for every Indian child.
    President-elect Bush has proposals to build conservation 
partnerships, to help States, local communities, and private 
landowners to conserve wildlife habitat, watersheds, and open 
space. I am excited by the chance to work together on these 
proposals. Working together, there is much that we can do to 
promote conservation in the United States.
    Mr. Chairman and members of the committee, I will be candid 
in telling you that I am both a conservative and a 
conservationist. I see no conflict there. In fact, I am a 
compassionate conservative and a passionate conservationist. I 
believe that too is entirely consistent. If confirmed as 
Secretary of the Interior, I intend to make the conservation of 
America's natural resources my top priority.
    Using consultation and collaboration, forging partnerships 
with interested citizens, we can succeed in our effort to 
conserve America's most precious places. What is more, we can 
achieve this while maintaining America's prosperity and 
economic dynamism, while respecting constitutional rights and 
nurturing diverse traditions and cultures.
    It won't always be easy. It will require a lot of hard work 
and a willingness to be creative, to think outside the usual 
boxes. That is the mission that President-elect Bush has asked 
me to undertake. With your help, your wisdom, and your 
cooperation, I believe that we can succeed.
    Thank you very much.
    [The prepared statement of Ms. Norton follows:]
   Prepared Statement of Gale Norton, Nominee to be Secretary of the 
                       Department of the Interior
    Thank you very much Mr. Chairman and distinguished Members of the 
Committee. I am honored to appear before you today as President-elect 
Bush's nominee to be Secretary of the Interior.
    I am pleased to have this opportunity to talk with you and to 
answer your questions. And I'm glad to have this chance to tell you a 
little about the goals that President-elect Bush and I hope to achieve 
should you see fit to confirm me as Secretary of the Interior.
    As you all know, America is a land of singular beauty. Americans 
are proud of the many exquisite natural treasures we have within our 
shores. President-elect Bush believes, as I do, that the top priority 
of the Department of the Interior must be to conserve those natural 
treasures.
    One of President-Elect Bush's priorities is to protect our National 
Park System, return scientists to the parks, and work with Congress to 
eliminate the major maintenance and resource protection backlog within 
five years. This initiative would help restore our national parks and 
ensure a positive legacy of protecting our cultural, natural and 
recreational resources for Americans today and in the future.
    The great wild places and unspoiled landscapes of this country are 
the common heritage of all Americans, and we must both conserve them 
and manage them for Americans living today, and for Americans of the 
future--our children and our children's children. That is the goal. And 
I don't think any of us here would disagree with that goal. In that, I 
believe, lies the basis for common ground and, yes, for bipartisan 
environmental cooperation and leadership.
    Let me tell you a little about how I think we can best achieve this 
common goal. I have worked for more than 20 years on environmental 
issues. As Attorney General, I involved local communities, as well as 
State and federal officials, in the cleanup of the Rocky Mountain 
Arsenal and the Leadville Superfund site. Our enforcement actions 
ranged from government sites to private mining interests, utility 
plants and water exploration.
    As Associate Solicitor, one of my proudest accomplishments was 
helping keep the California condor from becoming extinct. Based on 
these experiences, I am firmly committed to a process of consultation 
and collaboration. We should listen to all voices and involve all 
citizens in decision-making because that is fair. But we also should 
listen because that is wise. People are a magnificent resource--for 
ideas, for knowledge, for insights.
    I have lived and worked here in Washington. I have lived and worked 
in the great American West. Those of us here in Washington need to be 
good partners with Americans living in other parts of the United States 
and its territories. America is a stronger nation because of the 
diversity of its people. Those people hold many different views and 
perspectives. We need to work with them, to involve them, to benefit 
from their creativity and capacity to innovate.
    This approach, I would submit to you, is a fundamentally democratic 
approach--and it is the approach that I favor, and the approach I will 
adopt if I am confirmed as Secretary of the Interior.
    I also intend to take a ``performance-focused'' approach. It is not 
enough for the Federal government to have good intentions--we need to 
measure outcomes and, when necessary, correct our course so that we get 
where we aim to go.
    To help in this regard, I intend to use as fully as possible the 
new technologies available to us; to employ the new digital tools, to 
implement ``e-government'' effectively as a means to encourage public 
participation, to make the Department of the Interior more open and 
more accessible.
    Another top priority I want to mention to you today concerns the 
special responsibilities of the Secretary of the Interior with regard 
to American Indians. I think we all recognize that the situation in 
Indian Country is not what it should be. There is much that I believe 
we can do, in partnership with our nation's proud Native American 
tribes, to improve conditions and create a more hopeful future.
    President-elect Bush has said many times that he will ``leave no 
child behind.'' To accomplish that requires that we improve the schools 
that serve more than 50,000 elementary and secondary Native American 
students, and increase the educational opportunities available to 
Indian children. A good education is the key to a better life for any 
child--whether that child lives in Washington D.C., Miami, Florida, or 
on a reservation in New Mexico.
    Recognizing the historic relationship of the Federal government and 
individual Native American tribal governments, I am convinced we can do 
better in this sphere. Indeed, we must do better. With your help and 
cooperation, I will work very hard to achieve real results for all the 
children of Indian country.
    In addition, I am looking forward to working with the talented men 
and women who keep the Department of the Interior going from one 
administration to the next, regardless of which party is in the White 
House. I want to open the Department's doors of opportunity to all 
Americans who have the skills and the drive to participate in this 
great mission of conservation.
    President-Elect Bush has proposals to build conservation 
partnerships--to help states, local communities and private landowners 
to conserve wildlife habitat, watersheds and open space. Working 
together, there is much we can do to promote conservation in the United 
States.
    Mr. Chairman and Members of the Committee: I will be candid in 
telling you that I am both a conservative and a conservationist. I see 
no conflict there. In fact, I am also a compassionate conservative--and 
a passionate conservationist. I believe that, too, is entirely 
consistent.
    As I said when I began my remarks, if confirmed as Secretary of the 
Interior I intend to make the conservation of America's natural 
treasures my top priority.
    Utilizing the approach I have outlined--consultation and 
collaboration, forging partnerships with all interested citizens and 
groups including, not least, those most affected by Federal decisions--
we can succeed in our effort to conserve America's most precious 
places. What's more, we can achieve this while maintaining America's 
prosperity and economic dynamism, while respecting constitutional 
rights, and diverse traditions and values.
    It won't always be easy. It will require a lot of hard work and the 
willingness to be creative, to think outside the usual boxes. But this 
is the mission that President-elect Bush has asked me to undertake. And 
with your help and your wisdom and your cooperation, I believe we can 
succeed. Years ago, the eminent environmentalist, biologist and 
Pulitzer Prize-winner, Rene Dubos, advised us to ``think globally, act 
locally.''
    I think that is still good advice. Let me leave you with one 
additional thought from Rene Dubos which, I believe also is relevant to 
us and to our mission today:
    ``We cannot escape from the past,'' Dubos said, ``but neither can 
we avoid inventing the future.
    ``With our knowledge and a sense of responsibility for the welfare 
of humankind and the Earth, we can create new environments that are 
ecologically sound, aesthetically satisfying, economically rewarding, 
and favorable to the continued growth of civilization.
    ``But the wooing of the Earth will have a lastingly successful 
outcome only if we create conditions in which both humankind and the 
Earth retain the essence of their wildness.''
    Thank you, Mr. Chairman, and thank you distinguished Members of the 
Committee.

    Chairman Bingaman. Thank you very much.
    Let me start with some questions. Your statement about your 
priorities is welcome and I certainly heard that with great 
interest. A few years ago, according to a writing that you did, 
you described yourself as ``a free market conservative, an 
advocate of judicial restraint, as well as a champion of 
States' rights.'' Over the years you have taken some positions 
on the Takings Clause, for example, on the Federal taxing 
power, on the Tenth Amendment, on the now long discredited 
theory about economic due process, which seem, at least as I 
read some of those earlier writings of yours, to be at odds 
with mainstream legal thought.
    Can you give this committee assurance that, if confirmed, 
you would feel comfortable enforcing the existing laws and 
regulations of the Department of the Interior as they now 
stand?
    Ms. Norton. Mr. Chairman, I have served 8 years in the 
capacity of a State Attorney General, enforcing the laws of 
Colorado and of the United States. I feel very comfortable in 
enforcing the laws as they are written. I will be fully 
committed to ensuring that our Nation's environmental laws and 
laws for the protection of natural resources will be fully 
enforced.
    Chairman Bingaman. Many of the Republican members of 
Congress, some on this committee, have been sharply critical of 
the environmental initiatives and policies of Secretary Babbitt 
and of President Clinton and his administration. Which, if any, 
of those legal or policy positions that have been adopted by 
the Department of the Interior during this last 8 years would 
you depart from or attempt to change?
    Ms. Norton. There are many things that have been adopted 
over the past few years. We will be looking at what needs to be 
changed in our views and at the many things that will remain 
the same. We will examine issues across the board and apply the 
best legal standards, as well as the views that I believe many 
of us would share, to ensure that we are doing the best to 
preserve our natural resources.
    At this point I am not sure where we may depart from the 
past administration, but we will carefully examine those things 
and work with this Congress in order to examine issues.
    Chairman Bingaman. One issue that the President and the 
Secretary of the Interior, the current Secretary of the 
Interior, have been roundly criticized about by Republicans 
here in the Congress is this issue of designation of national 
monuments. I believe this President has designated 19 areas as 
national monuments under the authority that he has under the 
Antiquities Act.
    Do you believe that President Clinton's use of that 
Antiquities Act was appropriate or not?
    Ms. Norton. The goal of preserving lands is an admirable 
goal and I share the goal of trying to be sure that we are 
identifying those areas that ought to be natural treasures and 
setting those aside. The process in which those decisions were 
made is one that causes me concern. Many of those decisions 
were made through a top-down process, without consulting the 
people who are most affected by those decisions.
    President-elect Bush has established his view, and I 
certainly share that, that decisions about the land should be 
made in a process that includes the people who are affected by 
those decisions. I would certainly hope that in the future we 
would hear input from those of you on this committee, from 
governors, from local communities, before we take actions that 
are going to deeply impact people's lives.
    Chairman Bingaman. Would you advocate a repeal of the 
Antiquities Act or some changes in that basic statute?
    Ms. Norton. The Antiquities Act is something that has been 
very useful in the past. It has shown its ability to preserve 
some of our most important national monuments. I would like to 
see a process of involvement of the people most affected by 
decisions. That certainly would be the practice that would be 
followed in a Bush administration if I am selected to be 
Secretary of the Interior.
    Whether that would require changes in that statute for the 
long term is a decision that I have not made in terms of what 
we would advocate and obviously would require congressional 
action in order to make any of those changes.
    Chairman Bingaman. On this issue of water rights, do you 
agree that when the Federal Government reserves land from the 
public domain that it also impliedly reserves a sufficient 
quantity of water to fulfill the primary purposes of the land 
that it has reserved, thereby creating a Federal reserved water 
right?
    Ms. Norton. The U.S. Supreme Court has established clear 
standards for determining whether a Federal reserved water 
right is established with any particular reservation, and it 
depends on an examination of each particular area and the 
purposes for that. What it boils down to at the core is the 
intent of Congress and whether Congress intended when it set 
aside some land or whether in a presidential proclamation 
setting aside land the purpose of that proclamation, whether 
the intent of Congress or the President was to create a 
reserved water right. That is a decision that needs to be made 
on a case by case evaluation for each particular reservation.
    Chairman Bingaman. In the case of areas designated as 
wilderness, do you have a general view as to whether a 
reserved, implied Federal reserved water right is intended to 
be created with the designation of an area as wilderness?
    Ms. Norton. Obviously, it is important for us to preserve 
wilderness areas and to be sure that those wilderness areas are 
able to preserve the values that we want to see. One of the 
issues that I will need to address as Secretary of the Interior 
if I am confirmed is exactly that issue of water rights in 
wilderness areas.
    As you know, the Idaho Supreme Court recently held that 
Congress did not intend to set aside water rights when it 
created wilderness areas. So that decision will be coming up 
for review. I will carefully study that and work with the 
Department of Justice. Of course, it is their decision as to 
what position the United States will take. I will work with 
them to evaluate that case and determine what the course of 
action should be following from that.
    Chairman Bingaman. My time is up. Senator Murkowski.
    Senator Murkowski. Thank you very much, Chairman Bingaman.
    Again, Ms. Norton, let me welcome you to the committee. I 
was particularly pleased that you chose to mention the plight 
of the American Indian reservation and the manner in which the 
Department of the Interior has handled its responsibilities. I 
would encourage you to evaluate the system within the 
Department of the Interior, and recognizing that there is a 
great deal of technology and expertise to be contracted for, as 
opposed to trying to maintain a function that a trust 
department or a notarized public accounting firm would guide 
you into expert procedure for reporting back to the individual 
Native tribes, because it is an unbelievable set of 
circumstances.
    I would also call your attention, as I indicated in my 
opening statement, to the plight of some of our territories 
that are going to require your attention. The Virgin Islands, I 
hope, Chairman Bingaman, that we can take some of the members 
down there and see the difficulty and the debt load that those 
folks are under and their inability to have any realistic 
relief other than the reality that we are going to have to 
recognize some debt forgiveness and try and help them 
restructure.
    It is a tragedy that has been overlooked. The same is true 
in American Samoa. I have been out there and these are 
territories that we have simply ignored.
    You are going to have to bring together, I think, in order 
to develop a policy that the President-elect George W. Bush has 
indicated relative to the energy situation in this country. We 
have lacked a cohesive policy. We have lacked a direction, and 
I think partially due to a management style. You know, you have 
got the Department of the Interior that controls land, controls 
access. Then you have got the Environmental Protection Agency 
that is concerned, as they should be, with air quality and 
environmental sensitivities. Then you have got, say, the 
Department of Energy.
    In many cases, the Secretaries have been going different 
ways, as opposed to coming together and saying, all right, 
within the administration we're going to have to address this 
crisis. As we look at the hearing that we held this morning, a 
good deal of discussion was on California and the fact that the 
lights are about out, people are getting stuck in elevators, 
traffic lights don't work, and revolving blackouts, which 
suggests we're going to have to do something about the problem, 
that somebody is going to have to make some decisions. That's 
why I had mentioned a great deal of effort's going to have to 
go into balancing this process.
    Do you feel that you can bring together within this new 
administration the wherewithal and the policymakers to resolve 
and make some decisions about how we're going to relieve our 
dependence on imports, 56 percent, going up to, we heard this 
morning, 62 by the year 2004? Our greatest source seems to be 
coming now from Saddam Hussein. We fought a war in 1992. We 
lost 197 lives.
    We cannot address what to do with our nuclear wastes. Oil 
prices continue to go up. We're looking towards natural gas 
now. We're using it faster than we're finding it.
    You're going to have to come up with some of these answers 
with your collective colleagues. How do you propose to do it?
    Ms. Norton. The issues of Americans' being so dependent on 
foreign oil is obviously a great cause for concern. The idea 
that people in California this very day are facing serious 
shortages of energy is another great cause of concern. We will 
have to pull together all of our resources and work across 
departmental lines to find ways of addressing those issues.
    Obviously, it's going to be difficult to find short-term 
answers. We'll have to do a lot of planning to be able to find 
long-term answers. We would hope to work with you to find the 
right kinds of solutions that would balance environmental 
protection as well as finding ways of providing the kind of 
energy resources that need to be available.
    Senator Murkowski. I think it's appropriate that I bring up 
the issue of ANWR because some would be disappointed if I 
didn't. In any event, many members of our environmental 
community have opposed your nomination because of the 
President-elect's position on environmentally responsible oil 
and gas exploration in that small portion of the Arctic coastal 
plain in my State of Alaska. However, the reality is you nor 
the President currently has the authority to open up this area. 
Only Congress has that authority.
    In this regard I have two questions for you. If Congress is 
to undertake the debate on this issue, will you commit to aid 
those debates with the very best science available from the 
Department of the Interior?
    Ms. Norton. Absolutely. I view the role of the Department 
of the Interior as helping provide the information to this 
Congress so that you can make an informed decision. We hope to 
look at the issues of how we can provide the best scientific 
evaluation of the environmental consequences, how we can do any 
exploration and production, if it is done, in the absolute most 
environmentally conscious way that we can have that happen.
    Senator Murkowski. My second question is, if Congress 
approves a measure to allow exploration and development of the 
coastal plain and it becomes law, will you uphold the law 
Congress passes and use all the powers afforded to you to 
mitigate any potential negative environmental consequences?
    Ms. Norton. I will certainly follow any laws that are 
passed to be sure that the protection of the important 
resources of the Arctic National Wildlife Refuge are preserved 
at the same time that any exploration or production would take 
place.
    Senator Murkowski. Thank you.
    Now, moving over to Prudhoe Bay, which was discovered 30-
some-odd-years ago, in the search for oil in Prudhoe Bay, which 
has been providing this Nation with about 20 percent of the 
total domestic crude oil produced for some 27 years, and it is 
falling off now as Prudhoe Bay declines. But not looking for 
it, but as a sidelight, we found some 36 trillion cubic feet of 
natural gas.
    Nobody paid much attention to it because of the cost of 
getting that gas out when gas was $2.16 per thousand cubic 
feet, which is what it was a year ago. Now gas is $8.40 and, as 
we look at our reserves and the fact that we're pulling down 
our reserves, there is more and more thought given to marketing 
that gas.
    In order for this to become a reality, it's going to take a 
transportation system and it's going to require an investment 
of about $10 billion, the largest single construction project 
that would be on the horizon and larger than anything that we 
have undertaken in this country. Should the owners of the gas 
decide to move forward with such a project, the Department of 
the Interior, through the Joint Pipeline Office, will have an 
awful lot to say about the permitting and development.
    My question to you is, if confirmed, will you act in your 
role as Secretary to provide all the resources needed to the 
Joint Pipeline Office in Alaska to help expedite a project of 
this magnitude if indeed it becomes a reality?
    Ms. Norton. I'm aware of the important need for natural 
gas, not just because our economy is expanding and there's more 
demand for energy, but also because natural gas is seen as one 
of the ways of having the cleanest supply of energy. So it's 
important for us to have some mechanisms to be able to draw 
upon gas resources. I will look forward to working with you to 
learn more about that issue. It's not one that I have had the 
opportunity, obviously, to discuss the details on. I will look 
forward to working with you so that we can resolve that issue.
    Senator Murkowski. February and March are a good time for a 
visit to Prudhoe Bay because you can see it as it really is 9 
months of the year.
    My last appeal to you is, please come visit us in Glacier 
Bay. Glacier Bay is the number two tourist destination in our 
State. The number one is Denali National Park, both of which 
are maintained by the Park Service. But there seems to be a 
great reluctance on the Park Service to allow the entries of 
passenger ships during the season, which is only 90 days of the 
year, to allow 2 ships a day so that the visitors can see this, 
and to suggest that the environmental damage would be any more 
than an occasional cigarette butt that somebody might throw 
over the side of a ship--it's pretty hard to make a case that 
there's not a more compatible environmental way to see this 
beautiful area than by cruise ship.
    For the life of me, the Park Service just doesn't want to 
let access in, and they have no good scientific justifiable 
reason.
    Thank you, Mr. Chairman.
    Chairman Bingaman. Senator Dorgan.

         STATEMENT OF HON. BYRON DORGAN, U.S. SENATOR 
                       FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    Gale Norton, welcome to the committee. As we hear the 
public debate that occurs on this nomination, it occurs to me 
that various groups describe two different Gale Nortons. One of 
them is described as bright and charming, interesting, soft-
spoken, self-confident, reasonable, thoughtful, and moderate. 
Another some describe a nominee who thinks on the political 
fringes, favors polluters, cares little about the environment, 
is unsympathetic to endangered species, and is a friend of both 
lead paint and James Watt.
    So the question is, who is Gale Norton? I don't know Gale 
Norton except to have met you last week. We need to separate 
the fact from the fiction in this debate. Saying that, I 
recognize that these spotlights that shine on public lives 
these days can sometimes offer almost perfect vision and other 
times offer a pretty warped view of what is real.
    So I'm going to ask you a series of questions about things 
that have been said about you and things the you have said, and 
I'd like to get some response. I kind of feel about the same 
way as Senator Bingaman feels. I have not made a decision about 
this nomination, but I do believe that Presidents have the 
opportunity to send us their candidates and we have an 
opportunity, of course, under the advise and consent 
responsibility to ask questions.
    You have a very distinguished record. You've done a lot of 
things. I, too, am a graduate of the Graduate School of the 
University of Denver and I'm pleased to hear that you were on 
the faculty. Let me ask you some questions, and I'll try to do 
a number of them quickly.
    Global warming. You have written that there is little 
consensus over whether global warming is occurring. Do you 
think there's any kind of a scientific consensus at all that 
there is some significant climate change occurring or global 
warming occurring?
    Ms. Norton. Thank you very much for the opportunity to 
begin to reconcile the parts of my record and to have the 
opportunity to explain myself so that perhaps the picture of me 
that emerges at some point will be a little more clear.
    Global warming is an issue that has seen scientific 
information developing over time, and the further we go through 
the process the more information we have available. The article 
that you referred to is something that was written several 
years ago. I will maintain an open mind and receive new 
scientific information as it is put forward.
    Senator Dorgan. But my question is do you think there's a 
consensus on any side of this issue? Some would say, you know, 
while there are doubters certainly, and some respected 
doubters, there seems to be a fairly overwhelming consensus 
among most scientists that something is occurring in the area 
of global warming. Do you share that view?
    Ms. Norton. It does seem, based on my evaluation, which is 
not a scientific one, that there is beginning to be more of a 
consensus that global warming is occurring. There is still 
disagreement as to the causes and the long-term future. 
Obviously, there is disagreement about what ought to be done in 
that regard.
    I will certainly rely on scientific information as it 
becomes available and evaluate the information as it is 
presented to me.
    Senator Dorgan. Thank you.
    Let me ask you about the issue of the Fifth Amendment 
Takings Clause and some of the comments that have been made 
about your position on that. You have indicated that the 
Government must pay compensation when its actions interfere 
with private property rights, in an article you wrote or a 
speech you gave. And you talked about the fact that it may even 
extend to a property owner's right to pollute. Could you tell 
us what you meant by that?
    Ms. Norton. The issue of private property rights is 
something that is important to me beginning from the time that 
I worked with farmers and ranchers who feel very strongly about 
the land that belongs to them, who care very much as stewards 
for that land. I think it's important for government to be able 
to work with the people who feel closest to land and to try to 
find ways to reconcile with them, ways of protecting the 
environment and allowing people to use their property.
    In an article I once was talking about extreme examples of 
environmental analysis and the analysis of takings laws. The 
idea of a right to pollute is not something that I support. 
That was actually a phrase that is taken from some work that I 
did earlier on the concept of emissions trading. The idea of 
emissions trading, of the ability to find economic incentive 
ways of dealing with pollution, is something that early on was 
called an emissions credit, a right to pollute. That is a 
tradeable concept that has now been embodied in the Clean Air 
Act and it has very widestream, very mainstream acceptance.
    It is absolutely not clear from that article that that was 
the way in which I was using that phrase and I recognize that. 
I do not support the concept of a right to pollute, as many 
people have tried to characterize that.
    Senator Dorgan. I'll try to come back to that in a future 
round. But let me just ask on the takings issue. You believe 
that local governments have a right to be involved in zoning? 
For example, if you have a home in Denver and I buy the lot 
next door and put up a sheep barn and bring in 2,000 sheep, you 
have a right to complain about that because that violates 
zoning? Or, because they say I can't put up sheep or put up a 
sheep barn and house some sheep next to your house, have they 
taken something from me?
    Ms. Norton. The concept of zoning and the way in which we 
use our property are things that do require an evaluation of 
property rights. I think it's certainly appropriate for a local 
government to say you can't put a sheep ranch right next to a 
residential community.
    Senator Dorgan. And that is not a taking?
    Ms. Norton. That is not a taking.
    Going back to the ancient aspects of common law, there have 
always been limits on using property. You cannot use property 
in a way that harms the property of your neighbors, and that's 
a concept I wholeheartedly agree with.
    My view of property rights is, as it applies to the 
Department of the Interior, what inspires me to want to find 
ways of working cooperatively with landowners to have 
incentive-based approaches, to encourage them to enhance 
habitat on their property or to protect endangered species on 
their property. I think we can find very cooperative ways of 
working with farmers and ranchers and other landowners that are 
based on recognition of the importance of property rights and 
to tie that in with protection of the environment.
    Senator Dorgan. Mr. Chairman, I'm just about out of time. I 
want to just ask two very brief questions and you can perhaps 
answer them at the same time. One is, do you support the 
Endangered Species Act, what are your thoughts about that? 
Second, can you just briefly describe your feeling about 
States' rights overriding tribal self-government's rights with 
respect to Indian nations?
    Ms. Norton. I support the Endangered Species Act and the 
preservation of endangered species. I've been privileged to 
work on the protection of species like the California condor, 
on the endangered fish species in the Colorado River. I think 
we've seen some accomplishments there that hopefully will allow 
those species to survive. So I do support that.
    As to States' rights and tribal sovereignty, those are 
complex legal questions. It boils down I think to the idea that 
decisions of government are often best made when made closest 
to the people who are affected by those decisions. What is true 
for States is true for tribes. Self-government is very 
important and I support that as a concept.
    Senator Dorgan. Mr. Chairman, I'm out of time.
    Thank you very much for your responses.
    Chairman Bingaman. Thank you.
    Senator Domenici.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Domenici. Thank you very much.
    First of all, let me say to you that I did not know that 
you were also a Denver University graduate. I can say it that 
way because I graduated from their law school a long time 
before you ever got involved.
    First I want to thank the three public officials who 
testified in your behalf. I think each one of them contributed 
in a very special way, the two Senators first, in kind of 
shedding a positive, shedding a view of you that from my 
standpoint I had already arrived at. I read most of the attacks 
and allegations and then I read the reality of them, and I had 
already concluded that President Bush wants you to be his 
Secretary of the Interior and that you ought to have the job, 
that you see more of what you feel and see and think about 
public land issues in tune with his philosophy, and that's as 
it should be. If as a matter of fact that does not suit every 
single Senator, then they have prerogatives.
    But to bring up ideas that would diminish the fact that you 
can serve him well by doing what he thinks is the right thing 
to me does not make any sense. I believe you're entitled to the 
job.
    I'd like to say, I read the newspapers that are associated 
with your history. That would be the Rocky Mountain News and 
the Denver Post. And I'm actually very pleased with both of 
their editorials. I would say to anyone that thinks the 
negative record that is being made here is the other side of 
Gale Norton, that they ought to read these editorials.
    I mean, they say in the first three paragraphs of each one 
that you are competent, you're a wonderful legal scholar, you 
bring people together, and while the environmentalist community 
does not agree with you on everything, in many instances such 
as the reserved water debate, that you are in tune with the 
legal issues and that you have indeed been on the right side of 
most of those issues, even if there are some who would not like 
that view.
    Now, I would say for the record, from this Senator's 
standpoint, I read the Summitville mine issue in its entirety. 
I believe you have done everything appropriate in that regard 
and the State of Colorado's lucky to have you represent them in 
that issue.
    Now to the third person that testified in your behalf, let 
me say to the distinguished Governor, who I've recently had an 
opportunity to meet--everyone should know, I met him in the 
campaign of George W. Bush, so there's no doubt about it. We 
are right, on the same side. I think today, for those who are 
thinking that there are two sides to this very, very scholarly 
Attorney General, I think you have convinced me and you should 
convince most Americans that you know her best and the side 
that you have described as the positive side of her is the real 
Gale Norton. I don't think there's any question about it. You 
did a marvelous job and I thank you.
    Madam soon-to-be Secretary, I would be very upset if you 
didn't disagree with the Secretary of the Interior who is 
leaving in some respects and on some issues. As a matter of 
fact, if you choose to be as mellow about the way you feel 
about some of his decisions, I might not vote for you. Who 
knows. I mean, you ought to honestly tell us that many of the 
things he has done and that he put on the books of this country 
are not exactly what George Bush for President wants, but you 
will comply with the law and hopefully you can make some 
changes.
    Changes in what? Changes in the endangered species law. Not 
that it should be abolished, but we are so timid and so 
frightened we won't even consider an amendment to it now when 
even the administration and the Republicans agree, because 
somebody is fearful that you shouldn't tinker with that law. 
Well, it's not working very well.
    You want to know about it, come down to my State and see 
how the Bureau of Reclamation is about to determine that our 
water is all Federally controlled because of an endangered 
species. We aren't going to let that happen. We don't believe 
the endangered species, in that case a minnow that's preserved 
there, that we should let the Government run all of our water 
up and down the Rio Grande, our only real water supply. And 
we're not going to let that happen.
    I'm very pleased this election occurred because I believe 
you're not going to let it happen. When you see the equities of 
that, you're going to work toward some habitat and cut out the 
fighting that's been going on down there.
    My last observation is, if you weren't willing to take some 
new views on energy supply as it pertains to your properties, 
the properties you will run for all of us, then I would not be 
voting for you, because I believe we need some changes. We have 
a detailed report on energy supply from the public domain. It 
was issued only 2 months ago. I urge that you read it. It says 
on properties that have been withdrawn there are 200 trillion 
cubic feet of natural gas. It is worth looking at those in 
light of our energy dilemma when we use 20 trillion a year. 
That's 10 years supply. There ought to be a darn good reason 
for locking it up when California's got their lights out today 
and maybe tomorrow they won't have any industry left.
    In conclusion, I assume you would be willing to be tasked 
by the President to work on energy issues as you work on the 
other issues and to look at those in light of your policy 
decisions; is that correct?
    Ms. Norton. Senator Domenici, I would be proud to work on 
trying to solve those difficult problems.
    Senator Domenici. My last one has to do with Indians. You 
talked about what you might do and you left out one big thing, 
so I would ask you to include it, because you talked about what 
the President-elect said. He said to the Indian leaders in New 
Mexico as a public statement that he would put $1 billion in 
this year's budget for Indian public schools. I think you 
should add that to your testimony, and since he said it I would 
hope you would agree that you will support it.
    Ms. Norton. I will strongly support that.
    Senator Domenici. What we've got now is a school system 
where the buildings are falling down, the Indian kids are in 
buildings we would not have other than Indians in, and he wants 
to get rid of the problem in 5 or 6 or 7 years. We've been 
working on it for 5 or 6. I laud him for it and I think you 
should support that.
    Thank you very much, Mr. Chairman. I yield.
    Chairman Bingaman. Senator Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. Ms. Norton, thank 
you for the chance to have visited with you.
    I believe the American people will vigorously resist 
exploitation of public lands by private interests. I also 
believe that they will not resist and in fact will welcome an 
Interior Secretary with creative ideas for forging consensus, 
both to protect our treasures and be sensitive to our economic 
needs.
    Anyone who believes it can't be done ought to just take a 
look to my right--he likes to say he's always to my right--
where Senator Larry Craig sits. He and I worked together to 
resolve one of the most contentious natural resource issues 
last session dealing with timber harvests and payments to rural 
counties. So, it is possible to find consensus on these issues.
    I can tell you as a westerner, I share the view that one 
size does not fit all. When you're trying to comply with 
environmental law, what works in the Bronx may not necessarily 
work in Pineville, Oregon. But you have to convince me in these 
hearings that, as you provide flexibility to States and various 
other parties, your bottom line will be unwavering: All Federal 
environmental laws must be complied with, and you will have to 
enforce them.
    Finally, I will tell you I am concerned about the approach 
that you have supported in the past with respect to self-
policing. Here again, it's a matter of degree. I like the idea 
of having people come forward and take the initiative, but I'm 
concerned in a number of cases like Summitville, where that 
approach was allowed to go on for too long, and I hope that you 
will take a different position.
    Now, for purposes of my question I'd like to follow up on 
what Senator Bingaman asked about in terms of enforcing the 
law. You said categorically you would and we appreciate that. 
But I have an article that I'd like to submit for the record 
from the Denver Post, where, when you disagreed with the 
affirmative action program in Colorado, they had to go out and 
hire outside counsel to represent the State.
    Now, I know absolutely nothing about the affirmative action 
law in your State. I'm against quotas. Affirmative action can 
certainly be improved. But would you do that again or have your 
attitudes changed, because when you told Senator Bingaman you 
would carry out the laws of the land as they are written and I 
have in front of me the Governor having to go out and hire 
outside counsel to carry out a State statute, that doesn't seem 
to square.
    Ms. Norton. Senator Wyden, I appreciate the opportunity to 
respond to the questions that you have raised. Let me begin 
with the last point, on affirmative action. As Governor Owens 
described in his comments--and I thank him for his warm 
comments toward me--the program in question was not a State 
law. It was a program that was adopted on a discretionary 
basis, and that program was later held to not comply with the 
standards established by the Federal courts and so that program 
was essentially thrown out by the courts.
    As Attorney General it is my responsibility to advise the 
agencies of State government and I provided that advice to 
them. They felt that, and I concurred, that it would be 
stronger for them to have someone else who had not provided the 
advice that I did to them, and they went forward with a 
different attorney and they were not successful. I think my 
position on that was vindicated.
    As to Summitville, I think there has been some 
misconception that Summitville was an example of self-policing. 
It was not. It was a situation that was a company that did not 
comply with the laws that were in effect. My office took a very 
vigorous role in trying to deal with the Summitville mine 
situation.
    When we heard that that company was going into bankruptcy 
and had plans to just walk away and not operate the water 
treatment system, that cyanide would be flowing down into the 
river, we immediately stepped in to get a court order to 
prevent that from happening. We worked in the bankruptcy court 
to obtain as much as we could through that company's bankruptcy 
to try to use that money for the cleanup process. We cooperated 
with EPA, with the other State agencies, to try to have a 
coordinated approach.
    As a result of that coordinated approach, working with the 
State and the Federal regulators, we have taken actions to deal 
with what was a disastrous and awful situation.
    Senator Wyden. I know you cooperated with the Federal 
Government. But my concern is, when it was in your court, my 
sense is you were slow to deal with the issue. For example, the 
Denver Post on November 10, 1995 took you to task when they 
said that the environmental task force, with which you worked 
closely, was debating whether to extend the statute of limits 
on environmental crimes. You ultimately decided not to press 
the issue. They thought you should, rather than take it to the 
Federal Government.
    I guess my concern is, as with the answer on affirmative 
action, I gather that there you felt you would lose, so you 
wouldn't challenge the law, the law that is on the books. On 
the Summitville question, I think there was an opportunity for 
the State to have demonstrated leadership earlier on. These are 
some of the philosophical questions that I think need to be 
explored.
    Now, in your comments to Senator Dorgan you touched on an 
area that is very important to my constituents and that's the 
Endangered Species Act. I happen to believe that we can protect 
these species and be sensitive to local communities. You 
challenged the constitutionality of the Endangered Species Act 
in an amicus brief that you filed in the Sweethome case. Now, I 
would like to know whether you would no longer file that brief 
today, given the opportunity to serve in this position, and 
whether that's what you meant when you told Senator Dorgan you 
supported the constitutionality of the Endangered Species Act.
    Ms. Norton. Let me first address an unfinished point as to 
the Summitville matter, and that is that criminal prosecutions 
did occur. My office worked with the Federal agencies. And yes, 
we were frustrated by the fact that we had a short statute of 
limitations. We felt that in that situation, working through 
the environmental crimes task force that my office took the 
initiative in establishing, that it was best for us to work 
cooperatively with the Federal agencies.
    That has resulted in, I believe, the strongest possible 
action being taken against the operator of that mine. We have 
recovered--just recently they've recovered millions and 
millions of dollars against that operator, that will go into 
the cleanup of that site.
    As to the Endangered Species Act, I was involved in a piece 
of litigation that dealt primarily with the interpretation of 
the act and how that would be applied. The States of Arizona 
and Colorado filed a brief in which we said that it should be 
interpreted in one way. The U.S. Supreme Court decided that it 
should be interpreted differently. I will certainly uphold the 
position taken by the U.S. Supreme Court and will enforce the 
Endangered Species Act.
    Senator Wyden. I have a number of other questions, Mr. 
Chairman, but the light is on. I appreciate it.
    Chairman Bingaman. Thank you very much.
    Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you very much.
    Gale, it is really an honor for all of us to have you 
before this committee for your confirmation hearings. As the 
crowd was gathering, I had never seen so many photographers in 
my life. Now, as a politician I was extremely jealous. I mean, 
I work at trying to get a crowd out like this and they never 
come.
    I couldn't imagine that that crowd had assembled for you. 
Really, I thought they'd come to see Ben's new bike. If you 
don't know, Ben's got a beautiful new bike that he's going to 
have in the Inaugural Parade the day after tomorrow, and it is 
a gorgeous sight to behold, I am told. I was quite confident 
that's why all of you photographers had assembled.
    Not the case. The case was that you had been promoted in a 
way that just does not meet the standards of the record. And it 
is exciting for me not only to hear your Governor, but your 
colleagues, your two Senators, begin to set that record 
straight, and we have heard repeatedly again here today that 
somehow what has been said about you over the last good number 
of days, when literally the Senate has placed a gag order on 
you and your colleagues, simply doesn't seem to match.
    So it's always fun, exciting, and appropriate that we have 
you here to speak in your own words, as you are doing so well 
at this moment, on these kinds of issues.
    My colleague from Oregon Ron Wyden mentioned the success 
that he and I had recently on a piece of legislation that dealt 
with public lands and communities of interest that had been 
dramatically depleted of their resources for schools and 
counties and roads and bridges over the last decade because we 
have reduced logging on our national forests by over 80 
percent.
    Now, having said that, I am not going to suggest that you 
come and return to that. But what I am of the belief, and 
you've mentioned it at least three times in your statements, 
and I've kept track, you've used the word ``collaborative.'' 
That is an exciting new term that the national preservationists 
shudder at. Ron Wyden and I implemented it for local 
communities to begin to work together with all of the 
stakeholders of interest at those local community levels to 
resolve the current crisis in the relationship between 
economies and local communities and the public lands around 
them.
    The reason the national preservationists don't like that 
term and the reason the photographers have assembled today and 
the reason the word has gone out about you is that they are 
losing their top-down authority to control the way decisions 
are made without public participation, without the 
collaborative process. Most importantly, without this community 
or this committee of jurisdiction.
    I find it interesting, Gale, that your predecessor who is 
soon to be leaving his office treated this authorizing 
committee in this way. He said: ``It is a highly partisan 
debating society, staffed by munchkins that wrangle a lot.'' 
Now, I know that aggravated the ``h'' out of me, and my guess 
is if you continued to treat us like your predecessor has it 
would begin to aggravate the heck out of my colleagues on the 
other side.
    You see, collaboration not only is important for local 
communities of interest today, it is extremely important for 
all of us, working with you, to arrive under the law at the way 
we resolve these public land disputes when they occur, but, 
most importantly, to establish long-term policy that impacts 
our States and these valuable lands and the treasures upon 
them.
    As you know, yesterday the President again in great pride 
and gesture announced new monuments. Let me tell you briefly 
the story of one that occurred in Idaho in the last few weeks. 
It is to recognize internment camps where Japanese Americans 
were held during World War II. It was a time in our Nation's 
history we will not repeat and we are embarrassed about. And 
that area, an internment camp in Jerome County, south central 
Idaho, should be recognized. I agree and the whole of the 
delegation and our Governor agree.
    Herein lies the problem. And as I describe it to you, you 
will know all so well why I had to publicly oppose the 
designation--not the intent, not the purpose, and not the 
value. We were told it was going to happen, some 70,000 acres 
of land set aside for the designation. I said to the gentlemen 
at Interior and Council of Environmental Quality: Do you 
realize that within your area there is an irrigation canal and 
a right of way for that canal for the Minidoka Irrigation 
District? Do you realize there is also a road right of way and 
that you're creating a new level of bureaucracy and a whole new 
relationship that this irrigation district and road right of 
way, county in this instance, will have to establish with the 
National Park Service? If you move your lines a little bit and 
you adjust a little bit, you can still have the purpose, but 
you avoid the conflict.
    Their answer was basically they didn't care. They wouldn't 
hold a public hearing. They wouldn't listen to the public. They 
wouldn't incorporate the interests of the broader area to 
adjust the boundaries to avoid the conflict. They seemed to be 
an awful lot interested in politics and not very interested in 
local involvement, in collaboration, and, if you will, a rather 
democratic process.
    So it is exciting to me that you would use the word 
``collaborative.'' Oh, it's inflammatory, because it suggests 
that all of us ought to be involved in decisionmaking on the 
resources of our public lands.
    I find it also interesting that you're being attacked over 
States' rights and Tenth Amendment issues. We are not a 
democracy. We are a representative republic. We are a union of 
States, and we are still that even though some would like to 
deny that. This means that States should and must have equal 
standing when it comes to deliberations that involve them, 
their resources, and their people. Somehow over the last 8 
years we've just forgotten all about that, or at least some 
have who preside within the Beltway of this city.
    You and I may differ a little bit on States' rights, but I 
think we understand the relationships, the value of States and 
governors and our responsibility to them, but also our 
responsibility to the Nation and to the resources involved.
    I look forward to working with you. I think you will be 
confirmed by a large and substantial vote of the U.S. Senate, 
because the billing that you're getting isn't holding up. The 
record will set you free, because it is an outstanding record 
of service to the public, service to the resources and to the 
environment that we all love.
    I thank you for your willingness to commit yourself to what 
you have committed to for the next 4 years and I am confident 
that we will have a collaborative working relationship that 
involves both Democrats and Republicans, that we will not see 
king-like actions being dictated to us by a Bush 
administration, recognizing that all of us ought to have a 
piece of the action. That's the way our country works in a 
republic through a democratic process.
    Thank you for being with us.
    Ms. Norton. Thank you.
    Chairman Bingaman. Senator Graham.

          STATEMENT OF HON. BOB GRAHAM, U.S. SENATOR 
                          FROM FLORIDA

    Senator Graham. Thank you, Mr. Chairman, and welcome, Ms. 
Norton.
    I would like to talk some about the issue that Senator 
Craig has just explored, and that is collaboration. My 
particular interest is your views on the role of the States and 
the Federal Government and particularly the Department that you 
have been nominated to head in the management of natural 
resources which are either within that State or adjacent to 
that State. Could you give us some general statement of your 
philosophy as to what should be the role of the States in 
determining uses of natural resources that are in properties 
owned by the Federal Government, but either within or adjacent 
to those States?
    Ms. Norton. Thank you, Senator Graham. The very difficult 
issues of trying to manage public lands are best illuminated by 
the information that comes from the people who know those lands 
the best. The Federal Government obviously has control of its 
lands and constitutionally it is the Federal Government that 
makes the decision about those lands, and there is no mistake 
that it is Congress and the Federal Government that have 
control over those issues.
    We ought to have, though, a cooperative working 
relationship with the States. When decisions are made in a way 
that involves the States, those I think are the best decisions 
in the long run.
    A few years ago I worked with Senator Hank Brown, when he 
was in your midst, on the issue of wilderness areas in the 
State of Colorado. As State Attorney General, I worked with him 
in trying to deal with some of the water issues that came from 
the designation of that wilderness area. We worked with 
environmental groups and local governments, trying to find the 
best way of handling those issues that was really tailored to 
what we needed in Colorado to be able to preserve our 
wilderness.
    What you need in Florida is obviously different than what 
we needed in Colorado. There are no ``one size fits all'' 
solutions. So I would hope to work with the States to be able 
to find the things that would best fit each State.
    Senator Graham. Well, I am pleased at that response. The 
particular issue or application of that issue that I am 
concerned with is the use of the Outer Continental Shelf which 
is adjacent to our State. For 20 years through Republican and 
Democratic administrations here and in Tallahassee, if there 
has been one issue which has united our State, it is an 
appreciation for the potential vulnerability of both our 
environment and our economy to oil and gas development in the 
Outer Continental Shelf. For approximately 20 years, the 
Congress has repeatedly passed a series of moratoriums against 
any additional grant of leases in that, off the coast of 
Florida.
    I was concerned when I saw an item issued by the National 
Ocean Industries Association urging the Minerals Management 
Service to include offshore moratoria regions in the agency's 
next 5-year Outer Continental Shelf leasing program. Could you 
comment as to what you feel should be the significance of a 
State's determination in opposition to further Outer 
Continental Shelf leasing in areas adjacent to that State?
    Ms. Norton. Consistent with the idea of trying to take into 
account the wishes of local communities, President-elect Bush 
has made clear that he supports continuing the moratoria on 
offshore leasing as to California and as to Florida, where the 
States have opposed that offshore activity. There are, as you 
know, some areas that are not covered by that because the 
process has already taken place, and those issues will need to 
be dealt with on a case by case basis.
    Senator Graham. Would you believe that other States such as 
North Carolina, which has taken a similar position, would be 
accorded the same treatment that California and Florida would 
be accorded?
    Ms. Norton. We would work with the officials from those 
States to try to reach an appropriate solution.
    Senator Graham. During the administration of the first 
President George Bush, there was not only the continuation of 
moratorium on existing leases, but a buy-back program for 
leases, particularly in the area of the Florida Keys. Would you 
support an expansion of that lease repurchase program to other 
areas adjacent to States which have taken a position similar to 
Florida's?
    Ms. Norton. That, Senator, if an issue that I will have to 
explore more and learn more about as I move into the position 
of Secretary if I am confirmed. I will be happy to work with 
this committee and with you to try to resolve that issue.
    Senator Graham. I would hope that early on in your 
administration that we would have the opportunity to sit down 
and develop a plan that would be acceptable to the 
administration and to the States affected for that purpose of 
eliminating the threat that is represented by leases, many of 
which are many years old, to the environment and economy of 
those States.
    There is an immediate issue now and that is a proposal for 
the grant of a drilling permit on one of those leases in the 
vicinity of Pensacola, Florida. Would you plan to work with my 
State and other States that might be subject to such a 
potential drilling to assure that the wishes of the State are 
fulfilled?
    Ms. Norton. Yes, Senator Graham, I would be quite 
interested in working with those States and in learning more 
information about that issue so that we can make a good 
decision.
    Senator Graham. When we met in my office we talked about 
some of your principles as they relate to private property 
rights and I tried to suggest a few hypothetical cases in order 
to elucidate how those principles might apply in a reality 
case. If I could suggest another of those hypotheticals, assume 
that the unfortunate situation should occur that a drilling 
permit were to be granted for one of these currently 
outstanding leases. The effect of doing so would have an 
adverse effect on the value of private property adjacent to 
where those wells might be drilled. It would also have an 
adverse effect on commercial activity, such as hotels and 
motels.
    Would you support Federal compensation for commercial and 
private owners who experienced a reduction in the value of 
their property as a result of the Federal Government first 
granting the leases and then granting the drilling permits to 
utilize those leases?
    Ms. Norton. Senator, it is important to recognize the 
impact of any Federal action on the people who are affected by 
it. There are legal standards for determining when compensation 
is appropriate. That kind of situation is probably not the sort 
of situation where direct compensation is ordinarily paid under 
the court system.
    The issue of compensation is usually a legal issue that 
depends upon the statutes and the court analysis. We also need 
to bear in mind that sometimes ways of trying to compensate 
people, whether that is direct compensation or whether it is 
ways of trying to mitigate the harms that are caused by an 
action, are also things that ought to be taken into account 
from a policy perspective in trying to be sure that when we 
have a benefit to society the burdens of that are appropriately 
and fairly spread across other people within society.
    To the extent that there are impacts upon people who are 
affected by a government program, whether it is people in 
Florida in the kind of situation that you describe, of whether 
it is people in the West who are affected by government 
decisions about Federal lands, those are things we ought to 
take into account and we ought to look at the whole range of 
different ways of trying to make sure that everyone is as 
satisfied as we can have with the decisions that are made.
    Senator Graham. Mr. Chairman, my time is up. I would like 
in the next round to come back and pursue this a little 
further.
    Chairman Bingaman. Very good.
    Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman.
    Gale, have you read the papers lately and read some of the 
paid-for advertisements that have been put in the paper about 
you, about how bad you are?
    Ms. Norton. I've seen a few of those, unfortunately.
    Senator Campbell. Hurt your feelings?
    Ms. Norton. Well, I have to say it doesn't hurt my feelings 
that much because it doesn't sound like me.
    Senator Campbell. It doesn't sound like you to me, either. 
But I have to tell you, as one who was in that pool for 
Interior for a while, am I glad you got it. My wife's 
particularly glad you got it. I am seriously glad because I 
know you could do a better job than I could anyway.
    My colleagues have talked about a lot of things. I wanted 
to focus just a little bit on Indian issues since I'm the 
chairman of that committee, and one in particular that you're 
familiar with and you've worked on yourself for years and 
years, the so-called Animas-La Plata. Years ago when Secretary, 
the last Secretary, came in for his confirmation, he made a 
commitment that he would do everything he could to get that 
built. But unfortunately, because the environmental community 
did sue under the Endangered Species Act, everybody over there 
in Interior went kind of limp and lost their spine and decided 
not to pursue it, and so we had to redo the whole thing.
    Senator Bingaman, Senator Allard and I and Senator 
Domenici, the four of us worked hard on this revised bill that 
you're now familiar with, that the President recently signed as 
part of the omnibus package.
    I just wanted to get your commitment that you're going to 
do the best you can to get that thing built. As you know, in 
1988 when we first passed it it was supposed to be built by the 
year 2000, and if we did not the tribes would have the 
opportunity to go back and pursue a lawsuit against the Federal 
Government. They signed off on the lawsuit. We actually paid 
them to give up that lawsuit on condition we build it. We paid 
them and the thing wasn't built.
    Well, under this new bill now we're off in a whole new 
direction and hopefully we'll get it built. We wrote the bill 
as tight as we could, but there's no doubt in my mind the 
environmental community do not want any kind of compromise or 
consensus. They want to kill that project, end of story. They 
want to kill that project. They're already talking about going 
back to court and saying that the Justice Department wasn't 
involved in the discussions and a whole bunch of other things 
to try to stop it in the courts again.
    I would hope in your tenure that we'd have a little more 
courage over there and not just simply knuckle under at the 
first threat of the environmental community going back to sue 
to stop that project again. It's the right thing to do. The 
States of Colorado and New Mexico have collectively spent over 
$50 million on building water projects, pipelines, as their 
part of the agreement. We have given the tribes over $57 
million. In fact, there'll be $10 more million under this bill 
that goes to them as part of the agreement to get them to 
relinquish some of their rights.
    We know, those of us who worked on it, it's the right thing 
to do. But we have not been able to get the past administration 
to show some courage and get that thing built. I would hope 
that you would do that.
    Ms. Norton. Senator, as you well know, the history of 
Animas-La Plata reflects so much of the tragic history that 
American tribes have faced in the past. There was a settlement 
reached. It was approved by Congress, and yet that settlement 
was completely disregarded when it came time to really carry 
through.
    As the Attorney General of Colorado, I looked at that from 
the issue of the water rights for the tribes and warned that we 
would be back in litigation that would go on for decades if we 
did not keep some of the commitments that had been made to the 
tribes. I support the efforts that you have engaged in. I 
personally participated in meetings that had the attendance of 
the number of people here today, who were concerned about 
Animas-La Plata and about trying to reach further resolution of 
the issues in a way that would carry forward the commitment to 
the tribes.
    I look forward to working with you to be sure that we can 
follow through now that Congress has reached a resolution.
    Senator Campbell. Well, we detailed in some depth in this 
bill all of the environmental things that we've complied with. 
In fact, we've complied with everything that we had to from the 
Federal level. So that will be in your corner if you have to 
end up in court defending the thing.
    Let me also mention that Senator Domenici talked a little 
bit about the President's commitment to Indian school 
construction. I was with him when the President made that 
commitment in Las Cruces in front of 13 tribal chairman. He did 
commit $920 million to $1 billion the first year that he's in 
office. Senator Dorgan has taken the lead many times around 
this place in committee and on the floor, too, talking about 
just the horrendous conditions of Indian schools, where 
children are expected to learn with broken windows and drafty 
walls and just unbelievably unsanitary and dangerous 
conditions. They can't learn in conditions like that. It's as 
simple as that, they can't.
    I'm just very pleased that the President-elect has made a 
commitment to doing something about that construction. But that 
construction will come through your Department and so I just 
wanted to alert you to that. I would hope you would support 
that, too.
    Ms. Norton. That has my wholehearted personal commitment.
    Senator Campbell. Thank you.
    Last, Senator Murkowski and I spent a good number of hours 
and in fact even introduced a bill to try to straighten out 
this mess with the trust assets that you're aware of, this 
missing $2.5 billion that I mentioned in my opening statement. 
The administration opposed that bill and we couldn't get the 
thing moving because they think for some reason they have the 
expertise to be able to do it.
    But just yesterday in the Denver Post there was another 
article, another story about how they are not straightening it 
up. It is still a mess. I mean, they've got, they estimate, 
over 100,000 missing documents, they've got documents stored in 
trash bags and old cardboard boxes full of rat feces in 
warehouses in New Mexico and around the country. I just am 
still not sure that they're going to be able to straighten it 
up in house.
    But I would hope you would also make that a priority and 
work with Senator Murkowski and Senator Bingaman and I, who are 
all very concerned about that.
    Ms. Norton. It's alarming to hear that we have such large 
amounts of money that ought to belong to the Indian people 
themselves that has become lost somewhere in the bureaucracy of 
the Department of the Interior, and I will do what I can to 
work to straighten that out. I will work with this committee to 
try to find the best way to resolve that so that we can see 
that it's all straightened out at some point in the future.
    Senator Campbell. I appreciate it.
    Thank you, Mr. Chairman.
    Chairman Bingaman. Senator Bayh.

           STATEMENT OF HON. EVAN BAYH, U.S. SENATOR 
                          FROM INDIANA

    Senator Bayh. Thank you, Mr. Chairman.
    Ms. Norton, thank you for being with us. I want to express 
my appreciation for the courtesy you paid me of coming to visit 
and acknowledge that we have several friends in common whom I 
have a great deal of respect for, including the former attorney 
general of our State, who I happen to be having dinner with 
tonight, so maybe I'll continue my queries with him this 
evening over dinner.
    Let me just give you my framework that I would ordinarily 
apply for hearings like this and making decisions on 
confirmations like this. I customarily would feel that the 
President is entitled to a great deal of deference in choosing 
members of his Cabinet, for a couple of reasons. First, that I, 
in most circumstances, would express support for the willing of 
the American people as demonstrated by at least a plurality in 
the recent election; and secondly, because the remedy for 
public policy disputes is almost always, or almost always 
should be, take it to the next election. If you have a 
difference of opinion, take it to the voters, let them decide.
    There'd be a caveat for that, though, when it would come to 
examples of public policy that might have long-lasting 
consequences, not susceptible of being remedied in the next 
election, or any time soon. So just to give you sort of the 
parameters of my thinking, it would be: Short-run policy 
differences, take it to the next election; long-term 
consequences for policy changes not susceptible to remedy any 
time soon, maybe not quite as much deference in those sorts of 
cases.
    So with that as a background, I'd like to start by asking 
you some questions of broad policy or philosophy and then get 
to a couple of specific examples. I'm going to start by--Ben 
had to leave, but I think he and Governor Owens and several 
others alluded to some of the ads that have been run and to 
some of the characterizations comparing you to Mr. Watt and 
that kind of thing. Those sorts of things, I want to make 
clear, are unfortunate. From our personal interaction, I can 
tell you're a person with a very pleasant demeanor and a 
conciliating manner, which I think is good. I don't know Mr. 
Watt, so I can't speak to him, but some people have said 
there's a stylistic difference.
    My concern is more of a substantive nature. Based upon his 
actions when he headed this Department, or some of the 
positions he has taken publicly or in the institute that he 
helped to found, can you give us an example of an important 
public policy with which you disagree with Mr. Watt?
    Ms. Norton. Senator, that is difficult for me in a respect 
that you might find surprising, and that is I don't know 
everything that Jim Watt thinks about issues. I have only 
really spoken with him once in the last 10 years. I am not in 
constant communication with him and discussion of policy 
issues.
    I think we might have issues in common, but in the 20 years 
since I worked at Mountain States Legal Foundation at the same 
time Jim Watt did I've had a lot of different experiences. My 
experiences at Mountain States Legal Foundation were in 
defending some wonderful people of the West, defending ranchers 
and farmers and small business people who were very earnest 
about the things that they did and who in good faith really 
felt strongly about their land and their ability to make 
decisions.
    Since that time, I've also had the opportunity as Attorney 
General to deal with people who did not have that kind of a 
regard, to deal with people who thumbed their noses at the 
environmental laws, who flagrantly violated those laws. Those 
people, some of them are spending time in prison because of our 
prosecution of them. We recovered tens of millions of dollars 
in fines and penalties against those who violated Colorado's 
laws.
    I think the reality of who I am is different from the 
characterization of who Jim Watt is. I mean him no disrespect, 
but I am my own person.
    Senator Bayh. Thank you. I think you know that some have 
raised questions and want to draw analogies between you and Mr. 
Watt because of your association long ago, and you can 
understand why they would--I think you answered my question 
sufficiently and I appreciate that, but I think you can 
understand why they would be looking for perhaps some specifics 
to say, look, I wouldn't be like him, or the philosophy in some 
particular respects. I recommend that to you.
    Secondly, again from a broader philosophical term, you've 
been an eloquent spokesperson for the rights of individuals, of 
States, of businesses. As a former governor, certainly the 
interests of States certainly resonates with me. You've 
expressed some doubt about some different Federal statutes--the 
Endangered Species Act, the Surface Mining Act, the Clean Air 
Act, the Americans With Disabilities Act. My question would be 
that if there is not a compelling national interest in these 
cases, when would you find--when is there a compelling national 
interest in protecting the American people in these or other 
areas? Philosophically speaking, when should the national 
interest be predominant?
    Ms. Norton. As an attorney who has dealt with 
constitutional issues and dealt with those issues from the 
perspective of a State Attorney General and as someone who has 
represented other States as an attorney, I look at the ways in 
which laws are structured. Because I might disagree with the 
way in which the law is structured and the kinds of mandates it 
puts onto a State, I don't necessarily disagree with the goals 
of those laws.
    I support the Endangered Species goals of preserving and 
protecting endangered species. I think that mining operations 
ought to be reclaimed, as the Surface Mining Reclamation Act 
requires. I think that we ought to provide opportunities for 
people with disabilities. In fact, the second law review 
article I ever wrote was about providing access to mass 
transportation for those with handicaps.
    There are many things where we may disagree about the ways 
in which laws are structured, where the States might like to 
see more control in their own ability to make decisions and the 
Federal Government might like to see more control lodged with 
it. But there is a broad national consensus behind those laws 
and that should not dissuade us from pursuing the goals of 
those laws.
    Senator Bayh. Your concern was not that there was not a 
legitimate national interest or even that national legislation 
was inappropriate; it was simply in the specifics, the details 
of the different acts?
    Ms. Norton. There are oftentimes ways in which the Federal 
Government can reach the same result in two different ways and 
one of those results can impact very heavily on the States and 
cause problems for States in being able to implement it, while 
another way of reaching that same end point is one that allows 
the States and the Federal Government to work cooperatively 
together. I've tried to work for those areas where that kind of 
cooperation can take place.
    Senator Bayh. Thank you.
    Is there a light on? I don't want to go on and on over my 
time here, Mr. Chairman.
    Chairman Bingaman. You have 13 seconds.
    Senator Bayh. 13 seconds. Ah, well. I can't do more in that 
amount of time, Ms. Norton, than thank you again and say that 
perhaps in a round of questioning tomorrow--and I apologize for 
having to slip out. We've got multiple balls we're trying to 
keep in the air around here.
    But I noted that Senator Graham was asking about some 
aspect of takings and I'm interested in some of your thoughts 
about that. Perhaps we can pursue that in the next round of 
questioning. But again, I appreciate your presence here today 
and your visit and your willingness to address our questions. 
Thank you.
    Chairman Bingaman. Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    It's interesting--welcome, Gale. It is nice to have you 
here. It's interesting how sometimes you're asked to 
differentiate yourself from Mountain States, but seldom do we 
ask others to differentiate themselves from the League of 
Conservation Voters. It would be something we probably ought to 
try.
    I agree with my friend from New Mexico that we need to take 
some different approaches to resolving the problems that are 
involved in resource management. Taking a different approach 
than the previous Secretary in solving these problems, however, 
doesn't preclude concern for our natural resources, and I think 
that's what you've said.
    The last 8 years, this previous administration, the 
relationship between the agency and people in the West has been 
pretty marked by distrust and I think we need to change that. 
It's time, I believe, for a new chapter in the Department of 
the Interior which reflects cooperation as we search for 
conservation goals and public access, which I think is one of 
the things.
    I'm particularly interested, as you know, in parks. In our 
last budget, the administration put more emphasis and more 
dollars into acquisition than they did on maintenance, and yet 
we talk a lot about backlogs, which are real, and we need to do 
something about that. Would you support a plan and the 
management necessary to carry out a plan to maintain the 
current needs and pick up on those needs in order to safeguard 
our parks?
    Ms. Norton. Senator Thomas, I was very surprised to learn 
that, despite the fact that we have an almost $5 billion 
backlog in maintenance and care for our national parks, the 
outgoing administration cut back on the budget for maintenance 
of our parks. I think it's very important and President-elect 
Bush has made clear that it is very important to him that we 
adequately maintain our national treasures.
    Senator Thomas. I certainly agree.
    One of the issues, of course, in States that are 50, 60 
percent owned by the Federal Government is the question of 
multiple use. Very important. We've talked about it generally. 
How would you sort of intend to guide the Park Service and 
Bureau of Land Management with regard to access and multiple 
use of those resources?
    Ms. Norton. I value the preservation of our lands and I 
value the ability of people to use those lands in an 
appropriate way, and I recognize that where we come from in the 
West often the only way to effectively live people's lives is 
to have access to the public lands. When vast portions of many 
of our States are owned by the Federal Government, the ability 
to have access to those Federal lands is very important. I will 
work to be sure that, again, those local issues are resolved 
with an eye toward what makes sense on a local basis, trying to 
figure out those things on a collaborative basis that are going 
to work best in each of those States.
    Senator Thomas. I can't resist a follow-up on an issue 
that's now involved in Yellowstone and Teton with respect to 
snow machines in the winter. I don't think anyone suggests that 
we continue to do what's been done in terms of the machines, in 
terms of the noise, in terms of exhaust. But in fact, rather 
than to seek to find clean machines, to change the management, 
why, the Department has just wanted to terminate that kind of 
access.
    What would you think about taking a look at seeing if it 
couldn't be changed so that access and preservation of the 
resources couldn't go together?
    Ms. Norton. I've been out cross-country skiing in the quiet 
of a snowy day in the forest and had snowmobiles go by, and I 
know that people can be disturbed by that. And I also know that 
wildlife can be disturbed by snowmobiles. But I'm hopeful there 
are ways that we can reconcile those issues. I would look 
forward to working with you to see if there are avenues of 
trying to allow us to use our resources so that all of that can 
be satisfied.
    Senator Thomas. There's an interesting--and the process is 
more the issue, Jackmar Hills in Wyoming. They studied for 
about 3 years in terms of an EIS and the NEPA to figure out how 
to handle it. They came up after all the public input and so on 
with some plans, and then the Secretary arrived, took a look at 
it, and suggested a different plan and they discarded all 
that's been done.
    Now, this is pretty destructive to the NEPA process and to 
the EIS process. Do you think that's an appropriate way to deal 
with those kinds of issues?
    Ms. Norton. Obviously, I'm not familiar with the details of 
that particular situation, but we would hope to use correctly 
the processes that call for scientific study and public input 
to reach the right kind of well thought out result.
    Senator Thomas. We've dealt again in the endangered species 
for 10 years at least on delisting grizzly bears, and all the 
scientists have indicated that there's indeed numbers that 
exceed what the plan was. The difficulty, of course, is 
designing some sort of rules on habitat. In any event, it's 
gone on forever. I've suggested and will probably introduce 
again the proposition where when you list an endangered species 
you also have to have a plan for recovery, so that there is 
some effort, which is the purpose of endangered species, is to 
find recovery, but it just goes on and on.
    What's your reaction to that?
    Ms. Norton. I would look forward to working with you to 
study that issue in more detail.
    Senator Thomas. Well, it's a tough one.
    I'm sharing all our little problems with you. Wild horses. 
It's pretty clear when you have any critters out on a range of 
some kind there's a limit to how much grazing there can be and 
how many units can be there. But of course, in years past, why, 
they starved to death or whatever, which we don't want them to 
do now. We haven't seemed to be able to come up, despite a 
lawsuit, which was in favor of doing some limitation, to 
finding a solution.
    It just seems like we need to commit ourselves to coming up 
with an answer and getting the question resolved. I don't know 
that I expect an answer, but I do want to share that situation 
with you and hope you'll take a look at it.
    I'm excited about your opportunity to be Interior Secretary 
and certainly am delighted that you're here, and thank you.
    Ms. Norton. Thank you.
    Chairman Bingaman. Senator Smith.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. Ms. Norton, welcome 
to this committee.
    In 2002, one of the loveliest places in the State of Oregon 
is going to celebrate a hundredth anniversary. It is the Crater 
Lake National Park. Can you commit to me today that we will 
have an appropriate celebration, that Ron Wyden and I will be 
invited?
    Ms. Norton. I would be happy to see Senator Wyden and you, 
Senator Smith.
    Senator Thomas. Be careful of that.
    Senator Smith. Gale, I appreciated the chance to visit with 
you the other day, and I think I mentioned to you my hope that 
you would find a way to enforce our environmental laws, to keep 
an environmental stewardship, but that you would remember a 
human stewardship that we have as well. I commend to you a 
model that the Oregon delegation, Republican and Democrat 
alike, pursued with Bruce Babbitt, that separated our State 
from, as far as I know, all the others in terms of national 
monuments that have been designated.
    We found a way to create 170,000 acres of wilderness in the 
High Steens and we did it without destroying the economy of 
Harney County. We respected the heritage of the people that was 
there, that are there. I think it's a credit to the joint goal 
that we ought to have of leaving the environment better, but 
remembering that people count in the environment as well.
    I could go over tons of local issues, like the Umatilla 
Project, where we exchange water to leave water in rivers. So 
many creative things can be done if we just work together 
instead of yell at each other. The Oregon salmon plan, our 
governor developed that with a Republican legislature. It has 
not had any standing in the environmental community because 
it's not driven by Washington, D.C.
    A lot of things can work if we'll start working together. I 
hope you'll bring that spirit to this job. I have reason to 
believe you will.
    I'm going to submit a written question to you about fiber 
optic facilities on public land and I hope you'll give us a 
response on that. It will require a more detailed answer than 
you're probably able to do now, but it matters a great deal to 
fiber optics spreading throughout the West and how the BLM and 
the Forest Service respond to those.
    But I'd like to quote in conclusion, Mr. Chairman, a person 
that I know as more than just a Democrat, a person I know as 
something different than just a committed environmentalist, a 
person that I know as more than just a Coloradan. His name is 
Representative Mark Udall. I know him as a cousin. My mother is 
Jessica Udall.
    Mark Udall said: ``She is articulate, highly intelligent, 
and hard-working. She is certainly knowledgeable about natural 
resource law and is regarded as someone who can work 
effectively in a bipartisan way.''
    If it's good enough for Mark, it's good enough for this 
Udall. And I hope my colleagues will vote for you in a 
bipartisan way.
    I noted with interest this rag with half of your face on it 
and I thought back to my own political experience in seeing 
things like this. I even saw one about my colleague Senator 
Wyden because he did a bill with Representative Craig by some 
of these same outfits. I've got to tell you, it's not helpful, 
because it isn't true. This is at best full of half-truths and 
in fact I believe it is a gross defamation of a public servant.
    I look forward to casting an enthusiastic vote for you.
    Thank you, Mr. Chairman.
    Chairman Bingaman. Thank you.
    Senator Burns.

         STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR 
                          FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman.
    Gale, thank you for stepping forward and doing this, 
because public service is very good service and you've chosen 
to do it in a very difficult area, in a time of need where we 
have the reevaluate some things that are happening with our 
natural resources.
    It seems as though the last administration, they did not 
manage resources, and it seems like their policies 
intentionally set up areas where there would be conflicts, and 
so they managed conflicts. I like your approach much better, 
that we manage our resources and we also do it at the local 
level.
    I was interested in the remarks of my friend from Oregon 
Senator Smith because he is coming on the Commerce Committee 
and I chair communications. I've always held that just because 
a kid is born in Rifle, Colorado, or Jordan, Montana, or 
Embler, Oregon, remote as those areas are, those kids deserve 
the benefit of distance learning and the same educational 
opportunities as those who were born in more urban areas and 
have a broader spectrum of curriculum.
    We have been denied--and when you hit the word ``access'' 
that is key because of not only the siting of towers for 
wireless broadband access to the Internet or ability to 
interact in distance education with our learning centers, like 
in his case Oregon, Oregon State, and our University of Montana 
and Montana State, and other, Rocky Mountain College and MSUB, 
but to access, to actually use those lands as a connector of 
communities.
    I think that's what we're all about, is bringing 
communities together, not only under the guise of education, 
but also how we interact on environmental problems, how we 
deliver and manage health care for our elderly that live in 
those remote areas, because we know that is changing every day. 
Telemedicine is a real part of the fabric of each one of us in 
our small communities.
    So I am very, very excited about your approach to those 
kind of issues and how they serve rural America. I am not 
blessed with a great urban area in the State of Montana. I said 
this morning I represent a State that has a great deal of dirt 
between light bulbs, and we have to deal with that. If you look 
from Eureka, Montana, to Alzeta, Montana, it is further than it 
is as the crow flies from Chicago to Washington, D.C.
    And those people deserve all the benefits that this free 
land offers and they should have them, and through that is 
through this thing of communications. I've always been on the 
Commerce Committee. I've worked in this area of communications 
and distance learning and telemedicine and those areas of 
hooking communities together to where we can solve problems and 
those areas.
    So I welcome your approach. I too have fallen victim to the 
Antiquities Act. I'm sure that we can work together on some of 
this area because it has taken in some areas which I think is 
very sensitive to those people that live in that area. 
Everybody in Washington, D.C.--and I regard this place as 17 
square miles of logic-free environment. But we are hammered by 
groups that do not believe that the people that live along the 
Missouri River or in eastern Montana or western Dakotas have 
faces. What about their next generation? What about their kids 
and their kids and their grandkids?
    What about our Native Americans that are on our 
reservations, that we can't even build schools for and build 
water systems? I've been very lucky. I've got two big water 
systems going in on the Rocky Boy and the Fort Peck. The basic 
thing of water.
    Gale, your approach--it was mentioned a while ago about 
water. How many of us have created a vision of what will this 
country look like in 2015, 2020, 2030, and our demand for fresh 
water, and where will we get it? Water management, as in 
spectrum management, as in management of hooking together 
communities. I think that's part of our responsibility here, is 
to be a part of a vision. It doesn't hurt to stop and dream a 
little bit and to think where we want to be in 20 years, and I 
think you've thought that out.
    I thank you for your visit. I thank you for your visit with 
our group down there. We're just a rogue group, but nonetheless 
we appreciate your commitment to what we think are the values 
that I think all Americans embrace. So I appreciate.
    The national parks, we are behind. Glacier and Yellowstone 
and the area in between is one of our greatest resources in the 
State of Montana. We want to maintain that as we build the 
Going to the Sun Highway and we do some things on 
infrastructure that allows people to enjoy that tremendous view 
and tremendous uplifting of American values that's represented 
in the grandeur of those two parks.
    So we really appreciate you. I was taken by Senator Graham, 
who wanted to make sure that you wanted to honor the moratorium 
of no offshore drilling as far as the State of Florida was 
concerned. And I'm sure that the Senator from California is 
also concerned about the same thing. I would also ask them if 
they would support us if my State wants access for exploration 
and management of our natural resources. We want access. So 
ours is another request. If we honor theirs, will they honor 
ours? I think that's a logical question.
    Thanks again for coming and I'm going to support you 
wholeheartedly and I look forward to working with your 
Department and working with Ben Campbell, and we've done some 
great things for the reservations. We've got water settlements 
to do and we must do that, and deal in the area of jurisdiction 
to make sure that every people, all the people who live on 
reservations, are represented evenly and fairly.
    Thank you for coming. If you want to respond to that, I 
don't know. You may.
    Ms. Norton. I think I will let your statement speak for 
itself and thank you very much.
    Senator Burns. Thank you, Mr. Chairman.
    [The prepared statement of Senator Burns follows:]
   Prepared Statement of Hon. Conrad Burns, U.S. Senator From Montana
    Thank you, Mr. Chairman, for the opportunity to address the 
Committee this afternoon. I welcome Ms. Norton to this hearing and 
thank her for giving us the opportunity to engage in this discussion 
today. After meeting with Ms. Norton, I am impressed with her 
intellect, her good ideas, and most importantly, her willingness to 
listen. That is a quality we can always use more of in this city.
    There is no doubt that today we will hear a lot of different 
opinions on the role of the Secretary of the Interior, and on the 
appropriate uses of public lands. This is a subject very close to my 
heart, because my home state of Montana contains so much public land. 
Montanans are affected very deeply by decisions regarding federal land, 
because they are the ones trying to make a living on that land, or live 
next to it, or use it for recreation.
    One example of the heavy-handed decision making displayed by this 
last administration was completed just yesterday when President Clinton 
declared 149 miles of land on the Missouri Breaks as a National 
Monument. I have expressed my disappointment in this action many times, 
to Secretary Babbitt, and yesterday to the President. Neither of them 
understand why I am so opposed to the designation. In their minds, it 
is an action to ``protect'' the area. And I ask them, ``Protect it from 
what?''. Protect it from the ranchers and the people who have kept that 
area looking almost exactly the same as it did 200 years ago when Lewis 
and Clark came through? The Montana Legislature passed a resolution 
saying, ``We don't need a special Monument designation.'' The BLM's 
Resource Advisory Committee, which was made up of people with all kinds 
of interests, did not recommend any special designation.
    The problem with this designation is that it was not done in the 
spirit of cooperation. The people who ordered it don't understand how 
it will affect people, and how it makes Montanans and other Americans 
mistrust government agencies when they ride into town and make all 
these rules without one concern for the ranchers, for the communities, 
and for the other people who have to bear the cost of these decisions.
    As you can see, it is very possible for the Department of the 
Interior to be a one-way street and hand down regulations unilaterally. 
I know that with Gale Norton at the helm, this will not be the case. As 
a person who understands the vast spaces of the West, I am confident 
that we can count on her to be open and fair. Besides the fact that she 
hails from the Rocky Mountain West, I support Gale Norton because she 
brings outstanding credentials to the job. Having served as the 
associate solicitor of the Department of the Interior, and as the 
attorney general of Colorado, her knowledge regarding public lands 
policy will serve her well. She will look for answers to the hard 
questions, and I am confident she will find them just as she has 
elsewhere.
    There are a few specific issues I would like to mention to note how 
important they are in Montana, and also for many other states. When we 
look at public lands, energy development and access to public land are 
vital to Montanans. These issues will be coming up again and again over 
the next few years, and I look forward to working with my colleagues in 
the Senate and with the Secretary of the Interior to craft sound policy 
with respect to maintaining a reliable supply of domestic energy and 
making sure our public lands are available to the public.
    When you look across this country, you see high prices for 
petroleum, for natural gas, and electricity. This means high fuel 
prices, and pressure on families who are trying to heat their homes, 
and manufacturing companies that have to shut their doors because they 
simply cannot afford to keep the power running. I realize this is not a 
hearing for the Secretary of Energy, but there is no way we can form a 
comprehensive energy policy for this country without considering the 
role that public lands play. I trust that as Secretary of the Interior, 
Gale Norton would keep this in mind, and work with Congress to make 
sure we are making wise use of our public land resources.
    Secondly, I want to talk about access. As far as I am concerned, 
the best role for government is to stay out of people's lives whenever 
possible. When we look at the record of the previous administration, it 
is obvious that this was not the philosophy where public land use was 
concerned. In fact, the goal seemed to be the opposite, to have 
government rules and restrictions so thick that no one could ever use 
public land for whatever reason. I am ready to end that era and start 
down a different road, and I appreciate the fact that Ms. Norton 
understands the role of private property owners and how that plays into 
public land management. I look forward to working with an 
administration that calls on Congress to help with establishing things 
like National Monuments and Wilderness Areas, rather than making scores 
of rule changes without the involvement of the stakeholders.
    Another area that the Department of the Interior must consider are 
policies concerning telecommunications and rights-of-way for the cable 
needed to expand high speed Internet access. Over the last year we have 
run into situations during Interior Appropriations season where the 
Department wanted to dramatically increase lease fees for fiberoptic 
wire running across BLM land, which would pose a severe threat to 
economic development in my state and others. I just want to bring this 
matter to your attention as an example of how the policies of these 
agencies need to adapt as the world changes with the dawning of the 
information change. There are so many new opportunities, I want to be 
sure they are not lost because of antiquated rules.
    These examples that I have mentioned are complicated problems, that 
will require well thought out answers, and I am confident that Gale 
Norton is the right person to lead the Department of the Interior in 
that effort. Just as we will need to work together in this evenly 
divided Senate, we will need to have people in place within the Cabinet 
who know how to listen, and how to cooperate. Ms. Norton has proven 
through her many years of public service that she is able to bridge the 
gap between people who do not see eye to eye.
    I am here today to offer Ms. Norton my wholehearted support in her 
nomination for the Secretary of the Interior. She is the right person 
for this job, and I cannot imagine how we could find anyone better 
qualified. I look forward to working with her.

    Chairman Bingaman. Thank you.
    Senator Cantwell, you will ask the final set of questions.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I appreciate 
that opportunity, being the new member on the committee.
    Ms. Norton, welcome to the committee. Again, I've heard 
compliments by former colleagues of yours, our attorney 
general, so I appreciate your work. Obviously, the Secretary of 
the Interior is a very significant position for our entire 
country, but has a significant impact on the Pacific Northwest. 
So I'd like to--I know there's been a lot of conversation and 
dialogue about your statements, but I actually was curious 
about your thoughts on a comment that President-elect Bush made 
recently--it was in the New York Times on the 14th of this 
month--in which he said ``I understand the Western mentality 
and I want the Western mentality represented in this 
administration.''
    He went on to say that ``We've got lawyers looking at every 
single issue, every single opportunity to reverse the actions 
Mr. Clinton has taken in the waning weeks of his presidency.''
    So I wanted to get your thoughts about that comment 
because, obviously, I look at the Western mentality maybe from 
a little bit different perspective, although I don't think that 
means that I have munchkins working as my staff or I'm joining 
the debate society here. I just believe from many parts of 
Washington State where we've had explosive growth that those 
environmental policies have allowed us to grow and preserve a 
great quality of life.
    In fact, the last 5 years I've spent hiring a lot of people 
in a company that grew from about 15 in 5 years to over 1,000, 
and I can tell you that one of the number one questions they 
asked was about the environmental quality in the Northwest. In 
fact, I had to convince a candidate at one point in time to 
join the company because we really did have urban growth 
boundaries in the State of Washington in the Puget Sound area 
to protect the quality of life and the State that that person 
was coming from didn't have those urban growth boundaries.
    So to me the Western mentality means also preserving a 
great quality of life. I know that that's a hard challenge.
    My specific questions come on two areas where the Northwest 
has managed, because of these policies, to implement good 
plans. The first of that is, under the Endangered Species Act, 
the habitat conservation plans. In fact, I was just in the 
State last week and heard from some of the timber industry who 
wanted to brief me on how much success they had made under 
those HCP's.
    My first question is, do you plan the request the necessary 
funding for the Fish and Wildlife Service so that those HCP's 
and further HCP's, the habitat conservation plans, can continue 
to be implemented?
    Ms. Norton. Thank you for that question. President-elect 
Bush has said that he very much values the efforts being made 
to preserve the salmon, and it's certainly consistent with the 
philosophy that I have discussed of trying to work with the 
locals to recognize the important efforts that have gone into 
the Pacific Northwest efforts to maintain the salmon 
population.
    While I don't know all of the specifics about that, that's 
something I certainly plan to study if I'm confirmed as 
Secretary of the Interior. But I do know that President-elect 
Bush has made clear his desire to work towards the efforts 
recognized by the Governors of the States affected by the 
salmon issues in the Pacific Northwest to try to have 
preservation of the salmon.
    Senator Cantwell. Thank you for that, for that answer.
    The second question is similar, a situation where I feel 
like we've made great progress, on protection of the Hanford 
Reach that was designated, and I know you had some questions 
earlier about the Antiquities Act, but our community was 
working well before the development of that as a national 
monument, trying to work out an agreement. So there had been a 
lot--in fact, there had been developed a local plan. So, while 
not 100 percent consensus, there had been a local plan.
    In that regard, this is a particular area playing a vital 
role in salmon recovery and covers over 195,000 acres of the 
last undammed stretch of the Columbia River. So in thinking 
abut moving forward in some of the statements, what will you do 
to make sure that we preserve that as a national monument and 
will you commit to not making any changes in that unless 
consulting with the Northwest delegation?
    Ms. Norton. I again look forward to learning more about 
that. I'm not really familiar with that particular area and 
with what the status of that area is. So I'll look forward to 
learning more from you about that.
    Senator Cantwell. So is that something that we could get a 
comment, again not to take the rest of the remaining few 
minutes of the committee's time, but is that something we could 
get a comment giving more details on, because it is a project 
that we would want to know your support of?
    Ms. Norton. We could certainly look at providing some 
comments for the record on that, some written comments.
    Senator Cantwell. Thank you very much.
    Thank you, Mr. Chairman, for that indulgence.
    Chairman Bingaman. Thank you very much.
    We'll plan to recess until 9:00 tomorrow and at that time 
we'll continue with any Senators that haven't had a chance to 
ask the first round of questions. If they're not here, we'll 
start with the second round.
    Thank you very much.
    [Whereupon, at 5:03 p.m., the hearing was recessed, to be 
reconvened on January 19, 2001.]


                         GALE NORTON NOMINATION

                              ----------                              


                        FRIDAY, JANUARY 19, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:00 a.m. in room 
SH-216, Hart Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    Chairman Bingaman. The committee will come to order.
    The committee resumes its consideration of the nomination 
of Gale Norton to be Secretary of the Interior this morning. 
The idea was that we would pick up where we left off yesterday, 
in the 8-minute first round of questions, but according to the 
information I have here the only Senators who have not had a 
chance to ask their first round of questions are Senators 
Nickles and then our new members, Senator Feinstein, Senator 
Kyl, and Senator Shelby, and I do not see any of them here.
    I know that again, today, just as yesterday, Senator 
Feinstein and perhaps some of the others are detained in the 
Judiciary Committee with that hearing as well, and so we will 
go ahead with the second round of questions and limit this to 5 
minutes per Senator and go around and ask those questions and 
see if there are additional questions Senators have. I will 
start and ask my questions.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Mr. Chairman, since we have changed 
rooms and I have already gone to the wrong room, I can cite 
that there is nobody waiting in the other room, but I do want 
to join you in welcoming again for the second day our nominee 
and look forward to resolving all of the questions that the 
members have and, as long as the roof does not leak, we ought 
to be able to finish this today.
    Chairman Bingaman. All right. Let me follow up on some of 
the issues that were raised yesterday. Some of those, some of 
your responses obviously were general, and the questions were 
general. Let me try to get down to more specifics.
    On the Endangered Species Act you indicated that you 
supported the goal of the Endangered Species Act, or at least 
that is what I understood you to say, but differed on the 
interpretation of certain provisions of the act. If your 
interpretation in that Sweet Home case had prevailed, as I 
understand it, the Fish & Wildlife Service would not be able to 
enforce the protection of habitat that was critical to the 
survival of a threatened or endangered species. That was the 
position I believe you took in that case, and had your position 
prevailed it would have significantly limited the ability of 
the Federal Government to protect endangered species as they 
currently do.
    Since your cosigning of that amicus brief in the Sweet Home 
case is one of the few public statements we have to judge your 
views on the Endangered Species Act, I guess I would like to 
ask not just whether you support the goal of the Endangered 
Species Act but whether, in fact, you still adhere to that 
interpretation of the act.

   TESTIMONY OF GALE NORTON, NOMINEE TO BE SECRETARY OF THE 
                   DEPARTMENT OF THE INTERIOR

    Ms. Norton. Good morning, Mr. Chairman and members of the 
committee. It is a pleasure to join you again today to talk 
about my background and some of the goals that President-elect 
Bush and I wish to pursue if I am confirmed as Secretary of the 
Interior. The Endangered Species Act, as I said, I do support 
the goals of that, but I also want to make clear that I will 
apply that act as it is within, and as the courts have 
interpreted it.
    The issue in the Sweet Home v. Babbitt case, one that did 
talk about habitat on private lands and, as we address 
specifically in the brief, on State-owned school lands, and 
that was the issue that we addressed specifically from the 
perspective of the States of Colorado and Arizona in the brief 
that was filed.
    That issue would not have limited in any way, whichever way 
the court decided, the ability of the Fish & Wildlife Service 
to enforce the provisions that prevent private parties from 
taking or harming or from in any way directly impacting the 
species themselves. All of those would have remained completely 
intact.
    The courts have decided that, in addition to things that 
affect the species directly, the Fish & Wildlife Service has 
the ability to regulate habitat on private land and I will 
enforce that provision.
    Chairman Bingaman. Well, thank you very much for that 
response.
    Next, I wanted to ask about the Surface Mining Act. I know 
you alluded to this yesterday, but again, just to clarify, in 
an amicus brief that you filed in 1980, or you cosigned, I 
gather, you argued that the Surface Mining Control and 
Reclamation Act was unconstitutional. As I understand it, the 
Supreme Court in that case ruled against the position you 
advocated. I guess the question is whether you still harbor 
concerns about the constitutionality of that act, or have 
problems with the current Department of the Interior 
interpretation of the Surface Mining Act.
    Ms. Norton. The Surface Mining Act, as you know, is 
designed to require the reclamation of property that has been 
mined and to ensure that mining takes place in an 
environmentally acceptable way, and that is something that I 
support. There were some differences in the way in which that 
was to be implemented and specifically as to the role of the 
States in implementing that. The U.S. Supreme Court directly 
addressed the issue of the State v. Federal in that act, and I 
will certainly enforce the law in the way that it has been 
interpreted by the U.S. Supreme Court.
    Chairman Bingaman. You were asked by several Senators 
yesterday about your view of the Takings Clause in the 
Constitution and the extent to which you believe that there is 
an obligation on the Government to compensate for takings in 
areas where they have not compensated in the past.
    There was an article in the Wall Street Journal yesterday, 
also dealing with that same issue, and saying that a market-
based approach outlined by Ms. Norton in her writing would be 
to require the Department of the Interior to pay for habitat 
required to help preserve endangered species. Under current 
law, the agency forces landowners to maintain habitat. The 
change, she writes, would force the Government to develop 
spending priorities, and then they go into some quotations from 
your writing. Could you clarify for us whether you believe that 
the Takings Clause needs to be reinterpreted in some way by the 
Department of the Interior?
    Ms. Norton. The issue that has been addressed by Congress 
and that has been very difficult for Congress to resolve in the 
Endangered Species Act has been the impact on private 
landowners and how we can best reconcile the impact on 
landowners with the need to preserve endangered species, and we 
want to see both of those kinds of things taken care of because 
we both care about farmers and ranchers and their ability to 
use their property, as well as the important desire to protect 
endangered species.
    The issue is largely one that is before Congress in terms 
of any reforms that it might make in the Endangered Species Act 
that would allow it to have some way of resolving those issues. 
The Takings provisions, as the U.S. Supreme Court has 
interpreted them, provide very specific guidelines as to when 
compensation is required. Beyond that is a question that 
Congress may want to consider to provide either additional 
compensation or in some other way to help resolve those issues.
    Chairman Bingaman. But you see that as a responsibility of 
Congress if it decided to compensate for takings in ways that 
the Supreme Court has not said are required?
    Ms. Norton. That is basically correct, but I would also 
like to pursue in that same spirit the proposals that 
President-elect Bush has made to provide landowner incentive 
programs like the one they have in Texas that provides 
voluntary assistance to private landowners to enhance habitat 
of endangered species, that provides technical assistance and 
some financial assistance to landowners in that way, and that 
is something that we would like to explore. I think that is the 
kind of innovative approach that helps reconcile those issues.
    Chairman Bingaman. Thank you very much. My time is up.
    Senator Murkowski.
    Senator Murkowski. Thank you, Senator Bingaman.
    Evidently, last evening the Secretary of the Interior 
issued a series of orders. Now we have not been able to get 
copies of those orders yet, but they could have severe impact 
on Western States and particularly my State of Alaska.
    This was done without any public process of any kind, and 
to suggest it was in the dark of the night, if it was not, it 
was close enough. In some cases, allegedly, these changes would 
overturn policies that have existed within the Department of 
the Interior for nearly 20 years. Some evidently involve 
designating wilderness study authority by the BLM. Some of it 
involves seismic activity in Arctic Alaska and the prohibition 
of seismic activity in various areas. Some of it evidently 
involves Alaska Native Corporation lands and trust 
responsibilities of the Secretary.
    Now, obviously, neither one of us knows specifically what 
we are talking about, but I would ask if you would commit to 
this committee that if you are confirmed you will review these 
actions by the Secretary, Secretary Babbitt.
    Ms. Norton. Yes, Senator Murkowski, I will certainly take a 
look at those actions. I am not familiar with--as you said, we 
are not familiar with what might be in those actions taken.
    Senator Murkowski. Well, since this is both a question and 
an answer opportunity, as well as an opportunity for members to 
make statements, I abhor this type of activity that represents 
special interest activities and pressures that evidently are 
prevailing within the Department of the Interior at this late 
date without the input of our Governor, without the input and 
consultation of the members of our Alaska delegation.
    Now, that leads me to another question with regard to your 
trust responsibilities. We have some situations in Arctic 
Alaska where there are Federal lands next to State lands. We 
have an actual case in point, where we have what appears to be 
a successful discovery on State land that is very close to 
Federal land. The question specifically is, what responsibility 
do you have to ensure that the Federal lands and anything 
beneath the Federal lands are not drained from activity on 
State land, and how do you propose to ensure that that is not 
occurring on Federal lands?
    Ms. Norton. Senator Murkowski, I would be happy to take a 
look at that issue and to work with you in helping resolve it, 
but at this point in time I do not really know enough about the 
situation in question to really have an opinion for you at this 
time.
    Senator Murkowski. Well, are you prepared to do everything 
in your power to protect the Federal oil and gas reserves from 
being drained from non-Federal lands?
    Ms. Norton. I will certainly enforce the rights of the 
United States to ensure that the property of the United States 
is adequately protected.
    Senator Murkowski. One additional question. We have a 
number of wildlife sanctuaries in the United States where oil 
and gas is recovered. One that comes to mind is the Paul J. 
Rainey Wildlife Sanctuary in Louisiana. It is my understanding 
that the National Audubon Society earns somewhere in the area 
of $50,000 a year from royalties. The Michigan Audubon Society 
has reaped benefits of hundreds of thousands of dollars from 
oil and gas leases in the Baker Wildlife Sanctuary.
    Now, a question of just whose control these wildlife 
sanctuaries are, and there are others as well, and some may 
overlap into your area of responsibility, but it does concern 
me that in the particular case of Alaska the Audubon Society is 
seeking to prevent our Alaska Native people from the same type 
of commercial activities, and I would ask if you can assure me 
that as Secretary you will not discriminate against Alaska 
Natives and their legitimate claim to the subsurface rights of 
their land.
    Ms. Norton. Senator Murkowski, I certainly want to respect 
the rights of everyone, the Alaska Natives, the Native 
Americans in the lower 48, all of those in every part of the 
United States who are going to be impacted by the decisions of 
the Secretary of the Interior. I will do my best to take into 
account the rights of everyone.
    As to the issue of the oil and gas production that is 
taking place within the areas that you mentioned, it is my 
understanding that those, the Rainey Wildlife Preserve is 
something that is owned by the Audubon Society itself, and that 
it has satisfied itself that there are ways of having energy 
production occur at the same time that the wildlife are 
protected. I would like to explore exactly what they have 
learned from that to see what we can do from the parkland 
perspective to make sure that we are in that same way 
reconciling the protection of species as well as the need to 
satisfy the energy that we need for our economy.
    It, I think, is something that certainly we can first learn 
from, but also I think it is important to look at that model 
for what we do with the resources that come from energy 
development. President-elect Bush has proposed that the 
revenues from any Arctic National Wildlife production would be 
used for environmental purposes, for conservation for 
alternative energy sources and so forth.
    Senator Murkowski. Thank you very much. My time is up. I 
will wait for a second round.
    Chairman Bingaman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. Ms. Norton, the 
reason we are asking you all these questions is that if ever 
there was a field that needed a uniter rather than a divider, 
it is natural resources. My sense is you have made significant 
shifts in a number of positions between yesterday and today's 
questioning.
    For example, on the Endangered Species Act, after you 
challenged the constitutionality of the Endangered Species Act 
in the Oregon case years ago, you told Senator Bingaman that 
now, not only would you follow the interpretation of the 
courts, but, in effect, somebody else would have had to go out 
and file the brief that you filed back then. So, on the 
Endangered Species Act, the right to pollute, and global 
warming science, it seems to me there have been significant 
shifts in your position.
    I want to explore some other areas that are important to 
me, and let me go back to the Summitville case we talked about 
yesterday. As you know, this was a case where a vast amount of 
toxic waste spilled into the Alamosa River in your State. 
Colorado was supposed to supervise that mine. It was the 
State's job. The State did not do it. It seems to me it did not 
watch-dog private parties, and then was pretty late in terms of 
getting the Federal Government involved.
    My question to you is: as Interior Secretary, what would 
your policy be to prevent more Summitvilles, not just deal with 
the problem after it is out of the barn, but what would you do 
as Secretary to prevent more tragedies like Summitville?
    Ms. Norton. Senator Wyden, first let me clarify a question 
that you asked, and that was on the Endangered Species Act. The 
brief that I filed dealt with one small portion of the act with 
one provision of the act, and not with the entire act.
    Senator Wyden. But it challenged the constitutionality of 
the statute, Ms. Norton.
    Ms. Norton. No, if I may correct you, it did not challenge 
the constitutionality of the entire Endangered Species Act. 
This brief was filed after I had spent time as the attorney who 
was primarily responsible for the administration of the 
Endangered Species Act for several years at the Department of 
the Interior.
    I had been involved in trying to restore the population of 
the majestic condors of California, and to work for many other 
species to ensure that they would not become extinct during our 
lifetimes. It is very important we do those kinds of things, 
and undermining that entire act, that is not the thing that we 
were attempting to do.
    Senator Wyden. I heard you tell Senator Bingaman somebody 
else would have to go out and file that brief at this point 
because you support the law as interpreted by the courts. Do 
you want me to take back what I earlier said? I, frankly 
welcome the position that you are articulated yesterday to 
Senator Bingaman, and we might want to leave it at that.
    Ms. Norton. Well, I will certainly uphold the Endangered 
Species Act and the concept of preserving endangered species is 
something that I view as very important. It is one of the 
responsibilities of the Department of the Interior that I will 
vigorously pursue.
    Senator Wyden. Preventing more Summitvilles.
    Ms. Norton. A very difficult challenge is to determine how 
we can go forward with utilizing our natural resources and 
protecting the environmental values of our lands at the same 
time. Summitville was a tragedy for the State of Colorado. We 
dealt with that situation once it occurred as well as we could.
    We went into court, dealing with obtaining an injunction to 
prevent the mine operator from walking away from the mine, with 
going into bankruptcy court to recover as much of the resources 
as we could to apply those to cleaning up the mine site. We 
worked with the United States in seeking to ultimately recover 
from those who were separated from the corporation that had 
operated the mine, but were nevertheless part-owners of that, 
and so we pursued that case very vigorously.
    We also learned in Colorado that to prevent future problems 
like that one of the things that we would look at was 
strengthening our laws and we made several changes in the law 
to be sure that we could prevent that sort of thing from 
happening in the future, that we would have the resources in 
terms of mine inspectors to deal with that sort of situation, 
so the State of Colorado learned from that experience.
    I would hope to take some of those same things and examine 
the Federal laws to see if there are appropriate changes that 
should be made. At this point I do not really know exactly what 
particular changes that we would propose. That is the kind of 
thing, though, that I would be learning from my past 
experiences and bringing that to the responsibilities of 
Secretary of the Interior if I am confirmed.
    Senator Wyden. The reason I ask the question is that to be 
preventive you have got to go after private parties early and 
watch-dog them, and what still concerns me about your record is 
that after the problem is out of the barn you are willing to go 
after the Federal Government, you are willing to sue the 
Federal Government, but to me, if you are going to have a 
preventive orientation you have got to be able to take on 
private parties early on when problems develop, and I want to 
ask you about the Asarco case as well as the Summitville.
    Chairman Bingaman. Could you hold that for your next round?
    Senator Wyden. I would be happy to, Mr. Chairman. I did not 
know time was up.
    Chairman Bingaman. Senator Craig.
    Senator Craig. Good morning, Gale, and welcome back before 
the committee. This is your first exposure to this committee, 
and I am sure you have watched or observed the actions of this 
committee in the past, but one of the things I think we are 
very proud of in this committee is the bipartisan way in which 
we work.
    We wrangle a bit, according to Secretary Babbitt. I do not 
know that we are munchkins, but this last year this committee 
by many voice votes produced the largest volume of legislation 
of any committee in the U.S. Congress, and that has been the 
record of this committee both under Democrat and Republican 
leadership, and I think all of us are proud of that.
    It probably also demonstrates the sensitivity of this 
committee to the issues it has to deal with, largely the public 
domain, and certainly energy, and we have worked very well 
together, and I am pleased about that, and I look forward to 
having you as a part of that bipartisan mix as we move down the 
road.
    Senator Wyden and others have expressed concern about your 
relationship to the Endangered Species Act, and I think you 
have clarified that well, but Mr. Chairman, for the record, let 
me read parts of a letter that came to us that I think is 
tremendously valuable in how it demonstrates Gale's actions as 
a public official, a national public official, to the 
Endangered Species Act. Senator Wyden expressed concerns about 
that. He and I work very closely with State Foresters out in 
our States, because of our States. This is a letter from a 
State Forester in the State of Nevada. I think it is worth 
reading in the whole.
    It says, ``I would like to apprise the committee of my 
professional experience with Secretary-designate Gale Norton. I 
served as Deputy Director and Interim Director of the U.S. Fish 
& Wildlife Service from 1986 to 1989. During these years, Ms. 
Norton was assigned as associate solicitor for my agency, and 
we dealt with some of the most contentious issues of the time. 
As a careerist, I can attest that Gale gave professional 
counsel of the highest caliber. She never injected partisanship 
or evidence of political agenda.
    ``Indeed, while others in the Department may have suggested 
otherwise, she repeatedly interpreted the law, gave solid 
advice, and defended those of us making the final decisions. 
One specific action seems most exemplary of Gale's integrity. 
The potential listing under the Endangered Species Act of the 
desert tortoise was one of the most controversial facing the 
newly installed Bush administration in 1989, and I know well 
about that issue. We held hearings out in Barstow, California, 
and out in Palm Springs.
    ``Secretary Lujan then was new to the agency and the 
provisions of the act. As the Interim Director of the Fish & 
Wildlife Service, I had to decide a listing that would have 
great impact on my home State of Nevada as well as other 
States. Gale Norton was there to provide even-handed legal 
advice, tempered with common sense personal advice. 
Essentially, Gale said, do what is right under the law. We did. 
The tortoise was listed, the species was improved, growth has 
been accommodated, and Nevada is the fastest-growing State in 
the Nation, peoplewise, along with the tortoise. That is my 
input.''
    And he goes on, but I ask unanimous consent that that 
become a part of the hearing record.
    Chairman Bingaman. We will include that in the record.
    Senator Craig. It is always nice to have testimony from 
professionals and careerists who watch political appointees, as 
you were at that time, deal in a forthright and evenhanded way. 
I think that once again, based on past actions, your actions 
before the Department of the Interior demonstrate exactly what 
you have been saying before this committee over the last 2 
days.
    Gale, when I first came to Congress we were worried about 
the condor. We were also worried about the B-1 bomber, and I 
said at that time that Congress was more successful in getting 
the B-1 to fly than they were a condor to fly. There was a 
little truth at that time, and that was the early eighties. You 
mentioned in your opening statement your relationship to that 
issue. Would you give us a little bit more of your experience 
in dealing with the condor, and your work inside the Department 
at that time?
    Ms. Norton. When I came to the Department of the Interior 
as associate solicitor the number of condors in the wild was 
dwindling. We watched with great concern as that population 
dwindled even further. There was a big controversy about 
whether we should leave those condors in the wild or should 
bring them in for a captive breeding program. As that debate 
had gone on, we had seen more of the condors in the wild die 
from the causes that were too often related to the actions of 
man. That is the kind of issue, of course, we will grapple with 
at the Department of the Interior with other species.
    The difficult decision that faced us was whether to bring 
those condors in. Over the objections of many in the 
environmental community, who said they should remain in the 
wild, that they were a symbol, and that bringing them into 
captivity would destroy that symbol, we made the decision to 
bring them into captivity, and through a successful captive 
breeding program condors have once again been released into the 
wild. Condors once again fly in the skies of the Western United 
States.
    It is a small population. It is certainly not yet out of 
danger. We took actions that were tough to be able to make that 
decision to have that species preserved from extinction.
    Senator Craig. Thank you, Gale. I think my time is up.
    Chairman Bingaman. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Mr. Chairman, yesterday in my round of questions I talked 
about the Department of the Interior and its role in the 
management of Outer Continental Shelf properties, and I would 
like to continue with some further questions in that regard.
    Yesterday, Ms. Norton, in your comments you indicated that 
President-elect Bush and yourself were fully supportive of the 
existing moratoria on new leasing in California and Florida 
waters. Is that correct?
    Ms. Norton. That is correct, Senator.
    Senator Graham. As Secretary of the Interior, therefore, 
would you oppose including existing moratoria areas in the 
Mineral Management Service's 5-year plan on which work has now 
begun?
    Ms. Norton. Senator, I will be happy to look at that issue 
at this point I am not familiar with the details of that 5-year 
plan and the implications of that, and so I will need to study 
that once I am confirmed, if I am confirmed.
    Senator Graham. But if you are fully supportive of the 
existing moratoria in California and Florida, would it not be 
inconsistent then to consider including in the 5-year lease 
plan which is currently being developed by the Mineral 
Management Service areas that are currently subject to that 
moratorium?
    Ms. Norton. Unfortunately, I simply do not know enough 
about the implications of that to be able to respond in a 
meaningful way.
    Senator Graham. What would be some of the implications that 
might make it consistent with a position of being fully 
supportive of the existing moratoria and yet also be supportive 
of including those same moratoria areas in the Mineral 
Management Service's 5-year lease plan?
    Ms. Norton. I would like to find out what criteria are 
involved in placing something on that plan, and whether it is 
something that reflects the moratoria. I am not sure why that 
program would not reflect the conditions of the moratoria that 
are in place, and so I would like to find out why the 
Department might be placing them on that list, despite the 
moratoria.
    Senator Graham. And despite the fact that you and the 
President-elect fully support those moratoria.
    Ms. Norton. That is correct. I would like to find out if 
there is such a reason. That is not obvious on its face.
    Senator Graham. I also understand from yesterday that you 
would give respect to the wishes of individual States as it 
related to determining their path relative to oil and gas 
development in Outer Continental Shelf areas adjacent to those 
States, is that correct?
    Ms. Norton. I'm sorry, could you please repeat that?
    Senator Graham. You also indicated that you would, and I 
use the word respect the wishes of individual States in 
determining the oil and gas development on Outer Continental 
Shelf properties adjacent to those States, and I use the 
specific example of North Carolina.
    Ms. Norton. The wishes of individual States are certainly 
at the core of President-elect Bush's support for the existing 
moratoria, and I would be happy to explore with this committee 
and with you any additional views by other States. We are clear 
as to Florida and California and their desires to have 
continued moratoria. We would seek the input from additional 
States in order to determine exactly what circumstances should 
apply as to those States.
    Senator Graham. On July 24 of last year, Chevron and its 
partners, Conoco and Murphy Exploration and Production Company, 
filed a lawsuit against the U.S. Government. That lawsuit seeks 
compensation for lease bonuses and rentals that had been paid 
to the Federal Government, exploration costs, expenses incurred 
for the preparation of environmental studies, and development 
plans and opportunities, costs associated with the project.
    This suit primarily involved a current lease that those 
firms have on properties adjacent to Florida, specifically near 
Pensacola, Florida. As Secretary of the Department of the 
Interior, would you recommend that the administration settle 
this lawsuit?
    Ms. Norton. Because that is a matter in litigation, and 
because it clearly seems to involve very complex legal issues, 
it would not be appropriate for me to take a position at this 
time. It is the type of thing that I will certainly work to 
become familiar with if I do become Secretary of the Interior, 
and would be happy to obtain your input in helping to resolve 
that issue.
    Chairman Bingaman. Can you withhold for the next round?
    Senator Graham. I will withhold for the next round.
    Chairman Bingaman. Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman. I have known 
Gale for many years and, very frankly, I am very comfortable 
with her positions and, if we were to take a vote right now, I 
would certainly vote for her. I do not know if we are going to 
get to that today or not, but I would rather use my time to 
make a couple of comments.
    Chairman Bingaman. Let me just--not taking from your time, 
let me just clarify. My intent would be to leave the record 
open for committee members to file questions up until 5 o'clock 
today, and then leave it to soon-to-be-chairman Murkowski to 
call the committee back to session next week for a vote.
    Senator Campbell. Thank you for the clarification. Does my 
time start over?
    Senator Murkowski. Let me comment on that if I can, 
because--I want it not to count on your time, but for the 
record I think it is appropriate, and I do not object to the 
proposal by Senator Bingaman, but the previous nomination for 
Secretary of the Interior, Secretary Babbitt, from the 
standpoint of the actions of this committee, the hearing before 
the Energy Committee took place January 19, 1993, and again the 
hearing before the Energy Committee took place at a continued 
hearing January 21, 1993.
    The nomination was reported from the committee on January 
21, 1993 and confirmed by the Senate that same date, January 
21, 1993, so on the sense of conformity, why, we have moved out 
with dispatch previously, but I have no objection to the 
proposal by Senator Bingaman, but wanted the record to note the 
action of the committee, and I would yield again back without 
loss of time to Senator Campbell.
    Chairman Bingaman. We will start your time again.
    Senator Campbell. Thanks, Mr. Chairman. I would like to 
start out by asking unanimous consent to submit two things for 
the record, one an editorial from the Denver Post of January 
11, 2001 very extensively exonerating Gale Norton from any 
responsibility in that Summitville mine mess, and another 
letter from the current Attorney General of Colorado, Ken 
Salazar, in which he does endorse her nomination.
    Let me tell you, Gale, some of the questions you are being 
asked maybe ought to be asked better of some of the other 
nominees. What has happened is that the DOE, the EPA, the Ag 
Department, Interior, it seems like everybody back here now has 
a piece of the action, if I can use that word, on American 
public lands, and yet the Interior Department, they seem to 
focus when things go wrong on the Interior Department, but that 
should tell you we need a lot of interagency cooperation. I am 
sure I can speak for most members of the committee to tell you 
we look forward to that, so it is not so confusing to us.
    But since the Endangered Species Act has been brought up 
two or three times, I want to comment on that. I happen to be a 
supporter of the Endangered Species Act. I think the original 
intent was good and support it, but I think that it has been 
used in a number of times rather than for saving a species, for 
doing something else, like stopping growth, and in my time I 
would like to mention a couple of things you are probably very 
aware of, the difficulty we have in getting the Animus La Plata 
built is because of the lawsuits filed under the Endangered 
Species Act on the squawfish, the humpback chub, and some other 
kind of fish that years ago used to be designated as suckers, 
or trash fish.
    I would point out that the Federal Government was 
responsible for killing the fish in the first place. We 
provided the money to Colorado and Mexico to poison 90 miles of 
waterways and then we throw up our hands in great astonishment 
years later and say, my gosh, fish are no longer there, 
therefore we have to put them on the endangered species list.
    But times have changed. The Navajo dam has been built, and 
I do not think you can talk to anybody in Senator Bingaman's, 
the northwest part of his State, or the southwest part of my 
State, that would say that we ought to tear down that dam to 
comply to the letter of the law in the Endangered Species Act, 
because under the letter of the law we are supposed to also 
provide the former habitat. We cannot do that We simply cannot 
do that. Times change. Water temperatures have changed.
    In the case of the Navajo dam the waterways have been 
stocked with trout. They are now gold medal fishing areas. I 
think only a nut would say we ought to tear that all down so 
that we could return the habitat to the fish that we 
intentionally killed. That is how the thing has gone awry.
    As an example, I did a hearing in northern Colorado a few 
months ago and a gentleman came down from Montana--excuse me, 
Wyoming to tell us a story of on his ranch how he had a dry 
pasture but he had water rights to be able to irrigate that 
pasture, and so he put a ditch in. There was nothing living. It 
was just dry as a bone in that area. He put a ditch in, and lo 
and behold the pasture became productive that some mice moved 
in. They were not there before. They migrated in, people's 
meadows jumping mice, and I am sure you are aware of the 
problems those have caused in Colorado.
    The mice moved in because there were now seeds and plants 
to eat. When the ditch silted in, as they all do--you have to 
clean them every year. Anybody that ranches knows that. When 
the ditch silted in and the water could no longer get there, he 
wanted to clean the ditch, he was prevented by the Federal 
agencies from cleaning the ditch because now it was the habitat 
of the mouse that wasn't there before. So when the ditch silted 
in, the whole thing went dry again and the mice left, and he 
lost the production of that field.
    I think those are examples of where the Endangered Species 
Act has kind of gone awry, and I know that some people are 
almost scared to death to say that we ought to revise that, or 
we ought to make some changes in that to express the reality of 
what is going on out in the hinterlands of America.
    The environmental community, I mean, it is like touching a 
third rail when you suggest that thing needs to be revised, but 
it does need to be revised, and I am not a bit shy about saying 
it, and I do not expect you to do that. That will not be your 
job, it is ours, but there have been several bills introduced 
that would make some revisions.
    Senator Kempthorne, who is now the Governor of Idaho, 
introduced a bill a few years ago. We could not get it moving. 
The present administration does not support any revisions at 
all, but I think as time goes on and we see how it often is 
abused, that we are going to have to make some revisions, so I 
just want to throw that out, because I really do not have any 
further questions to ask you.
    I think you are going to be a very fine Secretary of the 
Interior, and I am just convinced you are going to do your job 
with great diplomacy and stature.
    Thank you, Mr. Chairman.
    Chairman Bingaman. Thank you.
    Senator Dorgan.
    Senator Dorgan. Ms. Norton, again thank you very much for 
your testimony yesterday and today. I would like to ask some 
questions about a range of issues. First, grazing rights, and 
grazing fees.
    In western North Dakota we have a good many ranchers that 
graze their cattle on public lands. Most of that is Forest 
Service, and not BLM jurisdiction, but one of the early battles 
we had in this administration some 7 or 8 years ago was on the 
issue of grazing fees, and actually there was a bipartisan 
group of us that fought back on some of those issues. Can you 
just give me your view of some of the broader issues on 
grazing, especially grazing fees on public lands?
    Ms. Norton. In the West the use of public lands for cattle 
grazing is one of the key parts of our agricultural economy. It 
is a use that has taken place for generations, and many of the 
ranches in the West are based on having that core of public 
lands available.
    I know many ranches who are wonderful stewards for the land 
who really take great pride in their ability to work with the 
Federal agencies to manage those lands well and to ensure that 
their livestock are not causing problems for those lands. The 
overpopulation by livestock on those lands can be destructive 
and that is something that the agencies need to be aware of. 
They need to manage those lands appropriately.
    The issue of the amount of money that should be charged to 
ranchers for grazing on public lands is an issue that I know 
has been very controversial. It is something that requires a 
weighing of the different values and appropriate attempts to 
try to determine that level of fee that would make sense. It is 
not an easy magic number that one can simply determine, and I 
know for you all that has been a very difficult battle to try 
to find that right level. I will certainly work with you to try 
to provide all of the information that is necessary to provide 
information about how we are managing those lands and what the 
impact of cattle on those lands are so that you can make that 
determination.
    Senator Dorgan. Senator Domenici and my colleague Senator 
Craig, I think yesterday, were trying to draw you out some to 
figure out in what areas would you seek to be very different 
than the current Secretary on issues at Interior, and I think 
my colleague from New Mexico, Senator Domenici, said I hope you 
are different in a range of areas.
    I hope you will be very aggressive in a range of areas in a 
significantly different way. Can you describe to us how you 
view your role as a new Secretary of the Interior if you are 
confirmed, and how it compares to what has been happening in 
Interior in the last 8 years?
    Ms. Norton. I plan to move into the Department of the 
Interior, if I am confirmed, and really learn about all of the 
different issues and the things that have been done. I know 
that what is reported in the press is often quite different 
from the real scientific basis for a decision, or the statutory 
basis for a decision, so I would be looking across the board at 
those things that have been done in the past to evaluate those 
things.
    I would see one primary difference in my desire to involve 
the people who are most impacted by decisions in making those 
decisions. Certainly in the Western United States there has 
been a large concern that their voices have not been heard, 
that the current Secretary of the Interior has not listened, 
has not sought to provide the input that those in the West 
would like to have.
    I would like to be sure that when we make decisions we are 
making those with the input from all of those that are 
affected, with the voices of ranchers, with the voices of 
environmentalists, with the voices of everyone who is concerned 
about these decisions heard as a part of the process. In 
Colorado we have some ranchers that I know who went through a 
process of trying to decide how their mountain valley was going 
to be managed for the long-term future, and it involved public 
lands and private lands.
    It is a beautiful mountain valley, and it is near the 
Crested Butte ski area, and that process is one that started 
with the environmentalists and the ranchers very much at odds. 
They were able to sit down together and find common ground, to 
realize that no one wanted the entire valley to be ski condos, 
that people wanted to see those scenic vistas preserved. By 
working together they were able to come up with solutions.
    Now, if Washington, D.C. had been the decisionmaking place, 
without the people who directly knew that land making those 
decisions, I don't think we would see the kind of cooperative 
working relationship that eventually came forward. That's the 
type of decisionmaking that I would like to foster.
    Chairman Bingaman. Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman. Welcome back 
again, Gale. I want to pursue this. One of the difficulties we 
have had certainly is having input that mattered. I was 
recently at a meeting with Secretary Babbitt. He mentioned in 
his talk ten times partnerships. Well, the experience we have 
had with partnerships is kind of one horse and one dog, kind of 
that relationship.
    What I would like to hear you talk a little bit about is 
cooperating agencies. We started that last year, which was a 
specific way of States and adjoining counties being involved. 
We have had experience of going through the NEPA process and 
then having the Secretary or an Assistant Secretary come out at 
the end of it and put out a different proposal altogether, so 
how could we strengthen this idea?
    I understand on Federal lands that the Federal Government 
has a responsibility for the final decision, but if we are 
going to talk about partnerships, if we are going to talk about 
cooperating agencies, maybe you could--and I guess you 
expressed yourself, but how could we sort of ensure that there 
is a legitimate input into these kinds of proposed 
partnerships?
    Ms. Norton. If I am confirmed as Secretary of the Interior 
I plan to work with the Western Governors, with the Attorneys 
General, whom I know as personal friends, with the officials on 
a State basis and a local basis, to begin a process of 
involving them. From them, we need to move out to the private 
sector groups that are also to be impacted by our decisions, 
and to begin on a case-by-case basis as we see important 
decisions arising, finding appropriate ways of inviting 
everyone who would be affected to have an input into that 
process.
    It is going to be a continuing dialogue. You know best in 
your State who are the people that are really going to be 
impacted by something, and looking to your guidance in finding 
those who should be involved in a particular decision would be 
the kind of feedback that I would hope to get, and that applies 
on a bipartisan basis.
    I think each of you know and understand your own State, and 
each of you has an appropriate role in expressing to Federal 
agencies what your concerns are, and I would hope to have that 
kind of input from both sides of this table.
    Senator Thomas. One suggestion. I think when we go into 
these, particularly with cooperating agencies, there ought to 
be a well-defined definition before they begin as to what the 
various rules are. It makes it much easier.
    On another matter, as you know, on BLM lands, lands that 
have been nominated often for wilderness, but never acted on by 
the Congress, which is required, and they are managed forever 
as wilderness when in fact they have never been designated, 
what is your reaction to that?
    Ms. Norton. Senator, when Colorado established wilderness 
areas in the early 1990's we went through a process, with 
Senator Hank Brown taking the lead on that, to have input and 
comment on all the various areas to determine which ones should 
be protected as wilderness and which ones should be handled in 
other ways, and it is that kind of process of making decisions 
about the management that need to go forward, and that creates 
a system of having some areas that are managed as wilderness 
and some areas that are managed in other ways. We just need to 
determine for the various areas of land what is the appropriate 
usage for those lands.
    Senator Thomas. The difficulty is that there never has been 
a determination. They are nominated. Therefore they are managed 
that way without having made a decision.
    Would you comment--we have heard several times before, 
would you comment on the difference between a role of Attorney 
General, or the lawyer representing his client or her client as 
the State, as opposed to the head of an agency? Is there a 
difference as to how you look at the law?
    Ms. Norton. There is a very big difference, Senator, 
between the role of the Attorney General and the role of an 
agency head, and something that Senator Wyden raised in one of 
his questions is an example of that. An Attorney General is not 
one who has the regulatory inspectors and does not have the 
people that make the policy decisions on health issues, 
environmental issues, under the Attorney General's 
jurisdiction. The Attorney General is referred cases from 
various agencies and acts upon those things when problems 
arise.
    Colorado is a little different than some other States. I 
know, Senator Bingaman, in your role as Attorney General of New 
Mexico you had the ability to go forward with some 
environmental criminal prosecutions. In Colorado, the Attorney 
General does not have the independent ability to do that, but 
needs to obtain a referral from the State Health Department 
before being able to go forward with any sort of environmental 
criminal prosecution.
    We worked closely with the agencies. We were counsel for 
the agencies and advised them. We answered questions for them 
as time went on. The Attorney General is a law enforcement 
position. I took seriously my responsibilities to enforce the 
laws of the State of Colorado and to represent the agencies 
that were the executive agencies for the State.
    Senator Thomas. Thank you.
    Chairman Bingaman. Thank you.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    Last year, we appropriated $1.6 billion to deal with the 
fires of 2000. As you well know, I think, the West was hit last 
year, New Mexico being one of those areas of wildfires, and I 
am interested in how you are going to approach how we are going 
to use that money in restoration, and any plans at all, and 
prevention, on how we are going to use those dollars to prevent 
that devastating kind of situation to happen again.
    Ms. Norton. I know that your State was more seriously 
impacted by the fires than the State of Colorado, but even for 
us it was devastating to see.
    I remember last summer looking across the Denver area and 
seeing huge clouds of smoke across the landscape, and even in 
downtown Denver you could smell the burning wood from our 
forests that were on fire. My husband and I went to drive 
through the mountain areas after the fires were over and we saw 
entire hillsides that had been destroyed by the fires, and 
through the efforts of some valiant firefighters we saw that 
even though a huge area of burned forest had unfortunately left 
nothing but charred wood there were a few homes that were still 
left standing.
    That is something we do not want to see again. We want to 
do what we can, to be as proactive as possible to see that we 
are using the funds provided by Congress wisely to deal with 
the problems, to find ways that we can have healthy forests 
that will not be susceptible to those huge fires taking place 
in the future.
    Obviously, Colorado's lands were Forest Service, Department 
of Agriculture lands, and they have the bulk of the areas that 
might be impacted ny this, but the Department of the Interior 
has a serious responsibility here, and this is something that I 
will certainly have as a very high priority for myself.
    Senator Burns. I would suggest that with the appropriation 
of these funds and how the different agencies of BLM, and I 
would hope that the BLM--I have said, you know, we can get a 
lot done if there is some cooperation between agencies. In 
other words, if the approach of the BLM to their forests and 
grasslands is the same as the forest service is with basically 
their forestlands, and the same sort of policies, those 
policies kind of fit hand in glove whenever we talk about 
forest health, range health.
    You see, I have always maintained that there was a society 
that was not funded by the Government that probably had more to 
do with the increased carrying capacity and the health of our 
grasslands than anything that the Government ever did, and that 
was the Society for Range Management, and I know you are 
familiar with those people and the work they do. That was all 
funded by the different organizations that used those lands, 
principally in the grazing areas. You are familiar with the 
Taylor Grazing Act?
    Ms. Norton. Yes, sir, I am.
    Senator Burns. You know, we get to talking about fees and 
what we want to do about grazing. There is a law in place that 
gives us the guidelines on how we ought to approach grazing on 
public lands, and that was the Taylor Grazing Act, and the 
reason it was passed, it gave some permanency to those folks 
who use and own permits on public lands for grazing, and I 
think we get to thinking outside the box. We put the Taylor act 
to one side, and we forget that the guidelines are there to 
help us make the decisions as far as grazing is concerned, and 
make sure those grazings are well within the environmental 
guidelines that this country wants to do with those lands.
    I have always said that if livestock was completely taken 
off of the public lands, that there would be no wildlife, 
because there would be no water reservoirs, there would be 
nothing that could even sustain life in some areas of our 
country on BLM lands if it was not for grazing and some work on 
it.
    So I would like to be involved a little bit whenever you 
start talking about how you are going to spend that $1.6 
billion. That is quite a lot of money, but I think we can put 
it to good use for environmental reasons and also that we look 
upon our lands with a common-sense point of view. We cannot 
continue to let a fuel build up and then hit some drought years 
and think of it as--the only other element that is missing here 
for disaster is lightning, and it is not man-made. About the 
time you think you are in control of this old Earth, you know, 
there is a man upstairs that changes our mind about that whole 
thing.
    But I would hope we could work closely together on 
restoration and range health and also forest health in the BLM.
    Also, it is going to be--one of my priority items in the 
next 4 years, anyway, is the rebuilding of the infrastructure 
of our national parks, especially our services that handle 
people. We have two of the crown jewels. Part of Yellowstone is 
in Montana. Although it is a little sliver we still claim it, 
and I have an ongoing argument with Senator Thomas and the 
Senator from Idaho, but we know that infrastructure needs are 
way behind, and I look forward to working with you and the 
Director chosen to direct the Park Service in establishing some 
priorities as far as infrastructure to handle people, and the 
impact that people have.
    You know, we found out that some of the greatest polluters 
in the world are, the enemy is us, and so we have to deal with 
those.
    Thank you, Mr. Chairman, I appreciate the opportunity, but 
those are two areas where I have serious concerns, and also the 
Taylor Grazing Act. I think it is very, very important we get 
back to the basics and start thinking of those lands as a 
resource in western North Dakota and Montana, and BLM and 
Forest Service grasslands, and help those people out, because 
that does impact real people.
    Chairman Bingaman. Senator Daschle, our Democratic Leader, 
asked me to ask this question of you. Recently, the Fish & 
Wildlife Service wrote a biological opinion on the management 
of the Federal dams on the Missouri River aimed at protecting 
endangered species. Would you aggressively work with the Corps 
of Engineers to implement that opinion?
    Ms. Norton. Senator, I am not thoroughly familiar with the 
opinion that was issued by the biologists, and I know that 
endangered species biological opinions are based very heavily 
on a study of the science of endangered species and what those 
species require. I would hope to work with the Fish & Wildlife 
Service and the Corps of Engineers to determine what is 
appropriate and to examine the decisions that have already been 
made.
    Chairman Bingaman. Let me ask about national monuments. We 
talked about it some yesterday. You indicated in one of your 
responses yesterday that you would be carefully reviewing the 
national monuments that have been designated and seem to give 
the impression that you might endorse efforts to overturn some 
of those designations. Could you indicate anything about the 
standards you would be using, or the criteria you would be 
using in reviewing these monument designations to determine 
whether they were appropriate or whether they should stand, or 
whether you would try to take some action to contradict them?
    Ms. Norton. With monument decisions having been made so 
very recently, clearly we have not had the opportunity to even 
define what the range of options might be, much less what 
decisions would be made in choosing between those options, so 
at this point in time we are not really prepared to make any 
sort of determination on what would happen with the monuments.
    It clearly is a decision that can have a huge impact in 
various States, and we would hope to seek input from those who 
are affected to determine what course of action is appropriate 
in terms of management of those monuments and in terms of how 
those tracts of land should appropriately be handled, but I do 
want to emphasize that the process that we would expect to go 
through in the future with looking at additional designations 
of land would be one quite different from that utilized by the 
current administration.
    I think it is appropriate to have a thorough understanding 
of the impacts of monument designations before those 
designations are made, and that happens by involvement of the 
people within the States affected. I would certainly see that 
the Bush administration, if I am confirmed as Secretary of the 
Interior, or even if I am not, that the Bush administration 
would be attempting to involve people in the making of those 
decisions in the future.
    Chairman Bingaman. Yesterday, I asked about the issue of 
Federal reserved water rights. During the Reagan administration 
the Department of the Interior Solicitor overturned the 
previous agency policy and issued an opinion that the Federal 
Government would not recognize an implied Federal water right 
for wilderness areas and would not assert reserved Federal 
water rights on behalf of the United States.
    Now, that opinion was suspended and later withdrawn by the 
Clinton administration. Would you seek to return to the 
policies that the Reagan administration had in place with 
respect to water rights?
    Ms. Norton. Let me first make clear that the issue of 
reserved water rights for wilderness areas and for other 
important public lands is not an all-or-nothing kind of issue. 
As Attorney General of Colorado I was an ex officio member of 
the Colorado Water Conservation Board, and that board 
established in-stream flow water rights for the protection of 
fish and for the health of public lands and we worked with the 
Federal agencies to have State in-stream flow rights that 
protected especially the fish populations in a number of public 
land areas.
    We also worked on having areas where water was reserved 
specifically for endangered fish species. We worked with, I 
believe it was the Forest Service, although it may have been 
the Department of the Interior, in having a combination of 
Federal and State mechanisms for protecting the water in some 
very sensitive environmental areas, and so there are many 
different mechanisms that are available to Federal land 
management agencies in trying to reconcile Federal reserved 
water rights with our traditional State water allocation 
programs, so I would hope to work with the State agencies in 
dealing with that.
    As to reserve water rights from a legal perspective, the 
question is, was the intent of Congress, or of the President if 
it's a presidential proclamation, what was the intent in 
reserving a particular tract of land, and that requires an in-
depth legal look at the issues that surround any particular 
reservation of land, and we would continue to look in depth at 
those sorts of issues as we are making determinations about 
reserved water rights.
    Chairman Bingaman. Thank you. My time is up.
    Senator Murkowski.
    Senator Murkowski. Thank you very much, Mr. Chairman.
    You know, we have heard from some of our members about the 
concern they have over Federal lands off-shore, 3 miles off-
shore and, as you and I both know, in many cases there have 
been leases that have been sold, competitive bids, the Federal 
Government has taken the money and never issued the leases.
    I certainly respect the rights of any State to express its 
opinion on whether or not it chooses to have OCS activity 
beyond the State borders, beyond 3 miles. I think, though, it 
represents a contingent liability of the Federal Government, 
that at some point in time they are going to have to address 
the disposition of these leases and if they are not going to be 
issued, then is it not appropriate that there be some 
settlement, that they return the bonus bids and get on with it 
and resolve the dispute one way or the other?
    Ms. Norton. As Attorney General of the landlocked State of 
Colorado I've not had much opportunity to deal with off-shore 
leasing, so I would look forward to learning more about those 
issues so that I can work with you on that.
    Senator Murkowski. Well, the problem I have is the States 
that do not want it have every right to express that, and I 
think we should respect it. On the other hand, I am a little 
frustrated from time to time because there is no support from 
those States that do not want it to the States who do want it, 
and those States that do not want it have to have the energy, 
but fail to recognize that it has to come from somewhere, so I 
would hope that there would be a little more sensitivity to the 
reality, as we see in California.
    This energy has to come from some place, and if you use the 
technologies that we have seen developed, particularly in the 
Gulf of Mexico, where we are leasing now in 6,000 feet of 
water, and drilling and recovering with remarkable success 
rates and a minimum of environmental damage because obviously 
the country needs the energy.
    But I would suggest that it would behoove your Department 
to kind of total up how much you collected over the years in 
lease sales, and every issue of the leases, and these do 
represent an obligation and there is ongoing litigation, and 
could you provide this committee with that information at an 
appropriate time, if you are confirmed?
    Ms. Norton. Certainly at an appropriate time we would be 
happy to work with you on providing the information that you're 
looking for.
    Senator Murkowski. I do not want my colleagues to 
misunderstand my intention, but the leases ought to be canceled 
and the money returned. Are you aware of the number of natural 
resource development activities on National Wildlife Refuge 
System land under the jurisdiction of the U.S. Fish & Wildlife 
Service?
    Ms. Norton. Senator, I would look forward to becoming more 
familiar with that.
    Senator Murkowski. Well, let me help you out. There are 76 
activities on wildlife refuge systems under the U.S. Fish & 
Wildlife Service that cover gas and oil exploration. There are 
two that cover gravel extraction. There are two that address 
hydro power generation. There are 16 that involve mineral 
exploration. There are 10 active mines. There are two that are 
involved in salt-making, and 10 in water extraction, for 118 
activities on National Wildlife Refuge System lands. That seems 
to have some degree of compatibility with the States and the 
Federal system.
    I would like to also add for the record this list which I 
have before me of U.S. Fish & Wildlife Service refuge lands as 
inventory, and I would also like to note an article from the 
Wall Street Journal that appeared yesterday, January 18, and it 
reads as follows:
    ``There has been oil and gas production on Federal wildlife 
refuges in Louisiana for nearly 60 years, resulting in the 
drilling of 1,605 wells. Refuges on Louisiana's Federal 
wetlands are home to ducks, geese, shrimp, crab, deer, 
alligators, fish, and fur-bearing animals, but largely as a 
result of the demanding environmental requirements for 
operators there have been few adverse consequences from 
drilling.''
    It gets a little personal here, but it says, ``if Louisiana 
can do it, why can't Alaska? We already have experience in 
Alaska. A good example is Prudhoe Bay, which has produced 20 
percent of our domestic oil since it was developed more than 26 
years ago. It has done so in a way that is both economically 
viable and environmentally safe.''
    I might add, this is written by Senator John Breaux, and I 
would ask that it be entered into the record.
    Lastly, let me enter into the record a series of letters 
into the record. One comes from the head of the San Manuel Band 
of Mission Indians, the other comes from the Governor Guttierez 
of the Commonwealth of the Northern Marianas, the Native tribal 
government and the Governor of Guam, and a list of some 20 
Attorneys General, including the Attorneys General of Idaho, 
Alabama, Colorado, Illinois, Washington State, American Samoa, 
Delaware, the Indian Attorney General, Kansas, Nebraska, New 
Hampshire, Oregon, South Carolina, Texas, Virginia, 
Mississippi, Nevada, Ohio, Pennsylvania, South Dakota, Utah, 
and Wyoming.
    And Mr. Chairman, I think this certainly tells the 
character of a person by those who have worked with that 
person, and I am just going to read one paragraph of this 
letter of submission with these names of the Attorneys General 
in support of our nominee.
    It says, first, in the early nineties Gale worked with 
Attorney General and Governors in an effort to force the U.S. 
Department of Energy to comply with Federal environmental laws 
at its facilities around the Nation, the emphasis on force the 
U.S. Department of Energy to comply with Federal environmental 
laws.
    Gale helped lead the fight to ensure that the Department of 
Energy would be responsive to the States and comply with the 
law and refocus on cleaning up Rocky Flats in Colorado and 
other sites around the Nation.
    I will not go further with the letter, but I think it 
expresses for itself the confidence that the Attorneys General 
have in our nominee.
    Chairman Bingaman. We will certainly include the letter and 
the article by Senator Breaux in the record.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    As I indicated, Ms. Norton, I want to ask about the Asarco 
case. The Denver Post reported that when you were the Attorney 
General of Colorado the people in the Globeville neighborhood 
had to sue this company, Asarco, to clean up the heavy metal 
emissions from a smelter there, and these were citizens who 
felt that what the State had been able to secure was pretty 
much insufficient. They went out and sued, and they got $20 
million, and apparently were especially angry that the State 
testified against them at trial.
    So you had a situation where the State, in their view, was 
not very helpful to them, and then the State went out and 
testified against them at trial. Now, you have spoken favorably 
about what is known as outcomes measures, and that is a fancy 
way of focusing on the bottom line, the result. Yet, what the 
State got does not seem to be very good results for the people 
of this particular neighborhood. Would you like to suggest that 
you will take a different approach at the Department of the 
Interior in this area as well?
    Ms. Norton. Senator, I welcome the opportunity to explain 
something more about the situation that you have raised and the 
issues that surround it.
    First of all, as to the specific issues at Asarco, my 
office worked with the State Department of Health in attempting 
to clean up what had been a long-term metal smelter that had 
emitted heavy metals that had contaminated the property who 
were in the surrounding areas, and the health department 
solution included going out and cleaning up the properties, the 
front yards of people whose yards had been contaminated by 
various heavy metals, and so that was a part of the proposal 
that the health department had in place, and the question was 
whether that was an adequate proposal.
    It is my understanding that the witnesses you're talking 
about were representatives of the State Health Department, 
rather than the Attorney General's office, who were talking 
about the scientific validity of the cleanup measures that they 
had put into place, but beyond that is the bigger question of 
whether those citizens had a right to recover damages or not.
    We had a parallel situation in another area where citizens 
tried to file suit to obtain reimbursement for their individual 
damages, and the mining company that was involved in that case 
said that no, any money that was paid to the State ought to be 
sufficient, that those individual citizens did not have even 
the right to file suit.
    My office went into court in opposition to the mining 
company and said yes, indeed citizens do have a right, and that 
the Federal law has not overturned that right to be able to go 
into court to protect themselves from pollution that is caused 
by Superfund sites, and so my office supported the right of 
individual citizens to be able to obtain damages in court from 
pollution that is caused at Superfund sites.
    Senator Wyden. I would like to see that case that you 
referred to, because the reason I have asked about Asarco and 
Summitville in particular is because my concern, as I look at 
your cases, and I went back and reviewed everything that I 
could get my hands on last night, is that you are willing to be 
tough with the Federal Government fairly late in the game, 
after a significant amount of damage is done, but I want to see 
somebody as Secretary who will take a more aggressive 
preventive approach early on, which means that very often you 
step on some toes of private parties.
    Now, with respect to this question of drilling for oil, and 
energy development, as you know this was one of the, perhaps 
one of the key hallmarks of the presidential campaign. the 
President-elect said he was going to drill for energy, and made 
it a focus of his campaign.
    We have heard where you are not going to support drilling, 
and support the current moratoriums, and that is welcome. Where 
do you want to support drilling for additional energy, and if 
the focus of your answer would be Alaska, I would like to hear 
what amounts of energy you believe you think you could derive, 
when you think you could derive it, and how much could be done 
to prevent environmental damage?
    The reason for asking is, we basically have not been able 
to flesh out what was one of the key issues in the presidential 
campaign, and it is a key issue for Interior, and perhaps you 
could illuminate where the administration will be on actually 
drilling for energy.
    Ms. Norton. Senator, you have raised two questions. Let me 
respond to those. As to my willingness to go after private 
polluters, if you look even at the two sides that were the 
biggest causes of concern for me as Attorney General of 
Colorado, Rocky Mountain Flats and the Rocky Mountain Arsenal, 
and all of those are, indeed, Federal facility sites, they are 
areas that were hugely polluted by nerve gas residues, by 
pesticide residues from production of pesticides, and by 
plutonium trigger production with nuclear residues.
    Those were huge issues for Colorado, because those are 
located very close to the Denver Metropolitan Area, and so they 
had to be a top priority for me as Attorney General. There were 
private operators at those sites as well. The private 
companies, Shell Oil Company at Rocky Mountain Arsenal and 
Rockwell International at Rocky Flats, paid to the State 
millions of dollars in penalties and in damages for the 
expenditures of money at the cleanup of those sites, and so we 
went aggressively after those companies to ensure that they 
were held responsible for the contamination that they had 
caused, and for any failure to meet State and Federal 
environmental laws.
    We were very aggressive in that, and I certainly would 
apply the standards of ensuring that, whoever it is, that 
people comply with the Federal environmental laws.
    As to the issue of trying to resolve the energy problems 
we're currently facing, right now we're seeing shortages in 
California. Those shortages are short-term problem, but they 
are indicators of a very long-term and very serious problem. 
The area that President-elect Bush addressed in his campaign 
promises was that he would look at the Arctic National Wildlife 
Refuge and at production in that area.
    I have been told that production there would impact only 
about 2,000 acres in an area that is well over the size of many 
of our States, and trying to do that in a way that is very 
environmentally responsible would be one of the challenges that 
we would face, and what we would have to do is look at the 
environmental mechanisms that can be put forward as to how to 
do that production in the most responsible way, and that 
decision would ultimately be that of you and Congress to decide 
whether that would go forward or not.
    It is not in the power of the President, it is not in the 
power of the Secretary of the Interior to decide to open the 
Arctic National Wildlife Refuge. That is a decision for 
Congress. The steps they are talking about are ones like doing 
any exploration only in the dead of winter so that the tundra 
itself would not be affected. It would only be ice on top of 
the tundra where any vehicles might roll on, so that the tundra 
itself would still be protected by all of the ice that is 
ordinarily over it.
    Those are the kinds of measures that are being discussed, 
and we would certainly look to ways of trying to satisfy you 
that an environmentally sound approach could be done to try to 
look at reserves that we have heard are estimated to be larger 
than Prudhoe Bay, the largest oil area ever found in the United 
States.
    Senator Wyden. Mr. Chairman, I suspect my time is up. I 
would very much like you to furnish me and the committee in 
writing your estimate of how much energy could derive from 
Alaska, when it could be derived, and if you can amplify on the 
steps you could take on environmental protection I would very 
much like to have that, and appreciate----
    Senator Murkowski. If I may help the Senator from Oregon 
out, this committee has on two occasions, under both Republican 
and Democratic leadership, reported out on bills covering 
exploration in Alaska, and we should make those files available 
to you and your staff as well. There has been EIS's done and 
estimates given on numerous occasions by the Department of the 
Interior, and I think you would find those very, very helpful, 
and I am sure that we would be happy to provide the nominee 
with that information.
    Senator Wyden. If my friend would yield, I think your point 
is a good one, and you have been very fair with this Senator 
not just on Alaska issues but others. The reason I ask Ms. 
Norton is, of course, we have a new administration coming in, 
and that is why I would like her assessment and why I ask her 
the questions. I want the record to show that I think Senator 
Murkowski, next week's chairman, has certainly been fair with 
all of us on these matters.
    Senator Murkowski. I just wanted to let you know we have an 
abundance of background material within the committee for your 
review.
    Chairman Bingaman. Why don't we take 5 minutes of questions 
from Senator Nickles, and then we will take a 10-minute break 
after that.
    Senator Nickles. Mr. Chairman, thank you very much. I might 
mention in response, staff tells me that EIA, under the Clinton 
administration, estimated 1 to 1\1/2\ million barrels per day 
from ANWR for 20-plus years. I might also mention in the 
Prudhoe Bay area, which originally had production up to 2 
million per day, it is now less than 1 million barrels a day.
    Prudhoe Bay is declining and in my opinion we need ANWR to 
supplement that, or else we are going to have an even greater 
dependency from what we discussed yesterday with this 
committee, with Senator Abraham.
    I also want to put in the record a list of enforcement 
actions that Secretary, or actually Attorney General Norton did 
against private corporations, which included the Shell Oil 
Company, which has over 10 million in fines against Shell and 
the Army--anyway, a whole list of corporations where you made 
fines and had settlements and agreements, and I will include 
that in the record.
    Ms. Norton, have you ever been to ANWR?
    Ms. Norton. Unfortunately no, I have not.
    Senator Nickles. Have you ever been to Prudhoe Bay?
    Ms. Norton. No, I have not.
    Senator Nickles. I would encourage you to visit both. I 
think it would be helpful. It was certainly helpful to this 
Senator, and I would encourage other Senators to visit both. I 
think it would be very enlightening, and help us in our 
discussions.
    Ms. Norton, I want to mention just a little bit about the 
Antiquities Act, and I know Senator Bingaman addressed this a 
little bit, but these are going to be mostly comments, not so 
much questions. I believe the Clinton administration is showing 
real contempt of Congress and real contempt of Governors and 
real contempt of the Constitution in his exploitation abuse and 
I think exceeding certainly the intent of the Antiquities Act. 
He has thrown, including January 17, adding another nine areas 
under the Antiquities Act, squeezing them in for a total of 
about 5.7 million acres.
    There is an article in the Washington Post that said, ``oh, 
he has done as much as any President in the lower 48 as 
Theodore Roosevelt.'' Theodore Roosevelt completed, or did 
total acreage of 1.5 million acres. President Clinton has done 
5.6 million acres. In other words, President Clinton has done a 
total of about almost four times as much as Teddy Roosevelt. He 
has done more than any other President by a large amount, with 
the exception of Jimmy Carter, which did the Alaska national 
lands bill.
    I might mention as well, he did his first one, President 
Clinton did, in September 1996, right before the election, and 
that dealt with 1.7 million acres in Utah. He did that as a 
press release, and not in Utah, but in Arizona. He did it for 
political purposes. He did not consult with the Governor. He 
did not consult with the congressional delegation. He did not 
consult with local officials. He did it as if he was king.
    We did not see any more after the election. We did not see 
any in 1997, any in 1998, we did not see any in 1999, but in 
the year 2000, another election year, all of a sudden we have 
another slew of presidential abuse of the Antiquities Act, no 
consultation, and now for a total he went from 1.7 million 
acres, now 5.7 million. In other words, he has added another 4 
million acres, including about a million acres this week in 
eight different sites.
    Let me assure you, maybe I am all for protecting these 
sites, but I am very against this process. I just spoke to the 
National Governor, or the Republican Governors Association. I 
think Governors, elected officials, should have some say-so, 
some input, some degree of input on whether or not these areas 
are going to be declared wilderness.
    The President also, and it is not under your jurisdiction, 
but in one letter to the Forest Service he wants to take one-
third of the Forest Service and basically declare it 
wilderness, 58.5 million acres. The State of Oklahoma is 44 
million acres. That is almost one-and-a-half times the size of 
the State of Oklahoma, and he is saying it is off-limits to 
roads and any activity whatsoever. That is absurd. He does not 
have that authority. He has exceeded his authority.
    If you read the Antiquities Act, in 1906 it was written for 
the purposes--it is only a couple of paragraphs, but it says 
limits in all cases shall be confined to the smallest area 
compatible with proper care and management of the objects to be 
protected. He is abusing the statute, and I would encourage you 
to be vigilant in saying, wait a minute, let's repeal those and 
have Congress and Governors and others look at what is the 
rightful protection of these areas.
    I will assure you this committee passes a lot of bills, a 
lot of land bills, a lot of wilderness bills. We are happy to 
protect national monuments. We are happy to protect areas that 
need to be protected, but in the process we will listen to 
officials from the States, we will have hearings, what is the 
proper boundary, instead of having it dictated from the 
Secretary's office or the President's office without local 
input, without consultation, as if they know exactly what is 
right in boundaries.
    I am offended by the President's contempt of Congress. I am 
appalled by it. He is abusing this act, and I mention that to 
you because I don't want this administration to do it, I do not 
want any administration to do it, Republican or Democrat. I 
feel very strongly about protecting our precious resources, and 
I want to do it, want to conserve it, but I want to have some 
democracy involved in the process and not a dictatorship, not 
an emperor.
    And again, I think the Clinton administration both in the 
Forest Service--there is a real abuse of this power, and I 
think he has really abused the Antiquities Act, and I would 
urge you to be aggressive--as he has been aggressive in trying 
to have a land grab without local input, I would urge you to be 
aggressive in repealing this, rescinding it, or suspending 
them, until we have time for congressional and local review and 
input.
    Thank you, Mr. Chairman.
    Chairman Bingaman. Thank you. Senator Schumer is trying to 
balance his responsibilities here with his responsibilities on 
the Judiciary Committee, and has asked to be able to ask his 5 
minutes before our break, so go right ahead.
    Senator Schumer. Well, thank you, Mr. Chairman, and I thank 
all of the committee members for their indulgence, and I thank 
you, Ms. Norton, for appearing here and for making yourself 
available to all of our questions.
    I have to tell you, being new to this committee and new to 
many of these issues, I am still in the process of 
familiarizing myself with the issues the committee deals with, 
and with your record. Having said that, I do want to tell you 
up front, as I told you privately, I have some strong concerns 
about your environmental record, and I would like within the 
time available to just explore a few.
    The first is, I would just like to talk a little bit about 
a very important issue in my city, which is the issue of lead 
paint. It was something you were involved in, and I want to say 
I do not think it is fair to take nominees to task for whom 
they represent in private practice, so that is not the issue. I 
just want to get your view on this issue up front, because I 
think it is relevant to some of these discussions in terms of 
corporate responsibility.
    As I understand it, the dangers of lead in paint became 
widely known a long, long time ago. It has been known as a 
neurotoxin since the 1920's, and 14 countries, from Britain to 
Yugoslavia, banned the use of lead in interior paint between 
1909 and 1934.
    Now, just tell us--now, it was not banned, of course, until 
30 or 40 years later. Just tell us, do you believe that the 
lead paint industry bears some responsibility for the health 
problems caused by lead paint poisoning? I know when we talked 
privately we talked about it being chipped off the walls and 
all of that, and that would certainly be true after they 
stopped putting the lead in paint, but what about over the 
years where they may have known--and I do not want to prejudge 
that--that this was poisonous and yet continued to sell it?
    Ms. Norton. Senator Schumer, I appreciate the opportunity 
to talk with you about that, and to talk with the rest of the 
committee members.
    To further that conversation that we had, I represented a 
company that was involved in the production of lead for paint 
many years ago. The question came to me as a former Attorney 
General after I had left office, and there were those who, 
following the tobacco settlement, had tried to predict which 
industry would be essentially the next tobacco, and there were 
several of those that were named, but one of those was the lead 
paint industry, and so I came at it from that question of 
comparing what that industry had done with what the tobacco 
industry had done.
    When I was an Attorney General examining the question of 
whether I should file suit against the tobacco companies I was 
appalled by their conduct. When I looked at the corporate 
documents, when I found that even as we were considering filing 
suit there were still things taking place that we consider to 
be marketing to kids, that their activities appeared to violate 
Colorado's antitrust laws, and its truth-in-advertising laws.
    I looked at the record of the lead paint industry, 
including the company that was my client, and there I found a 
record of responsible corporate behavior, that as scientific 
evidence became available as to problems, they responded to 
those problems. The issues that first came out were essentially 
with worker safety, and they took steps to deal with their 
factories, with the safety of painters applying lead to walls, 
and things were done to try to deal with those sorts of issues.
    When it became apparent, or when it became rumored that 
there might be problems with lead on the walls that were 
deteriorating, and the children were being exposed to that, the 
companies commissioned studies at Harvard and at Johns 
Hopkins----
    Senator Schumer. Do you know what year that was, 
approximately?
    Ms. Norton. It was in the late 1940's, and at that point 
they found from those studies that, indeed, there was a 
problem, and so instead of doing what the tobacco companies 
have done, which was essentially to hide any conflicting 
evidence, they went to public health officials and said, we 
recognize that measures need to be taken, and they eventually 
entered into a process with a number of different medical 
groups and so forth, including the American Pediatric 
Association, that resulted in voluntarily taking most of the 
lead out of paint and this was done in, I believe, 1955.
    The Federal Government did not ban lead in paint until 
1978, and so these companies essentially voluntarily took their 
product off the market long before the Federal Government 
acted, and I view that as very, very different.
    Now, I do also want to say that the companies recognize, 
and I certainly recognize, that there are problems for our 
children that are caused by deteriorating lead paint, as with 
any other things in our homes that may have decayed in homes 
that are 50 or 75 or 100 years old.
    The best way to resolve that is for the landlords who own 
that property, or for the people who reside in that property to 
take the measures that fit that particular property, and the 
States that have been most successful in dealing with those 
things have strong records of enforcement of standards against 
landlords to be sure that properties are handled appropriately.
    Senator Schumer. Let me ask you this, just two quick 
questions, and I know my time has expired. The 5 minutes goes 
fast, and I am sorry I missed the first round. I have been 
juggling back and forth, that is the problem.
    First, do you think the companies bear any responsibility, 
and second, if they knew before the late fifties when they took 
the lead off the market on their own, but if they knew in the 
late thirties or forties that lead was harmful, and obviously 
that would be open to some dispute, but if they knew, would you 
feel they had responsibility?
    Ms. Norton. The companies are participating in the 
processes of trying to find the right solutions. The solutions 
require working with State legislators, which they have done, 
in trying to help in formulating programs that will be 
effective. Obviously, as Secretary of the Interior I would not 
be involved in any of those issues. Those are not Department of 
the Interior issues.
    Senator Schumer. I am just trying to, on an issue that I 
know a little bit about, want to sort of get your feel for 
things, because the issues are similar. Some of the issues are 
similar in terms of corporate responsibility and all of that 
kind of thing.
    So just to ask you again, do you think they have any 
responsibility themselves in terms of liability, in terms of 
all of these types of issues, where they might have known 
earlier than before it was taken off the market? The analogy 
would be to tobacco.
    Ms. Norton. Those are issues that are in litigation. I know 
from my own evaluation that I believe these companies acted 
responsibly, and the law, I believe, recognizes good corporate 
behavior, and companies that are willing to work with State 
legislators and EPA and so forth to try to craft appropriate 
solutions.
    This is not just a simple problem that can be resolved 
quickly. It is an issue that is going on right now, with 
Federal funding for programs to help in cleaning up on a home-
by-home basis those kinds of problems, and I think those kinds 
of Federal programs should certainly be encouraged.
    Senator Schumer. Thank you, Mr. Chairman.
    Chairman Bingaman. Thank you very much. We will take a 10-
minute recess.
    [Recess.]
    Chairman Bingaman. The committee will reconvene and 
continue with the questioning.
    Senator Craig, you are next.
    Senator Craig. Mr. Chairman, thank you.
    Mr. Chairman, for the record, I would like to provide some 
information on the Asarco Globeville site mentioned by Senator 
Wyden.
    There is a newspaper article that states the Norton actions 
and how she helped, the press releases on the settlement issue 
by Gale Norton and the Democrat head of the Department of 
Health, about the important relationship between the private 
plaintiffs and the State of Colorado and an Asarco Globeville 
settlement.
    I think it is important that those questions have been 
asked, that the record be full as it relates to that, because 
it clearly demonstrates I think the role that Ms. Norton played 
as Attorney General, and the successes that were had there by 
the State of Colorado and the plaintiffs involved.
    Chairman Bingaman. We will be glad to include that in the 
record.
    Senator Craig. I listened with great interest, and Senator 
Schumer is now gone, to his line of questioning as it related 
to Gale's involvement with the paint industry.
    I think it is also important, because I was looking at 
background papers that I have available to me, as it relates to 
that relationship. I know that Gale's critics have suggested 
she does not care about the health and safety of children 
because she represented a paint company, NL Industries, that 50 
years ago manufactured lead-based paints.
    Her former clients voluntarily discontinued marketing of 
this for indoor use 50 years ago, and I think Ms. Norton has 
mentioned that well before the Federal Government restricted 
the use of the paint, the company no longer makes paint but 
produces a safe alternative additive to improve the quality. It 
is important that that be said, once again, I think, for the 
record.
    What is most important is that Gale's client did not 
violate any State or Federal laws in manufacturing paint, from 
my understanding, although 50 years later we have heard about 
the risks of lead point. She did not represent the company in 
any lawsuits, it is my understanding, and if any of what I am 
saying is incorrect, Ms. Norton, please correct me, but only 
monitored regulatory activities at the Department of Housing 
and Urban Development and EPA.
    What I also find interesting is that the Department of the 
Interior is not involved in the removal of old paint from 
homes, or lawsuits against the company to clean up housing 
projects. While all of us who are associated with our Federal 
Government I think are concerned about this, and Ms. Norton has 
expressed her concern, we all understand that old houses with 
old paint in them clearly represent a risk for children and 
there is litigation and huge claims for monetary damage out 
there, and I hope that we can all work together on this issue, 
because it is important.
    One thing I want to broach, Mr. Chairman, what I have been 
pleased to hear from Ms. Norton is her endorsement of the 
collaborative process as it relates to our stewardship 
responsibilities. Clearly, she is entering and I believe will 
enter a role of substantial stewardship, probably one of the 
greater of our government as it relates to public land 
resources, and Senator Wyden and I have worked very closely on 
this issue of stewardship for the last several years in trying 
to craft a situation that would bring stakeholders together, 
and I think we have been successful in doing so.
    I hope and I believe that the brightest opportunity for the 
future for a Federal land management protection relationship is 
taking the decisionmaking more closely to the local level 
through a stewardship collaborative concept, and we are trying 
to set some of that template here, and I would hope that you, 
Ms. Norton, would lead us in that area. I think it is extremely 
valuable in the future.
    Many of us are frustrated and fatigued by the conflicts 
that have gone on at the local and State levels. While here 
they may stage a demonstration and hang a banner, out on the 
ground is not only combat at times, in certain terms, it is 
terribly frustrating. It is destructive of communities, of 
people, and we just now had Senator Dianne Feinstein join us on 
the committee. She is not with us today, but she is a new 
member of the committee.
    She and I worked together very closely to legislate on this 
side the issue of a collaborative process in northern 
California, better known as Quincy, frustratingly only to see 
this administration badly damage the intent of Congress in that 
area.
    But you can play a very valuable role with us. What I would 
ask of you is your willingness to work with Senator Wyden and 
myself as we work with USDA, and you will play some role in it, 
Interior will, in making sure that the laws we just passed, 
where there is a collaborative process integrated into it, that 
the regulation for that administration of a local collaborative 
process at the community level for the use of these resources 
become real and meaningful. I would trust I would have your 
help in that, but I would like to hear it for the record.
    Ms. Norton. As I understand what you and Senator Wyden have 
been able to accomplish through your collaborative process, 
that is exactly the type of model that I would like to follow 
in many areas, and I would certainly be enthusiastic about 
working with you to implement that through the Department of 
the Interior.
    Senator Craig. Well, Ron and I worked very well together, 
as most of us do on this committee. This coming year we have 
got a variety of initiatives we want to undertake, and working 
cooperatively with you and the new Secretary of Agriculture, 
Ann Veneman, because of her role with the Forest Service, I 
think can be most helpful in terms of, in quantum leaps toward 
reducing conflict, and most importantly bringing about 
productive management policies.
    Thank you.
    Chairman Bingaman. Thank you very much.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman and Ms. Norton. 
It is great to see you again today. I have a couple of 
questions that I do not think have been covered by the 
committee that I would like to understand your general views 
on, and then some specifics to those.
    The first is the 1872 mining law, and obviously there has 
been quite a bit of debate throughout the last couple of years 
on possible changes to that. Obviously, we allow prospectors to 
stake claim on public land and obtain for a fee a title to 
that, so there have been several attempts by Congress to reform 
the mining law, so I do not know if you have general views on 
the 1872 mining law and proposed changes that you would like to 
see.
    Ms. Norton. The 1872 mining law, as you know, clearly forms 
a large part of the history of the West, and Colorado, that has 
a mining background, is something that has seen the development 
of that.
    When I was in college I took a course on mining law, or 
mining history of Colorado, and we went to all of the various 
old mine sites and explored those. Today, we also want to see 
some balance with environmental protection, and I know that 
Congress has several times in the past struggled with the 
question of how those issues can be reconciled, how we protect 
our environment, how we prevent problems like the Summitville 
situation that occurred in Colorado, and I would be happy to 
work with you in trying to find those kinds of solutions.
    At this point I do not have any particular proposals or 
particular ways in which I think those ought to be reconciled, 
and I would be open to working with you and with other members 
of the committee as Congress makes those types of decisions.
    Senator Cantwell. If I can be a little more specific on 
that issue, in this past year the Bureau of Land Management 
published the final 3809 rule as it related to regulating 
surface mining on public lands, and since the 1872 law claims 
no provisions for environmental protection these rules were 
essential for protecting the natural resources on public lands.
    As Secretary of the Interior, what will be your position on 
these rules, and will you ensure that they remain in place?
    Ms. Norton. Certainly we do want to see that there are 
appropriate environmental protections on the public lands. It 
is my understanding that those regulations were very 
controversial, that the National Academy of Sciences had done a 
study that recommended a different course of action. I would 
look to study the existing regulations. As I go into office I'm 
not yet familiar with those regulations, and so at this point 
in time I can't really express an informed opinion about those 
regulations. I would look forward to becoming familiar with 
them.
    Senator Cantwell. So are you saying that you would seek 
changes in them because of what you have heard so far?
    Ms. Norton. Thank you for clarifying. I do not yet have an 
opinion about what course of action we would follow. I just 
have not studied those regulations I do not know the content of 
those regulations.
    Senator Cantwell. Do you think there needs to be 
administrative rules on environmental protection for the 1872 
mining law?
    Ms. Norton. You're asking essentially a legal question, and 
I don't know the answer to that. As a policy matter I think it 
is appropriate for the Federal Government to look at 
regulations to ensure that an appropriate level of regulation 
is in place, because we do want to see mining take place, when 
it does, in a way that is compatible with protection of our 
environment and I will work to be sure that we are doing 
mining, when it is appropriate, in such a way, but at this 
point in time I don't know whether those regulations embody 
that or exactly what the situation is with those.
    Senator Cantwell. And just so I can be clear for the 
record, you are not saying you will oppose them, either. You 
are just saying you do not have a position.
    Ms. Norton. You're correct. I'm essentially saying I do not 
yet have a position on those, and it's my understanding also 
that I think there may be some litigation with those, and so 
it's not appropriate for me to state an opinion, and at this 
point I do not have a formed opinion.
    Senator Cantwell. But again, if they have been part of the 
Administrative Procedures Act and adopted as rules, as 
Secretary of the Interior you would have to uphold those rules.
    Ms. Norton. I would follow whatever the legal requirements 
are.
    Senator Cantwell. Okay. If I could change to another 
subject, and I do not think this has been covered in depth. I 
am sorry, Mr. Chairman, if it has. On tribal sovereignty, 
obviously this is an important issue for the tribes of the 
Northwest. Can you describe your views in general on tribal 
treaties, and the basis for tribal sovereignty and your views 
on those treaties?
    Ms. Norton. Yes. As a general matter, first of all I start 
with my own experience in working with Colorado's tribes, and 
we have worked together on first of all the negotiation of a 
gaming compact. I was one of the negotiators in working with 
our two tribes in Colorado, the Southern Utes and the Ute 
Mountain Tribe, on dealing with their compact issues and from 
that we developed a working relationship that extended on to 
other issues as they came up.
    I have a great deal of respect for our tribes, and I have 
that same level of respect for the other tribes of America. My 
philosophy overall is that decisions are best made when they 
are made closest to the people, and the people who are most 
impacted by those are involved in their decisionmaking. That 
carries to the tribes themselves, that self-government is 
something that is very important, is very appropriate for them 
to be able to make decisions on those issues that impact them.
    The Department of the Interior has a trust responsibility, 
and I take seriously that trust responsibility in recognition 
of the independent ability of the tribes to make decisions for 
themselves. I will try to work to have that right balance in 
fulfillment of our role. I look forward to working with the 
tribes and dealing with the issues that are raised by the 
relationship between the tribes and the Federal Government.
    Senator Cantwell. I cannot quite----
    Chairman Bingaman. I think you are out of time.
    Senator Cantwell. The lighting does not quite reflect that 
from here, Mr. Chairman. Thank you for the opportunity.
    Chairman Bingaman. Senator Graham.
    Senator Graham. Thank you very much, Mr. Chairman. I have 
final questions relative to Outer Continental Shelf, and they 
relate to the fact, as I mentioned earlier, that the Minerals 
Management Agency is contemplating another series of leases, 
beginning in March of 2002.
    One of my concerns, and it goes to the questions that were 
raised by Senator Murkowski, is that the law under which those 
leases are granted postpones until after the lease many of the 
most significant environmental questions. For instance, site-
specific environmental impact statements do not occur until 
after the lease is granted.
    Compatibility with the State's coastal zone management plan 
does not occur until after the lease is granted, so you have a 
situation of a company which has paid a substantial amount of 
money to secure a lease, and then they request a permit to 
develop that lease, such as a drilling permit, and they 
encounter this delay because of the appropriate environmental 
reviews. It seems to me that it would make more sense to try to 
do as much of that at the front end and, if there is a site 
that is found to be inappropriate for environmental reasons, 
you do not grant the lease in the beginning.
    As Senator Murkowski suggested, the current process also 
puts the Federal Government in considerable financial risk, 
because you have companies who assume they have got a vested 
right which is being denied them because of the environmental 
reviews.
    All of that background is to say, would you consider 
withholding of the offer of new leases for this next 5-year 
period that begins March 2002 until Congress has had an 
opportunity to review the law and possibly consider 
modifications which would, in fact, try to put these 
environmental reviews at chapter 1 and not chapter 5 or 6 of 
the lease, and therefore avoid some of the problems that we are 
currently facing?
    Ms. Norton. That certainly raises a very interesting 
question. I'm afraid I do not have a basis for yet having 
formed an opinion on that, but I would be happy to learn more 
about it.
    Senator Graham. I look forward to pursuing that with you, 
Ms. Norton, and let me just clarify one of my earlier questions 
that I asked about your position on whether areas that are 
currently subject to a moratorium be included in this next 5-
year plan that begins March of next year.
    I did not mean to suggest that the Minerals Management 
Service was recommending that, but rather that I suspected, 
based upon a letter, that the industry would be urging that the 
sites be included in the 5-year plan and that you are going to 
be the point of pressure for that industry interest, and I was 
very pleased, therefore, that you indicated that, as President-
elect Bush has previously indicated, you would support a 
continuation of the moratorium on leasing in those areas 
adjacent to California and Florida which are currently 
prohibited.
    Ms. Norton. President-elect Bush has made his position 
clear, and I certainly am supportive of that.
    Senator Graham. I would like, in my remaining time, to 
start some questions on the National Park System, beginning 
with funding. During the campaign, President-elect Bush 
indicated his intention to focus funds on the maintenance 
backlog at the National Park Service. That was very good news. 
I would like to indicate that in my opinion the funding crisis 
facing the National Park System goes considerably beyond the 
maintenance backlog. There are also significant operational 
issues and resource protection issues.
    I would just suggest, if you would, visit a place like 
Ellis Island National Park and look at the kind of problems 
that exist there, or in State, Biscayne National Park. What 
would be your position on looking at those operational needs 
and resource management needs that also are going to require 
significant additional resources?
    Ms. Norton. One of the highlights of my time at the 
Department of the Interior when I was associate solicitor was 
visiting Ellis Island as their visitor's center was under 
construction, and being able to see the plans being put into 
place for facilities there, and it is a very special part of 
our history.
    I have not had the opportunity to visit some of the other 
areas, but look forward to seeing what we can do to improve 
both the maintenance and the operational budgets for those 
parks. It is very important to President-elect Bush, and very 
important to me that we take care of our important national 
treasures, and that requires that we put the money into the 
park service budget to be able to appropriately manage and 
appropriately restore those important places.
    Senator Graham. Thank you.
    Chairman Bingaman. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much, and Ms. 
Norton, again, thank you for being here. We do not agree on all 
issues, but one would expect that to be the case. I think you 
have made a good presentation to this committee, but I want to 
be candid with you about something. I think you are highly 
intelligent, very capable. I mentioned James Watt yesterday 
during my questioning, and I did that deliberately. You and I 
have talked about James Watt in the meeting we had in my 
office. Both in style and substance I felt that his tenure here 
in Washington was destructive, rather than productive, and if I 
felt for a minute that there was anything close to that in what 
you would bring to the Interior Department, I could not in any 
way cast a positive vote for you.
    Now, you have worked for him for some while and have been 
associated with him, and I know you admire him, but I just want 
to say that to you because I felt so strongly--I was here in 
the U.S. House at the time. I felt so strongly his approach was 
so destructive, and in fact working together we can be 
productive. Democrats, Republicans, people who do not agree, 
can come together and be productive, and that style was in my 
judgment very destructive, and so I want to say that to you, 
even as I say I think you are highly intelligent and capable. I 
think you have made an awfully good presentation to this 
committee yesterday and today.
    Now, let me, having said that, give you an opportunity to 
answer some questions, because all of us are getting material 
from everybody, people who think you are wonderful, and there 
are a lot of them, including people in my State and Democrats 
who I feel good about in my State, but there are people who 
think that you ought not to be confirmed. Let me read a couple 
of things and just ask you to respond to them, because they are 
on the record, they are in the papers, and I want you to be 
able to respond to them.
    Before that, let me ask one question on behalf of the 
tribal chair in North Dakota. He says, it is our understanding 
that Ms. Norton advocated an honorarium on placing land into 
trust on behalf of Indian tribes. Is this true? I was asked to 
inquire about that.
    Ms. Norton. I have not taken a position on the issue of 
placing lands into trust, and I know that is a significant 
issue, and that there are a number of decisions about that 
pending at the Department, but I have not had the opportunity 
to study any of those. For the most part I think that is a 
decision that needs to be made on a case-by-case basis.
    Senator Dorgan. You have taken no position at this point?
    Ms. Norton. That is correct.
    Senator Dorgan. Some question the instinct--I think Senator 
Wyden talked a little bit about it--the instinct of being 
perfectly willing to go after the Federal Government but not 
quite so interested in going after private polluters, and the 
material that some of your critics would give us, the Denver 
Post editorial that responds to it.
    Globeville residents hired their own lawyers to strengthen 
the weak clean-up from Norton's efforts. The State testified 
against the residents in the lawsuit, refused to clean up 
polluting powerplant so the Sierra Club had to do so. Citizens 
and the Feds went after Louisiana Pacific after Norton refused 
to; Norton's office refused to take on Conoco.
    I mention all of that to you only because that part of the 
material that comes on the negative side with respect to the 
Norton nomination, and if this were all accurate it would tell 
me the instinct does not exist to say, all right, wherever 
pollution exists, public or private polluters, Federal 
Government, or big corporations, I am going to be aggressive, I 
am going after them.
    Give me your sense of that. Are these criticisms just off 
the mark? Are these folks all wet?
    Ms. Norton. One of the patterns that exist in several of 
the criticisms is that something happened and then eventually 
somewhere down the line was a Federal prosecution, with the 
idea that nothing happened in between, and what that misses is 
the tremendous amount of work that people on my staff invested 
in trying to deal with those problems.
    There are several of the cases that you cited where people 
on my staff put in years of work in trying to bring polluters 
to justice, in trying to solve problems. They worked with the 
State Health Department in trying to get companies to follow 
the law, and when those companies did not follow the law they 
worked to take action against them.
    We brought together, and I was the impetus for creating a 
cooperative Federal, State, and local task force to deal with 
environmental crimes in Colorado. As a result of that, we 
looked at who was best equipped to go after a particular 
situation. Sometimes that was the local district attorney, 
sometimes it was my office, sometimes it was the Federal 
agencies, but just because the people who ultimately got the 
credit were the Federal agencies doesn't mean my office wasn't 
involved. The dedicated people on my staff put in many hours of 
work, many years of work on those cases, and it disturbs me 
that they are not getting credit for the tremendous work that 
they did on these issues.
    Senator Dorgan. If I might just ask you to respond to this. 
In the newspaper it said, even some Republicans are troubled by 
the record. Martha Marks, head of Republicans for Environmental 
Action, said that a rival group created by Ms. Norton and 
others in 1997 was financed by mining, timber, chemical, oil, 
and coal companies. Valid criticism?
    Ms. Norton. It's my understanding that the group that is 
headed by Martha Marks did not even endorse President-elect 
Bush in his campaign for President.
    I worked initially with an organization that was designed 
to point out the many environmental accomplishments of 
Republicans. One of the things we did was survey Republican 
Governors to look at their brownfields programs, their ways of 
trying to protect endangered species on lands within the 
States, their programs for improving on the ways in which we 
dealt with pollution within the States, and to bring that 
information together and to highlight that.
    The effort was one that was intended to show that there are 
good, creative, innovative ideas being done in the States, 
there are programs that Republican members of Congress were 
supporting that were adopted by Congress, and to highlight 
those kinds of things, and that was the effort of the group. I 
am not really associated with that group at this point in time, 
but it is an effort that I helped launch.
    Senator Dorgan. Ms. Norton, you have, I think, made a good 
presentation in the last 2 days and done so with great skill, 
and I appreciate it.
    Chairman Bingaman. Thank you very much. That concludes the 
third round of questions, and I would intend that we start a 
fourth round and see if there are other questions by members 
that still need to be asked in this session and, if not, allow 
members to file any additional questions by 5 o'clock, as I 
indicated before.
    I had two or three other questions I wanted to ask. Last 
year this committee spent a lot of time, a couple of weeks, on 
legislation to provide full funding for the land and water 
conservation fund, and that would be at the authorized level of 
$900 million. Would you support and recommend continued full 
funding of this land and water conservation fund? Do you think 
that needs to be a priority?
    Ms. Norton. President-elect Bush has made clear that one of 
his goals is full funding of the land and water conservation 
fund, and through the Department we would work to put that goal 
into place. He wants to see that the States' portion of that 
funding is available so that States can work toward preserving 
areas within their States that they see as appropriate in 
addition to the Federal efforts.
    Chairman Bingaman. Also, the Conservation and Reinvestment 
Act, CARA, which was debated here extensively, provided for 
dedicated funding for several other conservation programs, 
wildlife conservation, historic preservation, coastal 
conservation, urban parks, and conservation easements. Do you 
support the goal that was in that bill of having annual funds 
committed for those kinds of conservation programs?
    Ms. Norton. I certainly support the general goal, as I 
understands it. We will be looking at the particular budgetary 
issues and studying that budget as it comes up and look forward 
to working with you as we flesh out how that would actually be 
carried forward.
    Chairman Bingaman. Thank you. This article I referred to in 
the Wall Street Journal yesterday had a portion of it here 
where it said that some of your friends--it refers to a 
gentleman with the Competitive Enterprise Institute who is 
urging market-based ideas to be incorporated into the 
Department.
    One idea mentioned here is to turn over Federal land for 
management experiments by States and private groups to help 
solve the chronic staffing shortages in the Bureau of Land 
Management. Spelunking groups could help run scenic caves, 
mountain-climbing groups, he suggested, could take over the 
management of certain designated ridge tops, off-road motor 
cyclists could be assigned some areas.
    Obviously, I think there are some dangers involved with 
turning over management of public lands to private groups such 
as that. I guess my question would be, as the Secretary of the 
Interior, would you be a strong advocate for adequate funding 
for the various Federal land management agencies, the BLM in 
this particular case, so that we would not even get to the 
discussion about whether we ought to be assigning 
responsibility for management to some of these private groups?
    Ms. Norton. I believe public-private partnerships are 
something that should be used to serve our public lands. In 
Colorado we have had a lot of experience with the State and 
with local governments working with private organizations to be 
able to further public goals and I found, as I was looking 
through my materials in preparation for this, that the 
Department of the Interior has benefitted from 90,000 
volunteers helping with our parks and our refuges and so forth.
    And that is a very important resource for us to be able to 
use, that is more employees than the Department has, people who 
are willing to help out with preservation of our resources, so 
I want to use that. I do not want to just turn things over and 
to neglect our responsibilities. As a Federal agency we need to 
ensure that we are exercising the appropriate Federal oversight 
role and ensuring that everything is done properly.
    We also ought to explore the ways of magnifying our ability 
to care for our lands by using those other people who are also 
enthusiastic about those lands.
    Chairman Bingaman. Let me just mention one other subject. 
Last year, Congress passed a bill that Senator Campbell and I 
sponsored called the Indian Land Consolidation Act. This was 
designed to deal with the problem of Indian allotments, the 
interests that Indians, individual Indians have, that they have 
not been able to develop those lands because of such a 
fractionated ownership and pattern.
    I would just call that to your attention. If this 
legislation is going to be successful in clearing up any of 
this for the Indian owners of that land, we are going to have 
to have the support of the Secretary of the Interior in the 
implementing of the law and in the funding of the effort to do 
this, so I call that to your attention.
    Ms. Norton. Mr. Chairman, I look forward to working with 
you on that.
    Chairman Bingaman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I would ask the 
nominee relative to the point that the chairman brought up with 
regard to CARA--and as you know, that was something that this 
committee worked on. I worked with Senator Landrieu in the 
committee and Representative Young in the House worked on this 
legislation, and we finally drafted a kind of a left-handed 
CARA-light compromise that funded it at about $1.6 billion.
    However, the Department of the Interior led us to believe 
that the allocation levels would be a little different than 
what they are indicating they are now, so there is some 
discrepancies, and I would ask you, when you have time, 
assuming you are confirmed, that you would review the 
allocations so we can get a better understanding of where the 
differences are. Is that fair enough?
    Ms. Norton. I would be happy to examine that.
    Senator Murkowski. I appreciate that. I noted for the 
record the so-called tobacco report card which I have before 
me, and it cites specifically that Colorado and North Dakota 
and Washington took the lead in negotiations that led up to the 
1998 settlement and they highlight your contribution and 
activity in this area and it says, then-Colorado Attorney 
General Ms. Norton was a critical player in the negotiations 
from the beginning, and it goes with further accolades as to 
your contribution, and I would suggest this be included in the 
record, Mr. Chairman.
    Chairman Bingaman. We will be glad to include that in the 
record.
    Senator Murkowski. The Park Service recently made a 
decision to install photo radar cameras on the George 
Washington Parkway. Are you aware of that?
    Ms. Norton. No, I wasn't.
    Senator Murkowski. Well, if you are driving over 55 miles 
in a 50-mile zone the cameras will take a picture of your 
license plate and deliver you a speeding ticket in the mail. I 
am not going to debate the merits of that, but it is rather 
curious, and we talk about State's rights here, and you are 
going to be--you are seen as a protector of State's rights.
    Now, I am not sure that the Park Service should be using 
cameras in Virginia where the Virginia Governor vetoed a bill 
that would have allowed photo radar. If you have not looked 
into this matter I would suggest you prepare yourself, because 
it is a legitimate State's rights issue, and who has the 
authority, the State of Virginia, or the Federal Government? I 
would be interested in having your determination of that.
    Senator Craig. Frank, that really does sound like Big 
Brother's watching.
    Senator Murkowski. Well, obviously, Big Brother is 
watching. Like many national parks, our Denali National Park, 
which is the number 1 tourist destination in our State, is 
struggling to accommodate an increasing number of visitors. The 
single road access into the park is a disaster waiting to 
happen.
    We only let buses in there for the most part. If you have 
not taken that bus ride it starts at 4 o'clock in the morning. 
You get back about 9 or 10 o'clock at night, and it is 
beautiful, magnificent, but it can scare the hell out of you. I 
would ask that you assure me that you will seek to review 
visitor access to the number 1 tourist destination in our 
State, Denali, and try and give us some assurances as to how 
the Park Service is going to meet its obligation to handle the 
visitors.
    Unfortunately, outside the park we have got a strip mall 
now because of the concentration of access in one area, and it 
just simply cannot work.
    Lastly, and I think that I can wind my questions up here 
with asking--and this is to alleviate some of the concerns of 
my good friend from Oregon, Senator Wyden--with regard to the 
availability of the executive summary on the potential of oil 
production from the coastal plain of the Arctic National 
Wildlife Refuge, and this is May 2000 and I would provide 
these, of course, to all members, but this report was requested 
by this committee in a letter dated March 10, and the request 
asks the Energy Information Administration to develop a 
plausible scenario for Arctic National Wildlife Refuge, 
development consistent with the most recent U.S. Geological 
Survey, and so this is very timely.
    The report contains an environmental assessment, 
projections of future daily production rates using USGS 
resource estimates. The coastal plain study includes 1\1/2\ 
million acres of ANWR, and 92,000 acres of Alaska Native 
Inupiat lands, and State of Alaska off-shore lands out of the 
3-mile limit which are expected to be explored and developed if 
and when ANWR is authorized for development.
    The coastal region, which comprises approximately 8 percent 
of the 19-million acre ANWR area, is along the geologic trend 
that is productive in the Prudhoe Bay area 60 miles West.
    It goes on to say, and I quote, ``this is the largest 
unexplored potential productive on-shore base in the United 
States.'' The 1002 area is now closed to exploration and 
development. The USGS made the following estimates in 1998 of 
technical recoverable oil and natural gas liquids from the ANWR 
coastal plain, and mind you, this is old data.
    There is nothing current because there has not been any 
exploration allowed, but the estimate is that a 95-percent 
probability, that is 19 in 20 chances, that there is at least 
5.7 billion barrels, a 5 percent probability, 1 in 20, that at 
least 16 billion barrels of oil can be recovered. That is equal 
to what we would import from Saudi Arabia over a 30-year 
period, and thirdly, the mean expected value estimate is 10.3 
billion barrels of recoverable oil.
    But you know as well as I do that oil is where you find it, 
and where you look for it you usually do not find it, but the 
likelihood, according to the geology, suggests that you will 
very likely find it in this area.
    By comparison, the total 1998 U.S. proved reserves of crude 
oil were estimated to be 21 billion barrels, and the 1993 
estimate of undiscovered technically recoverable oil for the 
on-shore lower 48 States was about 23 million barrels. EIA 
postulated yearly development rates of the resources without 
specifying the efforts of various levels of oil prices and 
technological advances.
    In any event, the estimates are as follows: low and high 
ANWR yearly development rates ranging from 250 to 800 million 
barrels per year. Projected ANWR peak production ranged from 
650 to 1.9 million barrels per day across the six cases, and I 
could go on nd on, but I think it is appropriate to recognize 
that we do have a current study done by the Clinton 
administration Energy Information Agency, which is an objective 
agency, and I would encourage my colleagues to read it, and I 
would ask the staff to give Senator Wyden the first copy.
    Senator Wyden. I have it.
    Senator Murkowski. We have already given it to you?
    Senator Wyden. We have.
    Senator Murkowski. We work quickly. Thank you.
    Chairman Bingaman. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Norton, I have one last question with regard to this 
matter of enforcing environmental laws, and it revolves again 
around what happened in Colorado, where you said you were 
unable to defend that affirmative action program.
    In the Rocky Mountain News, July 20, 1997, you said, in 
your words, that it was rare to have someone in effect beg off 
carrying out a particular case like that. My last question to 
you is, are there any rare instances that you can foresee, as 
Secretary of the Interior, where you would not enforce a 
Federal environmental law?
    Ms. Norton. The situation that you address was a fairly 
unique one, because it was a question of determining what the 
constitutionality was of a State program and I had already 
issued some opinions that became public in a related situation, 
and the arguments that the State would need to make in 
defending the program in question would have been different 
than the ones that I was already on record with.
    Senator Wyden. That is what you said yesterday, but you 
described your conduct as rare, and I appreciate that. What I 
want to know is, do you foresee any rare instances, if 
confirmed, where you would be unwilling to enforce a Federal 
environmental law?
    Ms. Norton. I do not foresee any situations where I would 
not be enforcing the Federal laws. As Secretary of the 
Interior, my responsibility is to enforce those laws, and I 
would take very seriously that responsibility.
    Senator Wyden. I appreciate the answer. Let me also, 
because I have obviously had a number of pointed questions 
during the course of these hearings, express my thanks to you 
for your answer to Senator Craig on the county payments bill.
    As you know, that is a very contentious issue. Both of us 
took a lot of flak to try to write the bill. I had 
environmental groups running ads with me embracing chain saws 
because I wanted to try to come out with a creative new 
approach in this area, and I think the question Senator Craig 
asked about implementing it and your willingness to work with 
us is welcome.
    My question, however, is, given the stress that was placed, 
and appropriately so, on collaboration, can you give the 
committee another specific example of an issue where you 
basically like to try to bring people together and prevent a 
train wreck? That is what the two of us did on this question of 
the relationship between timber harvest and payment to 
counties. It should have been done several decades ago, when 
the spotted owl fight began, because you could have prevented a 
train wreck there.
    Give us, if you would, one specific example of where you 
would like to try to bring people together, foster this 
collaboration, and prevent a train wreck in the natural 
resources area.
    Ms. Norton. In so many different land management issues 
that is going to be appropriate, and it is difficult for me to 
say that in such-and-such a county, such a State----
    Senator Wyden. I am talking about a general problem. We 
dealt with a relationship of timber harvest to pay for the 
schools and roads, and there was tremendous concern that there 
was an incentive to harvest more just to help the schools and 
roads.
    Senator Craig and I got in the middle of this and settled 
it so that, in effect, we had a balanced approach and brought 
these warring camps together, and I would like to see if, in a 
policy area, there is another train wreck that you would like 
to try to prevent, given the fact that you have probably used 
the word collaboration 50 times or more in the course of these 
hearings, and if you could give us a specific example of an 
area where you would like to foster it on your watch.
    Ms. Norton. I would say one specific area would be in 
dealing with the endangered species habitat. There are a number 
of species where the States have tried to come up with recovery 
plans and work with local officials in coming up with those. I 
would like to see what we can do to go beyond just the pure 
enforcement of the Endangered Species Act, which, of course, I 
would do, but really try to find ways to restore endangered 
species, and to be able to do that you need to have the active 
involvement and support of many different people.
    Senator Wyden. So you would be willing to bring together 
environmentalists, people from the timber industry, a variety 
of sectors, to work particularly on the question of a 
collaborative approach to dealing with habitat under the ESA?
    Ms. Norton. Yes, I would.
    Senator Wyden. Thank you, Mr. Chairman.
    Chairman Bingaman. Senator Craig.
    Senator Craig. Gale, in your home State last year we put 
together the Upper Colorado collaborative effort on issues of 
fisheries and brought those together, and that is one you are 
obviously going to be involved in in the future as that works 
its will. The good news is, I do not have any more questions, 
Mr. Chairman. I do have some closing remarks, and I will make 
them when everyone completes their questions.
    Chairman Bingaman. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. The good news is I 
just have a few remaining questions. The chartering act of the 
National Park System sets this as our standard of stewardship. 
It says that we shall leave each of the parks, quote, 
``unimpaired for future generations.'' With that as the 
standard, let me outline what I think are some of the 
challenges that the park system is going to be faced with in 
the next period, and ask what you believe these challenges will 
entail in terms of resources and possibly changes in park 
policy.
    The population of the United States as of the year 2000 was 
approximately 275 million. According to the Census Bureau, the 
population of the United States in the year 2100 is estimated 
to be 571 million, so we are going to have more than a doubling 
of the population of the country.
    There will be other changes as well. One is that more of 
that population will be urban and assumedly will want to have 
access to an outdoors experience. No. 2, it is going to be an 
older population. Today, the population in the United States 
approximately 11 to 12 percent is over the age of 65. Within 
the next 30 years it will be almost 18 percent over 65. It will 
also be less traditional.
    For instance, today the population of nonwhite Hispanics in 
the United States is 71.4 percent. By the year 2100 that will 
drop to 40 percent. The Hispanic population will comprise one 
third of the population of the United States in the year 2100. 
What do those kind of demographic changes on one of the 
institutions which is most significant in our national culture, 
the National Park System, say to you about the kind of policy 
and resource challenges that the park system is going to be 
faced with in the immediate future to get ready for that longer 
horizon future?
    Ms. Norton. The parks are a tremendous resource, and should 
be accessible to people. We need to look at each of the parks 
and determine how best we can marry together the preservation 
of the resources that we want to preserve for the very long 
term and the ability of the American people to enjoy those 
parks.
    The accessibility of park resources to those who are 
elderly or handicapped is an important consideration, and there 
are things we can do in many of our parks to make that more 
available and more accessible. It is a wonderful challenge and 
a wonderful opportunity to be able to look at the resources 
available to us and to try to find ways to allow those 
resources to be best available for people to enjoy.
    One of the other things that I'm enthusiastic about as part 
of President-elect Bush's platform is the ability to provide 
Federal money through the land and water conservation fund to 
States to address, not through the National Park System 
specifically, but through each State's own individual planning 
to have recreation areas and to have open space areas that are 
available to serve the people of our urban areas.
    It is wonderful to have the parks I love in the West, but 
those are not as accessible to people in the urban areas of the 
East. The Department of the Interior mission I think needs to 
expand towards having an eye toward helping States and local 
governments provide resources that will serve all of the people 
of America.
    Senator Graham. I am very encouraged by what you just said. 
I think we sometimes lose sight of the fact that the national 
parks are somewhat the capstone of a larger system to provide 
outdoor and recreational experiences for our people, and that 
that system is interrelated.
    For instance, if there are inadequate State or local parks 
to provide more active recreation there will be pressure on the 
national parks to be providing that opportunity, which could 
lead to the detriment of the national parks' primary mission, 
which is resource experiences and protection.
    That is why I think the CARA bill that Senator Murkowski 
and Senator Bingaman referred to earlier is so important. It 
was the mechanism by which we could provide some reliable 
sustained and more or less efficient Federal participation in 
integrated local-State-national effort to begin to meet our 
current and particularly these enormous future needs that we 
are going to have for outdoor recreation and the protection of 
critical national resources, so I very much appreciate your 
eloquent statement to that effect and, should you be confirmed, 
that would be an area which I am certain this committee, and I 
would offer myself specifically, would be very interested in 
working with you towards achieving.
    Chairman Bingaman. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman, and again, thank 
you for your indulgence on these important questions as they 
relate to the country, but obviously to our unique regions as 
well.
    If I could turn to--and I am not sure how much you have 
commented on NEPA, but I mentioned yesterday that I joined the 
committee as a long line of representatives from the Northwest. 
I think we have had, as I have said, for the last 50 years all 
but 5 years in which someone from the Northwest was not on this 
committee, and one of my predecessors, Scoop Jackson, was 
chairman of the committee for a great number of years and 
actually was the author of the National Environmental 
Protection Act.
    So as I look at the year ahead and what changes--I know 
that you have made comments on NEPA. In fact, part of your 
testimony before the House Resources Committee a couple of 
years ago, you stated that, start the devolution of authority 
in the environmental area back to the States by amending NEPA. 
Specifically, Congress should require that agencies consult at 
an early stage with State and local governments in developing 
environmental impact statements. It should be clear in NEPA 
that an environmental impact statement is not adequate if it 
does not address fully the State and local concerns.
    If confirmed, are you going to advocate for amendments to 
NEPA, that is my first question, and if so, what specific 
amendments would you pursue?
    Ms. Norton. Thank you for that question and the opportunity 
to talk about that issue. I believe the environmental impact 
statement process and the idea that the Federal agencies ought 
to examine the environmental impact of their actions is 
something that is quite important. We were talking earlier 
about the endangered species in the Colorado River, and that 
really was a tragic example of Federal agencies working to 
eradicate a fish species that a few years later we decided we 
needed to be putting in huge efforts to try to restore, because 
they eradicated them so fully they were endangered now.
    That is the kind of thing that in the history now of having 
NEPA in place I believe we have often prevented from occurring, 
and that is what that function ought to be. I am not sure 
whether the issues that I expressed as a State Attorney General 
are going to be the same views that the Federal administration 
will choose to pursue, but I certainly would like to see from a 
personal perspective the idea that the States having a more 
active role in the NEPA process take place.
    It may be possible to do some of those, or to accomplish 
some of the same results through an informal process of working 
together between the States and the Federal agencies without 
formal amendments to the National Environmental Policy Act.
    Senator Cantwell. So at this point you are not saying 
whether you propose amendments?
    Ms. Norton. At this point I do not have any specific 
proposals for changes to the National Environmental Policy Act 
and, frankly, there are many, many things that are going to be 
on my agenda for dealing with the Department of the Interior 
issues, and I anticipate that those are the things that will 
really be occupying my time.
    Senator Cantwell. Thank you. So just one follow-up on that, 
because there is obviously a very prime purpose for NEPA, and 
that is to provide the public with pre-decision information 
about the environmental impacts, and so you do believe that is 
an important process to NEPA?
    Ms. Norton. I certainly do believe it is important to 
provide the public with all of the best scientific information 
that we can acquire for making environmental decisionmaking. I 
am absolutely committed to the idea that the decisionmaking 
should be based on the best science, on the best analysis of 
environmental issues that we can find and, as Secretary of the 
Interior, would anticipate, if I am confirmed, trying to be 
sure that our decisions are really made in a fully informed way 
with full public participation.
    Senator Cantwell. Thank you. My time is almost up, but I 
did want to ask, on 3809 regulations, I think it is believed by 
the Department of the Interior that they are consistent with 
the National Academy of Sciences. You said earlier you did not 
think they were consistent with that study.
    Ms. Norton. This is an issue that, of course, I want to 
study if I am confirmed. I have heard reports that they are not 
consistent, but I don't have any firm basis for that, other 
than the third-hand reports, essentially, that I have heard 
about those regulations, so I will be happy to form some first-
hand opinions.
    Senator Cantwell. Thank you. Thank you, Mr. Chairman.
    Chairman Bingaman. Thank you very much. I think everyone 
who has been here has been able to go through a fourth round of 
questions. Senator Craig indicated a desire, before we 
concluded the hearing, to make a closing statement. Why don't 
you go ahead at this point, then Senator Murkowski, if he has 
any additional statement, or anybody else.
    Senator Murkowski. It would be your intention, then, that 
this would pretty much conclude the hearing?
    Chairman Bingaman. I would expect, unless there are some 
burning questions that Senator Cantwell wished to present, or 
Senator Craig or yourself. There are only four of us here. Did 
you have additional questions?
    Senator Cantwell. If I do, I believe time is open until 5 
o'clock today to submit questions in writing.
    Chairman Bingaman. Yes. Questions can be submitted by any 
member up until 5 o'clock today for the record, so Senator 
Craig, go ahead with any statements you would like to make.
    Senator Craig. Well, Mr. Chairman, thank you very much, and 
again, Gale, thank you for the time you have spent with us, and 
the very frank and forthright way in which you have responded 
to our questions.
    Yesterday, I think Senator Campbell, who you know well, 
opined that he was glad that it was you and not he who had been 
selected by President-<plus-minus>elect George W. Bush to be 
our new Secretary of the Interior. I am quite confident I know 
why he said that.
    I have watched over the past 2 weeks. You have been 
bitterly criticized and broadly characterized. You have become 
the subject of banners and a bumper sticker or two. Your 
critics have questioned your integrity, your judgment, your 
personality, and your views, so I guess my final question to 
you is a simple one. Why do you want to be the Secretary of the 
Interior of the United States of America?
    Ms. Norton. Over these last few weeks I have found myself 
occasionally wanting to find some calm in all of the chaos, and 
when I do so I think about a place that causes me to feel 
serene, and that place is Bear Lake in Rocky Mountain National 
Park. It is a beautiful, beautiful place. It's a timeless 
place.
    The job of Secretary of the Interior is one that, in the 
time frame of the Western lands it is a brief instant, but I 
would like to play my role in seeing that those areas are 
preserved. I want to see that we do the best that we can for 
the people of the West and the other people who are affected by 
the decisions made here in Washington. I have been privileged 
to have worked with many people of many different views over 
the last 20 years, and I want to put into effect what I have 
learned from all of those many people.
    The Department of the Interior is a wonderful place with a 
long history. The opportunity to work on the important issues 
that the Department of the Interior faces and, most 
importantly, the opportunity to be a part of the lands and the 
history of that department is something very important to me. 
It is an opportunity that, despite the criticism that 
inevitably comes to someone who plays this role, I would gladly 
go through that in order to be able to play some part in the 
important decisions that America will make as to our natural 
resources.
    Senator Craig. Well, Gale, thank you. I feel very 
privileged that I may play a small role in helping you fulfill 
that dream and responsibility. Thank you for being with us.
    Chairman Bingaman. Senator Murkowski, did you have any 
additional questions or statement?
    Senator Murkowski. Let me just submit a dozen additional 
letters of support, from Eli River Indian Community, to 
Kovosack Associates, to the Colorado Cattleman's Association on 
behalf of your nomination and I would ask that they be entered 
into the record.
    Chairman Bingaman. They will be entered into the record.
    I would also indicate all the letters of support and 
opposition as well that have been received by the committee up 
until the end of business today will be included in the record.
    Senator Murkowski. Let me compliment you, Senator Bingaman, 
and your professional staff on the manner that we have worked 
together now that the committee is equal, 10 members on each 
side, and with the agreement that our two leaders put together 
to encourage an expedited process of the various nominees for 
Secretary and the manner that we have been able to work 
together collectively on the nominations under our area of 
responsibility, the Department of Energy, Spence Abraham 
yesterday, and again yesterday and today the Secretary of the 
Interior nominee, Gale Norton.
    I think it represents an ongoing relationship that we have 
had, whether we are in the minority or the majority. I have 
been on this committee since the time of the late Scoop 
Jackson, and I think the productivity of this committee is 
evident in the material that was passed out relative to the 
fact that we do an awful lot of activity. We are the highest 
ranking committee in the U.S. Senate for productivity, and if 
anybody would like to see the charts the staff would be happy 
to provide them, and we are going to continue that.
    We have got new members, and we have got some contentious 
issues. We have got a new administration, but we have 
significant responsibilities in the area of the environment, in 
the areas of energy, and it is going to call from some 
decisions, and we have never shrunk from that responsibility.
    So I would, as a consequence of structure of where we are 
going to leave off today, call the committee to order as 
chairman after the 20th to report out the nomination, subject 
to the members' individual opportunities to express themselves 
in a vote. I trust that is agreeable with you?
    Chairman Bingaman. Yes, that is certainly agreeable. That 
would be the logical way to proceed. Thank you very much for 
that statement.
    Let me thank you, Ms. Norton, very much for your patience 
with all committee members and your forthright responses to the 
questions. I think we have had a constructive hearing, and 
there has been a lot of issues explored, and I, for one, have a 
better idea of your views, and I appreciate very much your 
willingness to respond, and I will look forward to seeing the 
responses you provide the committee to the written questions.
    Senator Murkowski. And I would intend to try and canvas the 
members as early as possible next week to find a compatible 
time that we can report out the nominees, hopefully by Tuesday.
    Chairman Bingaman. That will certainly be appropriate. With 
that, the committee will stand adjourned until the chairman 
calls another meeting. Thank you.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

               Responses to Questions From Senator Akaka
                            native hawaiians
    Question. I am pleased to hear that you intend for American Indian 
issues to be a top priority for you as the Secretary of the Interior. 
As you know, I have long supported the rights of indigenous peoples on 
an international level as well as domestically. I'd like to discuss the 
issues involving Hawaii's indigenous peoples.
    Public Law 103-150, commonly referred to as the ``Apology 
Resolution'' was signed into law in 1993. In summary, the resolution 
apologizes to Native Hawaiians on behalf of the people of the United 
States for the overthrow of the Kingdom of Hawaii on January 17, 1893, 
and calls for reconciliation between the United States and Native 
Hawaiians. In 1999, representatives from the Department of the Interior 
and the Department of Justice began public consultations with Native 
Hawaiians as the first step of this process of reconciliation. On 
October 23, 2000, the Departments released a report about the public 
consultations with recommendations for additional steps in the 
reconciliation process.
    The reconciliation process is an incremental process of dialogue 
between the United States and Native Hawaiians to resolve a number of 
longstanding issues resulting from the overthrow of the Kingdom of 
Hawaii. The Department of the Interior has had the lead in this process 
as the agency that deals with indigenous peoples within the United 
States jurisdiction. What assurances can you provide regarding the 
continuation of this important process between Native Hawaiians and the 
United States?
    Answer. While I am unfamiliar with the details of the issues 
between the United States and Native Hawaiians, if confirmed as 
Secretary of the Interior, I will work with all parties to seek 
consensus and ensure cooperation throughout the country. I look forward 
to learning more about our relationship with Native Hawaiians and 
working with you on the reconciliation process.
    Question. One of the recommendations from the report released on 
October 23, 2000, is the establishment of an office within the 
Department of the Interior to focus on issues involving the indigenous 
peoples of Hawaii, Native Hawaiians. The office would continue to 
facilitate the reconciliation process and would assist Native Hawaiians 
in addressing the political and legal relationship between Native 
Hawaiians and the United States. What are your thoughts regarding the 
implementation of this recommendation?
    Answer. I have not had an opportunity to read the October 23, 2000 
report. I will need to review the report, its recommendations and any 
actions that have been taken on this matter more thoroughly before 
decide how to proceed.
                             global warming
    Question. As the only island state in the United States, Hawaii is 
vulnerable to a number of climate change scenarios. I am particularly 
concerned that you have expressed skepticism about the reality of 
climate change, and discount the serious threat it poses to the U.S. 
and other countries. Satellite data on atmospheric temperatures, 
measurements of sea surface temperature, evidence of increasing 
concentration of greenhouse gases in our atmosphere, and continuing sea 
level rise indicate that we are in for some changes. Pacific islands 
are uniquely vulnerable to many of the potential impacts of climate 
change. It is projected that there will be changes in patterns of 
natural climate variability (such as El Nino); changes in frequency, 
intensity and tracks of tropical hurricanes and typhoons; and changes 
in patterns of ocean circulation. Pacific islands are also likely to 
experience increased ocean temperatures and changes in sea level 
(including storm surges and sustained rise).
    Can you share your views on global warming? How will your views 
affect the Department of Interior's role in climate change efforts and 
interagency cooperation regarding global warming?
    Answer. As I stated in my testimony on Thursday, January 18, 2001, 
I believe the issue of global warming must be based on the best 
possible scientific understanding of the problem. There is a growing 
consensus that global warming is occurring at some levels, and that is 
my understanding of current science. On the other hand, there is still 
substantial research that must be done to determine the causes of the 
phenomenon and the appropriate public policy responses to any adverse 
effects linked to the problem.
                       national parks--financing
    Question. I was pleased to hear of your ``full support for a strong 
national park system'' at our recent meeting. As you know, our national 
parks are facing increased visitorship at levels that far exceed 
predictions. As a result, infrastructure and utility systems at 
national parks are overtaxed, campgrounds are overcrowded, traffic is a 
problem, and there is general decay of visitor facilities. In addition 
there are 33 new parks since 1987 and a number of unfunded mandates 
that draw on the Park Service's funds. The national park system is not 
only our domestic crown jewel for investments in public spaces of great 
natural beauty and historical significance, but is the best in the 
world. I know you would agree that we must not under invest in the park 
system of the U.S.
    You have said that the way to deal with unfunded mandates is to 
reel them back in--to start returning money as well as responsibility 
back to states. Do you consider the increasing scope and number of 
national park units to be an ``unfunded mandate''? If that is the case, 
would you de-authorize or un-fund the new units of the national park 
system?
    Answer. I agree with you that the National Park System is a crown 
jewel among our public spaces. I strongly support the National Park 
System and am committed to improving and enhancing it. I do not believe 
that the establishment of new park units constitutes an unfunded 
mandate in the traditional sense of that term. Nor do I support 
deauthorizing or defunding new units of the National Park System. 
President Bush pledged to seek increased funding for the National Park 
Service to eliminate the backlog of major maintenance and construction 
and resource restoration over the next five years. I look forward to 
working to fulfill that commitment.
    Question. How do you propose to ensure that the Park Service has an 
adequate financial base to meet the basic infrastructure demands and 
provide quality visitor facilities and interpretation? In addition to 
increased appropriations, would you look favorably on such options as 
increased user fees and other financial reforms?
    Answer. At this time, I am not familiar enough with the 
Department's programs to maintain the National Park System to provide 
specific recommendations with respect to additional measures that might 
be implemented to meet the System's needs. However, I look forward to 
working with Congress, the States, user groups, and other stakeholders 
to ensure that the National Park System has sufficient resources to 
operate and maintain our national Parks and provide adequate services 
for the over 270 million annual visitors to the Park System.
    Question. During both Republican and Democratic Administrations, 
Congress has authorized new parks to conserve our natural and cultural 
heritage. In the 106th Congress, four new units were created and 
several park expansions authorized, including Great Sand Dunes National 
Park in Colorado (sponsored by Members of Colorado's Republican 
delegation).
    In his statement of September 13, 2000, presidential candidate 
George Bush said that ``first priority should be given to maintaining 
existing holdings.'' What is your view of the need to continue adding 
nationally significant resources to our national park system?
    Answer. I support President Bush's statement. The National Park 
Service estimates that the backlog for major maintenance and 
construction is approximately $4.9 billion. One of my top priorities 
will be to seek increased funding for the National Park Service to 
eliminate this over the next five years. At this time, I do not have a 
separate position with respect to the addition of new park units.
    Question. Do you intend to place a limit on recommending new units?
    Answer. I am not familiar enough with this issue at this time to 
answer this question. I believe generally that the decision about 
whether to add a new unit must be made on a case-by-case basis. Any 
decision to add a new unit also requires Congressional action. I 
support the President's statement that our first priority must be to 
maintain the existing units in the National Park System.
    Question. Can we afford not to preserve significant resources while 
we deal with the backlog issue?
    Answer. I recognize the importance of preserving significant 
resources whenever possible. However, I also support the President's 
statement that our first priority must be to maintain the existing 
units in the National Park System.
    Question. Are there any types of areas that you believe are not 
represented in the park system that deserve further study and analysis?
    Answer. I am not familiar enough with the specific units included 
in the National Park System to respond to this question at this time.
                national park service--diversity issues
    Question. Over the last ten years I have been an advocate for 
increased recognition of diversity within national parks. I have 
initiated studies for park service units that tell the story of 
Japanese-American internment camps, historic and cultural trails in 
Hawaii, as well as the story of West Coast immigration, and a bill on 
the Peopling of America. I believe that the interpretation of how 
America has become a diverse national is important for us all.
    How do you think your role can foster a greater appreciation of our 
national parks to a wider constituency and broaden the identification 
and interpretation of new park units that tell the story of all 
peoples?
    Answer. I am not familiar enough with the specific education 
programs associated with our National Parks to respond to your question 
at this time. However, I share your desire to have our National Parks 
represent the diversity of experience and cultures that make our 
country unique. I look forward to working with you and the Congress to 
broaden the appeal of our National Parks.
                           endangered species
    Question. As you may know, the state of Hawaii has over 300 
endangered and threatened species--more than any other state in the 
U.S. And twelve more species are being proposed by FWS this week. Yet 
our state receives relatively little funding through the federal 
Section 6 program and our State funding for endangered species programs 
is very small. In 1997 Hawaii enacted State legislation establishing 
incentives for private landowners to improve habitats on their 
properties. In essence, the measure authorizes the state to enter into 
``safe harbor'' agreements with landowners who voluntarily improve 
habitats. The State, conservancy groups, and the FWS endorses such 
approaches that allow planning on a ``habitat'' level as opposed to a 
``species'' level.
    Do you believe that there is a federal role in protecting habitat 
as part of the interpretation of the Endangered Species Act?
    Answer. The Endangered Species Act gives the federal government an 
important role in preserving habitat for endangered and threatened 
species. I support programs like the one you have described in Hawaii 
to encourage private landowners to preserve habitat for species.
    Question. What steps would you take to encourage habitat-wide 
planning for conservation of endangered species on private lands?
    Answer. If confirmed, I am committed to work with the States and 
landowners to use tools like habitat conservation plans, State 
Candidate Conservation Agreements, and Safe Harbor Agreements to help 
save species and their habitat.
    Question. Would you support the current initiatives to work with 
landowners on Habitat Conservation Plans that include ``safe harbors'' 
and ``no surprises'' agreements?
    Answer. Yes.
    Question. Would you support new programs and increased funding for 
state and community-based conservation and education programs for 
endangered species, provided to states with the greatest number of 
endangered species issues?
    Answer.I am not familiar enough with the formula for distributing 
section 6 funds to the States to respond to your question about 
allocation of federal funds. I look forward to working with you, the 
Congress, and any other interested stakeholder in identifying new 
programs or tools that could be used to recover endangered species.
                             insular areas
    Question. President Clinton established the Interagency Group on 
Insular Areas (IGIA) by Executive Memorandum on August 9, 1999. The 
memorandum states that ``the IGIA shall work with the Secretary of the 
Interior to identify issues concerning American Samoa, the Commonwealth 
of the Northern Mariana Islands, Guam and the U.S. Virgin Islands,'' to 
make recommendations to the President concerning Federal Government 
policies and programs affecting these areas.
    Do you plan to continue the IGIA process or will you propose an 
alternative approach to improving federal-territorial relations to 
include the White House?
    Answer. Based on my current limited familiarity with IGIA, it 
appears that until a better approach is developed to improve federal-
territorial relations, the IGIA offers the best means to coordinate 
federal policies and programs concerning the territories.
    Question. Because of the geographic locations of most of the 
territories and their non-inclusion in national policies, the 
territories often do not share in the economic prosperity of the 
nation. The unemployment rates in the territories are in the double 
digits. As the Secretary of the Interior, what actions can you take to 
assist the economies of the insular areas?
    Answer. I am not familiar enough with the economies of the 
territories to be able to make specific recommendations at this time. 
However, I look forward to visiting the territories and meeting with 
their respective leaderships to work towards improving the unemployment 
rate now in existence. I plan to ask for a meeting with the 
territories' representatives in the Congress to help determine the 
array of options that are available to the Secretary to assist in 
economic development.
                Responses to Questions From Senator Bayh
    Question. You have, in the past, advocated a broader interpretation 
of takings law than has been adopted by the Supreme Court. 
Specifically, you have written that economic liberties have not been 
adequately recognized in the courts. For instance, you have suggested 
recognition of a ``homesteader's right to pollute.'' Can you elaborate 
on your current thinking on what types of regulatory action constitute 
a ``taking'' of private property and when compensation would be due?
    Answer. As I mentioned during my confirmation hearing, I did 
academic research on the concept of emissions trading in the early 
1980s. At that time, an emissions credit was sometimes referred to as a 
``tradeable right to pollute.'' On the assumption that emissions 
trading might begin with a recognition of the current emissions level 
at various facilities, the initial level of pollution was considered to 
be acquired by ``homesteading,'' just as the earliest settlers of land 
acquired rights by being the first ones to develop an area. Inherent in 
this concept is the idea of starting with the ``homesteaded'' (i.e., 
baseline) level of pollution and trading ``rights to pollute'' (i.e., 
emissions credits) to reduce present or future levels of pollution in 
the most economical way. Thus, to me, a ``homesteading right to 
pollute'' is one mechanism that lawmakers might select to begin 
establishing an emissions trading market, much like the one that 
Congress created through the Clean Air Act Amendments. Emissions 
trading is one example of the innovative approaches to environmental 
issues that I have championed throughout my career.
    Unfortunately, this personal understanding of the terminonlogy was 
not apparent in my speech that was reprinted in the Harvard Journal. 
The speech was never intended to imply an unfettered ``right to 
pollute'' as some have interpreted it. The speech was clear, I believe, 
in indicating that I was simply describing a range of competing views 
regarding property rights and the environment.
    I recognize that not every federal action or regulation that 
adversely impacts a property owner constitutes a taking under the Fifth 
Amendment. The Supreme Court has articulated guidelines setting forth 
what constitutes a taking that must be compensated. I support the 
Supreme Court's interpretation of the takings clause of the Fifth 
Amendment and do not believe that it unduly restricts federal 
regulatory activity.
    Question. How would these views impact your decisions as Secretary 
of Interior?
    Answer. I will protect the federal government's interests in its 
lands and enforce all environmental and land use laws that apply to the 
lands and interest managed by the Department of the Interior.
    Question. For example, if a company proposed a mine next to a 
national wildlife refuge and there were concerns that the mine would 
negatively impact the refuge (e.g., create hydrological problems), how 
would you proceed? Would you oppose the mine and call for federal, as 
well as state, environmental permits for the project? Would denial of 
the permit be a compensable taking?
    Answer. While the actions to be taken in response to your 
hypothetical would depend on the particular facts, if confirmed as 
Secretary of the Interior, I would expect to examine the legal 
authorities available to the Department, coordinate with other federal 
agencies, and utilize our powers to appropriately protect federally 
owned lands and resources.
    The question of when compensation could result from denial of a 
permit requires a fact specific analysis based on the U.S. Supreme 
Court's guidelines regarding regulatory takings. Generally, the courts 
have required that property impacted by regulation must no longer have 
any economic use before compensation is required.
    Question. In 1980, you coauthored an amicus brief on behalf of the 
Mountain States Legal Foundation (Andrus v. Virginia Surface Mining and 
Reclamation Association, Andrus v. State of Indiana and Virginia 
Surface Mining and Reclamation Association v. Andrus, considered 
together) that argued that the Surface Mining Control and Reclamation 
Act (SMCRA) was unconstitutional because ``land use regulation is 
beyond the authority of Congress to regulate as interstate commerce.'' 
Is this still your view?
    Answer. The Supreme Court ruled in 1980 that SMCRA is 
constitutional. I support the Court's ruling as the law of the land and 
will enforce the law.
    Question. You testified that you did not oppose the goals of SMCRA, 
but rather the law's ``structure'' or details. Can you be more specific 
about the parts of its structure to which you objected?
    Answer. I did not oppose the underlying goal of SMCRA to provide 
for the environmentally responsible siting, operation, and reclamation 
of surface coal mines. The question addressed in the brief was whether 
this regulation should be done by the federal government under the 
Commerce Clause, or by the State as a type of land use regulation. The 
U.S. Supreme Court determined that this was appropriately a federal 
function, and I will exercise federal regulatory authority accordingly.
    Question. In addition, you testified that you disagreed with the 
Endangered Species Act, the Clean Air Act and the Americans with 
Disabilities Act's ``structures'' rather than their goals. Is the 
common ``structure'' in these laws a federal determination of 
environmental harm or environmental remedy?
    Answer. As I stated during the hearing, I support the fundamental 
goals of the Endangered Species Act, the Clean Air Act, and the 
Americans with Disabilities Act. I have previously expressed the view 
that some aspects of these laws should be vested in State, as opposed 
to federal, hands. These are primarily the aspects that do not have an 
interstate impact or that assume control over government officials and 
resources. I have, however, always recognized an important federal role 
as well. For example, the determination of which powers should be 
exercised by the States and which by the federal government is 
primarily a question for Congress to consider as it designs federal 
programs.
    Question. Do you agree that there are instances in which a 
national, rather than a state-by-state approach to environmental 
protection is warranted?
    Answer. Yes, see also my answer to the previous question.
    Question. Are there instances in which uniformity and certainty 
across state lines might lessen the burden of compliance with a 
national environmental goal?
    Answer. It is certainly possible that in some circumstances uniform 
regulations may facilitate compliance with a national environmental 
goal. As a State official, I frequently heard businesses request 
uniform nationwide rules to facilitate compliance. I sometimes 
supported and sometimes opposed these requests.
    Question. In 1995, in Babbitt v. Sweet Home, the Supreme Court held 
that the Fish and Wildlife Service could prohibit activities that 
degraded endangered species' habitat on private land. You coauthored an 
amicus brief arguing that the authority of the Secretary of Interior 
under the Endangered Species Act did not extend to activities on 
private lands. As Secretary of Interior, you would be charged with 
protecting endangered species with all the authority given you. Would 
you use your authority to protect species habitats on private land?
    Answer. The Endangered Species Act prohibits private landowners 
from taking endangered species. The U.S. Supreme Court interpreted this 
to prevent destruction of habitat on private land. As I stated during 
the hearing, I am committed to enforcing the Endangered Species Act, 
including the U.S. Supreme Court's interpretation. In addition, I will 
seek to use incentives and other innovative tools to encourage 
landowners to preserve habitat for species.
    Question. Would you recommend that the Department purchase the 
habitats outright or acquire easements?
    Answer. I believe that the Department should consider a variety of 
options to preserve habitat for species. In some cases, acquisition of 
habitat may be appropriate; in other cases, the Department may seek to 
obtain easements on privately-owned land. I also support various 
innovative tools, such as habitat conservation plans, to preserve 
habitat. I believe that the Department should evaluate these and other 
options on a case-by-case basis to determine which option will achieve 
the best results in any given situation.
    Question. Will you request additional funding in the Department's 
budget for such acquisitions?
    Answer. I am not familiar enough with the level of resources that 
would be required to fund such acquisitions, or with the potentially 
competing needs of the Department, to respond to this question at this 
time. If confirmed as Secretary of the Interior, I would look forward 
to working with you, and Congressional appropriators, on this issue.
    Question. The national park system was created in 1916 ``to 
conserve the scenery and the natural and historic objects and the wild 
life therein and to provide for the enjoyment of the same in such 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations. How would you recommend reconciling 
the ``conservation'' mandate and the ``enjoyment'' mandate?
    Answer. I believe that in managing our National Parks, we can 
achieve the appropriate balance between conservation and public access 
or enjoyment. I believe that this must be done a Park-by-Park basis, 
with input from all interested stakeholders. I am committed to working 
with States, local communities, user groups, and the environmental 
community to ensure that we achieve that balance at our National Parks.
    Question. In its 2001 edition of National Park System Management 
Policies, the Park Service states that where there is a conflict 
between conservation of resources and providing for enjoyment of them, 
conservation should prevail. Do you agree with this policy? Would you 
seek to change this policy? [1.4.3]
    Answer. I am not familiar enough with the Park Service's policy to 
respond to this question. I look forward to reviewing the policy and 
would be happy to discuss this you in greater detail at a later date.
    Question. In the last Congress, many of us in Congress and on this 
Committee [particularly Senator Landrieu, who could not be here today] 
worked to enact legislation--the Conservation and Reinvestment Act 
[CARA]--that would provide a permanent, stable source of funding for 
federal and state Land and Water Conservation fund activities. We will 
try again this Congress to enact the CARA legislation. An area of 
significant debate was whether federal land acquisition authority 
should be subject to blanket limitations, such as a prohibition on 
purchases west of the 100th meridian. Others suggested financial 
limitations on federal land acquisition authority. Would you recommend 
that the Department relinquish existing land acquisition authority in 
exchange for guaranteed funding?
    Answer. I recognize that CARA was a highly contentious issue in the 
last Congress and that it caused sharp divisions among the members of 
the Committee. I never took a position on CARA and am unfamiliar with 
the details of the legislation at this time to say that the Department 
of the Interior should relinquish existing land acquisition authority 
in exchange for guaranteed funding. As the final decision on these 
matters would lie with Congress, I would be willing to sit down and 
discuss this in greater detail with you and other members of Congress 
if confirmed as Secretary of the Interior.
    Question. Would you recommend any limits or prohibitions on how 
states could spend their allocation of Land and Water Conservation Fund 
monies?
    Answer. President Bush committed to full funding of the Land and 
Water Conservation Fund, including the state-side grant program. I am 
unfamiliar with the details of the state-side grant program to say 
whether or not changes should be made to the program.
    Question. Although CARA legislation was not enacted in the last 
Congress, the Interior Appropriations bill did include $450 million in 
a Lands Legacy account for acquisition of lands to be identified by the 
Secretary of Interior and approved by Congress. Do you intend to submit 
a list of priority acquisition properties?
    Answer. I understand that the Conference Report accompanying the 
Interior Appropriations Act for fiscal year 2001 specifies the lands to 
be acquired with the $450 million in Federal acquisition money 
appropriated last year. As to the fiscal year 2002 budget submission, 
President Bush committed to seek full funding of the Land and Water 
Conservation Fund. It is my intention, if confirmed as Secretary of the 
Interior, to handle budget requests for Federal land acquisition money 
in a manner agreeable to Congressional authorizing and appropriations 
Committees.
    Question. Congressman James Hansen has sent a letter to President-
elect Bush that contains a list of regulations he believes the new 
Administration and Congress should reverse. The list includes Park 
Service snowmobile prohibition regulations, regulations limiting air 
tours of the Grand Canyon, reinterpretation of the Park Service's 
management policy regarding the dominance of its conservation mandate, 
restrictions on personal water craft in the national parks system, 
national monument designations and hard-rock mining regulations. There 
are many other federal resources protection initiatives mentioned in 
the letter. You testified that you would be reviewing those rules and 
regulations. What analytical framework do you intend to use to review 
these rules and regulations?
    Answer. I have not reviewed the Hanson letter or the numerous 
regulations and policies that were finalized in the last months of the 
Clinton Administration. At this time, I have not developed criteria or 
an analytical framework to review these regulations or policies. I 
would be happy to discuss this with you further after I have an 
opportunity to review the regulations and policies and make an 
independent assessment as to whether further action with respect to any 
of them is necessary or appropriate.
    Question. In other words, how will you determine which policies 
should remain in effect and which should be reversed?
    Answer. At this time, I do not have a specific set of criteria that 
will be used to evaluate regulations and policies. However, if I am 
confirmed as Secretary, I would be happy to discuss the process that we 
intend to use to determine which policies should remain in effect and 
which should be reversed. At a minimum, we will comply with all 
applicable federal laws and regulations.
    Question. Will collaboration with the affected parties will be part 
of your review process?
    Answer. Yes.
    Question. Do you intend to enforce the regulations under review in 
the interim?
    Answer. If confirmed as Secretary of the Interior, I will comply 
with the policy set by the White House with respect to the 
implementation of regulations and policies under review. Beyond that, 
because I have not yet been confirmed, I have not had an opportunity to 
assess what level of enforcement, if any, is appropriate for 
regulations or policies under review.
    Question. There has been significant discussion about the 19 
National Monuments designated by the President under the Antiquities 
Act. Do you support statutory changes to the Antiquities Act?
    Answer. I am not familiar enough with the details of the 
designation process under the Antiquities Act to have made an 
independent assessment as to whether statutory changes are necessary or 
appropriate. At this time, I have not taken a position with respect to 
statutory changes. I look forward to learning more about the process 
and working with you on any legislative changes that the Congress may 
wish to pursue.
    Question. Will you recommend adequate funding for the new monuments 
in your FY2002 budget proposal or will you recommend a two-tier funding 
system for existing monuments and those designated by the Clinton 
administration?
    Answer. I am not familiar enough with the level of resources that 
would be required to protect and maintain each of the National 
Monuments, or with the potentially competing needs of the Department, 
to respond to this question at this time. At this time, I am not aware 
of any proposals to recommend a two-tiered funding system for existing 
monument. If confirmed as Secretary of the Interior, I would look 
forward to working with you, and Congressional appropriators, on the 
issue of funding for national monuments.
              Responses to Questions From Senator Bingaman
    Question. Your writings and speeches include many examples of your 
support for limited Federal involvement in natural resource issues. If 
confirmed, you will be the nation's principal voice for protecting the 
Federal areas and wildlife under the Interior Department's 
jurisdiction. Can you give us any examples that show a similar passion 
for advocating the Federal interests for which you will be responsible?
    Answer. As Associate Solicitor of the U.S. Department of Interior, 
I worked to uphold federal interests on issues ranging from the 
Endangered Species Act (the California Condor species reproduction 
project) to habitat restoration (Como Lake restoration project). I 
respect federal lands and support strong federal management of its 
properties. As Attorney General, I assisted Senator Hank Brown in 
resolving difficulties so that Colorado's wilderness bill could be 
passed. I also worked to see that the Rocky Mountain Arsenal was 
sufficiently cleaned up and urged Congress to create a wildlife refuge 
there.
    Question. Your published writings have embraced an expansive theory 
of the takings clause which would go far beyond guaranteeing just 
compensation when property is taken for public use. You have appeared 
to support a theory which would severely limit the power of the Federal 
(and local) governments to regulate private property. Is this an 
accurate description of your views? If so, how does this comport with 
your willingness to effectively enforce the various environmental laws 
under the jurisdiction of the Secretary of the Interior?
    Answer. I have consistently sought to find a balance between 
competing constitutional interests reflected in the Fifth Amendment's 
takings clause and Congress's power under the Commerce Clause and the 
Tenth Amendment. I will protect the federal government's interests in 
its lands and enforce all environmental and land use laws that apply to 
the lands and interest managed by the Department of the Interior.
    Question. In various writings, you have made clear your opinion 
that many areas should be the exclusive jurisdiction of the States to 
regulate, where the federal government has no right to be. In 1980, you 
argued that all land use regulation ``falls outside the commerce power, 
and . . . is a traditional function reserved to the states under the 
tenth amendment.'' In a 1996 speech, you said the cause of State 
sovereignty has ``lost too much'' by the otherwise bad facts of the 
civil war, and that States ``need to be able to make their own 
decisions.'' As the steward of some of the most nationally significant 
and vulnerable federal lands, your comments raise the question of what 
role, if any, you see for the federal government in the areas of clean 
air, clean water, endangered species habitat protection, and wilderness 
preservation. Are there environmental gains made during the last 
century that you would be willing to abandon in the name of states 
rights and property rights? Why do you feel ``we lost too much?''
    Answer. The federal government has an important role to play in 
federal land management and national goals of environmental protection. 
I will enforce the air, water, wilderness and endangered species 
protections embodied in federal law. At the same time, I am willing to 
work with states and other constituencies to find balanced and non-
bureaucratic ways to advance environmental goals.
    Question. You have testified in support opening the coastal plain 
of the Arctic National Wildlife Refuge to oil and gas development. 
Outside of areas where oil and gas development is legislatively 
prohibited, are there instances in which you believe public lands 
should be closed to commercial or industrial development in order to 
preserve environmental, scenic, cultural, or historic resources? What 
do you believe is the most appropriate balance between protection of 
sensitive national resources (such as within a wilderness study area or 
national monument) and development of oil or gas or other mineral 
resources?
    Answer. Appropriate management of public lands, whether for 
recreation or energy development, must be done in compliance with 
applicable laws and regulations. If confirmed as Secretary of the 
Interior, I will strive to obtain balanced management of our sensitive 
national resources as appropriate.
    Question. Last Congress Senator Stevens and Secretary Babbitt 
reached a compromise on legislation to phase out commercial fishing 
within the inner waters of Glacier Bay National Park. Similarly, 
Senator Murkowski and I reached a compromise on legislation (which was 
enacted into law) specifying where commercial fishing would be allowed 
to continue in the park and where it will be eliminated. Do you support 
these agreements?
    Answer. I am unfamiliar with the specifics of these agreements. 
Nonetheless, if confirmed as Secretary of the Interior, I will seek to 
fulfill all legislative requirements.
    Question. As you know, subsistence uses are not allowed within the 
``old parks'' in Alaska, including Glacier Bay and Denali. However, 
subsistence uses are allowed in the newer additions to those parks as 
well as in other park and preserve areas. What is your opinion as to 
whether subsistence uses should continue to be prohibited in the old 
park areas?
    Answer. I have not taken a position on whether or not subsistence 
uses should continue to be prohibited in the old park areas. I 
understand that this a complex, legal issue that I would need to review 
in greater detail before forming an opinion or deciding how to proceed.
    Question. The State of Alaska has filed suit against the National 
Park Service claiming that it has jurisdiction to the waters of Glacier 
Bay. The United States is defending its interests with the assertion 
that the State of Alaska is not entitled to these submerged lands. Do 
you agree with the Federal government's position?
    Answer. I am unfamiliar with this litigation.
    Question. In the past, you have publicly criticized the National 
Environmental Policy Act (NEPA). Do you see yourself playing a 
different role as Secretary? Are there administrative actions that you 
plan to pursue with respect to NEPA? If so, what are they?
    Answer. In 1998, while Colorado Attorney General, I testified 
before the House Resources Committee on implementation of NEPA and 
recommended, based on my experience, amendments to NEPA that would 
improve the process. If confirmed as Secretary of the Interior, I will 
ensure that the Department fully complies with the requirements of 
NEPA. At this time, I do not have any administrative actions that I 
plan on pursuing with respect to NEPA.
    Question. As Secretary, would you request sufficient funds to 
enable the Fish and Wildlife Service to complete Endangered Species Act 
consultations in a timely manner? If there were a movement in Congress 
to freeze staff levels of biologists conducting consultations, would 
you support or oppose it?
    Answer. The Endangered Species Act establishes a deadline for the 
completion of consultations under section 7 for federal actions. I 
understand that the Fish and Wildlife Service does not meet the 
statutory deadline in the majority of cases. I am not familiar with the 
specific causes for this failure and do not know at this time what 
additional funding, if any, is needed for staff biologists dedicated to 
section 7 consultations. I look forward to working with the Congress to 
determine what level of funding is appropriate for the Fish and 
Wildlife Service to meet its statutory obligations under section 7.
    Question. Do you believe that any of the species currently listed 
under the Endangered Species Act as endangered or threatened should not 
have been listed? If so, please give examples.
    Answer. I do not have any specific information at this time to 
conclude that any individual species should not have been listed under 
the Endangered Species Act.
    Question. During the past Administration, lands of national 
conservation importance, including all of the national monuments 
designated on BLM lands, were placed under the administration of the 
BLM instead of the National Park Service. At the time, the decision by 
Secretary Babbitt to keep these lands under the BLM was somewhat 
controversial. Do you believe national monuments, conservation areas 
and other lands of significant natural and cultural values can be 
appropriately managed by the BLM for conservation purposes, or should 
would an agency such as the National Park Service be more appropriate?
    Answer. I am not familiar enough with the situation to respond to 
the question. I look forward to working with the Congress and the land 
management agencies, to ensure that all public lands are managed 
appropriately and consistent with the law.
    Question. In recent years the BLM has taken steps to reinventory 
certain BLM lands in Colorado and Utah for potential wilderness study 
area designation, with respect to lands which were excluded from the 
original WSA review conducted under section 603 of the Federal Land 
Policy and Management Act. Do you think this reinventory is 
appropriate? In general, will you support a policy of reevaluating BLM 
lands for potential future designation as wilderness as a component of 
the BLM's land use planning program?
    Answer. In general, I support the designation of certain areas as 
wilderness areas or wilderness study areas. I believe such designations 
should be made in consultation with the States, local communities, and 
affected stakeholders. I am unfamiliar with the specifics of the BLM's 
reinventory and BLM's land use planning program. I would have to review 
the current program before deciding how to proceed.
    Question. The Forest Service recently completed the Roadless Area 
Conservation Rule which prohibits new road construction into 
approximately 58 million acres of national forests. The rule does not 
affect road construction associated with exploration or development of 
leasable minerals that are presently leased. Do you have any thoughts 
on the rule as it related to activities under the jurisdiction of the 
Interior Department?
    Answer. No. The rule does not affect any activities of the Interior 
Department as these leases are specifically exempted from the final 
rule. I am reluctant to speak to the roadless rule generally because it 
was not promulgated by an agency within the Department of the Interior.
    Question. The Department of the Interior has deleted the Beaufort 
Sea area offshore from the Arctic National Wildlife Refuge from recent 
OCS oil and gas sales to protect the refuge from such adjacent activity 
until Congress addresses the future of the 1002 area. Do you agree that 
MMS should continue to defer offering oil and gas sales in this area 
until Congress addresses the future of the 1002 area?
    Answer. I am unfamiliar with the specifics of MMS' action and would 
need to review it before deciding how to proceed.
    Question. During your tenure as Associate Solicitor for 
Conservation and Wildlife at the Department of the Interior, you 
unsuccessfully defended an attempt by the Department to deny public 
review of the draft oil and gas report required by section 1002 of 
ANILCA relative to ANWR. In Trustees for Alaska v. Hodel, the Ninth 
Circuit held that the government wrongfully denied the public access to 
the 1002 report, an action that would have undermined NEPA's intent to 
allow public input before Congress acts. In taking any future actions 
regarding the 1002 area and development of ANWR, will you commit to 
full and informed public involvement in planned actions of the 
Department?
    Answer. If confirmed as Secretary of the Interior, I can assure you 
that I will comply with all statutory requirements including those 
related to public participation.
    Question. During the 107th Congress, the Senate unanimously passed 
a bill to implement immigrations reforms in the Commonwealth of the 
Northern Mariana Islands (``CNMI''). This Committee has held several 
hearings over the years and established a record indicating that 
serious problems exist in the CNMI. The current immigration system 
administered by the local CNMI government is inconsistent with long-
standing U.S. immigration policy. The most disturbing result of CNMI's 
current immigration system is the consistent and increasing 
documentation of human rights abuses which alien workers suffer. As 
Secretary, will you support our Committee's efforts to enact 
legislation that will implement immigration reforms in the CNMI?
    Answer. While I am not familiar enough with the CNMI situation to 
answer this question with specificity, I will work with the Committee 
to make sure the immigration system in place on the CNMI is fair and 
workable. I will endeavor to provide the Committee with information to 
evaluate appropriate changes.
    Question. The General Accounting Office recently issued a report 
criticizing the Department of the Interior for insufficient oversight 
of assistance to the freely associated states. One problem has been 
that the Office of Insular Affairs, within the Department of the 
Interior, has not had enough resources or personnel. Are you prepared 
to request sufficient levels of funding for this office?
    Answer. At this time, I am not familiar enough with the Department 
of the Interior's budget to make a determination on the appropriate 
level of funding for the Office of Insular Affairs or any bureau within 
the Department of the Interior. If confirmed as Secretary of the 
Interior, I will seriously evaluate the recommendations of the General 
Accounting Office before determining how to proceed.
    Question. Within the next ten years, the licenses for over 200 
Western hydroelectric projects will be subject to renewal by FERC. The 
licensing process is complex, and involves a number of stakeholders 
including states, local governments, recreational river users and the 
various Federal land management agencies. The Federal agencies, 
industry and FERC have been working hard the past several years to 
create solutions for resolving delays and other concerns raised by the 
relicensing process. Their Interagency Task Force has made significant 
progress in developing administrative reforms that will make the 
hydropower licensing process more efficient and effective. Are you 
willing to actively support the recommendations of the Interagency Task 
Force and allow them a fair opportunity to succeed?
    Answer. I am unfamiliar with the specific reforms being developed 
by the Interagency Task Force, including the work they have undertaken 
to date and the recommendations they are considering. As a general 
matter, I support collaborative decisionmaking and look forward to 
working with the Task Force.
    Question. What is your position on the mandatory conditioning 
authority of the Federal land and resource agencies contained in the 
Federal Power Act? Will you fully support the resource management 
agencies in imposing on FERC licenses such conditions as are necessary 
to protect the resources under those agencies' jurisdiction?
    Answer. I have not had an opportunity to review the mandatory 
conditioning authority of the Federal Power Act but I recognize the 
resource management agencies have an important role to play in FERC 
relicensing. I look forward to working with FERC and others to ensure 
that natural resources are protected during the relicensing process.
    Question. A recent AP article reports that, as a lawyer in private 
practice, you represented the Alaska State Legislature in a subsistence 
fisheries regulation dispute with the Department of the Interior. As 
part of your work for the legislature, you assisted the Mountain States 
Legal Foundation in writing an amicus brief for a Federal lawsuit 
opposing Department of the Interior oversight of fishing in Alaska. 
Some opponents of the regulations are challenging them in court. Will 
you recuse yourself from this matter since you were recently involved 
as a private attorney?
    Answer. Under the terms of the Committee's recusal policy, I will 
recuse myself for a period of one year from any involvement or 
decisions relating to this litigation. I also will consider my 
commitments as a lawyer under legal ethics rules regarding a longer-
term recusal and, if I am confirmed, will consult with the Department 
of the Interior Office of Ethics to avoid any appearance of 
impropriety.
              Responses to Questions From Senator Cantwell
    Question. The Hanford Reach National Monument covers 195,000 acres 
and is the last undammed stretch of the Columbia River. This area also 
plays a vital role in the recovery of salmon in the Pacific Northwest, 
which has direct linkages to treaty obligations with the Native 
American tribes and Canada. What will you do to assure that this new 
monument receives the necessary funding to fully protect the resources 
within its boundaries, as well as maintaining its original boundaries? 
Will you consult with myself and other members of the Northwest 
congressional delegation before any changes are proposed and made?
    Answer. At this time, I do not know what resources will be 
necessary to manage all of the national monuments, including the 
Hanford Reach National Monument. I can commit that I will not take any 
action with respect to the Hanford Reach National Monument without 
consulting with you and other interested members of the Washington 
delegation, as well as the State and affected local communities. I look 
forward to learning more about the Hanford Reach National Monument and 
working with you to obtain the resources necessary to manage the 
Monument.
    Question. My home state of Washington has successfully developed 
several Habitat Conservation Plans that are an integral part of our 
state's response to Endangered Species Act listings. As Secretary, will 
you make funding for the U.S. Fish and Wildlife Service HCP program a 
priority to help ensure the ongoing success of these HCPs?
    Answer. I believe HCPs play a very important role in protecting 
endangered species, and I will work to see that they are adequately 
funded.
    Question. The General Mining Law of 1872 allows for mining of 
minerals from public lands without royalty payments to the Federal 
government and without provisions to protect the environment. Many view 
this law as subsidizing environmentally harmful mining on public lands 
at taxpayer expense. What specific reforms will you support of the 
General Mining Law of 1872?
    Answer. I have not had an opportunity to review the various 
concerns that have been raised with respect to the implementation of 
the Mining Law of 1872. Therefore, I am not in a position at this time 
to make specific recommendations regarding potential reforms. However, 
I look forward to learning more about the Mining Law and would welcome 
the opportunity to work with Congress as it considers proposed reforms.
    Question. On November 21, 2000, the Bureau of Land Management 
published the final ``3809 rules'' regulating surface mining on public 
lands. Since the General Mining Law of 1872 contains no provisions for 
environmental protection, these rules are essential to the protection 
of our natural resources. What position will you take on these rules? 
What actions will you take to ensure environmentally sound mining 
operations on public lands?
    Answer. I have not had the opportunity to review the Part 3809 
regulations in detail. I also understand that these regulations have 
been challenged and that litigation is pending. Therefore, I cannot 
comment on these regulations. As a general matter, however, if I am 
confirmed as Secretary of the Department of the Interior, I will work 
with the Bureau of Land Management, the States, mining companies, and 
environmental groups to ensure that mining on public lands are 
conducted in an environmentally responsible manner.
    Question. During the hearings you responded positively to upholding 
the Solicitor's opinion regarding tribal treaty responsibilities. How 
do you plan to ensure that the next Solicitor will support this 
opinion?
    Answer. As I stated during the hearing, President Bush has 
committed to strengthen Native American self-determination by 
respecting tribal sovereignty, encouraging economic development on 
reservations, and working with the Tribes to reorganize the Bureau of 
Indian Affairs and the Indian Health Service to better serve their 
needs. I support this commitment and will work with each of the 
agencies within the Department to achieve President Bush's pledge. I am 
ont familiar with the specific details of the Solicitor's opinion.
    Question. Do you agree that the Minerals Management Service and the 
Congress should continue the offshore oil drilling leasing moratoria 
off the coasts of Washington, California, Florida and Alaska?
    Answer. President Bush pledged to support the existing moratoria on 
OCS leases. It is my understanding that includes not only existing 
Presidential and Congressional moratoria on oil and natural gas 
activities off the coasts of California and Florida, but also the 
Congressional and Presidential moratoria on oil and natural gas 
activities off the coasts of Washington and certain parts of Alaska. If 
confirmed as Secretary of the Interior, I will adhere to this 
commitment.
               Responses to Questions From Senator Dorgan
    Question. If we open the Arctic National Wildlife Refuge to 
drilling, what would happen to the price of oil in the lower 48 states?
    If we started drilling in the Arctic Refuge tomorrow, how long 
would it take until we would see the first barrel of oil? I understand 
the Arctic Refuge would yield a 5-6 month economically viable supply of 
fuel. What is your understanding of the economically viable supply the 
Arctic Refuge is projected to yield?
    Answer. As part of a national energy policy, President Bush 
committed to opening up ANWR to environmentally responsible 
exploration. He further proposed to dedicate the estimated $1.2 billion 
to be earned in bonus bids to fund research into alternative energy 
sources such as wind, solar and biomass. As to the unquantified 
revenues to be earned from production, he proposed the creation of a 
Royalties Conservation Fund to fund conservation programs, including 
the reduction of the maintenance backlog on Federal lands.
    As I stated during the hearing, if confirmed as Secretary of the 
Interior, and if a bill is enacted authorizing exploration in ANWR, I 
will work to ensure that any development is done in an environmentally 
safe manner using the latest technologies and the best science.
    According to information contained in a publicly available May 1998 
report prepared by the Department of the Interior, the technically 
recoverable oil within the 8% of ANWR available for commercial 
development is between 5.7 billion and 16 billion barrels, with a mean 
estimate of 10.3 billion barrels. I am not familiar enough with the 
global supply and demand of oil and its impact on prices to respond as 
to specific impacts of production from ANWR. I also am not familiar 
enough with the situation to know when the first barrel of oil would be 
produced.
    Question. The United States has a government-to-government 
relationship with tribes that should be honored. In recent years, there 
have been a number of attempts to attach legislative ``riders'' to 
appropriations bills that would be detrimental to tribal sovereignty, 
such as efforts to impose a moratorium on tribal 638 contracts and 
compacts, to re-distribute Tribal Priority Allocations (TPA), or to 
limit tribal sovereign immunity. As Secretary of Interior, if 
confirmed, would you oppose efforts to erode tribal sovereignty?
    Answer. I am not familiar with the specific riders that you refer 
to in your question. If confirmed as Secretary of the Interior, 
however, I am committed to fulfilling President Bush's pledge to 
strengthen Native American self-determination by respecting tribal 
sovereignty, encouraging economic development on reservations, and 
working with the Tribes to reorganize the Bureau of Indian Affairs and 
the Indian Health Service to better serve their needs.
    Question. On November 6, 2000, President Clinton signed a new 
Executive Order to help ensure better federal agency consultation and 
coordination with Indian tribes when developing policies, regulations, 
etc. affecting Indian country, as is consistent with our long-held 
federal policy of Indian self-determination. As the Secretary of 
Interior, if confirmed, would you abide by the spirit of this Executive 
Order by consulting with tribes on the policies and regulations 
developed by the Interior Department that affect them?
    Answer. I am not familiar with the details of the Executive Order. 
However, as a general matter, I strongly believe that federal decisions 
should be made in consultation with the groups most affected by them. 
In the case of decisions or regulations affecting Indian Tribes or 
Tribal lands, I am committed to consulting with the Tribes, as well as 
the States and other local communities.
    Question. We have made some progress, especially in FY2001, for 
meeting the funding needs of Indian Country. In fact, we increased 
funding by $1.1 billion government-wide for Indian programs in FY2001. 
However, this progress is merely undoing the funding cuts to Indian 
programs that occurred during the Reagan and Bush years. By 1989, 
federal funding for Indian programs had fallen to $2.5 billion [in 1990 
constant dollars]. Great needs continue to exist, however. The poverty 
rate for Native Americans is 26%, they are 5.3 times more likely to die 
of tuberculosis, 3.3 times more likely to die of diabetes, and 3 times 
more likely to die in an accident, and the schools young Indian 
children attend are among the worst in the nation. Given the great need 
that exists and the federal trust responsibility we have to Indian 
people, will you submit budgets for the Bureau of Indian Affairs that 
reflect the needs in Indian country?
    Answer. I am not familiar enough with the level of resources that 
would be required to meet the needs in Indian Country to fully respond 
to this question at this time. If confirmed as Secretary of the 
Interior, I would look forward to working with you, and Congressional 
appropriators, to obtain sufficient funding to address the legitimate 
needs of the Indian Tribes. At a minimum, I am strongly committed to 
seeking funding to achieve President Bush's pledge to dedicate $928 
million over the next five years to address the maintenance backlog in 
Indian schools and to construct six new schools in Indian Country.
    Question. I believe tribal colleges are a key to economic 
development and economic success for Native Americans. Tribally-
controlled colleges are dependent on federal support because they are 
located on federal trust territory and are only (at the most) 25 years 
old, so they do not have an alumni base or financial reserves. The 
Tribal Colleges Act authorizes funding of $6,000 per enrolled full-time 
Indian student; but even with the increase in funding I fought for and 
won in FY2001, the colleges are funded at only $3,477 per student. 
Would you be supportive of efforts to increase tribal college funding 
to the authorized level of $6,000 per student?
    Answer. I am not familiar enough with the Tribal Colleges Act 
program to respond to this question at this time. I look forward to 
learning more about the program and the amount of additional resources 
that would be needed to increase federal funding to the full 
authorization level. I would be happy to discuss this with you in 
greater detail at a later date.
    Question. In the Dry Tortugas, off the coast of Key West, the 
federal government is almost finished creating a preserve in which 
fishing and boating would be sharply curtailed. In several marine 
protected areas the government has worked with all relevant 
stakeholders to develop a scientifically and economically sound and 
environmentally-sustainable management plan. Would you support 
continuation support of the Dry Tortugas and other marine protected 
areas?
    Answer. I am not familiar enough with the details of the Dry 
Tortugas preserve to respond to this question at this time. I would be 
happy to follow up with you at a later date after I have had an 
opportunity to learn more about the Dry Tortugas.
             Responses to Questions From Senator Feinstein
    Question. There are currently 36 undeveloped oil leases situated on 
the Outer Continental Shelf off the coast of California. Development of 
these leases has been strongly opposed by the state of California and 
the associated local coastal communities. This Administration has 
signaled its intent to prioritize the development of domestic oil and 
gas sources. Will you encourage development of offshore leases in 
states like California where there is strong and persistent opposition 
to the development of such leases? Past administrations have used their 
executive authority to place a moratorium on offshore oil and gas 
drilling in currently undeveloped areas. Would you recommend that such 
a moratorium be continued under this administration? Would you view 
such a moratorium, or any other environmental regulation that prevents 
development of a lease, to be a taking under the Fifth Amendment of the 
Constitution?
    Answer. President Bush pledged to support the existing moratoria on 
OCS leases. He also committed to working with California and Florida 
leaders and local affected communities to determine on a case-by-case 
basis whether or not drilling should occur on existing, but undeveloped 
leases. If confirmed as Secretary of the Interior, I will honor these 
commitments and promise to work with all parties to reach a consensus 
on how undeveloped leases should be handled and the extension of 
existing moratoria.
    Question. There are now well over 1,000 species that have been 
federally recognized as threatened or endangered species. The 
Endangered Species Act compels the Secretary of Interior to identify 
habitat that is critical to the recovery of those species and protect 
that habitat from further degradation. Many have alleged that our 
limited success in recovering species is due to our failure to protect 
the habitat upon which these species depend. In states like California, 
where there are a large number of listed species and a great deal of 
habitat that has been identified as ``critical habitat,'' protection of 
this habitat has been controversial. How would you interpret the 
Interior Department's obligations to protect and conserve the critical 
habitat of these threatened and endangered species? Do you consider 
efforts to protect species' habitat on private lands to be a violation 
of private property rights that would require compensation of the 
affected landowners? How do you plan to ensure that the Interior 
Department fulfills its duty to recover listed species? Do you continue 
to hold the view that the ESA Section 7 prohibition against taking 
endangered species does not apply to habitat modification?
    Answer. The Endangered Species Act requires the Secretary of the 
Interior, acting through the Fish and Wildlife Service, to designate 
critical habitat for listed species. Under the law, the Fish and 
Wildlife Service is further required to ensure that activities 
authorized, funded, or carried out by federal agencies do not 
jeopardize species through the destruction or adverse modification of 
critical habitat. I am committed to enforcing those requirements. I am 
also committed to work with private landowners to preserve habitat 
through habitat conservation plans, safe harbor agreements, and other 
innovative tools.
    As I stated during the hearing, I believe that the determination of 
whether a regulatory taking has occurred must be made on a case-by-case 
basis under the guidelines set forth by the Supreme Court. Under those 
guidelines, I believe it is clear that the federal government can 
ordinarily enforce the take prohibition of section 9 of the Endangered 
Species Act without triggering the compensation requirement of the 
Fifth Amendment of the Constitution.
    I am not familiar enough with the efforts that are currently being 
made by the Department to recover species to respond to this question 
at this time. However, I am committed to returning the focus on the 
Endangered Species Program to recovering species. In addition to 
working to ensure that recovery plans are developed and implemented for 
all listed species, I look forward to using incentives and other 
innovative tools to encourage recovery efforts by States and private 
landowners. I look forward to working with Congress, the States, 
private landowners, the environmental community, and other interested 
stakeholders to achieve this goal.
    Question. The Interior Department recently announced its denial of 
a permit for the Glamis Imperial gold mine that was proposed for 
development in Imperial County, California. This mine was rejected on 
the grounds that it would have caused undue degradation to the site's 
environmental and cultural resources. Do you think it is appropriate 
under current mining law for the Secretary to reject mines like the 
proposed Glamis Imperial Mine on these grounds?
    Answer. I am not familiar with the specifics of the Glamis mine 
proposal or the basis on which the mine was rejected. I look forward to 
learning more about the proposed Glamis project and working with 
Congress to ensure that all new mining projects maintain an appropriate 
balance between legitimate mineral development activities and 
preservation of important environmental and cultural resources
    Question. The Federal government receives royalties from private 
oil and gas companies that extract oil and gas resources from federal 
lands. Recently, the Interior Department finalized regulations to 
ensure that oil royalties paid to the federal government are based upon 
the fair market value of that oil. This new policy will ensure that 
taxpayers receive equitable compensation for these resources and is 
expected to generate approximately $67 million in additional revenue. 
Are you prepared to support this new rule which fairly compensates 
taxpayers for oil taken from federal lands? The Secretary of Interior 
has the discretion to accept these royalties as either payment-in-kind 
or payment-in-value. Historically, there have been few instances of 
royalties being paid in-kind. As Secretary, would you encourage the use 
of royalty payments in-kind?
    Answer. I share with you a desire to ensure that the American 
taxpayer is fairly compensated for resource development on Federal 
lands. However, I am unfamiliar with the details of this rule. If 
confirmed as Secretary of the Interior, I will review the rule, along 
with the statutory obligations on royalties collections and then decide 
how to proceed.
    Question. Recently, the National Park Service developed a detailed 
plan for the future management of Yosemite National Park. This plan was 
developed after considerable input from all of the affected 
stakeholders and over 10,000 members of the public submitted comments 
to the agency. Central to this plan is the notion that visitors to the 
park should be encouraged to leave their personal vehicles outside the 
park and travel through the park on a park transit system. As Secretary 
of Interior, will you actively support implementation of the new 
Yosemite Valley Management Plan? Will you be aggressive about 
developing similar management plans for the many other national parks 
that are suffering environmental degradation because their management 
practices have not kept pace with the growing numbers of visitors?
    Answer. I am not familiar with the details of the Yosemite Valley 
Management Plan. As a general matter, I support the concept of 
management plans for our public lands and believe that they represent 
an important decision-making tool for land managers. For these plans to 
be successful, I believe it is important that they be developed in 
consultation with the affected States, local communities, affected 
stakeholders, and environmental groups.
    Question. In 1998, the U.S. Fish and Wildlife Service adopted a 
policy for Tule Lake and Lower Klamath National Wildlife Refuges in 
California and Oregon that prevents irrigation on commercial farmland 
on the refuges unless sufficient water is available to sustain the 
refuges' marshes. Do you support this policy which gives priority to 
the refuges' ecological resources over commercial farming? The National 
Wildlife Refuge System Improvement Act of 1997 set new requirements for 
the management of refuges. In response, the U.S. Fish and Wildlife 
Service issued regulations establishing procedures for determining what 
uses are compatible with the mission of the refuge system and the 
mission of each individual refuge. Do you believe farming is compatible 
with the mission of the Tule Lake and Lower Klamath National Wildlife 
Refuges? What uses would you deem to be incompatible with the mission 
of the national wildlife refuge system?
    Answer. I am not familiar with the details of the Department's 1998 
policy.
    I have not yet had an opportunity to review the Compatibility 
Policy, and am not in a position at this time to assess how it might 
affect the Tule Lake and Lower Klamath National Wildlife Refuges. I am 
also aware that the Fish and Wildlife Service recently issued a draft 
Appropriate Uses Policy that may impact activities on refuges such as 
Tule Lake or the Lower Klamath. I look forward to learning more about 
the Fish and Wildlife Service's policies implementing the National 
Wildlife Refuge Improvement Act and about the 530 Refuges in the 
National Wildlife Refuge System.
    Question. The Department of the Interior, with the concurrence of 
the Hoopa Valley Tribe, announced on December 19, 2000, a plan to 
restore the Trinity River in California. The decision is based on 20 
years of scientific research and public involvement. It completes a 
process supported by the Carter, Reagan, Bush and Clinton 
Administrations and has enjoyed bipartisan support in the Congress. 
Will you commit your Department to follow through on the decision and 
implement the Trinity River restoration program?
    Answer. I am not familiar enough with this restoration plan to 
respond to this question at this time. I look forward to working with 
you to learn more about this plan and the Department of Interior's role 
in implementing it.
    Question. Do you believe that any government action or regulation 
which negatively affects the value of property must be compensated 
under the takings clause of the Fifth Amendment? Do you recognize that 
this is not the standard called for under the takings clause as it has 
thus far been interpreted by the U.S. Supreme Court? If you do not 
believe that any diminution in value must be compensated, what is the 
threshold you believe is required under the U.S. Constitution? Do you 
hold the view that the above interpretation of the takings clause would 
have the effect of limiting government regulatory actions and have a 
chilling effect on regulation?
    Answer. Not every federal action or regulation that adversely 
impacts a property owner constitutes a taking under the Fifth 
Amendment. The Supreme Court has articulated guidelines setting forth 
what constitutes a taking that must be compensated. I support the 
Supreme Court's interpretation of the takings clause of the Fifth 
Amendment and do not believe that it unduly restricts federal 
regulatory activity.
    Question. If confirmed as Secretary of the Interior, you will be 
involved in many issues where various stakeholders will argue that you 
may not take a certain action because it would run afoul of the takings 
clause. For example, an oil company might argue that you cannot deny a 
permit to drill or explore an offshore oil lease because it would give 
rise to a taking of that lease interest under the takings clause. 
Assume that the effect of denying the permit would not be to completely 
devalue the worth of the permit. Current Supreme Court precedent in 
such a case can fairly be interpreted as indicating that this is not, 
in fact, a taking. Your views as stated in various law review articles 
on this issue, I believe, can be fairly stated to be contrary to that 
precedent. How would your view of the takings clause inform your 
decision as to whether or not to grant or deny the permit?
    Answer. I will comply with the law. The Fifth Amendment does not 
prohibit a federal agency from taking actions that will affect property 
rights; rather, it provides that such takings must be compensated. The 
Supreme Court has set forth guidelines to evaluate when a regulatory 
action constitutes a compensable taking. If an action by the Department 
results in a taking, the question of whether and to what extent 
compensation is required must be decided on a case-by-case basis 
consistent with the law and Supreme Court precedent.
    Question. You will have jurisdiction over the natural resource 
damages (NRD) provisions of Superfund should you be confirmed as 
Interior Secretary. The NRD provisions call upon polluters to restore 
the natural resources harmed by their actions. NRD liability has been a 
critical part of the law in California where these provisions have been 
imposed to require polluters to restore our treasured natural resources 
and to truly make the public whole. For example, in the Montrose 
Chemical case, Montrose discharged tons of DDT through storm sewers and 
into the ocean off the Palos Verdes Peninsula, doing significant damage 
to ocean life. On December 19, 2000, after years of litigation, 
Montrose finally agreed to pay--under the NRD provisions of Superfund--
roughly $73 million to restore Palos Verdes Peninsula. You have 
expressed the view that it is not proper to impose liability upon 
polluters for actions they took before Superfund was enacted. If your 
view were to prevail within the Interior Department, however, Montrose 
Chemical would probably not have been held liable for these costs 
because its actions took place between 1947-1971. Is it your view that 
Montrose should not be held liable for the damage it caused to these 
natural resources in California and that taxpayers should be required 
to pay to restore these resources?
    Answer. I am not familiar enough with the specific facts of the 
Montrose case to respond to this question. More generally, however, I 
recognize that the Department of the Interior is responsible as a land 
manager and trustee of natural resources for recovering damages for the 
restoration of natural resources under its trusteeship. As I stated 
during the hearing, I am committed to enforcing the law, including any 
decisions of the federal courts that define the scope of liability for 
continuing injuries to natural resources resulting from pre-1980 
activities.
    Question. As you may know, for many years California and the 
federal government have been engaged in a long-range planning effort to 
restore the San Francisco Bay Delta. This planning effort, dubbed 
CALFED, resulted in a Record of Decision (ROD) last year. The ROD calls 
for various immediate actions to stave off the extinction of several 
runs of endangered salmon, and longer range actions to improve the 
water supply reliability for California's urban and agricultural water 
users. Would you seek and support appropriations to implement the 
ecosystem restoration elements of CALFED this year? Would you continue 
the Interior Department's active role in the CALFED program?
    Answer. I have not yet had an opportunity to review the CALFED 
program. I look forward to learning more about how the program has 
worked in the past, the details of the latest agreement, and the 
results that have already been achieved. I know that CALFED has many 
good components--building on a partnership between the federal and 
State governments; local community involvement and local decision-
making whenever appropriate; and regulatory certainty for landowners. I 
also understand that Congress did not provide funding for CALFED last 
year in part because the program's authorization had expired. I am 
certainly willing to work with you, Senator Feinstein, and others in 
Congress on authorizing language to address the fundamental goals of 
the program. I anticipate that the Department will continue to play an 
active role.
    Question. The Horseshoe Bend Wildlife Area in Siskiyou County is 
managed as a unit in cooperation with lands administered by the U.S. 
Forest Service and the California Department of Fish and Game, 
primarily for its value as a winter deer range and for other wildlife 
values. Concerns have been raised and recognized by the Bureau of Land 
Management (BLM) that cattle grazing allowed in the Horseshoe Bend 
Wildlife Area has damaged the habitat. Since the Area was established 
in 1977 and enlarged in 1993, BLM's primary charge has been to manage 
the Horsehoe Bend Area primarily for wildlife values. What steps can be 
taken to improve and maintain the range habitat and adjacent riparian 
habitat and protect it from damage caused by grazing?
    Answer. I am not familiar enough with the specific facts of the 
Horseshoe Bend Wildlife Area to respond to this question. I look 
forward to learning more about this Area and would be pleased to follow 
up with you at a later time.
            Responses to Questions From Senator Gordon Smith
    Question. Over the past year, both BLM and the US Forest Service 
have attempted to increases substantially the fees charged for rights-
of-way across federal lands for fiberoptic facilities. These attempts 
not only occurred outside the normal process for revising fee schedules 
but--in effect--changed the basis for calculating fair market value on 
federal lands. Over the next 18 months, both BLM and the USFS will make 
important decisions to potentially revise the right-of-way fee 
schedules--especially for fiberoptics.
    Will you commit to work with me and this Committee to ensure: an 
open, consultative process for developing these revisions? that well-
accepted standards and practices for establishing fair market value 
will be used? that, in their anticipation of collecting more money, 
these agencies do not jeopardize their policy goals, or the President-
elect' s commitment to rural development?
    Answer. I am aware that the appropriate fee schedules for fiber 
optics right-of-ways is an important issue to Congress. I will commit, 
if confirmed as Secretary, that the Department of the Interior will 
work with the Committee to ensure an open, consultative process for 
revising the fee schedules, that well-accepted standards and practices 
for establishing fair market value are used, and that President Bush's 
commitment to rural development is not jeopardized by these revisions.
    Question. The agencies have let a contract to collect market data 
to form the basis of fee schedule revisions. I have heard from a number 
of sources that the configuration of this market study does not conform 
with standard property evaluation practices and is therefore likely to 
be deeply flawed. Will you assure this Committee that unless and until 
this market study is revised to ensure that the data it collects is 
appropriate and conforms to acceptable practices, it will not be used 
to make any recommendations or decisions on the revision of fee 
schedules?
    Answer. I do not know the details of the market study but I will 
review it and then decide on the appropriate way to proceed.
    Question. In Oregon, we have nine federally recognized Indian 
Tribes--all of which have important cultural ties to federally-managed 
lands both within and outside of their reservation lands. For public 
lands that are of cultural and historical significance to Tribes, but 
outside of the lands held in trust for Tribes, are you willing to work 
with Indian Tribes and local stakeholders to accommodate Tribal 
requests for protection of, access to, and ceremonial use of Indian 
sacred sites by the Tribes?
    Answer. Yes, so long as such accommodation does not interfere with 
the Secretary's other responsibilities to manage federal property 
outside of trust lands. I strongly believe that decisions regarding the 
use of our public lands should be made through an open, collaborative 
process whenever possible, that involves consultation with all affected 
stakeholders, including States, local communities, Tribes, land users 
and environmental groups. I am not familiar with the Department's 
position with respect to the protection of Indian Sacred Sites, but 
will work with the Tribes on a case-by-case basis to address any 
concerns raised regarding the protection of Sacred Sites.
    Question. Do you believe it is important to avoid adversely 
affecting the physical integrity of such sites in federal land 
management decisions, as set forth in Executive Order 13007 (Indian 
Sacred Sites)?
    Answer. I am not familiar with the specifics of Executive Order 
13007. However, in general, I believe it is important that the 
Department work with the Tribes to preserve and protect Indian Sacred 
Sites whenever possible, consistent with the responsible management of 
our public lands.
               Responses to Questions From Senator Graham
    Question. Do you support a ``no net loss'' policy for private 
lands?
    Answer. I believe that the acquisition of lands can be an important 
tool to achieve a shared conservation goal. In some areas where the 
federal government already owns the vast majority of land, careful 
consideration must be given to the social, economic and environmental 
impacts of further acquisitions.
    Question. Do you support the use of land acquisition as a 
conservation tool when adequate compensation is provided?
    Answer. Yes.
    Question. Do you support the addition of National Park units to the 
system?
    Answer. In general, I believe that the decision about whether to 
add a new unit must be made on a case-by-case basis. I also recognize 
that any decision to add a new unit also requires Congressional action. 
I am aware that the National Park Service is currently facing a 
substantial maintenance backlog, estimated to be as high as $4.9 
billion. I support the President's statement that our first priority 
must be to maintain the existing units in the National Park System.
    Question. What are your plans for funding the Land and Water 
Conservation Fund?
    Answer. President Bush campaigned on full funding of the Land and 
Water Conservation Fund (LWCF). The LWCF Act authorizes that up to $900 
million a year can be appropriated to fund LWCF programs.
    Question. Under both President George H.W. Bush and President Bill 
Clinton's Administrations, many new national wildlife refuges were 
established using the Land and Water Conservation Fund. Do you support 
or oppose the use of the Land and Water Conservation Fund to establish 
national wildlife refuges?
    Answer. Section 7 of the LWCF Act authorizes the use of LWCF monies 
for the acquisition of national wildlife refuge system lands. I support 
the use of funds from the Land and Water Conservation Fund for the 
acquisition of land for conservation purposes, including acquisitions 
for the National Wildlife Refuge System.
    Question. Would you place any new limitations on the establishment 
of new national wildlife refuges?
    Answer. I do not have a position with respect to the establishment 
of new national wildlife refuges at this time. However, I am aware that 
the Fish and Wildlife Service has identified a substantial maintenance 
backlog on refuge lands, as well as significant shortfalls in the 
operations budget. I believe that these issues must be taken into 
consideration as proposals to expand the National Wildlife Refuge 
System are reviewed.
    Question. The federal side of the LWCF is critical, but the state 
side is just as critical. The National Recreation and Park Association 
estimates that state and local governments need approximately $55 
billion dollars over the next five years to meet recreation demand and 
facility restoration needs. What is your position on funding the state 
side of the LWCF?
    Answer. President Bush campaigned on full funding of the Land and 
Water Conservation Fund (LWCF) and voiced support for the state-side 
program. The LWCF Act authorizes that up to $900 million a year can be 
appropriated to fund Federal land acquisition and the state-side LWCF 
program. If confirmed as Secretary of the Interior, I will strive to 
fulfill this commitment.
    Question. From a broad perspective, can you describe the 
characteristics of the situations where you believe that federal 
actions such as regulation or rulemaking should result in compensation 
to a private property owner?
    Answer. The question of when compensation could result from 
government action requires a fact specific analysis based on the U.S. 
Supreme Court's guidelines regarding regulatory takings. Generally, the 
courts have required that property impacted by regulation must no 
longer have any economic use before compensation is required.
    Question. Would you say that your view today of the characteristics 
where compensation should be provided have changed through the course 
of your career?
    Answer. My views on takings issues have been greatly informed by 
judicial decisions in these areas over the past 20 years. For the most 
part, the jurisprudence of takings developed by the courts generally 
reflects broad positions I have supported over the years. However, 
while I continue to have a healthy respect for state and local property 
interests, if confirmed as Secretary of the Interior I have a mandate 
to maintain public lands consistent with the requirements of Congress 
and the United States Supreme Court. My prior views are consistent with 
my desire to be a strong steward of the public lands under my 
supervision.
    Question. If so, how are they different today than in the 1980s or 
early 1990s?
    Answer. My approach on takings issues have not changed since I 
became the Colorado Attorney General. Many issues that were unresolved 
in the 1980s have been resolved by judicial decisions. I will enforce 
those laws if confirmed as Secretary of the Interior.
    Question. There are often federal actions that increase the value 
of private property such as flood protection and navigation dredging. 
Do you support these types of federal actions?
    Answer. Generally yes, depending upon the particular situation.
    Question. Will you support a recoupment of the benefits provided to 
these private property owners in the form of fee for service or 
payments to the government?
    Answer. I am not familiar with what specific issues of this type 
would be within my responsibilities at the Department of the Interior, 
and what statutory provisions might govern such actions. In Colorado, 
we frequently used similar mechanisms as new projects were developed, 
so that those who benefited from projects hared in the financing. Some 
of these mechanisms may appropriately be useful for federal programs.
    Question. How do you plan to prioritize the Department of 
Interior's budget with regard to its existing responsibilities and any 
new compensation programs you might undertake?
    Answer. I am not familiar enough with the Department's budget or 
the full extent of its responsibilities to respond to this question at 
this time. President Bush has recommended that landowner incentive 
programs to protect additional wildlife habitat be funded. He also has 
campaigned on full funding of the Land and Water Conservation Fund.
    Question. Your views and those of the President-elect on the 
development of oil and gas resources in the ANWR are clearly known. Is 
this position indicative or your views on development of oil and gas 
resources in all sensitive, federally-owned environmental lands?
    Answer. President Bush campaigned on the need for a comprehensive 
national energy policy that decreases dependence on foreign oil and 
natural gas. He proposed to review currently restricted Federal lands 
potentially containing oil and natural gas reserves to determine 
whether such lands should be opened to environmentally responsible and 
regulated exploration. If confirmed as Secretary of the Interior, I 
will seek to fulfill this commitment and ensure that any development on 
Federal lands complies with all environmental requirements.
    Question. If development does proceed in the ANWR, how much oil is 
anticipated to be extracted?
    Answer. According to information contained in a publicly available 
May 1998 report prepared by the Department of the Interior, the 
technically recoverable oil within the 8% of ANWR available for 
commercial development is between 5.7 billion and 16 billion barrels, 
with a mean estimate of 10.3 billion barrels.
    Question. What is the anticipated price impact in the continental 
U.S. and when do you anticipate this effect to be felt if development 
does proceed in the ANWR?
    Answer. I am not familiar enough with the global supply and demand 
of oil and its impact on prices to respond as to specific impacts of 
production from ANWR.
    Question. What is your position on the status of Puerto Rico as a 
U.S. territory?
    Answer. I have not taken a position. As I understand the matter, 
issues surrounding the status of Puerto Rico have been the 
responsibility of the White House since the administration of President 
Kennedy.
    Question. One of the largest questions facing our National Parks 
today is use. To what degree, where, and how should our parks be 
available to the public for use. What are your views regarding the 
Department of Interior's role in managing use of national park 
resources?
    Answer. I believe that our National Parks should be accessible to 
broadest range of public uses consistent with the law and the need to 
maintain an appropriate balance between access for everyone and 
protection of the resources in the National Park System. The 
Department, and the National Park Service in particular, is responsible 
for managing the National Parks in such a way as to meet those 
obligations.
    Question. Do you believe it is appropriate for the Department of 
Interior to restrict use in National Park lands when it is determined 
that impairment as defined in the National Park Service Organic Act is 
occurring?
    Answer. The Department of the Interior must manage National Park 
Service lands in a manner consistent with the National Park Service 
Organic Act.
    Question. During your remarks when President-elect Bush nominated 
you to be Secretary of Interior you focused on partnering with private 
landowners and local governments. With regard to national parks, can 
you describe your view of how the Secretary of Interior should balance 
a desire to cooperate with landowners and local governments and his or 
her responsibility to protect public lands? At what point should the 
Secretary of Interior use enforcement action to protect public lands?
    Answer. Partnerships with private landowners and other incentives 
are simply additional tools that the Department can use to achieve 
shared conservation goals. For example, in the case of protection of 
endangered species, the Department must work with private landowners 
because they own the habitat of over 50 percent of all listed species. 
These partnerships, however, are not a substitute for enforcement 
actions. As Secretary, I would remain committed to enforcing the law.
    Question. If use is restricted in national parks, do you believe 
that compensation to private property owners is required? If so, can 
you define the types of scenarios where you believe compensation would 
be appropriate.
    Answer. The Supreme Court has set forth guidelines to determine 
when a regulatory taking has occurred. That determination must be made 
on a case-by-case basis. At this time, I am not familiar enough with 
any proposed or final use restrictions in our National Parks to 
identify those that might trigger a takings claim.
    Question. While this issue is not in the jurisdiction of this 
Committee, it is in the jurisdiction of the Department of Interior as 
well as the Environment and Public Works Committee on which I serve. In 
1997, Congress passed the National Wildlife Refuge System Improvement 
Act which amended the Refuge System Administration Act of 1966. It was 
the first ``organic'' legislation for the National Wildlife Refuge 
System. It contained a series of directives for the Fish and Wildlife 
Service which they have carried out over the last several years. On 
January 16, the Fish and Wildlife Service published draft rules on: 1) 
mission, goals, and purpose; 2) recreation; 3) appropriate use; 4) 
wilderness stewardship. These draft rules have undergone an extensive 
amount of review by the Fish and Wildlife Service and are ready for 
public comment. They will be finalized during your tenure at the 
Department of Interior. Do you plan to complete this work in a timely 
manner?
    Answer. I am aware that the Fish and Wildlife Service released last 
week four new proposed policies and one final policy implementing the 
National Wildlife Refuge System Improvement Act. I have not yet had an 
opportunity to review these policies. Therefore, at this time, I am 
unable to comment on when they will be finalized.
    Question. Do you plan to respond to all public comments on this 
rulemaking, regardless of their origin?
    Answer. Yes.
    Question. In May 2000, the U.S. Fish and Wildlife Service issued 
final agency policy on preparing Comprehensive Conservation Plans 
required under that same law. The policy requires each refuge to 
conduct wilderness reviews as part of the planning process. Refuges 
must review both lands that have never been studied and lands that were 
previously reviewed but not recommended for wilderness designation to 
determine if they currently qualify for this designation. Do you agree 
with this policy?
    Answer. I am not familiar enough with the specific elements of this 
policy to respond to this question at this time.
    Question. If confirmed, will you propose changes to this policy?
    Answer. I am not familiar enough with the specific elements of this 
policy to respond to this question at this time.
              Responses to Questions From Senator Johnson
                                  cara
    Question. What are your views on this legislation? Did you support 
it? Why or why not?
    Answer. I recognize that CARA was a highly contentious issue in the 
last Congress and that it caused sharp divisions among the members of 
the Committee. I never took a position on CARA. With respect to 
enhanced funding for conservation programs, President Bush made a 
number of commitments consistent with the broad goals of CARA. These 
commitments included a pledge to seek full funding for the Land and 
Water Conservation Fund and a proposal to establish an incentive 
program for private landowners to preserve land and protect rare 
species.
    Question. While some additional funding was provided for 
conservation programs in the Interior Appropriations bill last year, 
most of these programs will continue to be chronically under-funded 
according to the authorization levels for these that have been enacted. 
Moreover, PILT is still under-funded with harms states like mine that 
have a high level of federal lands. How do you propose to address this?
    Answer. As to the funding for CARA type programs included in the 
Interior Appropriations Act last year, I have not had an opportunity to 
immerse myself in these details. I do agree that the payment in-lieu-of 
taxes program is vitally important in those States with significant 
federal lands. However, at this time, I am not familiar enough with the 
level of funding for conservation programs or with the potentially 
competing needs of the Department, to respond to this question with any 
specificity. If confirmed as Secretary of the Interior, I would look 
forward to working with you, and Congressional appropriators, on this 
issue.
    Question. In addition, funding for wildlife protection is also 
under-funded from authorized levels. States, by themselves can't 
address these needs. While some additional funding for these programs 
were also provided last year, more needs to be done. How do you propose 
to address this?
    Answer. I appreciate that many programs may have been under-funded 
relative to the authorization for such programs, including wildlife 
protection. However, at this time, I am not familiar enough with the 
level of funding for conservation programs contained in last year's 
Interior Appropriations Act or with the potentially competing needs of 
the Department, to respond to this question with any specificity. If 
confirmed as Secretary of the Interior, I would look forward to working 
with you, and Congressional appropriators, on this issue.
                          rural drinking water
    Question. In recent years, the Bureau of Reclamation has been given 
the responsibility of oversight for a number of large scale rural 
drinking water projects that have brought a dependable source of clean, 
safe drinking water to many rural areas. These projects are critically 
important to the health and well-being of these communities.
    Much of my home state of South Dakota, for example, is plagued by 
water of exceedingly poor quality, and the Mni Wiconi, Mid-Dakota, 
Perkins County and Lewis and Clark rural water projects are efforts to 
help provide clean water--a commodity most of us take for granted--to 
the people of South Dakota. I am a strong believer in the federal 
governments role in rural water delivery and our nation's 
infrastructure, and I hope to continue to advance that agenda.
    Over the years, it has become increasingly difficult to find the 
necessary funding for these projects due to the decreases in the Bureau 
of Reclamation's budget. The Bureau has been helpful over the years, 
but they frequently need help promoting their budget requests through 
the Interior Dept and OMB.
    Do you support the Bureau of Reclamation's new role as an oversight 
agency for these rural drinking water projects and will you prioritize 
the Bureau of Reclamation funding in your Department of the Interior 
budget request?
    Answer. I understand that the Bureau of Reclamation has taken on an 
increasing responsibility for the delivery of clean, safe drinking 
water to many rural areas throughout the western United States, 
including South Dakota. However, I am not familiar with the extent of 
the Bureau's role in this regard or how it may impact other Bureau 
responsibilities. I look forward to learning more about this program 
and would be happy to discuss this with you further at a later date.
                              disabilities
    Question. Concerns have been raised about the level of compliance 
of federal lands and facilities with the American Disabilities Act. You 
have expressed some concern in the past about federal requirements of 
the American Disabilities Act. This was a law that was proudly signed 
by President Bush. It has been reported that you considered filing suit 
when you were attorney general in Colorado opposing federal 
requirements under the ADA that required renovations of the Colorado 
statehouse to include a wheelchair ramp.
    How do you propose to ensure that all federal facilities under the 
Department of the Interior's jurisdiction comply with those 
requirements? How do you plan to ensure that facilities will comply 
with the requirements of the ADA?
    Answer. I am committed to the goals of the ADA. While I was still 
in law school, I wrote a law review article supporting access to mass 
transit for the handicapped. In a speech, I noted that one application 
of the ADA to the State Capitol might infringe on the State's powers 
under the 10th Amendment. However, no suit was ever seriously 
contemplated. However, I am committed to complying with the ADA 
regulations. I will work with each of the bureaus within the Department 
of the Interior and offices across the country to ensure that the 
Department is in full compliance with the law.
                            tribal education
    Question. Tribal Education for Native Americans has been a high 
priority for me throughout my 14 years in the United States Congress. I 
have seen very few advances in funding of education programs for Native 
Americans nor in school constructions funds. In tribal K-12 education 
facilities alone there is a $1 billion backlog.
    It is important that we find ways to improve the educational 
opportunities for Native Americans so that we can help them get out of 
the cycle of poverty that they constantly face. I have introduced 
legislation that would allow tribal schools to issue bonds to attract 
private financing. But more needs to be done on the federal level.
    I would like to know what your intentions are in upholding the 
Federal Government Trust responsibility of educating our Nation's 
Native American Children?
    Answer. I am committed to fulfilling President Bush's pledge to 
educate Indian children in safe and structurally sound schools. I will 
request funding from Congress to meet the commitment to provide $928 
million over the next five years to eliminate the current backlog of 
renovation and maintenance requests, as well as to fulfill the promise 
to construct six new schools. Schools with the most urgent needs will 
be given priority in funding requests. I would welcome the opportunity 
to talk with you regarding the provision of bonding authority to tribal 
schools.
                               homestake
    Question. Homestake Gold Mine in Lead, SD is closing its facilities 
after 100 years of operation. One of the possibilities for use of the 
existing mine is a physical particle lab that would be run by the 
National Science Foundation. I expect that some legislation will be 
needed to turn over the land and that some logistical and legal details 
may need to be worked out.
    I am hopeful that we can work together to address this situation. 
It sounds like this could be the kind of public/private partnerships 
that we should be encouraging with these and other issues that are 
before us today.
    Answer. I am not familiar with the specific proposal, but look 
forward to learning more about it and working you to transform the old 
Homestake Mine into a new facility for the future.
              Responses to Questions From Senator Landrieu
    Question. The Water Resources Research Act of 1964 (Public Law 88-
379) established the state water resources program within the Interior 
Department. Last year Congress re-authorized this program for an 
additional five years in Public Law 106-374.
    The Act authorizes a program of water-related research and training 
of scientists and engineers to enter fields of water research and 
management. The program is administered by state water resources 
research institutes at 54 land grant colleges in each of the 50 States, 
and in the Virgin Islands, Guam, the District of Columbia, and Puerto 
Rico. The program is under the general guidance of the Secretary of the 
Interior and administered by the U.S. Geological Survey.
    Through this partnership of the U.S. Geological Survey, state 
government, and higher education, the water resources research 
institutes have the capability to provide important support to the 
states in their long-term water planning, policy development, and 
resources management efforts. They support research on all topics 
related to water resources and the management of water resources. The 
institutes' outreach and information transfer activities are important 
tools for stakeholders in the water resources management community. The 
nationwide network of water institutes, in collaboration with USGS, 
provides an efficient and effective method to meet the diverse water 
resource needs in different parts of our country.
    Are you familiar with the state water resources research institute 
program or the work done by the Colorado Water Resources Research 
Institute at Colorado State University?
    Answer. I am not intimately familiar with the research institute 
program at Colorado State University. I have a strong working 
relationship with CSU's president, Al Yates, and look forward to 
seeking his input regarding these programs. I have always supported 
creative federal/state partnerships to further national goals. To the 
extent the federal government works with State institutions to better 
understand the effect of government decisions on State water resources, 
I hope to support and expand such programs.
    Question. How could a federal/state partnership such as this be 
used to strengthen the states' role in water resources management?
    Answer. I have always supported creative federal/state partnerships 
to further national goals. To the extent the federal government works 
with state institutions to better understand the effect of government 
decisions on state water resources, I hope to support such programs.
    Question. The Water Resources Research Act directs that the 
Interior Secretary ``shall encourage other Federal departments, 
agencies (including agencies within the department), and 
instrumentalities to use and take advantage of the expertise and 
capabilities which are available through the institutes established by 
section 104 of this Act, on a cooperative or other basis;'' and the 
Secretary ``shall encourage cooperation and coordination with other 
Federal programs concerned with water resources problems and issues'' 
in utilizing the capabilities of these institutes. As Secretary, how 
would you propose to improve utilization of the state water resources 
research institutes? Are the specific examples you can cite of the 
record of how the Interior Department and other federal water resources 
agencies might do that?
    Answer. I have not yet had an opportunity to study the details of 
the state water resources research programs. From what I have heard, it 
is the sort of program that I would support and recommend to the 
President and Congress as a method to advance federal goals while 
respecting state and local interests.
    Question. In 1979, the Tunica-Biloxi Tribe of Louisiana submitted a 
request to the Department of the Interior requesting the Department to 
fulfill its trust responsibility to the Tribe by providing assistance 
in the settlement of the Tribe's claim to approximately 20,000 acres of 
land in Central Louisiana. The Tunica-Biloxi Tribe made it clear that 
they did not wish to litigate the claim but wanted to settle the claim 
for cash, land or possibly some other form of compensation. Now, twenty 
two years later, the Department has still not completed its review of 
the case. Will the Department, under your direction, dedicate its 
resources to a full review of the Tunica-Biloxi land claim and bring a 
final answer to the case in a timely manner?
    Answer. I am not familiar with the details of Tunica-Biloxi Tribe's 
claims. I understand that the Department has several hundred pending 
claims filed by Indian Tribes for federal recognition or petitions to 
take land into trust. The Department's pace in processing these claims 
has been unacceptable. I am committed to fulfilling President Bush's 
campaign pledge to work with Indian Tribes to reorganize the Bureau of 
Indian Affairs to better meet the needs of Indian Tribes. As part of 
that effort, I look forward to working with you and the Tunica-Biloxi 
Tribe to address their request in a timely manner.
    Question. Will the Secretary support efforts being made to preserve 
and recognize the importance of Creole culture not only in Louisiana 
but also throughout the United States?
    Answer. I am not aware of the efforts that have been made to 
recognize the importance of Creole culture. I look forward to working 
with you to learn more about these efforts and the role of the 
Department of the Interior.
               Responses to Questions From Senator Shelby
    Question. The previous Secretary at the Department of the Interior 
often used the Endangered Species Act to list species based more on 
political science rather than ``the best scientific data available'' as 
required by the Act. A case in point was the nine-year long debate over 
the Alabama sturgeon. Despite the fact that even though genetic tests 
performed by the Interior Department's own scientists showed that the 
Alabama fish is genetically identical to the shovelnose sturgeon found 
in abundance in the Mississippi River, your predecessor insisted on 
listing it as a separate and distinct species. In addition, he ignored 
the formal Candidate Conservation Agreement developed jointly with the 
State, and support of the entire Congressional delegation, as an 
alternative to listing. Moreover, to date the Department has blatantly 
ignored the Act's requirement to designate the Alabama sturgeon's 
critical habitat.
    My question is this: What will you do to ensure the Endangered 
Species Act is administered to focus on the conservation and recovery 
of imperiled species and their habitat, and to work with the States in 
doing so, rather than merely focusing on adding more species to the 
list, often in an effort to curtail legitimate businesses as well as 
recreation activities, such as hunting, fishing and logging?
    Answer. I am committed to working with the States, local 
communities, the private sector, and environmental organizations to 
bring the focus of the Endangered Species Act back to the recovery of 
endangered species. The States must be our partners in the effort to 
save species. State Candidate Conservation Plans are one tool that can 
be used to help conserve a species before its reaches the brink of 
extinction. In implementing the ESA, whether at the listing stage or 
the development of a recovery plan, I am committed to using the best 
scientific data available.
    Question. It is no secret that you are a supporter and defender of 
private property rights. However, many of us have differing opinions as 
to how the Fifth Amendment should be interpreted. What specifically is 
your construction of the takings clause and how would you, as Secretary 
of Interior, apply it to your duty to preserve and protect our 
country's lands and resources?
    Answer. My construction of the takings clause is consistent with 
the U.S. Supreme Court guidelines set forth in its takings 
jurisprudence over the past 15 years. The laws which I will enforce if 
confirmed as Secretary of the Interior have been upheld by the courts, 
and, accordingly, will be fully and fairly enforced to protect federal 
interests. The federal government should make sure that any particular 
application of the law does not unnecessarily create potential 
liability for the United States under the takings clause. My Department 
will consult with the Department of Justice as to any potential 
liability concerns raised by government action.
    Question. With domestic oil production at an all-time low, OPEC 
cutting production, and prices so high that many cannot pay their bills 
there has been a lot of discussion about increasing domestic 
production. One of the options available to the United States is to 
begin drilling in the Arctic National Wildlife Refuge. Over the years 
there has been opposition to any such drilling because of environmental 
concerns. Do you think that it is possible to drill in the Arctic 
National Wildlife Refuge without endangering the environment or species 
that inhabit that area? And, if the United Stated decided to pursue 
such a policy how would you use your position to ensure the protection 
of the surrounding environment and species?
    Answer. As part of a national energy policy, President Bush 
committed to opening up ANWR to environmentally responsible 
exploration. He further proposed to dedicate the estimated $1.2 billion 
to be earned in bonus bids to fund research into alternative energy 
sources such as wind, solar and biomass. As to the unquantified 
revenues to be earned from production, he proposed the creation of a 
Royalties Conservation Fund to fund conservation programs, including 
the reduction of the maintenance backlog on Federal lands.
    As I stated during the hearing, if confirmed as Secretary of the 
Interior, and if a bill is enacted authorizing exploration in ANWR, I 
will work to ensure that any development is done in an environmentally 
safe manner using the latest technologies and the best science.
               Responses to Questions From Senator Wyden
    Question. The Secretary of the Interior is responsible for 
administering the Land and Water Conservation Fund that the Republican 
Congress funded at $450 million for this fiscal year. Will you spend 
this money on federal land acquisition as directed by Congress?
    Answer. Yes.
    Question. How much will you request for the LWCF budget in FY 02, 
03 and 04?
    Answer. President Bush campaigned on full funding of the Land and 
Water Conservation Fund (LWCF). The LWCF Act authorizes that up to $900 
million a year can be appropriated to fund LWCF programs.
    Question. In your opening statement you stated that you are a 
passionate conservationist. The definition of conservationist from the 
Webster's Dictionary is one who will preserve, protect, and plan the 
management of natural resources to prevent exploitation, destruction or 
neglect. Is this what you plan to accomplish as Secretary of the 
Interior?
    Answer. Yes. I believe that we can manage our public lands in a way 
that achieves both the preservation of our wildlife and natural 
resources, and the environmentally responsible development of 
resources. In some cases, that will mean that we must set aside lands 
for conservation purposes. In other cases, that will mean that we must 
manage public lands in a way to support multiple uses, including 
grazing and mineral development, in way that balances economic activity 
with environmental protection. I strongly believe we can do both.
    Question. In a nutshell, how?
    Answer. I believe that land management decisions for public lands 
must ordinarily be made on a case-by-case basis. I intend to work the 
States, local communities, Tribes, affected stakeholders, and 
environmental groups to ensure that land management plans and decisions 
regarding the use of our public lands are based on the best available 
science and achieve the best balance between responsible use and 
environmental protection. I will look for opportunities to use 
incentives, such as habitat conservation plans or candidate 
conservation plans, to improve habitat for wildlife. I will seek 
increased funding for resource restoration efforts and the maintenance 
backlog in our National Parks. I will work with Congress to identify 
opportunities for new initiatives and partnerships, such as Steens 
Mountain or CALFED that will result in improved land and resource 
management.
    Question. I place a priority on the ability to bring people 
together and build consensus on divisive issues. The Secure Rural 
Schools and Community Self Determination Act was the result of that 
effort, as was the Steens Mountain Cooperative Management and 
Protection Area Act of 2000. In both cases there were groups on one 
side that were saying: Hold the federal lands hostage for our benefit; 
and on the other side there were groups saying: Leave the rural people 
to fend for themselves because we don't owe them anything. The National 
Cattlemen's Association says that you are ``a strong advocate of 
pulling diverse groups together, and working to resolve issues through 
developing workable plans, and then looking to consensus groups to make 
things happen.'' How do you intend to bring people together and build 
consensus to address critical environmental issues?
    Answer. As I testified during my confirmation hearing, I also 
strive to bring people together on divisive issues and reach consensus 
before taking any action. If confirmed as Secretary of the Interior, it 
is my intention to work the States, local communities, Tribes, affected 
stakeholders, and environmental groups to ensure that land management 
plans and decisions regarding the use of our public lands are based on 
the best available science and achieve the best balance between 
responsible use and environmental protection as was done in the County 
Payments and Steen Mountain Acts. As you know from your work on these 
bills, you must invite people to participate and encourage them to be 
part of the solution and not part of the problem. The Department of the 
Interior must be willing to listen to their diverse ideas and 
viewpoints.
    Question. Please give me an example of how you have brought people 
together on a divisive natural resource issue.
    Answer. I believe my work with the Congress and attorneys general 
from around the Country to enact the Federal Facilities Compliance Act 
is a good example of bring people together to advance environmental 
goals. The Act took national support in a area that had previously been 
ignored by the agencies responsible for cleanups at federal facilities. 
My work and the support of colleagues in state government and Congress 
resulted in legislation that will mean a cleaner environment. In the 
early 1990s, I worked with Senator Hank Brown to resolve conflicts 
surrounding proposed wilderness areas in Colorado. We were able to 
alleviate concerns and successfully establish wilderness protections. 
Both of these examples reflect strong bipartisan support.
    Question. Completion of the Steens Mt. land exchanges necessary to 
fulfill the purposes of the Act require an addition $175,000 of funding 
above the $5 million that was appropriated for this purpose. Would you 
be willing to work with me and the BLM to reprogram the necessary funds 
to fulfill the promise of this exceptional cooperative effort?
    Answer. I am not familiar enough with the level of resources that 
would be required to protect and maintain each of the National 
Monuments, or with the potentially competing needs of the Department, 
to respond to this question at this time. If confirmed as Secretary of 
the Interior, I would look forward to working with you, and 
Congressional appropriators, on this issue.
    Question. As Secretary of the Interior you will be responsible for 
administering the Endangered Species Act. However, in an amicus brief 
you challenged the constitutionality of the Endangered Species Act 
because the ``harm'' regulation violated property rights. The Supreme 
Court of the United States did not agree with you. At the very least, 
every land owner subject to some regulation under the Endangered 
Species Act can be expected to begin each meeting with the Fish and 
Wildlife Agency by saying : ``Secretary Norton believes what you are 
doing is unconstitutional.'' How will this bring people together?
    Answer. I recognize that the regulated community continues to have 
significant concerns about the impact of the Fish and Wildlife 
Service's regulation defining the term ``harm.'' The Supreme Court 
upheld the Service's regulation and I will enforce that regulation. At 
the same time, I will work with the regulated community to use other 
mechanisms and incentives, such as habitat conservation plans and safe 
harbor agreements, to include private landowners as partners in the 
effort to save species and their habitat. I believe that using a broad 
range of tools, in addition to enforcement actions, to protect 
endangered species and habitat can serve to bring people together to 
achieve our shared goal of recovering species.
    Question. Can you give the Committee some assurance that your 
position on the ESA will not undermine the ability of the Department to 
implement the law of the land?
    Answer. I am committed to fully enforcing the Endangered Species 
Act. I will also seek to use incentives and other innovative tools to 
encourage partnerships and collaborative species preservation efforts. 
These efforts are intended to supplement, but not supplant, traditional 
enforcement actions.
    Question. The President-elect has said that he is interested in 
creating a government of uniters, not dividers. Yet, you have long 
associated yourself, either by employment or membership, with groups 
known for their aggressive anti-federal government stances. The 
Mountain States Legal Foundation is one. Can you help me reconcile how 
you can be a uniter when most of the organizations with which you have 
been associated throughout your career are dedicated to resolving 
issues in court?
    Answer. My tenure as Colorado Attorney General is marked with 
efforts to build consensus and unite on environmental and other issues. 
I have consistently showed an ability to work with elected officials 
and administrators of both parties and look forward to forging 
bipartisan support for the initiatives of the Bush-Cheney 
Administration.
    Question. You have consistently endorsed private property rights. 
You have never acknowledged the public's interest in public lands owned 
and managed by the Department of Interior for the benefit of the nation 
as a whole, yet as Secretary of the Interior you will be responsible 
for the acquisition, maintenance and care of more non-military federal 
lands than any other member of the Cabinet. I have to ask, given your 
positions on the role of the federal government: Why do you want this 
job?
    Answer. As I testified in my confirmation hearing, I believe my 
job, if confirmed as Secretary of the Interior, will be to preserve and 
protect our national natural treasures for future generations. I 
recognize that the federal government owns federal land for the benefit 
of the American people; that is why consensus decisionmaking on federal 
land management issues is so important. That requires good stewardship 
and adequate resources by the Department. I believe I bring the 
experience, balance and knowledge of the issues facing the Department 
to bring together federal, state, and local interests affected by the 
land use decisions of the Department of the Interior. I am honored to 
have the opportunity to work with President Bush and Congress to 
further those goals. Nothing about the mission of the Department is 
inconsistent with a respect for state and local interests.
    Question. Does your definition of property rights extend beyond the 
developer and include the homeowner who wishes to have quiet enjoyment 
of his land?
    Answer. Since ancient times, the protection of property rights has 
necessarily involved the question of when the rights of a property 
owner should be restricted for the good of others. The common law 
recognized that property rights are not unlimited; for centuries, the 
law has recognized the maxim ``so use your property as not to harm your 
neighbor.'' More recently this type of balancing has been done by local 
zoning laws, as well as federal and state environmental laws. The value 
people place on the quiet enjoyment of their land is one foundational 
element of property law.
    Question. You have stated in a Harvard Law Review article that you 
might go so far as to ``recognize a homesteading right to pollute or 
make noise in an area.'' In your testimony before this Committee you 
disavowed that view. If there were polluters next door to Crater Lake 
National Park would you intervene early to stop their activities?
    Answer. As I mentioned during my confirmation hearing, I did 
academic research on the concept of emissions trading in the early 
1980s. At that time, an emissions credit was sometimes referred to as a 
``tradeable right to pollute.'' On the assumption that emissions 
trading might begin with a recognition of the current emissions level 
at various facilities, the initial level of pollution was considered to 
be acquired by ``homesteading,'' just as the earliest settlers of land 
acquired rights by being the first ones to develop an area. Inherent in 
this concept is the idea of starting with the ``homesteaded'' (i.e., 
baseline) level of pollution and trading ``rights to pollute'' (i.e., 
emissions credits) to reduce present or future levels of pollution in 
the most economical way. Thus, to me, a ``homesteading right to 
pollute'' is one mechanism that lawmakers might select to begin 
establishing an emissions trading market, much like the one that 
Congress created through the Clean Air Act Amendments. Emissions 
trading is one example of the innovative approaches to environmental 
issues that I have championed throughout my career.
    Unfortunately, this personal understanding of the terminonlogy was 
not apparent in my speech that was reprinted in the Harvard Journal. 
The speech was never intended to imply an unfettered ``right to 
pollute'' as some have interpreted it. The speech was clear, I believe, 
in indicating that I was simply describing a range of competing views 
regarding property rights and the environment.
    With respect to the hypothetical, I will use whatever legal means I 
would have at my disposal to protect national park lands that are being 
impacted by adjacent activities.
    Question. The Secure Rural Schools and Community Self Determination 
Act will be implemented, in part, by the Bureau of Land Management in 
Oregon. The intent of the law is to allow local communities to arrive 
at locally supported forest management consensus. I understand that you 
support local solutions to environmental problems. I also support that. 
However, I think we differ on what role we each think the federal 
government should play in environmental protection and the management 
of federal lands--or even IF the federal government should own land. 
Given the simple fact that more than half of Oregon is owned by the 
federal government, I need to be sure that you are capable of 
administering the federal land management laws over which you will have 
jurisdiction for the benefit of the public. Can you explain to the 
Committee how you will instruct the Bureau of Land Management to manage 
their timber lands in Oregon?
    Answer. As I stated during the hearing, if confirmed as Secretary 
of the Interior, I will faithfully seek to fulfill all statutory 
requirements. As I understand it, management of BLM timber lands in 
Oregon are managed jointly with the Forest Service lands under the 
terms of President Clinton's Pacific Northwest Forest Plan. You and 
others have raised concerns that this Plan is fallen short of the goals 
set forth by President Clinton. I would welcome the opportunity to work 
with you and other members of the affected delegations from both sides 
of the aisle to see if we can work together on ways to improve this 
situation.
    Question. Can you explain to the Committee how will you direct the 
Bureau of Land Management to work with local communities on land 
management issues?
    Answer. As I understand the Act, I believe that the local advisory 
committees are a welcome step to involve local communities of interest 
in BLM's programs. I look forward to working with you and the other 
members of the Oregon delegation in chartering these committees, if I 
am confirmed. The Department of the Interior should work in partnership 
with States and local communities, particularly on any decision that 
affects the use and management of public lands.
    Question. Can you explain to the Committee how you will engage the 
environmental community in issues of federal land management under the 
Secure Rural Schools and Community Self Determination Act?
    Answer. The provisions establishing local advisory committees in 
this Act ensure involvement from the environmental community. If 
confirmed I hope to work with you, the other members of the Oregon 
delegation, and Oregon environmental interests to assure that they are 
comfortable with their representation on these advisory committees.
    Question. Under authority of the Antiquities Act, President Clinton 
designated a new National Monument in Oregon, the Cascade-Siskiyou 
National Monument, also known as the Soda Mountain National Monument, 
in southern Oregon. The monument designation was supported by folks who 
live in the area. It is a priceless natural landscape that somehow 
remained almost untouched by exploitation, development and urban 
sprawl. What will you do to ensure that this important natural resource 
is protected?
    Answer. I am not familiar with the details of this Monument. It 
would be my understanding, however, that the terms of the proclamation 
designating Cascade-Siskiyou National Monument would govern the general 
protections applicable to the Monument. Assuming that the monument 
designation is consistent with the Antiquities Act of 1906, I would 
look forward to working with you in determining the appropriate 
management of the monument.
    Question. Will you ask for adequate funds to protect and maintain 
this and other national monuments for the American public?
    Answer. I am not familiar enough with the level of resources that 
would be required to protect and maintain each of the National 
Monuments, or with the potentially competing needs of the Department, 
to respond to this question at this time.
    Question. As Secretary of the Interior you will be responsible for 
the ecological condition of grazing allotments on public land. Only by 
managing these lands carefully can grazing be sustained on them. Do you 
think the federal government and the grazer share a responsibility to 
steward the land?
    Answer. Yes. As I stated during my confirmation hearing, many 
ranchers are wonderful stewards of the public land. However, 
overpopulation can be problem that needs to be managed and I look 
forward, if confirmed, to working with the Committee on this issue.
    Question. Do you believe that grazing on public lands is a 
``right'' not a ``privilege'' and the federal government had just 
better get out of the way?
    Answer. No. The Taylor Grazing Act and other laws and regulations 
define the limits of ranchers' ability to graze cattle on federal 
lands.
    Question. Under President George H.W. Bush nearly 50 new national 
wildlife refuges were established. The majority of these were created 
with use of the Land and Water Conservation Fund. In Oregon we have a 
series of coastal refuges that need additional land acquisition to 
reach their full potential. Do you support of oppose use of the Land 
and Water Conservation Fund to establish new national wildlife refuges?
    Answer. Section 7 of the LWCF Act authorizes the use of LWCF monies 
for the acquisition of national wildlife refuge system lands. I support 
the use of funds from the Land and Water Conservation Fund for the 
acquisition of land for conservation purposes, including acquisitions 
for the National Wildlife Refuge System.
    Question. Would you place new limitations on the expansion of 
existing national wildlife refuges?
    Answer. I am not familiar enough with the situation relating to 
proposed expansions of existing refuge lands to answer this question. 
However, I am aware that the Fish and Wildlife Service has identified a 
substantial maintenance backlog on refuge lands, as well as significant 
shortfalls in the operations budget. I believe that these issues must 
be taken into consideration as proposals to expand the National 
Wildlife Refuge System are reviewed.
    Question. In December 1998 the U.S. Fish and Wildlife Service 
adopted a policy with respect to the Tule Lake and Lower Klamath 
National Wildlife Refuges in California and Oregon under which 
irrigation of commercial farmland on the refuges would not be allowed 
unless sufficient water was available to sustain marshes on the 
refuges. In other words, scarce water supplies would not be diverted 
from refuge marshes to provide irrigation water for farmland on the 
refuges. Do you agree or disagree with this policy?
    Answer. I am not familiar with the details of the Department's 1998 
policy.
    Question. The Klamath Refuge is a good example of a place that 
cries out for a unifier. The U.S. Fish and Wildlife Service has been 
criticized by farming interests for prohibiting certain pesticides from 
farming on the Klamath Basin National Wildlife refuges. The agency has 
been criticized by conservation organizations for continuing to allow 
pesticides known to be carcinogens to be used on the refuge. How would 
you resolve the complicated water and use issues in the Klamath basin?
    Answer. I am not familiar enough with the details of the conflicts 
regarding the use of pesticides around the Klamath Basin National 
Wildlife Refuges to suggest a specific plan of action to address those 
conflicts. If confirmed, however, I would commit to consult with 
representatives from all of the affected stakeholder groups, including 
the conservation community and agricultural groups, to try to develop 
an environmentally responsible management plan for pesticide use. I 
would also work closely with the congressional delegation in this 
matter.
    Question. One issue I look forward to working with you on is how 
the federal land management agencies like the BLM and Forest Service 
hold rights-of-way holders financially responsible for fire suppression 
costs, regardless of whether they are responsible for the damage.
    The current strict liability language has serious ramifications for 
utilities in states that share boundaries with federal land management 
agencies. An example of the problem occurred in central Oregon when a 
tree on federal forest land fell onto a power line owned by Midstate 
Electric Cooperative. Although the land management agencies had refused 
to allow the rural electric cooperative to remove the tree prior to the 
accident, Midstate was forced to pay the entire $350,000 cost 
associated with fighting the fire. Can we work together to find a more 
equitable policy?
    Answer. Yes.
    Question. How does the federal trust responsibility apply to 
protection of and/or development of the tribal land base?
    Answer. The trust responsibility requires that the Secretary 
consult with the tribal leadership as to a reasoned course of 
Secretarial action that comports with the need for protection of and/or 
development of the tribal land base. I would look forward to working 
with tribal leaders to resolve any issues of concern.
    Question. What are your views on the protection or withdrawal or 
return of lands of traditional religious importance and use to tribes?
    Answer. I believe in working with tribes to protect lands of 
traditional religious importance. However, the withdrawal or return of 
lands of religious importance which happen to be currently outside of a 
particular tribe's jurisdiction must only be made to that tribe after 
consultation with the surrounding stakeholders and the Congress.
    Question. What are your views on the protection of tribal lands 
from mining activity and other development purposes?
    Answer. In general, I believe that decisions regarding the use of 
public lands must be made on a case-by-case basis and comply with 
applicable State and federal laws. I believe that land management 
decisions should be made in a collaborative way, with consultation of 
all affected stakeholders, including States, Tribes, land users, local 
communities, and environmental groups.
    Mining on Indian lands should only be conducted with the consent of 
the tribe at the time the mining leases are entered into by the parties 
and approved by the Secretary. It is my understanding that, under 
current law, mining on non-tribal lands adjacent to a reservation 
should be able to continue so long as adequate environmental safeguards 
are included in the mine plan of operation.
    Question. How do you view the accommodation or protection of, 
access to and ceremonial use of Indian sacred sites by tribal religious 
practitioners and the need to avoid adversely affecting the physical 
integrity of such sites in federal land management decisions, as set 
forth in Executive Order 13007 (Indian Sacred Sites)?
    Answer. I am not familiar enough with the specific terms of 
Executive Order 13007 to respond to this question at this time. In 
general, I believe that the Department must work with the Tribes to 
protect Indian Sacred Sites whenever possible, consistent with the law 
and environmentally responsible use of public lands. I subscribe to the 
belief that the accommodation of access to and ceremonial use of Indian 
sacred sites by tribes should occur whenever possible so long as the 
accommodation does not conflict with the Secretary's other federal 
responsibilities as a land manager.
    Question. There are currently 36 undeveloped oil leases situated on 
the Outer Continental Shelf off the coast of California. Development of 
these leases has been strongly opposed by the state of California and 
the associated local coastal communities. This Administration has 
signaled its intent to prioritize the development of domestic oil and 
gas sources. Will you encourage development of offshore leases in 
states like California where there is strong and persistent opposition 
to the development of such leases? Past Administrations have used their 
executive authority to place a moratorium on offshore oil and gas 
drilling in currently undeveloped areas. Would you recommend that such 
a moratorium be continued under this Administration?
    Answer. President Bush pledged to support the existing moratoria on 
OCS leases. He also committed to working with California and Florida 
leaders and local affected communities to determine on a case-by-case 
basis whether or not drilling should occur on existing, but undeveloped 
leases. If confirmed as Secretary of the Interior, I will honor these 
commitments and promise to work with all parties to reach a consensus 
on how undeveloped leases should be handled and the extension of 
existing moratoria.
    Question. There are now well over 1,000 species that have been 
federally recognized as threatened or endangered species. The 
Endangered Species Act compels the Secretary of Interior to identify 
habitat that is critical to the recovery of these species and protect 
that habitat from further degradation. Many have alleged that our 
limited success in recovering species is due to our failure to protect 
the habitat upon which these species depend. In states like California, 
where there are a large number of listed species and a great deal of 
habitat that has been identified as ``critical habitat,'' protection of 
this habitat has been controversial. How would you interpret the 
Interior Department's obligations to protect and conserve the critical 
habitat of these threatened and endangered species?
    Answer. The Endangered Species Act requires the Secretary of the 
Interior, acting through the Fish and Wildlife Service, to designate 
critical habitat for listed species. Under the law, the Fish and 
Wildlife Service is further required to ensure that activities 
authorized, funded, or carried out by federal agencies do not 
jeopardize species through the destruction or adverse modification of 
critical habitat. I am committed to enforcing those requirements. I am 
also committed to work with private landowners to preserve habitat 
through habitat conservation plans, safe harbor agreements, and other 
innovative tools.
    Question. Do you consider federal efforts to protect species' 
habitat on private lands to be a violation of private property rights 
that would require compensation of the affected landowners?
    Answer. As I stated during the hearing, I believe that the 
determination of whether a regulatory taking has occurred must be made 
on a case-by-case basis under the guidelines set forth by the Supreme 
Court. Under those guidelines, I believe it is clear that the federal 
government can ordinarily enforce the take prohibition of section 9 of 
the Endangered Species Act without triggering the compensation 
requirement of the Fifth Amendment of the Constitution.
    Question. How do you plan to ensure that the Interior Department 
fulfills its duty to recover listed species?
    Answer. I am not familiar enough with the efforts that are 
currently being made by the Department to recover species to respond to 
this question at this time. However, I am committed to returning the 
focus on the Endangered Species Program to recovering species. In 
addition to working to ensure that recovery plans are developed and 
implemented for all listed species, I look forward to using incentives 
and other innovative tools to encourage recovery efforts by States and 
private landowners. I look forward to working with Congress, the 
States, private landowners, the environmental community, and other 
interested stakeholders to achieve this goal.
    Question. The Interior Department recently announced its denial of 
a permit for the Glamis Imperial gold mine that was proposed for 
development in Imperial County, California. This mine was rejected on 
the grounds that it would have caused undue degradation to the site's 
environmental and cultural resources. Do you think it is appropriate 
under current mining law for the Secretary to reject mines like the 
proposed Glamis Imperial Mine on these grounds?
    Answer. I am not familiar with the specifics of the Glamis mine 
proposal or the basis on which the mine was rejected. I look forward to 
learning more about the proposed Glamis project and working with 
Congress to ensure that all new mining projects maintain an appropriate 
balance between legitimate mineral development activities and 
preservation of important environmental and cultural resources.
    Question. The Federal government receives royalties from private 
oil and gas companies that extract oil and gas resources from federal 
lands. Recently, the Interior Department finalized regulations to 
ensure that oil royalties paid to the federal government are based upon 
the fair market value of that oil. This new policy will ensure that 
taxpayers receive equitable compensation for these resources, and is 
expected to generate approximately $67 million in additional revenue. 
Are you prepared to support this new rule which fairly compensates 
taxpayers for oil taken from federal lands?
    Answer. I share with you a desire to ensure that the American 
taxpayer is fairly compensated for resource development on Federal 
lands. However, I am unfamiliar with the details of this rule but, if 
confirmed, I will review the rule and then decide how to proceed.
    Question. The Secretary of the Interior has the discretion to 
accept these royalties as either payment-in-kind or payment-in-value. 
Historically, there have been few instances of royalties being paid in-
kind. As Secretary, would you encourage the use of royalty payments in-
kind?
    Answer. If confirmed, I will review the legal options available to 
the Secretary of the Interior on royalty collections and then decide 
the appropriate way to proceed.
    Question. Recently, the National Park Service developed a detailed 
plan for the future management of Yosemite National Park. This plan was 
developed after considerable input from all of the affected 
stakeholders. Central to this plan is the notion that visitors to the 
park should be discouraged from driving their vehicles into the park 
and encouraged to travel through the park on a park transit system. As 
Secretary of the Interior, will you actively support implementation of 
the new Yosemite Valley Management Plan? Will you be aggressive about 
developing similar management plans for the many other national parks 
that are suffering environmental degradation because their management 
practices have not kept pace with the growing numbers of visitors?
    Answer. I am not familiar with the details of the Yosemite Valley 
Management Plan. As a general matter, I support the concept of 
management plans for our public lands and believe that they represent 
an important decision-making tool for land managers. For these plans to 
be successful, I believe it is important that they be developed in 
consultation with the affected States, local communities, affected 
stakeholders, and environmental groups.
    Question. In 1998, the U.S. Fish and Wildlife Service adopted a 
policy for Tule Lake and Lower Klamath National Wildlife Refuges in 
California and Oregon that prevents irrigation on commercial farmland 
on the refuges unless sufficient water was available to sustain the 
refuge's marshes. Do you support this policy which gives priority to 
the refuge's ecological resources over commercial farming?
    Answer. I am not familiar with the details of the Department's 1998 
policy.
    Question. The National Wildlife Refuge System Improvement Act of 
1997 set new requirements for the management of refuges. In response, 
the U.S. Fish and Wildlife Service issued regulations establishing 
procedures for determining what uses are compatible with the mission of 
the refuge system and the mission of each individual refuge. Do you 
believe farming is compatible with the mission of the Tule Lake and 
Lower Klamath National Wildlife Refuges?
    Answer. I have not yet had an opportunity to review the 
Compatibility Policy, and am not in a position at this time to assess 
how it might affect the Tule Lake and Lower Klamath National Wildlife 
Refuges. I am also aware that the Fish and Wildlife Service recently 
issued a draft Appropriate Uses Policy that may impact activities on 
refuges such as Tule Lake or the Lower Klamath. I look forward to 
learning more about the Fish and Wildlife Service's policies 
implementing the National Wildlife Refuge Improvement Act and about the 
530 Refuges in the National Wildlife Refuge System.
    Question. What uses would you deem to be incompatible with the 
mission of the national wildlife refuge system?
    Answer. The National Wildlife Refuge System Improvement Act 
recognizes that wildlife refuges can support multiple uses, with 
priority public uses including hunting, fishing, wildlife observation 
and photography, and environmental education and interpretation. Some 
refuges appropriately support oil and gas development, communications 
easements, and mining. The determination of what specific activities 
are appropriate on a particular refuge must be made on a case-by-case 
basis, consistent with the law.
    Question. Under CERCLA (or Superfund), the Interior Department has 
the responsibility to act on behalf of the public, as trustee of 
natural resources under its jurisdiction, to recover for damages caused 
by the release of a hazardous substance. What is your position on this 
type of liability under CERCLA?
    Answer. Under section 107(f) of the Comprehensive Environmental 
Response, Compensation and Liability Act. The Department of the 
Interior is responsible as a land manager and trustee of natural 
resources for recovering damages for the restoration of any resources 
under its trusteeship. The Department is also responsible for 
promulgating regulations implementing this section of CERCLA. As I 
stated during the hearing, I am committed to enforcing the law. That 
applies to the Department's obligations under section 107(f).
    Question. Do you intend to vigorously pursue the assessment and 
recovery of such natural resources damages, for example, at the Hudson 
River PCB Superfund site and the Fox River?
    Answer. I am not familiar with the details of the Hudson River 
Superfund site or Fox River. However, to the extent that the Department 
is a trustee of resources affected by the release of hazardous 
substances at either of these sites, I am committed to seeking 
appropriate restoration of the natural resources that have been 
adversely impacted.
    Question. Will you pursue the recovery of damages that result from 
activities that predated CERCLA but that are causing continuing injury?
    Answer. I will enforce the law, including any decisions of the 
federal courts that define the scope of liability for continuing 
injuries to natural resources resulting from pre-1980 activities.
    Question. When you were Colorado Attorney General, you decided not 
to sign two letters, circulated to all state Attorneys General for 
signature, that were sent to Senator Robert C. Smith (then Chair of the 
Senate Superfund Subcommittee) in 1995, one supporting CERCLA's 
retroactive liability provisions, which was signed by 40 state 
Attorneys General, and the other supporting the natural resource 
damages provisions of CERCLA, signed by 35 state Attorneys General?
    Answer. I do not have access to the specific requests from my 
colleagues regarding the letters mentioned in this question. Generally, 
however, these letters apparently dealt with Congressional proposals to 
amend CERCLA and not with implementation of CERCLA. As Attorney 
General, Colorado sought and obtained natural resources damages that 
were retroactive against the polluter on many occasions. I served as 
one of Colorado's Superfund natural resource trustees.
    Question. Can you please explain why you decided not sign those two 
letters?
    Answer. Please see my response to the prior question.
    Question. Do you support the current retroactive liability 
requirements under Superfund?
    Answer. The Secretary of the Department of the Interior is not 
responsible for implementing the Superfund cleanup program. That is 
within the jurisdiction of the Administrator of the Environmental 
Protection Agency. As a trustee for natural resources, however, the 
Secretary is responsible for the recovery of natural resource damages 
under section 107(f) of CERCLA. I am committed to fulfilling the 
Department's obligations in that regard, consistent with the law.
    Question. Do you support a strong natural resource damage recovery 
provision that allows trustees to protect and restore damaged public 
resources?
    Answer. Yes.
              Responses to Questions From Senator Daschle
    Question. What Indian affairs issues should be among the top five 
priorities for the DOI in the first year of the Bush-Cheney 
Administration?
    Answer. President Bush pledged to commit over $900 million over 
five years to address the maintenance backlog in Indian schools in 
accordance with the Bureau of Indian Affairs' priority list, as well as 
to construct six new schools. If confirmed as Secretary of the 
Interior, fulfilling this commitment will be my first priority. I need 
to learn more about the BIA and ongoing programs within the bureau 
before identifying other priorities.
    Question. What are other major issues involving Indian affairs 
(including budget issues) that may or should require Secretarial 
involvement in the first year?
    Answer. At this time, I need to learn more about the BIA, including 
funding issues, before deciding what issues will require Secretarial 
involvement. If I am confirmed as Secretary, I would seek to consult 
with interested stakeholders, like yourself and the tribes, to reach 
these decisions.
    Question. What Interior-related Indian affairs issues may or should 
require Presidential attention?
    Answer. Fulfillment of President Bush's campaign commitment to 
provide over $900 million in funding over five years to address the 
maintenance backlog in Indian schools in accordance with the Bureau of 
Indian Affairs' priority list, as well as to construct six new schools.
    Question. What opportunities are there to improve public relations 
for the DOI by achieving ``win-win'' solutions regarding Indian affairs 
issues in the first year?
    Answer. As I stated in my confirmation hearing, I take seriously 
the trustee responsibilities of the Secretary of the Interior and 
recognize that the situation in Indian Country is not what it should 
be. I am convinced that we can do better in this sphere. If confirmed 
as Secretary of the Interior, I intend to work with all interested 
stakeholders, including members of Congress, to improve the reputation 
of the Department of the Interior in Indian Country.
    Question. What internal issues involving Indian affairs (i.e. 
management, administrative) need to be addressed at the DOI?
    Answer. I am not familiar enough with the present situation to 
answer this question, but, if confirmed as Secretary of the Interior, I 
look forward to working with Congress and other interested stakeholders 
on this matter.
    Question. What are the most significant external challenges 
involving Indian affairs facing the Department in the first year (i.e. 
Congress, Tribes, private sector, interest groups, public relations, 
press)?
    Answer. I am not familiar enough with the current situation to 
answer this question. However, as stated previously, if confirmed as 
Secretary of the Interior, I intend to consult with all interested 
stakeholders, including members of Congress, to determine the external 
challenges facing the Department of the Interior. There is much that I 
believe we can do, in partnership with our nation's Native American 
tribes, to improve conditions and create a more hopeful future.
    Question. What administrative actions involving Indian affairs 
(i.e. Organization, Executive Orders, directives, rule-making, 
litigation) should be reviewed in the first six months of the Bush-
Cheney Administration and what action would you like to see?
    Answer. President Bush has campaigned on the need to provide 
additional funding to Indian education needs including the construction 
of new schools as well as the improvement of old ones. If confirmed as 
Secretary of the Interior, I look forward to working with you on the 
issue of developing a list of administrative actions that could improve 
the lives of Indians all across America.
    Question. As Attorney General, you filed a brief for the Supreme 
Court that challenged the implementation of Section 9 of the Endangered 
Species Act. Your argument was not adopted by the court. Would you 
still be comfortable enforcing Section 9 as construed by the Supreme 
Court majority?
    Answer. Yes.
    Question. As you know, there is widespread concern about cabinet 
officials being willing to support civil rights laws, and you have 
noted your opposition to affirmative action policies in the past. As 
Secretary of the Interior, would you enforce federal civil rights laws 
the Department is required to follow?
    Answer. Yes.
    Question. South Dakota is part of the prairie pothole region, and 
has numerous small, temporary wetlands that provide habitat for 
waterfowl. What is your view on the conservation of these small 
wetlands?
    Answer. The prairie pothole region provided an early example of 
cooperative public-private land management, since the Fish and Wildlife 
Service protected much of this important waterfowl habitat by 
negotiating protective easements with landowners. I hope we can learn 
from this experience to enhance FWS efforts in this region and across 
the country. The Department of the Interior should also cooperate with 
the agencies primarily responsible for wetlands regulation, the 
Environmental Protection Agency and the Army Corps of Engineers.
               Responses to Questions From Senator Durbin
    Question. Are you familiar with the Interior Department's August 
1997 proposed R.S. 2477 regulations, and do you support them?
    Answer. I am not familiar enough with the specifics of the proposed 
R.S. 2477 regulations to respond to this question at this time. I would 
be happy to follow up with you at a later date after I have had an 
opportunity to review the proposed regulations and the related 
Congressional debate.
    Question. If not, in what respects do you disagree with them?
    Answer. I am not able at this time to take a specific position with 
respect to the substance of the regulations.
    Question. And do you plan to change the agency's current policy on 
R.S. 2477?
    Answer. I am not familiar enough with the Department's policy on 
R.S. 2477 to respond to this question at this time.
    Question. Would you reinstate the Hodel policy on R.S. 2477?
    Answer. I am not familiar enough with the Hodel policy on R.S. 2477 
to be able to respond to this question.
    Question. Millions of acres of public land managed by the Bureau of 
Land Management (BLM) have never been inventoried for their wilderness 
qualities. Other areas known to have wilderness qualities were passed 
over during incomplete inventories. What would you do to support the 
continuation of wilderness inventories on BLM lands?
    Answer. I am not familiar with the status of BLM's wilderness 
inventory program. If confirmed as Secretary of the Interior, I will 
commit to reviewing the current program before deciding how to proceed.
    Question. And what would you do to protect unprotected wildlands 
that the BLM has inventoried and found to qualify for wilderness 
designation?
    Answer. I need to learn more about BLM's inventory program before 
deciding how to proceed.
    Question. Off-road vehicles are a growing threat to sensitive 
public lands managed by the BLM, causing soil erosion, damaging 
vegetation and disrupting wildlife. Are you aware of the full extent of 
this problem, and what will you do to protect wild and or roadless 
areas from degradation by ORVs?
    Answer. I share with you a desire to minimize soil erosion, damage 
to vegetation and disruption to wildlife on sensitive public lands 
managed by the BLM. I do not know the specifics of how ORVs impact 
public lands and need to learn more before deciding how to proceed.
    Question. Will you seek increased funding for ORV monitoring and 
enforcement?
    Answer. I need to learn about the current level of funding for ORV 
monitoring and enforcement activities. If confirmed as Secretary of the 
Interior, I will need to review this and other budget matters more 
thoroughly before making any recommendation.
    Question. Many BLM Resource Management Plans are out of date. Some 
as much as 20 years old. What will you do to update BLM management 
plans?
    Answer. I am aware that many BLM Resource Management Plans are out 
of date. I am not, however, familiar with the magnitude of this issue 
nor steps that have, or can be taken, to update these plans. If 
confirmed as Secretary of the Interior, I will need to learn more about 
this before deciding how to proceed.
    Question. What are your top funding priorities for the Interior 
Department, and in particular BLM?
    Answer. I need to learn more about the Department of the Interior 
budget before making any recommendations about funding levels for 
fiscal year 2002. I can commit to seeking to fulfill President Bush's 
campaign proposals including full-funding of the Land and Water 
Conservation Fund and progress towards elimination of the National Park 
System maintenance backlog.
               Responses to Questions From Senator Levin
    Question. What is your position on drilling for oil and natural gas 
in the Great Lakes?
    Answer. I have no position.
    Question. An agreement signed by the Governors of the Great Lakes 
states emphatic opposition to drilling beneath the Great Lakes, do you 
support such a prohibition? Would you support including onshore slant 
drilling to such a prohibition?
    Answer. I am not familiar with the specifics of this issue. As a 
general matter, I believe that land management decisions must be made 
on a case-by-case basis. If confirmed as Secretary of the Interior, I 
intend to work the States, local communities, Tribes, affected 
stakeholders, and environmental groups to ensure that land management 
plans and decisions regarding the use of our public lands are based on 
the best available science and achieve the best balance between 
responsible use and environmental protection.
    Question. Canada currently allows offshore drilling beneath the 
Great Lakes. As Secretary of the Interior, what steps would you take to 
prevent this practice from expanding or stopping it outright?
    Answer. I am not familiar with the specifics of this issue and 
would need to learn more before deciding how to proceed. If confirmed 
as Secretary of the Interior, I will consult with the Secretary of 
State on this or any matter involving another country.
             Responses to Questions From Senator Harry Reid
    Question. As Secretary of the Interior, James Watt directed the 
U.S. Fish and Wildlife Service to expand oil and gas leasing, timber 
harvesting, and other extractive commercial activities within the 
National Wildlife Refuge System. In contrast, the Clinton 
administration has generally reduced these activities within the 
System. Do you think the level of commercial activities currently 
allowed within the National Wildlife Refuge System is too much, not 
enough, or about right?
    Answer. I am not familiar enough with the current activities 
allowed on National Wildlife Refuges to make an independent assessment 
as to whether or not the level of activity is appropriate. As a general 
matter, I believe that wildlife refuges can be managed in a manner that 
supports multiple uses. The National Wildlife Refuge System Improvement 
Act recognizes that wildlife refuges can support multiple uses, with 
priority public uses including hunting, fishing, wildlife observation 
and photography, and environmental education and interpretation. Some 
refuges appropriately support oil and gas development, communications 
easements, and mining. The determination of what specific activities 
are appropriate on a particular refuge must be made on a case-by-case 
basis, consistent with the law.
    Question. In October, 1992 several conservation organizations sued 
the Department of the Interior for allowing incompatible commercial, 
military, and recreational activities within the National Wildlife 
Refuge System. In 1993, the Clinton Administration settled the 
litigation by eliminating grazing and modifying other uses on some 
specific refuges. The settlement also required the Fish and Wildlife 
Service to review all activities within the National Wildlife Refuge 
System to ensure that each use was compatible with the purposes of the 
refuges on which it was occurring as required by the National Wildlife 
Refuge System Administration Act of 1966. The settlement required the 
Fish and Wildlife Service to eliminate activities not found to be 
compatible. Do you agree or disagree with this settlement of the 
lawsuit?
    Answer. I am not familiar enough with the specifics of the 
litigation to evaluate the settlement. As a general matter, I support 
the concept that is embodied in the National Wildlife Refuge System 
Improvement Act to the effect that all uses of a refuge must be 
compatible with the underlying purposes of the refuge. As I stated 
above, the National Wildlife Refuge System Improvement Act also 
expressly recognizes that wildlife refuges can support multiple uses. 
The determination about what uses are appropriate and compatible with 
the underlying purposes of a refuge must be made on a case-by-case 
basis.
    Question. Do you believe that any of the activities discontinued on 
one or more National Wildlife Refuges should be reinstated, or should 
such changes in management be allowed to stand?
    Answer. I believe that the determination of what activities are 
appropriate on any particular refuge must be made on a case-by-case 
basis. I am not familiar enough with the specific management changes 
that have been imposed to respond to this question.
    Question. If you believe that discontinued activities should be 
reinstated, which specific commercial, military, or recreational 
activities should be reinstated within the Refuge System, why, and 
under what circumstances?
    Answer. I am not familiar enough with the specific management 
changes that have been imposed to respond to this question. I would be 
happy to review this matter in more detail once I am confirmed and 
follow up with you at a later date.
    Question. Are there any activities that you believe should never be 
allowed within the National Wildlife Refuge System?
    Answer. I believe that the determination of what activities are 
appropriate should be governed by the National Wildlife Refuge System 
Improvement Act and its implementing regulations and policies.
    Question. In May, 2000, the U.S. Fish and Wildlife Service issued 
final agency policy on preparing Comprehensive Conservation Plans 
required under the National Wildlife Refuge System Improvement Act of 
1997. That policy requires each refuge to conduct wilderness reviews as 
part of the planning process. Refuges must review both lands that have 
never been studied and lands that were previously reviewed but not 
recommended for wilderness designation to determine if they currently 
qualify for this designation. Do you agree with this policy?
    Answer. I am not familiar enough with the specific elements of this 
policy to respond to this question at this time. I would be pleased to 
follow up with you at a later date after I have had an opportunity to 
review the policy.
    Question. If confirmed, will you propose changes to this policy?
    Answer. I am not familiar enough with the specific elements of this 
policy to respond to this question at this time. I would be pleased to 
follow up with you at a later date after I have had an opportunity to 
review the policy.
    Question. Under President George H.W. Bush, nearly 50 new national 
wildlife refuges were established. The majority of these were created 
with use of the Land and Water Conservation Fund. Under the Clinton 
Administration, a similar number have also been established under this 
funding source. Do you support or oppose use of the Land and Water 
Conservation Fund to establish new national wildlife refuges?
    Answer. Section 7 of the LWCF Act authorizes the use of LWCF monies 
for the acquisition of national wildlife refuge system lands. I support 
the use of funds from the Land and Water Conservation Fund for the 
acquisition of land for conservation purposes, including acquisitions 
for the National Wildlife Refuge System.
    Question. Would you place any new limitations on the establishment 
of new national wildlife refuges?
    Answer. I am not familiar enough with the situation relating to 
proposed expansions of existing refuge lands to answer this question. 
However, I am aware that the Fish and Wildlife Service has identified a 
substantial maintenance backlog on refuge lands, as well as significant 
shortfalls in the operations budget. I believe that these issues must 
be taken into consideration as proposals to expand the National 
Wildlife Refuge System are reviewed.
    Question. In October, 2000, the U.S. Fish and Wildlife Service 
issued final agency regulations and policy establishing procedures for 
determining whether ongoing or proposed activities on national wildlife 
refuges are compatible with the mission of the Refuge System and the 
purposes of the individual refuges on which they occur. Such 
regulations were required by the National Wildlife Refuge System 
Improvement Act of 1997. The Fish and Wildlife Service has determined 
that a use that undermines the biological integrity, diversity, and 
environmental health of a refuge will be considered to be incompatible. 
Do you agree or disagree with this regulation?
    Answer. I am not familiar enough with the specifics of the 
regulations or policy to respond to this question. As a general matter, 
I support the principle reflected in the National Wildlife Refuge 
System Improvement Act that all activities allowed on a wildlife refuge 
must be compatible with the underlying purposes of the refuge. I would 
be happy to follow up with you at a later date after I have had an 
opportunity to review the compatibility policy in greater detail.
    Question. If confirmed, will you propose changes to this policy?
    Answer. I am not familiar enough with the specifics of the 
regulations or policy to respond to this question. As a general matter, 
I support the principle reflected in the National Wildlife Refuge 
System Improvement Act that all activities allowed on a wildlife refuge 
must be compatible with the underlying purposes of the refuge. I would 
be happy to follow up with you at a later date after I have had an 
opportunity to review the compatibility policy in greater detail.
    Question. The U.S. Fish and Wildlife Service has been criticized 
for prohibiting certain pesticides from being used in National Wildlife 
Refuges. The agency has also been criticized by conservation 
organizations for continuing to allow pesticides known to be 
carcinogens, endocrine disrupters, and neurotoxins to be used. Should 
pesticides that are known to be carcinogens, endocrine disrupters, or 
neurotoxins be allowed on national wildlife refuges?
    Answer. I am not familiar enough with this issue to respond to this 
question. I would be happy to follow up with you after I have had an 
opportunity to learn more about the pesticides in question, the reason 
for their application; and the potential risks that they may present.
    Question. If so, for what purpose should they be allowed and under 
what circumstances?
    Answer. I am not familiar enough with this issue to respond to this 
question. I would be happy to follow up with you after I have had an 
opportunity to learn more about the pesticides in question, the reason 
for their application; and the potential risks that they may present.
    If confirmed, would you take action either to restore pesticides 
eliminated by the Fish and Wildlife Service or to eliminate harmful 
pesticides allowed on Refuges?
    I am not familiar enough with the issue of pesticide use on or 
around refuges to respond to this question. I would be happy to work 
with you after I have been confirmed to review the question of 
pesticide application on and near refuge lands.
    In 1998, the State of Wyoming sued the Department of the Interior 
over management of the National Elk Refuge. The state argued that the 
U.S. Constitution and the National Wildlife Refuge System Improvement 
Act of 1997 gave states the authority to manage resident wildlife even 
on national wildlife refuges. The Wyoming District Court found that the 
1997 Act did the opposite, affirming the federal government's lead 
authority to manage all wildlife on national wildlife refuges. Do you 
agree or disagree with the Wyoming District Court Judge's finding?
    I am not familiar with this case. However, as I stated during the 
hearing, as a general matter, I am committed to enforcing the law as it 
is interpreted by the courts. I also believe, however, that the States 
are important partners in the conservation of wildlife and habitat. 
While the federal government has lead responsibility in the management 
of national wildlife refuges, it is important that we work together 
with the States.
    Question. Please describe your views on the extent of federal and 
state authority to manage wildlife on the National Wildlife Refuge 
System.
    Answer. I believe that the Fish and Wildlife Service is the lead 
agency responsible for managing our national wildlife refuge lands. I 
also recognize that States also play an important role in the 
conservation of wildlife, both on and off refuge lands. For example, 
State hunting laws apply to hunting on national wildlife refuges. I 
believe it is important for the Fish and Wildlife Service to work in 
partnership with the States in order to achieve the fundamental 
purposes of our National Wildlife Refuge System.
    Question. In the 1980s, the U.S. Fish and Wildlife Service 
concluded that jetties proposed for construction on the Pea Island 
National Wildlife Refuge in North Carolina would be incompatible with 
the purpose for which that refuge was established. The Clinton 
Administration has reaffirmed this determination. Do you agree or 
disagree with these findings?
    Answer. I am not familiar enough with the details of the proposed 
jetties on the Pea Island National Wildlife Refuge to respond to your 
question at this time. I would be happy to follow up with you at a 
later time after I have had an opportunity to review the findings in 
more detail.
    Question. If confirmed, would you take action to attempt to 
overturn these previous determinations?
    Answer. I am not familiar enough with the details of the proposed 
jetties on the Pea Island National Wildlife Refuge to respond to your 
question at this time. I would be happy to follow up with you at a 
later time after I have had an opportunity to review the findings in 
more detail.
    Question. In 2000, the Interior Department was criticized for 
allowing more water to flow in the Klamath River to benefit endangered 
salmon. Please explain your views on the management of water to meet 
the needs of endangered species in situations, such as with the Klamath 
River, where adequate water supplies may not exist to meet all the 
desires for water.
    Answer. The management of water resources presents a particular 
challenge for the Department of the Interior. In carrying out its 
responsibilities under the Endangered Species Act, the Department must 
maintain an appropriate balance between the needs of species and the 
needs of agricultural interests, municipalities, and other water users. 
At the same time, the Department must respect State water law. I 
believe that my experience in Colorado negotiating water rights 
settlements would help me address this issue as Secretary of the 
Interior. I believe I have a proven track record of being able to bring 
opposing sides together, balancing the needs of water users with those 
of the environment and species.
    Question. In Babbitt v. Sweet Home Chapter of Communities for a 
Better Oregon, the Supreme Court affirmed a Fish and Wildlife Service 
regulation prohibiting degradation of endangered species habitat on 
private land. Please describe your views on this case.
    Answer. As I stated at the hearing, I am committed to enforcing the 
Endangered Species Act. Although I filed an amicus brief in my capacity 
as Attorney General for Colorado in support of those who were 
challenging the regulation, I recognize that the Supreme Court upheld 
the regulation and that is now the law of the land. I will enforce the 
regulation.
    Question. Do you believe that the Endangered Species Act protect 
against the destruction of endangered species habitat on private land?
    Answer. The Endangered Species Act prohibits the take of an 
endangered species on private land. In some cases, the destruction of 
habitat can constitute a take. This is a determination that must be 
made on a case-by-case basis.
    Question. If confirmed, will you propose changing this aspect of 
the Act?
    Answer. At this time, I do not have any plans to propose any 
legislative changes to the Endangered Species Act. I look forward to 
working with the Congress at some time in the future, however, to 
evaluate whether amendments to the Act may be desirable to achieve 
better results for species. Among other things, I may consider 
amendments to provide statutory authorization for the landowner 
incentives that have been implemented by the Clinton Administration.
    Question. You may be aware that in November of last year, the U.S. 
Fish and Wildlife Service issued a Biological Opinion on ``The 
Operation of the Missouri River Main Stem Reservoir System, Operation 
and Maintenance of the Missouri River Bank Stabilization and Navigation 
Project, and Operation of the Kansas River Reservoir System'' pursuant 
to its responsibilities under the Endangered Species Act.
    As Secretary of the Interior, would you support managing the 
Missouri River in a way that meets the needs of threatened and 
endangered species, promotes recreation and tourism on the river, and 
supports traditional uses of the river in a balanced way?
    Answer. I am not familiar enough with the details of the Missouri 
River Biological Opinion to assess whether or not it represents a 
balanced approach to the management of the Missouri River Main Stem 
Reservoir System. As a general matter, I support the management of the 
River in a way that balances the needs of the species with recreation 
and industrial uses, as well as public safety. If confirmed, I pledge 
to work with the Army Corps of Engineers and the Congress to achieve 
that result.
    Question. As Secretary of the Interior would you continue to 
support the Fish and Wildlife Service's leading role, in the context of 
revising the ``Master Manual'' on operations of the Missouri River main 
stem reservoir system, in helping the Corps of Engineers to prevent the 
extinction of listed species on the Missouri River?
    Answer. As I stated above, I am not familiar with the details of 
the Missouri River Biological Opinion and do not know what role in 
particular the Fish and Wildlife Service has played. It is clear, 
however, that under the Endangered Species Act, the Fish and Wildlife 
Service is responsible for the preparation of the Biological Opinion, 
including the jeopardy assessment and reasonable and prudent measures 
accompanying any incidental take statement. I look forward to learning 
more about the specifics of this situation and pledge to work with the 
Corps of Engineers and the Congress to implement measures to prevent 
the extinction of the listed species on the Missouri.
    Question. Will you commit to not rescinding or modifying the Fish 
and Wildlife Service's November 2000 Biological Opinion? If you cannot 
commit to this, do you have any plans to rescind or modify this 
Opinion? What facts or circumstances would can you to rescind or modify 
the Opinion?
    Answer. I am not familiar enough with the specific facts underlying 
the Biological Opinion to respond to this question. I would be happy to 
follow up with you after I have had an opportunity to review the 
Biological Opinion in greater detail.
    Question. President George H.W. Bush established a goal of ``no net 
loss'' of wetlands. The Supreme Court's recent ruling in Solid Waste 
Agency of Northern Cook County v. U.S. Army Corps of Engineers may 
affect the attainment of this goal. Do you support the ``no net loss'' 
of wetlands goal?
    Answer. I am not familiar enough with the Supreme Court's decision 
in Cook County to evaluate what impact, if any, it will have on federal 
wetlands policy. The Secretary of the Interior does not have primary 
responsibility for managing wetlands. That is under the jurisdiction of 
the Corps of Engineers and the Environmental Protection Agency. I do 
not have an independent position with respect to former President 
Bush's ``no net loss'' policy. If confirmed as Secretary of the 
Interior, I will follow the policy of President Bush.
    Question. Do you agree with the Supreme Court's decision in the 
SWANCC case? Why or why not?
    Answer. I am not familiar enough with the decision of the Supreme 
Court to respond to this question.
    Question. Given the Court's SWANCC decision, how should the federal 
government proceed in implementing a ``no net loss'' policy?
    Answer. I am not aware of what the Bush Administration's policy is 
with respect to wetlands and am not in a position at this time to make 
any specific recommendations as to how that policy should be 
implemented.
    Question. What do you believe is the appropriate role of the 
Interior Department in protecting the nation's wetlands?
    Answer. The Department of the Interior is not the primary federal 
agency responsible for the management or regulation of wetlands. The 
Department does preserve and protect wetlands as habitat for endangered 
species and migratory waterfowl.
             Responses to Questions From Senator Torricelli
    Question. The Pinelands National Reserve, now over 20 years old, is 
a unique way to provide for natural resource protection as a joint 
federal-state partnership. Are you in favor of expanding this model to 
protect other critical landscapes across the nation?
    Answer. I support Federal, State and local partnerships, especially 
with respect to difficult land management decisions. If confirmed as 
Secretary of the Interior, I will seek to foster intergovernmental 
partnerships.
    Question. You are, by virtue of federal act, represented as a 
member of the Pinelands Commission, a body overseeing the plan 
protecting the unique natural resources of the Pine Barrens of New 
Jersey. The Commission, established as a partnership between state and 
federal government more than two decades ago, has been criticized 
recently for not applying its regulations in a consistent manner, 
sometimes in contravention to its own rules. The current Secretary of 
Interior has supported one such vote on appeal. How would you respond 
should a similar circumstance arise?
    Answer. I am unfamiliar with the Pinelands Commission and the 
specific obligations of the Secretary of the Interior as a Commission 
member. If confirmed, I will need to learn more about the Pinelands so 
that I can fulfill my statutory obligations for the benefit of not only 
New Jersey residents but also all Americans. I can say that I support 
uniform and consistent application of all rules and regulations.
                               APPENDIXES

                              ----------                              


                              Appendix II

              Additional Material Submitted for the Record

    [Note: Due to the enormous amount of materials received, 
only a representative sample of statements follow. Additional 
documents and statements have been retained in committee 
files.]
                              ----------                              

                                Ute Mountain Tribe,
                                 Southern Ute Indian Tribe,
                                                   January 8, 2001.
Hon. Frank Murkowski,
Senate Energy and Natural Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Chairman Murkowski: We are writing in support of the 
nomination of Gale Norton to serve as Secretary of the Interior, and 
hope you will share our remarks with members of the Committee who will 
visit with her during her upcoming confirmation hearing,
    Our Tribes have enjoyed a strong working relationship with the 
State of Colorado for many years. As Attorney General, Gale Norton 
furthered that relationship through her commitment to resolving issues 
in a fair and thoughtful way. She is an open-minded leader who listens 
and then works toward a resolution. We were able to agree to a gaming 
compact with the State of Colorado during her tenure as Attorney 
General. In addition, her strong and adamant support of the Colorado 
Ute Indian Water Rights Settlement Act was a major factor in what 
ultimately became successful legislation to modify the Animas-La Plata 
Project and still meet the obligation to the Ute people of Colorado.
    Ms. Norton is a very capable individual whose public service is not 
based on a desire for accolade or credit, but on a commitment to 
resolve issues, no matter how controversial.
    We proudly support her nomination and enthusiastically encourage 
the Senate to approve her nomination.
            Sincerely,
                                   Ernest House,
                                           Chairman, Ute Mountain Ute 
                                               Tribe.
                                   Vida Peabody,
                                           Acting Chairman, Southern 
                                               Ute Indian Tribe.
                                 ______
                                 
                      National Water Resources Association,
                                   Arlington, VA, January 11, 2001.
Hon. Frank Murkowski,
Ranking Member, U.S. Senate Energy and Natural Resources Committee, 
        Dirksen Senate Office Building, Washington, DC.
    Dear Mr. Chairman: On behalf of the membership of the National 
Water Resources Association, I am writing in strong support of the 
Honorable Gale A. Norton to be the next Secretary of the Department of 
the Interior.
    Several of our members and I have worked with Ms. Norton during her 
tenure as Attorney General of the State of Colorado. Without exception, 
we have found her receptive to all points of view, fair-minded, and 
beyond reproach.
    Ms. Norton's record in Colorado is exemplary. On many divisive 
issues she was the architect of reason and concensus. We would question 
anyone who has worked with her that challenges her objectivity, 
fairness and integrity.
    President-elect Bush has made an outstanding selection for Interior 
Secretary and we give our unqualified and strongest support for her 
confirmation. We urge the Committee to give its unanimous and 
expeditious endorsement of Ms. Norton as the next Secretary of the 
Interior.
            Respectfully yours,
                                        Thomas F. Donnelly,
                                          Executive Vice President.
                                 ______
                                 
                                                  January 12, 2001.
Hon. Frank Murkowski,
Hon. Jeff Bingaman,
Co-Chairs, Senate Energy and Natural Resources Committee, Dirksen 
        Building, Washington, DC.
    Dear Senators: The Department of the Interior (DOI)--encompassing 
agencies such as the National Park Service, the Bureau of Indian 
Affairs, and the Bureau of Land Management--has the unique 
responsibility of safeguarding America's few remaining and most 
precious natural treasures and links to our shared natural and cultural 
history. I strongly believe that those lands and waters, many of which 
are priceless and irreplaceable, require the highest environmental 
protection as mandated by federal statutes. The Department of the 
Interior must be led by someone who recognizes this fact.
    Gale Norton's career history working on land management issues 
illustrates her apparent priorities in the area of natural resource 
management. From this history, it appears that Ms. Norton believes that 
``free market'' schemes can address many of the threats facing our 
public lands. Unfortunately, our nation's history is littered with the 
costly and damaging failures of similar market based land management 
plans. Because I do not wish to see America's land management policies 
hijacked for the short-term profit motives of exploitative industries, 
I do not feel that Ms. Norton is the best-qualified candidate to act as 
head steward of our nation's most valuable resources. Nothing in Ms. 
Norton career history seems to suggest that she values natural 
resources any more than they are worth at market-value.
    Our nation's natural heritage is simply too precious to entrust to 
anyone except a person with the utmost reverence for those resources. 
Sadly, I am not convinced that Ms. Norton will make the protection of 
our natural resources from needless destruction by extractive 
industries as high a priority as necessary. Therefore, I call upon you 
to oppose her nomination for Interior Secretary and lead/support a 
filibuster of her nomination if it reaches the full Senate. Finally, I 
call upon you to urge President Elect Bush to nominate a more suitable 
candidate.
            Sincerely,
                                            Renate Wallner,
                                                         H. Sc. Ed.
                                 ______
                                 
                                     Needham, MA, January 12, 2001.
Hon. Frank Murkowski,
Hart Senate Office Building, Washington DC.
    Dear Senator Murkowski: I am writing to urge you to reject Gale 
Norton's confirmation as Secretary of the Interior.
    The Department of the Interior is a major office in the national 
government, which oversees our national preservation of land, water, 
forests, natural resources, wildlife and their wise use and management 
as well. The nominee to head Interior, Gale Norton, is well known for 
her interest in accommodating corporate demands for more access to 
energy and raw materials, at the expense of our nation's natural 
heritage.
    In accepting her nomination to serve as Secretary of the Interior, 
Gale Norton promised to make better use of the two-thirds of the 
nation's lands in federal hands--including access for business.
    Gale Norton's pro-growth, pro-oil, and anti-regulation positions 
are well documented:

  <bullet> As President Reagan's Associate Solicitor at the Interior 
        Department, she supported oil drilling in the Arctic Wildlife 
        Refuge and she has endorsed President-Elect Bush's advocacy for 
        developing these pristine lands for oil resources.
  <bullet> Gale Norton supports Colorado's ``self-audit'' law (which 
        the current EPA opposed). It allows corporations to monitor 
        their own compliance with environmental regulations.
  <bullet> Gale Norton worked at the Mountain States Legal Foundation, 
        which advocates ``takings'' legislation and logging and mining 
        on the nation's public lands. It also is vigorously opposed to 
        the very notion of the Endangered Species Act.

    The Constitution gives the Senate the responsibility of advising on 
and consenting to presidential appointments. As our elected officials, 
the Senate has a duty to fully review the writings, speeches, 
interviews, and public records of nominees for Executive appointments. 
In light of the historically close nature of the presidential election, 
the Senate should be particularly careful in its review of nominees. 
President-elect Bush received no mandate for conservative activism or 
environmental exploitation.
    Please protect our treasured natural resources and oppose Gale 
Norton's confirmation as Secretary of the Interior.
            Sincerely,
                                          William and Diana Lehman.
                                 ______
                                 
                               San Francisco, CA, January 12, 2001.

Senate Energy and Natural Resources Committee, U.S. Senate, Washington, 
        DC.
    Dear Mr. Chairman: Please include this letter in the hearing record 
of Jan. 18, 2001 for the confirmation hearing of Gale Norton as 
Secretary of the Interior.
    I am opposed to the confirmation of Gale Norton for the following 
reasons:

  <bullet> Ms. Norton is cut from the same cloth as James Watt, having 
        spent four years as a staff at the Mountain States Legal 
        Foundation where Watt served as its first President.
  <bullet> Ms. Norton was national chairman of the Coalition for 
        Republican Environmental Advocates, a corporate front group 
        whose steering committee includes registered lobbyists for the 
        oil, auto, mining, and alcoholic beverage industries.
  <bullet> As Attorney General of Colorado, Ms. Norton filed an amicus 
        brief in the 1995 Sweet Home case before the Supreme Court 
        opposing the position of the Department of the Interior and the 
        goals and policies of the Endangered Species Act.

    I believe that the Secretary of the Interior should be an 
individual whose past record demonstrates a commitment and ability to 
advance the mission of the Department of the Interior. This mission is 
to manage and preserve our public lands in an environmentally and 
scientifically sound fashion for the equitable benefit of all American 
taxpayers.
    Ms. Norton's past activities abundantly demonstrate that she would 
undermine, not uphold, this mission. She should be rejected for this 
critical post.
            Sincerely,
                                           Stanley E. Kaufman, M.D.
                                 ______
                                 
                                     Raleigh, NC, January 12, 2001.
    Dear Senator Murkowski: I am in opposition to Gale Norton as 
Interior Secretary. Her past record does not indicate that she is the 
person who should be entrusted with decisions about our environment and 
natural resources.
    Please oppose Norton as Secretary of the Interior.
            Sincerely,
                                                 Peter J. MacManus.
                                 ______
                                 
                                     Raleigh, NC, January 12, 2001.
    Dear Senator Murkowski: I am writing to you because I oppose Gale 
Norton as Secretary of the Interior. I have seen the record of some of 
her actions, and I definitely do not believe that she is the right 
person to entrust with decisions about this country's natural 
resources.
    Please, Senator Murkowski, do what you can to defeat Gale Norton.
            Sincerely,
                                                 Sarah A. MacManus.
                                 ______
                                 
                                      Durham, NC, January 12, 2001.
    Dear Senator Murkowski: I am writing to voice my opposition to the 
nomination of Gale Norton as the Secretary of the Interior. As a 
follower of James Watt and through her actions it is painfully obvious 
that her belief is that public lands are to be exploited by large 
companies and not to be enjoyed by the public for the beauty and 
environmental integrity that they hold.
    Gale Norton has shown through the years that she supports 
legislation where companies have the right to hide environmental 
violations if they say they will do better. In other words she does not 
believe that there should be any consequence for negatively affecting 
the air, water, and land that we need to survive. This also means that 
she does not believe that companies should be punished for defacing our 
public lands.
    The National Park Service and BLM are already weak due to budget 
cuts, the last thing that the nation needs is Gale Norton as Secretary 
of the Interior. Our national treasures that are already stressed will 
be under attack from large corporations wanting to extract all the 
resources they can. The question comes down to, are our public lands 
set aside for us the people or for big corporations. Gale Norton 
supports the corporations and I urge you to oppose her nomination 
Senator Murkowski.
    Thank you for your time.
                                                     Chris Shepard.
                                 ______
                                 
                                  Alaska State Legislature,
                                      Juneau, AK, January 12, 2001.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, U.S. Senate, 
        Dirksen Senate Office Building, Washington, DC.
    Dear Senator Bingaman: The leadership of the Alaska State Senate 
and the Alaska State House of Representatives would like to express out 
support for the nomination and appointment of Ms. Gale Norton to 
Secretary of the Interior.
    The Department of the Interior appointment is extremely important 
to our state. Most of our lands and much of our natural resources are 
intricately tied to this agency. The mission of many of the Bureaus 
within the Department, such as the Bureau of Indian Affairs, Bureau of 
Land Management, the National Park Service and U.S. Fish and Wildlife 
Service are also interwoven in the daily lives of most of our citizens. 
Thus, we do not treat the nomination of this important cabinet position 
lightly.
    Ms. Norton's resume is exemplary. She certainly understands the 
many issues and challenges facing the western states and the country as 
a whole, having served for two terms as Attorney General in Colorado. 
In that capacity, she also demonstrated an ability to fairly interpret, 
implement and enforce the federal and state laws which she was sworn to 
uphold. Her previous experience with the Department of the Interior 
gives her the background and technical expertise to tackle the tough 
issues facing this Department.
    We appreciate your considering our recommendation that Ms. Norton 
be confirmed as Secretary of the Interior by the U.S. Senate.
            Sincerely,
                                   Rick Halford,
                                           Senate President.
                                   Brian Porter,
                                           Speaker of the House.
                                 ______
                                 
                                 Canyon Lake, TX, January 13, 2001.
Hon. Frank Murkowski,
Hon. Jeff Bingaman,
Co-Chairs, Senate Energy and Natural Resources Committee, Dirksen 
        Building, Washington, DC.
    Dear Senators: The purpose of this letter is to register my protest 
to the appointment of Gale Norton as Interior Secretary. The reason I 
am taking time to do this, and asking you to take time to consider it, 
is that I believe our natural resources are invaluable and 
irreplaceable. That these qualities do not translate well to arguments 
based on simple economics should not exempt them from concern, since 
they transcend that arena; they provide an end for that which economics 
only provides a means. For example, I don't work 40-50 hours per week 
because I like to work, I do it because I have to accumulate a 
financial cushion in order to spend a few weeks each year in the 
wilderness. This philosophy was also expressed by former President 
Theodore Roosevelt in saying that ``the nation behaves well when it 
leaves its resources enhanced, and not depleted, for future 
generations''.
    Based on Ms. Norton's record, I do not believe the natural 
resources of our nation would be enhanced under her stewardship. In 
fact, there appears to be a greater likelihood that they would be 
depleted for relatively short-term economic gain. Since many of these 
resources are irreplaceable, the conservative approach would be to 
protect them from exploitation.
            Sincerely,
                                                    Jerry O'Connor.
                                 ______
                                 
                                          America Outdoors,
                                   Knoxville, TN, January 15, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Dirksen Senate Office Building, Washington, DC.

Re: Interior Secretary Nominee Gale Norton

    Dear Chairman Bingaman: On behalf of America Outdoors, I 
respectfully request that you, as Chairman of the Confirming Committee, 
support Ms. Gale Norton's nomination for Secretary of the Interior and 
act quickly to assure her confirmation.
    As the Interior Department's Associate Solicitor from 1985 to 1987, 
Ms. Norton was exposed to the intricacies of the Department as well as 
the nuances of national policymaking. She is familiar with the 
Department, its issues, and its management and is adept at natural 
resource administration. America Outdoors strongly supports 
confirmation of Ms. Norton for Secretary of the Interior.
            Sincerely,
                                               David Brown,
                                                Executive Director.
                                 ______
                                 
                                   Asheville, NC, January 16, 2001.

    Senator Murkowski: I am writing to oppose Gale Norton as Interior 
Secretary. As a new mother who dreams of her son growing up in a world 
that protects and preserves its natural resources, I appeal to you to 
do all you can to keep Norton from being appointed for the following 
reasons:

  <bullet> Norton's audacious stance to open protected wildlands to 
        oil, gas, mining, and logging industries is terrifying; we 
        chose to protect these lands for a reason. The United States 
        wisely recognized that environmental diversity is essential to 
        the longevity of the human race. Norton's unconcern for this 
        diversity is dangerous and disconcerting.
  <bullet> As an attorney, Norton sued the EPA to overturn clean-air 
        standards. With the pollution problems this nation is already 
        facing, we need government representatives to protect its 
        citizens' best interests--air is a very basic best interest of 
        all of us.
  <bullet> Norton generally protects interests of industry over the 
        environment. There must be a balance! What good is a healthy 
        industry if it has no world in which to do business?

    When I was pregnant, I spent many sleepless nights worrying about 
the state of the world to which I was preparing to introduce my son. 
Please protect his future. Please hear the plea of a woman who, despite 
the worries, has enough hope in our future to bring a son into it.
            Sincerely,
                                                    Gwyn Ridenhour.
                                 ______
                                 
                  Association of California Water Agencies,
                                  Sacramento, CA, January 16, 2001.
Hon. Frank Murkowski,
Ranking Member, U.S. Senate Energy and Natural Resources Committee, 
        Dirksen Senate Office Building, Washington, DC.
    Dear Senator Murkowski: On behalf of the Association of California 
Water Agencies (ACWA) and its members, I am writing to strongly support 
the nomination of the Honorable Gale A. Norton to be the next Secretary 
of the United States Department of the Interior.
    We believe Ms. Norton's extensive experience in a broad array of 
western water and resource issues uniquely qualifies her to be the 
Secretary of the Interior. She has shown herself to be not only 
knowledgeable about the law and good public policy, but has proven to 
be receptive to all points of view and fair minded in her approach.
    We believe she is the kind of individual who can work with a wide 
variety of interests to fashion policies that will address the water 
and other resource issues in California and throughout the West. We 
pledge to work with her, the rest of the Bush administration and 
Congress should she be confirmed.
    We urge the committee to give its unanimous endorsement of Ms. 
Norton as the next Secretary of the Interior.
            Sincerely,
                                           Stephen K. Hall,
                                                Executive Director.
                                 ______
                                 
                                      Parker, CO, January 16, 2001.
Hon. Frank Murkowski,
U.S. Senate, Washington, DC.
    Dear Mr. Murkowski: I am writing you to support the nomination of 
Gale Norton for Secretary of the Interior, Ms. Norton served eight 
years as Colorado's Attorney General and three years as an Associate 
solicitor within the Department of the Interior.
    Ms. Norton has shown her expertise as a legal advocate regarding 
environmental matters in this state.
    As the exploration manager for a mining company, I understand the 
need for even-handed environmental activism in this country. I believe 
Ms. Norton can establish the working bipartisan consensus needed to 
effectively enforce the laws that rule public land use.
            Yours truly,
                                                   Warren R. Bates.
                                 ______
                                 
                           The Colorado Mining Association,
                                      Denver, CO, January 16, 2001.
Hon. Frank Murkowski,
U.S. Senate, Washington, DC.
    Dear Senator Murkowski: On behalf of the Colorado Mining 
Association (CMA) and its more than 600 members, I am writing to 
support the nomination of Gale Norton for Secretary of the Interior. 
Ms. Norton served eight years as Colorado's Attorney General and three 
years as an Associate Solicitor within the Department of the Interior. 
Given her extensive experience with land use and environmental issues, 
it is clear that Ms. Norton is one of the most highly qualified 
candidates for the Interior Secretary position in the entire history of 
the Department.
    The CMA is an industry organization, founded in 1876 and 
incorporated in 1897, whose more than 600 members include individuals 
and organizations engaged in the exploration, development and 
production coal, metals, agricultural and industrial minerals 
throughout Colorado and the west. Our members also include individuals 
and organizations who provide services and supplies to the industry, as 
well as state, local, and federal governmental officials interested in 
mining.
    During her tenure as Colorado's Attorney General, Ms. Norton was an 
effective legal advocate for environmental interests and was dedicated 
to the enforcement of the state's environmental laws. She was 
particularly effective in implementing and enforcing laws related to 
the cleanup of hazardous waste sites. She possesses a broad 
understanding of the workings of government and is able to build the 
bipartisan consensus needed to administer and enforce the laws that 
govern the nation's public lands.
    I urge you to vote for her confirmation as Secretary of the 
Interior.
            Sincerely,
                                       Stuart A. Sanderson,
                                                         President.
                                 ______
                                 
                                  Viejas Tribal Government,
                                      Alpine, CA, January 16, 2001.
Hon. Frank Murkowski,
Chairman, Senate Committee on Energy and Natural Resources, Dirksen 
        Senate Office Building, Washington, DC.
    Dear Senator Murkowski: As Chairman of the Viejas Band of Kumeyaay 
Indians, I would like to take this opportunity to commend President-
elect Bush on his selection of Gale A. Norton to be Secretary of the 
Interior. As you and your fellow Senators commence your 
constitutionally mandated ``advise and consent'' function, I am writing 
to advise you of the Viejas Tribe's support for her nomination.
    We recognize that tribal issues will be front-and-center in the 
107th Congress and for the foreseeable future. Issues such as water 
rights, education, health care, and of course, gaming will certainly be 
discussed. We have confidence that, given her background and 
experience, Secretary-designate Norton is well suited to address these 
issues, and balance the competing interests they present.
    As attorney general of Colorado, Ms. Norton earned a reputation as 
being a fair arbiter of disputes involving tribal governments, and a 
zealous advocate for tribes on issues ranging from water rights to the 
National Tobacco Settlement (``NTS'').
    The latter issue is of utmost interest to us, as her actions 
provided a window on her views of tribal self-governance. As a leader 
for the National Association of Attorneys General, Norton faced the 
question of how settlement moneys should be paid out to tribal 
governments. Some advocated for turning these funds over to federal 
bureaucrats, so that they could be parceled out on an as-needed basis. 
To her credit, then General Norton opposed that idea based on the 
concept of tribal sovereignty. She recognized that NTS funds would be 
paid to states in lump sum for them to use in their discretion, and she 
advocated that tribal governments be treated the same way. In essence, 
she viewed tribes and states as co-equal sovereigns.
    In addition, Ms. Norton had the sensitivity to recognize that 
religious uses of tobacco by tribal members should receive special 
consideration outside the scope of new tobacco regulation or 
legislation.
    It is rare that friends will agree with each other one hundred 
percent of the time, and we have no expectations that she would be any 
different. We recognize that Ms. Norton has not always sided with 
tribal governments in the past, and that she may not always side with 
tribal governments in the future. Thus, we reserve the ``right to 
petition the government to redress our grievances,'' even if she 
chooses to oppose some of our positions.
    However, on the broader issue of tribal sovereignty and self-
governance, Ms. Norton appears to share our views. Thus, based on her 
past positions and comments, the Viejas Band of Kumeyaay Indians can 
offer its full endorsement of her candidacy to become the next 
Secretary of the Interior.
            Very truly yours,
                                           Steven F. TeSam,
                         Chairman, Viejas Band of Kumeyaay Indians.
                                 ______
                                 
                                           State of Nevada,
                                                  January 16, 2001.
Hon. Frank Murkowski,
Chair, Energy & Natural Resources Committee, Hart Senate Office 
        Building, Washington, DC.
    Dear Mr. Chairman: I would like to apprise the Committee of my 
professional experience with Secretary-Designate Gale Norton. I served 
as Deputy Director and Interim Director of the U.S. Fish and Wildlife 
Service from 1986 to 1989.
    During these years, Ms. Norton was assigned as Associate Solicitor 
for my agency and we dealt with some of the most contentious issues of 
the time. As a careerist, I can attest that Gale gave professional 
counsel of the highest caliber. She never interjected partisanship or 
evidence of a political agenda. Indeed, while others in the Department 
may have suggested otherwise, she repeatedly interpreted the law, gave 
solid advice and defended those of us making the final decisions.
    One specific action seems most exemplary of Gale's integrity. The 
potential listing under the Endangered Species Act for the Desert 
Tortoise was one of the most controversial facing the newly installed 
Bush Administration in 1989. Secretary Lujan was new to the agency and 
the provisions of the Act. As Interim Director for the Fish and 
Wildlife Service, I had to decide a listing that would have great 
impact on my home State of Nevada, as well as other states. Gale Norton 
was there to provide even-handed legal advice, tempered with common 
sense personal advice. Essentially, Gale said, ``do what's right under 
the law''. We did; the tortoise was listed; the species has improved; 
growth has been accommodated and Nevada is the fastest growing state in 
the nation.
    For me, it is ludicrous to hear of this judicious, moderate woman 
described as extreme or radical. The Interior Department I served for 
17 years will gain a leader with thorough knowledge of the agency, 
personal integrity and the ability to administer a large, diverse 
bureaucracy. I urge to favorably consider Gale Norton for confirmation.
            Sincerely,
                                            Steve Robinson,
                                         State Forester-Firewarden.
                                 ______
                                 
                     National Cattlemen's Beef Association,
                                  Washington, DC, January 16, 2001.
Hon. Frank Murkowski,
Chairman, Senate Energy and Natural Resources Committee, Dirksen Office 
        Building, Washington, DC.

Re: Support for Confirmation of Gale Norton as Secretary of the 
Interior

    Dear Chairman Murkowski: The National Cattlemen's Beef Association 
strongly supports the nomination of Gale Norton to be the next 
Secretary of the Interior. Ms. Norton is an excellent candidate with a 
solid track record of working with diverse interests to find workable 
solutions to complex natural resource management issues. She believes 
that conservation and multiple use can be cooperatively employed to 
bring sustainability back to federal land management without 
sacrificing environmental protection or the loss of viable economic 
resource development.
    Gale Norton is an advocate of state supremacy and private property 
rights. She has strong beliefs on how capitalism and other economic 
considerations can be used to enhance compliance with existing 
environmental regulations. As the Attorney General for the State of 
Colorado, she has proven herself to be a strong supporter of 
environmental protection by addressing numerous issues related to 
industrial polluters. She has worked effectively in partnerships with 
other states and many other organizations to develop solutions to 
complex legal and environmental issues. Ms. Norton has consistently 
worked to ensure that all interests have a voice in the development of 
management plans or other decisions.
    Gale Norton is extremely well qualified to be the next Secretary of 
the Interior. She will bring creativity and diverse legal experience to 
the Department. Her leadership will enhance the work of the 
professional staff at the agency, and be a great influence in 
developing new ways to apply the principles of multiple use, 
conservation, and sustainability. Gale Norton is a natural leader. She 
has a strong desire to achieve consensus results. She will ensure the 
department holds an open invitation to many different interests to sit 
at the table. Ms. Norton will be a positive influence on the 
development of new public policies at the Department of the Interior, 
and many people will benefit from her tenure as Secretary.
    Please join us in supporting Gale Norton's confirmation as the next 
Secretary of the Interior.
            Sincerely,
                                               George Hall,
                                                         President.
                                 ______
                                 
                     Northern California Water Association,
                                                  January 16, 2001.
Hon. Frank Murkowski,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate, 
        Hart Senate Office Building, Washington, DC.
    Dear Senator Murkowski: I am writing today to convey the Northern 
California Water Agencies' (NCWA) support for the nomination of Gale 
Norton to the position of Secretary of the United States Department of 
the Interior.
    NCWA represents 70 water suppliers and individual farmers who 
collectively irrigate over 850,000 acres of fertile Northern California 
farmland. Several of our members also deliver water to state and 
federal wildlife refuges and a large portion of this land serves as 
important seasonal wetlands for migrating waterfowl, shorebirds and 
other wildlife.
    Ms. Norton has an extensive background in resource management, 
including a prior appointment in the Interior Department. During this 
service, Ms. Norton has shown a strong desire to foster partnerships 
between the federal and state governments and local interests. We 
believe that these local partnerships are the key to successful water 
management in California.
    Once again, I would like to express NCWA's support for Ms. Norton's 
nomination.
            Sincerely,
                                              David J. Guy,
                                                Executive Director.
                                 ______
                                 
                        San Manuel Band of Mission Indians,
                                    Highland, CA, January 16, 2001.
Hon. Frank Murkowski,
Chairman, Senate Committee on Energy and Natural Resources, Dirksen 
        Senate Office Building, Washington, DC.
    Dear Senator Murkowski: I am writing, on behalf of the San Manuel 
Band of Mission Indians, to express our support for the nomination of 
Gale A. Norton to become Secretary of the Interior. We commend 
President-elect Bush on his selection of a candidate who has shown an 
appreciation for the constitutional government-to-government 
relationship between Indian nations and the United States.
    As you are very aware, the issues affecting our Indian nations have 
no easy solutions. Issues such as water rights, education, health care, 
and of course, gaming will certainly continue to be hot topics of 
discussion during the 107th Congress. Based on her background and 
experience we believe that Secretary-designate Norton will seek 
creative, practical solutions to these issues, while balancing those 
legitimate interests potentially affected.
    As Attorney General of Colorado, Ms. Norton dealt with several such 
issues involving tribal governments, including water rights and gaming 
compacts, and earned a reputation as a fair negotiator. However, it is 
Ms. Norton's actions during the National Tobacco Settlement, which 
indicate that she respects the sovereign status of Indian tribes. As a 
leader of the National Association of Attorneys General on this issue, 
Ms. Norton faced the question of how to distribute the settlement funds 
to tribal governments. While some advocated distributing these funds to 
federal agencies to be dispensed to tribes as needed, Ms. Norton 
opposed that idea based on tribal sovereignty. She advocated that 
tribal governments be treated in the same manner as states, which would 
be receiving settlement funds in a lump sum to be used in their 
discretion.
    Additionally, we appreciate Ms. Norton's recognition of the 
traditional uses of tobacco in ceremonies by tribal members, and her 
advocacy of special consideration for such uses outside the scope of 
new tobacco regulation or legislation.
    While we applaud Ms. Norton's efforts, we recognize that she has 
not always agreed with the views of tribal governments and that she may 
not agree with our views in the future. However, we have confidence 
that those disagreements will be handled through open, constructive 
dialogue in a manner befitting our government-to-government 
relationship. Based on her past comments and actions, Ms. Norton 
appears to share our position on tribal sovereignty and self-
governance, while also having respect for the culture and traditions of 
our people. Therefore, the San Manuel Band of Mission Indians offers 
its full endorsement of her nomination to become the next Secretary of 
the Interior.
            Very truly yours,
                                             Deron Marquez,
                                                   Tribal Chairman.
                                 ______
                                 
                                  Kern County Water Agency,
                                 Bakersfield, CA, January 17, 2001.
Hon. Frank Murkowski,
Ranking Member, U.S. Senate Energy and Natural Resources Committee, 
        Dirksen Senate Office Building, Washington, DC.

Re: Support for Secretary of the Interior Nominee Gale Norton

    Dear Senator Murkowski: We are writing to express our strong 
support for the confirmation of Ms. Gale Norton as Secretary of the 
Interior. Our agency is a local governmental entity in the State of 
California which has experience with successful cooperative efforts of 
the federal government with state and local governments.
    Through our nationwide contacts with other state and local 
governments involved in water supply, we know of the open and fair-
minded approach to policy that Ms. Norton brings. Creative solutions 
are needed to provide for the water and power needs of Americans in an 
environmentally sound way. We believe Ms. Norton has the experience and 
intellect to forge such solutions to our most pressing problems.
    President-elect Bush has made an outstanding selection for Interior 
Secretary by presenting Ms. Norton. We urge the Committee to give its 
unanimous and expeditious endorsement of Ms. Norton as the next 
Secretary of the Interior.
            Very truly yours,
                                           Thomas N. Clark,
                                                   General Manager.
                                 ______
                                 
                      Commonwealth of Pennsylvania,
                                Office of Attorney General,
                                  Harrisburg, PA, January 17, 2001.
Hon. Rick Santorum,
U.S. Senate, Russell Building, Washington, DC.

Re: Gale Norton

    Dear Senator Santorum: I am writing to you at this time to 
enthusiastically endorse Gale Norton who has been nominated to serve as 
Secretary of the Interior.
    Gale served as the Attorney General of Colorado from 1990 until 
1998. Gale and I worked on a number of projects together; most 
significantly, we were part of the Multi-State Tobacco Negotiating 
Team. During those negotiations, I had the chance to work with Gale for 
a period of close to five months, and I learned to admire her energy, 
her commitment and most of all her ability as a very able attorney. In 
addition, I also learned what a fine person Gale Norton is.
    Gale worked for more than 20 years in a balanced way on 
environmental and federal land issues, including during her eight years 
as Colorado Attorney General. She played a key role in at least a dozen 
environmental clean-up projects, including leading efforts to ensure 
that the federal government cleaned its hazardous waste at the Rocky 
Mountain Arsenal. She served as Associate Solicitor of the U.S. 
Department of the Interior and as chair of the Environmental Committee 
of NAAG.
    I believe Gale Norton is an outstanding person whose experience, 
qualifications and intellect will enable her to do an outstanding job 
as the Secretary of the Interior. Thank you for your consideration and 
support of Gale Norton's nomination.
            Very truly yours,
                                         D. Michael Fisher,
                                                  Attorney General.
                                 ______
                                 
                             Congress of the United States,
                                  Washington, DC, January 17, 2001.
Hon. Frank Murkowski,
Chairman, Committee on Energy and Natural Resources, Dirksen Building, 
        Washington, DC.
    Dear Chairman Murkowski: In the coming days the Committee on Energy 
and Natural Resources will be holding a confirmation hearing on the 
nomination of Gale Norton for the position of Secretary of the Interior 
in the Bush Administration.
    We are asking that when Ms. Norton testifies before your committee 
you include questions about her responsibilities with respect to the 
Bureau of Indian Affairs (BIA).
    Specifically, we hope you ensure the Secretary-designate 
understands the BIA is an increasingly important area of her 
jurisdiction, as well as the effects federal recognition has on both 
tribes and their surrounding communities.
    Recently, concerns have been raised by state and local officials 
across the country about the manner in which the BIA is granting 
recognition. In addition, the rapid growth in casino-style gaming on 
Indian reservations has led to a surge in campaign contributions and 
the potential that non-native groups will be erroneously recognized.
    We believe federal recognition should adhere to the existing, well-
established criteria and the process should be fair, open and free from 
political pressure. This transparency is especially important in the 
era of Indian gaming.
    Our nation has a responsibility to uphold certain unbreakable 
obligations to the continent's native peoples, and groups meeting the 
established and objective criteria should receive federal recognition 
and its attendant benefits. However, because granting federal 
recognition means creating sovereign nations and because federally-
recognized tribes are eligible to automatically receive benefits and, 
in many instances, are permitted to establish gaming operations, 
acknowledgment should follow a well-defined, non-political process.
    We hope you share our concerns and appreciate your attention to 
this matter.
            Sincerely,
                    Christopher Shays, Member of Congress; Frank Wolf, 
                            Member of Congress; Rob Simmons, Member of 
                            Congress; Rosa DeLauro, Member of Congress; 
                            James Maloney, Member of Congress.
                                 ______
                                 
                             American Recreation Coalition,
                                  Washington, DC, January 17, 2001.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: The American Recreation Coalition is pleased to 
submit its views on the confirmation of Gale Norton to serve as 
Secretary of the Interior. We ask that our views be included in the 
record of the hearings on this nomination and shared with members of 
the Committee on Energy and Natural Resources.
    Like many on your own committee, we reserve final judgment on Ms. 
Norton's confirmation until we are able to observe the results of the 
hearing scheduled for tomorrow. However, we are strongly inclined to 
support this nomination for several reasons.
    First, Ms. Norton has an excellent grasp of the issues facing the 
Department of the Interior from her previous work at the department and 
from her work as Colorado's Attorney General. The post of Secretary of 
the Interior is one of the most important federal posts for the 
recreation community and we believe that having an individual with 
issue awareness in that position is vital to moving promptly on key 
issues, ranging from addressing large capital investment needs for 
visitor services and resource protection to water management.
    Second, Ms. Norton has shown a clear passion for outdoor 
recreation, a passion which links her with tens of millions of 
Americans who understand the physical, mental and spiritual benefits of 
outdoor recreation. Federally-managed lands provide nearly two billion 
recreation experiences annually and are vital to meeting national needs 
for recreation opportunities. We believe that her personal views on the 
importance of recreation to improving the health of individuals, 
families and communities will be reflected in her policy decisions.
    Third, we note that Ms. Norton was part of the elected leadership 
of Colorado, a state with high recreation/public lands and waters 
connections, during an era of important recreation and conservation 
gains. During her tenure as Attorney General, the state approved and 
implemented Great Outdoors Colorado, an effort which dramatically 
boosted efforts to preserve open spaces in and near urban portions of 
the state. Moreover, the state embarked on efforts to strengthen 
cooperation with the U.S. Army Corps of Engineers and the Bureau of 
Reclamation to supply residents with water-linked recreation, ranging 
from swimming, fishing and boating at reservoirs near Denver to 
whitewater sports on rivers throughout the state. Recreation community 
leaders in the state regard Ms. Norton as a contributor to this 
progress, as one open to new ideas and diverse views and as a strong 
advocate for problem-solving through consensus. We further note that 
she worked closely with leaders of both parties within the state, a 
pattern we strongly support at the national level.
    We are interested in a better understanding of Ms. Norton's 
commitment to campaign commitments by President-elect Bush on meeting 
the funding needs of our parks and other federal recreation sites and 
on pursuing full funding for the Land and Water Conservation Fund. That 
fund has long been a valuable tool in protecting the Great Outdoors. 
However, the lack of funding for the Fund's state side has jeopardized 
open space protection and recreation facility development near 
America's population centers. We are delighted by Mr. Bush's support 
and look forward to Ms. Norton's elaboration on Administration plans 
and encourage you to pursue these topics at tomorrow's hearing. We also 
urge you to secure Ms. Norton's support for addressing funding needs 
for other federal land management agencies, including the Bureau of 
Land Management, the Fish and Wildlife Service and the Bureau of 
Reclamation.
    We thank you for considering our views and for timely action on 
this nomination.
            Sincerely,
                                       Derrick A. Crandall,
                                                         President.
                                 ______
                                 
                   Texas Sheep & Goat Raisers' Association,
                                  San Angelo, TX, January 17, 2001.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: On behalf of the 2,000+ members of the Texas 
Sheep & Goat Raisers' Association, I want to express our support for 
Gale Norton for the position of Interior Secretary. Mrs. Norton is 
extremely well-qualified for this job and is highly regarded by 
livestock producers and small landowners for standing tall on private 
property rights issues.
    Those who make their living from the land understand what it takes 
to be a good steward. Gale Norton understands that, too. She is a 
strong supporter of state's rights, property rights and local control. 
In addition to serving as Associate Solicitor for the Department of the 
Interior from 1985-87, she was the first woman ever elected as Attorney 
General for the state of Colorado. Her work with the Mountain State 
Legal Foundation was admirable.
    We feel Gale Norton would be an great asset to the Bush 
Administration and are pleased that President-Elect Bush saw fit to 
nominate her for this important job. We urge that you give her every 
possible consideration, as we feel she knows how to get things done and 
would do an excellent job if approved.
            Sincerely,
                                           Sandra Whittley,
                                               Executive Secretary.
                                 ______
                                 
                  Republican Attorneys General Association,
                                  Washington, DC, January 18, 2001.

Senate Energy and Natural Resources Committee, Senate Dirksen Office 
        Building, Washington, DC.
    Dear Senate Energy and Natural Resources Committee Members: On 
behalf of the Republican Attorneys General Association, we recommend 
the approval of Attorney General Gale Norton's nomination to be the 
Secretary of the Interior.
    General Norton has worked for more than 20 years in a balanced way 
on environmental and federal land issues. She has played key roles in 
at least a dozen environmental clean-up projects, including leading 
efforts to ensure that the federal government cleaned up its hazardous 
wastes at the Rocky Mountain Arsenal. She has served as the Associate 
Solicitor of the U.S. Department of the Interior and as Chair of the 
Environmental Committee for the National Association of Attorneys 
General.
    General Norton has earned high praise from all quarters for her 
work. She has the experience, qualifications and intellect to be an 
outstanding Secretary of the Interior. These reasons are the 
determining factors in the RAGA supporting her nomination.
            Sincerely,
                                                Jane Brady,
                               Chair, Attorney General of Delaware.
                                 ______
                                 
       Colorado Campground and Lodging Owners' Association,
                                      Denver, CO, January 18, 2001.
Hon. Jeff Bingaman,
Committee on Energy and Natural Resources, U.S. Senate, Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senator Bingaman: The Colorado Campground and Lodging Owners' 
Association represents campground and lodging owners in the state of 
Colorado. Our members are primarily small, family-owned businesses 
located throughout the state.
    Tourism plays a major role in the Colorado economy. It totals 8% of 
all jobs. In 1997, tourism accounted for between 12-15% of basic jobs, 
bringing outside dollars into the state. Tourism is second only to 
manufacturing in the number of basic jobs in Colorado.
    Because tourism in Colorado relies on use of public land and 
private enterprises, it is vital that the person serving as Secretary 
of the Interior understand that the public lands in Colorado must be 
managed in a way that is compatible with the private tourism industry. 
Both public and private sectors must be able to work together.
    Our organization urges support for Gale Norton for Secretary of the 
Interior. We believe she will be a leader in establishing guidelines 
for mixed-use of public lands that will protect this important 
environmental resource while ensuring the health of the tourism 
industry in our state. Additionally, her knowledge of the state 
enhances her understanding of the issues and makes her appointment even 
more important for the Colorado tourism industry.
            Thank you,
                                               Sally Harms,
                                                Executive Director.
                                 ______
                                 
        Metropolitan Water District of Southern California,
                                 Los Angeles, CA, January 18, 2001.
Hon. Frank Murkowski,
Ranking Member, U.S. Senate Energy and Natural Resources Committee, 
        Dirksen Senate Office Building, Washington, DC.

Re: Support for Ms. Gale Norton as Secretary of the Interior

    Dear Senator Murkowski: I am writing this letter to express the 
support of the Metropolitan Water District of Southern California 
(Metropolitan) for Ms. Gale Norton as Secretary of the Interior. 
Metropolitan provides supplemental water supplies to 17 million 
citizens in Southern California. Metropolitan has enjoyed a long-
standing positive relationship with the Department of the Interior in 
the development of balanced policies that benefit both the economy and 
the environment of California and the western states. We believe that 
Ms. Norton will continue in that tradition, promoting the recovery of 
the nation's environment and protecting and enhancing the economies of 
the western states.
    Metropolitan urges the Senate to approve the appointment of Ms. 
Gale Norton as the next Secretary of the Interior.
            Very truly yours,
                                        Ronald R. Gastelum,
                                                   General Manager.
                                 ______
                                 
                              Society for Range Management,
                                    Lakewood, CO, January 18, 2001.
Hon. Frank Murkowski,
U.S. Senate, Hart Senate Office Building, Washington, DC.
    Dear Senator Murkowski: I am writing to express my support for the 
nomination of Gale Norton for Secretary of the Department of the 
Interior.
    While I am not personally acquainted with Ms. Norton, I have spent 
considerable time learning of her background and performance both in 
government service and in the private sector. Her record represents one 
of balance and care in collecting and examining background information 
critical to decision making. She has demonstrated sensitivity to both 
environmental and human needs, realizing that with application of sound 
science, much can be achieved to deliver resources without sacrificing 
environmental values.
    Over the past 34 years, I have personally consulted on behalf of 
units of government, environmental organizations, industry, and private 
sector clients regarding public lands resources throughout the west. 
The demands for multiple values increase exponentially as populations 
grow and discover the public lands. Delivery of multiple values can 
only occur under the charge of a competent and skilled administrator.
    Gale Norton is eminently qualified for Secretary of the U.S. 
Department of the Interior. She brings a broad base of experience in 
most of the natural resources managed by the Department, and in many of 
the more controversial issues confronting the Department.
    She has accumulated her breadth and depth of experience by virtue 
of her work experience as a Senior Attorney for the Mountain States 
Legal Foundation, as Assistant Solicitor of the Department, as 
Assistant to the Deputy Secretary of Agriculture, two terms as Colorado 
Attorney General, and most recently as Senior Counsel at the Colorado 
Law Firm, Brownstein, Hyatt & Farber, P.C.
    One of the more pressing issues facing our nation and the 
Department is energy as highlighted by the current California 
electrical energy crisis. The Department is urgently in need of bold 
and innovative policies to encourage creative development of 
alternative energy sources which utilize public resources in an 
environmentally safe and sustainable manner. Two examples that come to 
mind are biomass from public lands vegetation such as pinion-juniper, 
and wind. Gale is well equipped to lead the Department into this new 
era to encourage creative developmental activities in an 
environmentally sensitive manner.
    This is but one example of how the experience and values Gale would 
bring to the Department make her ideally suited for the post. I urge 
your thoughtful examination of her credentials. After you have the 
benefit of the dialogue generated in her nomination hearing, I hope you 
will support her nomination.
    Thank you for your attention to this matter so vital to the 
nation's natural resources.
            Sincerely,
                                            John L. McLain,
                                                         President.
                                 ______
                                 
                              Office of the Governor, Guam,
                                                  January 18, 2001.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, Dirksen 
        Senate Office Building, Washington, DC.
    Dear Mr. Chairman: I am writing in support of the nomination of the 
Honorable Gale Norton as Secretary of the Interior. The people of Guam 
look forward to Ms. Norton's leadership of the executive department 
that has direct responsibility for insular affairs. I am confident that 
as Secretary of the Interior, Ms. Norton will continue progress on the 
issues of great importance to Guam and that she will be instrumental in 
resolving the land issues that have been at the forefront of the Guam-
United States relationship in the past few years.
    Ms. Norton has substantial experience in the Department of the 
Interior, having previously served in the Solicitor's Office. We 
believe that she has the necessary familiarity with territorial issues 
to be an effective Secretary and that she brings a broad understanding 
of the unique federal land issues on Guam to her office.
    Guam has had a contentious relationship with the Department of the 
Interior in large measure due to the Fish and Wildlife Service's 
acquisition of 370 acres of excess military lands in 1993 for a 
wildlife refuge. The 370 acres at Ritidian have become the focal point 
for Guam's dissatisfaction with federal land policy on our island. Due 
to the historical context of the military's acquisition of over one-
third of Guam's lands after World War II for national security 
purposes, the Interior action has been harmful to the good relationship 
between the people of Guam and the United States. We hold the federal 
government to its commitment that military lands no longer needed for 
defense purposes should be returned to the people of Guam.
    In an effort to resolve these issues, I have been engaged in 
discussions for the past year with the previous Secretary and his staff 
on possible solutions that would enhance the level of environmental 
protection on Guam while addressing the issue of Interior's acquisition 
of Ritidian. I was willing to make the necessary compromises that would 
restore the good relationship between the U.S. and Guam and that would 
meet the needs of the Interior Department and the Government of Guam. 
Regretfully, the Fish and Wildlife Service was not.
    We believe that Ms. Norton will restore a balance to federal land 
policy on Guam that has been missing since 1993. There is now an 
imbalance where the bureaucrats at the Fish and Wildlife Service make 
policy without adequate regard for local concerns. Environmental policy 
should not be a zero sum game where the Fish and Wildlife Service wins 
and the people of Guam lose. Environmental policy should be 
collaborative process with respect for, and accommodation of, local 
needs. On Guam, the respect we seek would recognize the patriotism of 
the people of Guam and our support for the national security interest, 
even when the national interest requires the use of one-third of our 
island for military bases. And the accommodation we seek would balance 
environmental policy with the federal commitment to return excess 
military lands to our people. We believe that Ms. Norton appreciates 
our history and our culture, and that she will be fair in dealing with 
us on these land issues.
    We are also encouraged by Ms. Norton's commitment to the devolution 
of federal power where local governments are more appropriate to 
formulating public policy in response to local needs. This is a bedrock 
principle of self-government that Guam supports and encourages. We are 
confident that Ms. Norton will appoint policy makers and senior staff 
at the Department of the Interior that will reflect this view. Any 
increase in local self-governance in the territories is welcome and 
long overdue. We find Ms. Norton's views on limiting the role of the 
federal government in our lives both refreshing and promising for the 
resolution of the Guam's political status issues.
    Thank you for considering my support of Ms. Gale Norton as 
Secretary of the Interior. I hope that the Senate Committee on Energy 
and Natural Resources votes to recommend Ms. Norton to the full Senate 
and that she is confirmed quickly. We look forward to her new 
leadership and her initiatives for the territories.
            Sincerely,
                                       Carl T.C. Gutierrez,
                                                          Governor.
                                 ______
                                 
                           California Teachers Association,
                                  Burlingame, CA, January 19, 2001.
Hon. Frank Murkowski,
Hart Senate Office Building, Washington, DC.
    Dear Senator Murkowski: I am writing to urge you to vote not to 
confirm Gale Norton as interior secretary in the George W. Bush 
Administration. The Board of Directors of the 300,000-member California 
Teachers Association voted to oppose the confirmation of Ms. Norton at 
its January 17 meeting.
    We believe that every student and teacher deserve a school that is 
safe and healthy. Ms. Norton's record of working for and pandering to 
``big polluters'' puts the health of our children at risk. Ms. Norton 
is currently a registered lobbyist for a Texas company that is 
responsible for dozens of cases concerning children's exposure to lead 
paint. As Colorado's Attorney General, Ms. Norton advocated that 
businesses may in fact have a ``right to pollute.'' This is in direct 
conflict to the agency she is being asked to lead.
    In addition, as Attorney General Ms. Norton went out of her way to 
stop programs that provided college scholarships to ethnic students to 
promote diversity on state university campuses. She also refused to 
defend Colorado's law to increase diversity in state construction 
projects. We believe that all children deserve the right to learn and 
that our schools and communities are made stronger by embracing our 
diversity. In both these instances Ms. Norton put her personal beliefs 
before the laws of Colorado. How can we assume she will act differently 
as U.S. Interior Secretary?
    As educators we teach children the importance of protecting and 
preserving our national resources and national parks. This is a lesson 
Ms. Norton apparently needs to repeat. Her extreme views are out of 
touch with American voters. We do not believe the best interests of our 
children and future generations will be served by the confirmation of 
Ms. Norton as interior secretary.
            Sincerely,
                                             Wayne Johnson,
                                                         President.
                                 ______
                                 
                     United South and Eastern Tribes, Inc.,
                                   Nashville, TN, January 19, 2001.
Hon. Frank Murkowski,
Chairman, Senate Committee on Energy and Natural Resources, Dirksen 
        Senate Office Building, Washington, DC.
    Dear Chairman Murkowski: As President of the United South and 
Eastern Tribes, I am writing to express support for Gate Norton to be 
the next Secretary of the Interior. USET is an organization made up of 
24 Federally recognized tribes that extend from the State of Maine to 
the tip of Florida and over to Texas.
    In my role as President of USET, I have not had first hand 
experience with Secretary-designate Norton, however, I am encouraged 
that she has worked with Indian nations on a government-to-government 
basis during her tenure as the Attorney General of the State of 
Colorado. As attorney general, Ms. Norton repeatedly demonstrated 
respect for tribal sovereignty. For example, in the wake of Colorado's 
settlement with the tobacco industry, Ms. Norton worked to ensure that 
the tribal share of the proceeds went directly to tribal governments 
rather than be administered through state agencies.
    As Secretary of the Interior, Ms. Norton would preside over the 
Bureau of Indian Affairs and help set the agenda for issues that are of 
vital importance to Native Americans. These issues, which include 
health care, education, sovereignty, economic development, gaming, and 
taxation, have been increasingly the subjects of debate in Congress. 
Consequently, we believe that it is imperative that the next Secretary 
of the Interior respect the role of tribal sovereignty, affirm a 
government-to-government relationship between the federal government 
and Indian nations, and provide the tools tribes need to further the 
goal of tribal self-advancement and economic self-sufficiency.
    Because of Ms. Norton's background and record on issues relating to 
Native Americans, I offer my endorsement of her nomination to become 
the next Secretary of the Interior.
            Sincerely,
                                             Keller George,
                                                         President.
                                 ______
                                 
                                   Brookline, MA, January 20, 2001.
Hon. Frank Murkowski,
Senate Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Murkowski: I am writing to ask you to oppose the 
appointment of Gale A. Norton as Secretary of the United States 
Department of the Interior.
    While I realize that you are a supporter of opening up the Arctic 
National Wildlife Refuge to oil drilling and are therefore unlikely to 
oppose this appointment, I would appreciate your consideration of some 
of the other factors that concern me and millions of other ordinary men 
and women across the country about this appointee.
    I strongly believe that the role of the Department of the Interior 
is to be the steward of our natural resources. In a world where we are 
actually bumping up against the physical limitations of our natural 
environment, there can be no greater task than managing our resources 
so that they are there for the generations that will follow us.
    Competent stewardship of natural resources has always been a 
challenge facing human civilizations. Nonetheless, the most successful 
societies, the ones that manage to last longer than a few hundred 
years, are those that have learned to adapt their lifestyles to these 
limits. In the United States, our history of ample open space, and the 
priority we place on individual rights, presents a unique challenge to 
our ability to plan for the long term and act in the interests of the 
whole nation rather than just a few individuals.
    I am deeply concerned that Gale Norton's record and belief system 
will not enable her to be a true steward of our shared resources. I am 
not just talking about our national parks, but about the air and water 
that flow across the land and are used and needed by everybody. Please 
look beyond this generation's interests and realize that while another 
oil boom may be good for the wallets of the residents of Alaska and the 
owners of the oil companies, continuing to rely on fossil fuels will 
negatively impact our children and grandchildren in ways that we can 
barely imagine.
    Allowing companies to monitor themselves when it comes to pollution 
simply does not work. Slackening air pollution standards on trucks and 
diesel vehicles is the wrong direction to be moving in at this point in 
our history. The ozone hole is real and is already causing great 
destruction. Global warming is real and is caused by human activity, 
and the asthma attacks that I suffer when a truck driver thoughtlessly 
leaves his truck idling as I walk down the street is very real. The 
economic costs of ignoring these issues or addressing them with less 
than 100% of our American ingenuity will far outstrip the costs to 
business of becoming true partners in the stewardship of our natural 
resources.
    Finally, please remember that environmental issues are ones that a 
key voting bloc, mothers, care about very deeply. Political leader have 
underestimated the strength and passion of the ``soccer mom'' vote 
before. The next true leader in our country will be the one who 
realizes that Americans want to be asked by their leadership to join in 
and sacrifice for the good of our country, even if it means not driving 
an S.U.V.
    Once again, please consider opposing the appointment of Gale Norton 
as Secretary of the Department of the Interior.
            Sincerely,
                                                 Victoria Grafflin.
                                 ______
                                 
                         Rural Public Lands County Council,
                                  Washington, DC, January 22, 2001.
Hon. Frank H. Murkowski,
U.S. Senate, Hart Building, Washington, DC.
    Dear Senator Murkowski: As Chairman of the Rural Public Lands 
County Council, a group of rural counties in Utah and Washington, I am 
writing to urge your support of Gale Norton as Secretary of the 
Interior.
    The RPLCC is most concerned with solving problems on our public 
lands. We believe that we have carried the rhetoric, and the war it has 
created, too far. It is time for some real solutions. This will require 
collaboration and concensus building.
    Gale Norton would be ideal in this setting. She has a proven record 
of dealing sensibly with tough issues. She is a dedicated collaborator. 
She is what the Interior needs at this time.
    We are confident that Gale will bring stability and healing to a 
long embattled department, and we strongly urge you to vote for her 
confirmation.
            Respectfully,
                                          Randy G. Johnson,
                                                          Chairman.
                                 ______
                                 
                           American Farm Bureau Federation,
                                  Park Ridge, IL, January 22, 2001.
Hon. Frank Murkowski,
Chairman, Senate Energy and Natural Resources Committee, Senate Dirksen 
        Building, Washington, DC.
    Dear Mr. Chairman: The American Farm Bureau Federation, the 
nation's largest general agricultural organization, endorses the 
nomination of Gale Norton to be Secretary of the Interior.
    Ms. Norton's experience as a leader looking for a more 
collaborative approach to resource management is a most welcome 
development for our members. Rural communities are often seriously 
affected when conflicts arise over such issues as the Endangered 
Species Act, wildlife protection and management of federal lands. Ms. 
Norton has a proven track record, showing a willingness to listen to 
the concerns of all sides of these issues. We believe this approach 
will do much for rural communities, farmers and ranchers and the 
environment.
    The agriculture community is anxious to be part of the solution to 
environmental problems. Gale Norton could bring that hope closer to 
reality.
            Sincerely,
                                              Bob Stallman,
                                                         President.
                                 ______
                                 
                                    Wasatch County,
                             Board of County Commissioners,
                                  Heber City, UT, January 22, 2001.
Senator Frank Murkowski,
Hart Office Building, Washington, DC.
    Dear Senator Murkowski: We, as the County Commissioners of Wasatch 
County, would like to give our endorsement and support in the 
appointment of Gale Norton as Secretary of the Interior.
    We feel she will do an excellent job and will be a great asset to 
our government.
            Sincerely,
                                   T. LaRen Provost,
                                           Chair.
                                   Ralph L. Duke.
                                   Michael L. Kohler.
                                 ______
                                 
                              Washington County Commission,
                                  St. George, UT, January 22, 2001.
Senator Frank Murkowski,
Hart Senate Office Building, Washington, DC.
    Dear Senator Murkowski: This is to inform you that Washington 
County, Utah, is strongly supportive of Gale Norton to be confirmed as 
Secretary of the Interior. Her past history shows that she is a strong 
consensus builder and a person who is committed to enforcing the law. 
We are also pleased with her commitment to work with local governments 
before formulating policy. We believe that she will be an excellent 
person to direct the protection and proper development of our natural 
resources within this country, as her previous record indicates. She 
has a proven track record on everything from wilderness to water 
negotiation as well as many other complex and tough issues, and has 
been nationally recognized as a leader on environmental and natural 
resource issues.
    For these reasons, we encourage you to support the endorsement of 
Gale Norton for Secretary of the Interior.
            Sincerely,
                                   Gayle M. Aldred.
                                   Alan D. Gardner.
                                   James J. Eardley.
                                 ______
                                 
                                                 Silver Spring, MD.
Senator Frank Murkowski,
Energy and Natural Resources Committee.
    Dear Senator Murkowski: I strongly oppose the confirmation of Gale 
Norton as Interior Secretary.
    Norton's extremely poor environmental record makes it clear that 
she would be the absolute wrong person for the job. She has shown that 
she is unwilling to defend the public's interests against industry 
interests, by advocating a ``right to pollute.'' Beyond the fact that 
she has been pushing for opening the Arctic National Wildlife Refuge 
for drilling, which I also oppose, she was a protege of former Interior 
Secretary James Watt and adheres to his philosophies--this is 
unacceptable.
    In addition, I am personally appalled at the views she expressed in 
her 1996 speech which demonstrated racial insensitivity and a lack of 
compassion for the disenfranchised.
    I urge you to vote against Gale Norton's confirmation.
            Sincerely,
                                   Betsy Tao,
                                           JD Candidate, 2002,
                                           Georgetown Law Center.
                                 ______
                                 
                Georgetown University Law Center, January 14, 2001.

    Dear Senator Murkowski: I strongly oppose President-elect Bush's 
nomination of Gale Norton for Secretary of the Interior. I urge you to 
lead the Committee on Energy and Natural Resources in not confirming 
Ms. Norton. Although my personal views lean away from the general 
conservative thoughts that the Republicans have regarding the 
environment, being an extremist of any type would not satisfy the 
moderate, centrist views which the American populous expressed in the 
election. To confirm Ms. Norton, an extreme anti-environmentalist, 
would be to further disenfranchise millions of Americans who fear that 
their voices will not be heard.
    Allowing polluters to ``regulate themselves'' and supporting 
businesses' right to pollute is not what the Interior Secretary should 
base her leadership on. I find her support of drilling in the Arctic 
National Wildlife Refuge to be in direct conflict with her role as 
Interior Secretary, which should be to ensure that the environment is 
protected in light of ever-pressing big business and consumer energy 
demand. Confirming Ms. Norton as Interior Secretary would be a big step 
to ensuring that the future of our country and the environment is 
sacrificed for short-term solutions and gains. Please vote against Gale 
Norton for Secretary of the Interior.
            Sincerely,
                                   Stephanie Bowers,
                                           Class of 2002.
                                 ______
                                 
                                                   Chapel Hill, NC.

    Dear Senator: Gale Norton is an anti-environmental extremist whose 
record as a lobbyist for polluters, an attorney for loggers and miners, 
and a protege of James Watt makes her unfit to be Secretary of the 
Interior. Gale Norton holds views associated with the far right-wing of 
the ``wise use'' movement, including recognizing, as she put it, ``a 
right to pollute . . .'' Gale Norton also favors allowing polluters to 
regulate themselves, a practice the EPA has criticized.
    In the last two years, Norton has been registered as a lobbyist for 
NL Industries of Houston working on ``lead paint'' issues. And, she has 
worked for a law firm that counts Delta Petroleum Corporation, Timet-
Titanium Metals Corporation, and other mining and petroleum companies 
as clients. As an attorney, Norton sued the EPA to overturn Clean air 
standards.
    Due to her views and her record I strongly opposes the confirmation 
of Gale Norton as Secretary of the Interior.
    Norton has long advocated opening America's wildlands to the oil, 
gas, mining and logging industries. During the Reagan administration, 
Norton served as associate solicitor at the Interior Department, where 
she helped support efforts to drill the pristine Arctic National 
Wildlife Refuge.
    Before working for the Reagan administration, Norton was hired by 
James Watt at the arch-conservative Mountain States Legal Foundation, 
which often represents loggers, miners, ranchers and water developers 
in fights against environmental safeguards. Watt was later ousted as 
President Reagan's Interior Secretary for his extremist agenda.
    Ms. Norton has consistently opposed congressional designation of 
new wilderness areas in Colorado if designation protect the water 
flowing through the wilderness. She would have Congress acknowledge the 
unique rock formations, rich and diverse vegetation, and healthy 
wildlife, then allow developers to drain the water, the very substance 
that makes all those features possible. She opposed Colorado Wilderness 
Act of 1993, and its earlier versions, because it included provisions 
that recognized the need for water in wilderness, even though that 
legal recognition did nothing to diminish any existing or future water 
right.
    These reasons and others too numerous to mention compel me to 
request that oppose the nomination of Gale Norton to the position of 
Secretary of the Interior.

                                                Fredric R. Worrell.
                                 ______
                                 
                                                 San Francisco, CA.
Hon. Frank Murkowski,
Hon. Jeff Bingaman,
Co-Chairs, Senate Energy and Natural Resources Committee, Dirksen 
        Building, Washington, DC.
    Dear Senators: The Department of the Interior (DOI)--encompassing 
agencies such as the National Park Service, the Bureau of Indian 
Affairs, and the Bureau of Land Management--has the unique 
responsibility of safeguarding America's few remaining and most 
precious natural treasures and links to our shared natural and cultural 
history. I strongly believe that those lands and waters, many of which 
are priceless and irreplaceable, require the highest environmental 
protection as mandated by federal statutes. The Department of the 
Interior must be led by someone who recognizes this fact.
    Gale Norton's career history working on land management issues 
illustrates her apparent priorities in the area of natural resource 
management. From this history, it appears that Ms. Norton believes that 
``free market'' schemes can address many of the threats facing our 
public lands. Unfortunately, our nation's history is littered with the 
costly and damaging failures of similar market based land management 
plans. Because I do not wish to see America's land management policies 
hijacked for the short-term profit motives of exploitative industries, 
I do not feel that Ms. Norton is the best-qualified candidate to act as 
head steward of our nation's most valuable resources. Nothing in Ms. 
Norton career history seems to suggest that she values natural 
resources any more than they are worth at market-value.
    Our nation's natural heritage is simply too precious to entrust to 
anyone except a person with the utmost reverence for those resources. 
Sadly, I am not convinced that Ms. Norton will make the protection of 
our natural resources from needless destruction by extractive 
industries as high a priority as necessary. Therefore, I call upon you 
to oppose her nomination for Interior Secretary and lead/support a 
filibuster of her nomination if it reaches the full Senate. Finally, I 
call upon you to urge President Elect Bush to nominate a more suitable 
candidate.
            Sincerely,
                                                   Joseph Robinson.

                                    

      
</pre></body></html>
